<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2004</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2004

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--At the direction of the subcommittee 
chairman, the following statements received by the subcommittee 
are made part of the hearing record on the Fiscal Year 2004 
Energy and Water Development Appropriations Act.]

                      DEPARTMENT OF DEFENSE--CIVIL

                     Department of the Army--Civil

                           Corps of Engineers

 Prepared Statement of Orange County, California and the Orange County 
                         Flood Control District
    Mr. Chairman and Members: On behalf of Orange County, California, 
and the Orange County Flood Control District, I respectfully request 
your support for fiscal year 2004 Federal appropriations to fund the 
following U.S. Army Corps of Engineers projects:
Santa Ana River Mainstem Project (including Prado Dam)--$67,864,000
    We especially urge your support of the $67.8 million for the Santa 
Ana River Mainstem Project. This will allow the Corps to continue 
construction on Prado Dam, which began construction in fiscal year 
2003. Since fiscal year 1990, the Subcommittee on Energy and Water 
Development has consistently provided the funds necessary to maintain 
the planned schedule of construction for the Santa Ana River Mainstem 
Project. As a result, the Seven Oaks Dam was completed in 1999, the 
Lower Santa Ana River is about 90 percent complete, the Oak Street 
Drain is complete, and work has commenced on the San Timoteo feature. 
The urgency to complete all features of the project has been 
highlighted by the flooding that has occurred throughout California 
during the past several years and, in particular, by the damage 
associated with the El Nino condition in 1997 and 1998. As the Corps of 
Engineers has reported on several occasions, destruction from a design 
storm on the Santa Ana River will cause damages exceeding $15 billion 
and the loss of thousands of lives. The Orange County Flood Control 
District requests continued support for the timely implementation of 
the Santa Ana River Mainstem Project, including Prado Dam, by including 
an appropriation of $67.8 million for fiscal year 2004.
Upper Newport Bay (Dredging)--$5,800,000
    The construction dredging and restoration of Upper Newport Bay is 
another high priority project for Orange County. The restoration of 
Upper Newport Bay will ensure the preservation of one of California's 
most precious remaining estuaries along the coast. We urge your support 
for this very important and significant project.
Westminster/East Garden Grove, California--$300,000
    Watershed restoration and flood control feasibility study on East 
Garden Grove Wintersburg Channel.
Coyote Creek, Carbon Canyon Watershed in Orange County--$600,000
    Watershed feasibility study for tributaries in western Orange 
County that drain into Coyote Creek, Carbon Canyon, and the San Gabriel 
River.
Newport Bay/San Diego Creek Watershed--$186,000
    Continuation of watershed ecosystem restoration study.
Orange County Beach Shoreline--$600,000
    This is a feasibility study for shore protection, watershed, and 
water quality effort along the Orange County coast.
Special Area Management Plan (San Diego Creek SAMP)--$680,000
    This is part of a cooperative effort between private property 
owners and government to identify and protect critical wetland habitat 
in south Orange County ahead of development.
San Juan Creek, South Orange County--$300,000
    Continuation of watershed feasibility study for ecosystem 
restoration and flood control.
Aliso Creek Mainstem--$618,000
    Continuation of watershed feasibility study for ecosystem 
restoration.

    We thank you for the opportunity to address the Subcommittee and 
for your past record of support for projects that are so important to 
Orange County.
                                 ______
                                 
 Prepared Statement of DINAMO, The Association for the Development of 
               Inland Navigation in America's Ohio Valley
    Mr. Chairman and Members of the Subcommittee: I am Barry Palmer, 
Executive Director of DINAMO, The Association for the Development of 
Inland Navigation in America's Ohio Valley. DINAMO is a multi-state, 
membership based association of business and industry, labor, and State 
government leaders from throughout the Ohio Valley, whose singular 
purpose is to expedite the modernization of the lock and dam 
infrastructure on the Ohio River Navigation System. Largely through the 
leadership of this subcommittee and the professional efforts of the 
U.S. Army Corps of Engineers, we in the Ohio Valley are beginning to 
see the results of 22 years of continuous hard work in improving our 
river infrastructure.
    Lock and dam modernization at Robert C. Byrd Locks and Dam, Grays 
Landing Locks and Dam, Point Marion Lock, and Winfield Locks are 
largely complete. These projects were authorized for construction in 
the Water Resources Development Act of 1986. The immediate problems 
really are focused on completing in a timely manner lock and dam 
modernization projects authorized by the Congress in subsequent water 
resources development acts. Substantial problems remain for reliable 
and efficient funding of improvements at the Olmsted Locks and Dams, 
Ohio River, IL/KY; Lower Monongahela River Locks and Dams 2, 3 & 4, PA; 
McAlpine Locks and Dam, Ohio River, IN/KY; Marmet Lock, Kanawha River, 
WV; and for Kentucky Lock, Tennessee River, KY. The construction 
schedules for all of these projects have slipped from 3 to 6 years 
each, and we are requesting funding for these construction projects at 
an ``efficient construction rate.'' This term means that these projects 
can be operational by 2010 or earlier, if funded at or near the full 
capability of the U.S. Army Corps of Engineers. Additional funding is 
also needed to complete pre-construction engineering and design (PED) 
for Greenup Locks and Dam, Ohio River, KY/OH and for John T. Myers 
Locks and Dam, Ohio River, KY/IN. The President's Fiscal Year 2004 
Budget contains no monies for Pre-Construction, Engineering and Design 
for the John T. Myers Lock Extension project, although the project was 
authorized by the Water Resources Development Act of 2000 and has 
received regularly scheduled funding for planning and PED for many, 
many years. Additionally this Committee provided $800,000 last year for 
a planning start at Emsworth, Dashields and Montgomery Locks and Dams, 
Ohio River, PA. Following is a listing of the projects and an efficient 
funding level determined by the U.S. Army Corps of Engineers to advance 
construction projects for completion by 2010 or earlier and to advance 
other projects through planning, construction, engineering and design 
process:
Recommendations for Fiscal Year 2004
    For the Robert C. Byrd Locks and Dam modification project, formerly 
the Gallipolis Locks and Dam on the Ohio River, OH/WV, about $2,700,000 
to continue major rehabilitation of the dam. Fiscal Year 2004 Budget 
Request $2,500,000.
    For the Winfield Lock Replacement on the Kanawha River, WV, 
$2,000,000 for continued construction and relocations related to 
environmental mitigation. Fiscal Year 2004 Budget Request $2,000,000.
    For the Olmsted Locks and Dam, replacing Locks and Dams 52 and 53 
on the Lower Ohio River, IL/KY, $73,000,000 to award the contract to 
initiate construction of the new gated dam. Fiscal Year 2004 Budget 
Request $73,000,000.
    For the Monongahela River Locks and Dams 2, 3 & 4, PA, $61,00,000, 
to complete construction of the new Braddock Dam, continue any ongoing 
contracts at Charleroi which were able to be awarded in fiscal year 
2003 and award a major contract for the construction of the new 
Charleroi Locks. In addition, critical Pool 2 relocations and Pool 3 
dredging should resume in fiscal year 2004 in order to support timely 
completion of the project. Initiating construction work at Charleroi in 
fiscal year 2003 is critical to completing the project by 2010. Fiscal 
Year 2004 Budget Request $35,000,000.
    For the McAlpine Lock Project on the Ohio River, IN/KY, $70,000,000 
to construction of the new 110  1,200 lock addition. Fiscal Year 
2004 Budget Request $26,100,000.
    For the Marmet Lock Replacement on the Kanawha River, WV, 
$69,200,000 to continue construction of the new 110  800 project. 
Fiscal Year 2004 Budget Request $52,154,000.
    For the Kentucky Lock Addition on the Tennessee River, KY, 
$53,400,000 to continue construction of the new highway and bridge work 
and to begin construction of the upstream cofferdam. Fiscal Year 2004 
Budget Request $24,866,000.
    For Pre-Construction Engineering and Design for the John T. Myers 
Locks and Dam, Ohio River, IN/KY, $2,500,000. A new construction start 
for this project will be required soon, since this project was 
authorized for construction in the Water Resources Development Act of 
2000. Fiscal Year 2004 Budget Request $0.00.
    For Pre-Construction Engineering and Design for the Greenup Locks 
and Dam, Ohio River, OH/KY, $5,800,000. A new construction start for 
this project will be required soon, since this project was authorized 
for construction in the Water Resources Development Act of 2000. Fiscal 
Year 2004 Budget Request $2,895,000.
    For the Ohio River Mainstem Study, which will identify a 
comprehensive investment plan for the next 50 years and also assess 
system economic and environmental impacts associated with the plan, 
$1,500,000 in fiscal year 2003. This level of funding is needed to 
complete a preliminary draft report including a System Investment Plan 
and Cumulative Effects Assessment. Fiscal Year 2004 Budget Request 
$1,350,000.
    For the Emsworth, Dashields and Montgomery Locks and Dams, Ohio 
River, PA, $1,500,000. Fiscal Year 2004 Budget Request $0.00.
    All lock and dam modernization projects should be completed in a 
timely and orderly manner. It is important to note that monies to pay 
for lock and dam modernization are being generated by 20 cents per 
gallon diesel fuel tax by towboats operating on America's inland 
navigation system. These tax revenues are gathering in the Inland 
Waterways Trust Fund, in order to finance 50 percent of the costs of 
these project costs. There is about $400 million in the Inland 
Waterways Trust Fund. The real challenge is not the private sector 
contribution to completing these lock and dam construction projects in 
a timely manner, but rather it is the commitment of the Federal 
Government to matching its share.
    Additionally DINAMO opposes expansion of the authority of the 
Inland Waterways Trust Fund to finance a portion of Operation and 
Maintenance expenditures on America's inland navigation system. The 
Trust Fund's balance and all future revenues are already spoken for. 
The unspent balance in the Trust Fund and projected fuel tax revenues 
for the foreseeable future are already committed to the construction or 
major rehabilitation of Congressionally approved projects, many of 
which are under construction. All of the current Trust Fund balance and 
all of the 20-cents-per-gallon fuel taxes paid by transportation users 
for the next 8 years are needed to complete just six of the priority 
projects currently under construction. To spend these funds for O&M 
will ensure that the construction or major rehabilitation of these and 
other important ongoing and future projects will never be completed or 
built--unless there is a future tax increase to replenish a bankrupt 
Trust Fund! The proposal violates the agreements underlying the Water 
Resources Development Act of 1098, which affirmed continued 
responsibility for inland waterways Operations and Maintenance in 
return for waterway users assuming the obligation for financing 50 
percent of future construction and major rehabilitation costs. Congress 
must ensure that the balance and all future Trust Fund revenues are 
spent on the purposes for which they were collected--to modernize the 
inland waterway system and ensure its future.
    The construction schedules for Ohio River Navigation System 
projects have slipped from 3 to 6 years, depending on the project. 
Delaying the construction of these vitally needed infrastructure 
investments is a terribly inefficient practice. Inefficient 
construction schedules cost people a lot of money. A February 2002 
study by the Institute for Water Resources concluded that $1.97 billion 
of cumulative benefits (transportation savings) for Olmsted, Lower 
Monongahela River 2, 3 & 4, McAlpine, Marmet, and Kentucky lock and dam 
modernization projects have been lost forever. The benefits foregone 
represent the cumulative annual loss of transportation cost savings 
associated with postponing the completion of these projects from their 
``optimum,'' or ``efficient,'' schedule. In addition, this study 
concludes that $672 million of future benefits are at risk but will be 
foregone (based on fiscal year 2002 schedules) if funding is not 
provided to accelerate design and construction activities in accordance 
with ``efficient'' schedules. In February of this year (2003) the 
Institute for Water Resources updated this information: because of 
additional construction schedule slippage, projects have been further 
delayed and additional benefits have also been washed down the river. 
(This chart, ``Inland Waterway New Construction Projects, Benefits 
Foregone Attributable to Stretched Project Schedules in Fiscal Year 
2003 Budget Request,'' is attached to this testimony.)
    Expenditures for lock and dam modernization are an investment in 
the physical infrastructure of this Nation. The President's $4.194 
billion Corps of Engineers Civil Works Budget for fiscal year 2004 will 
fall at least $800 million short of what will be needed to meet the 
Nation's water resources needs. Mr. Chairman, we have great confidence 
in the Corps of Engineers and urge your support for a funding level 
more in line with the real water resources development needs of the 
Nation. For lock and dam modernization on America's inland navigation 
system, targeted construction funding ought to be at a level of about 
$300 million annually, with half coming from the Inland Waterways Trust 
Fund and half coming from the General Treasury. Last year Congress 
provided about $4.63 billion for the Corps of Engineers program and 
more than $250 million for lock and dam modernization on America's 
inland navigation system. It is reasonable that funding for the Corps 
program should be increased to levels closer to $5 billion and about 
$300 million for lock and dam modernization on our Nation's river 
system, in order to complete the major lock and dam modernization 
projects by the end of the decade or earlier.
    Following is our analysis of the partial consequences of inadequate 
funding of Ohio River Navigation System infrastructure improvements:
Olmsted Locks and Dam
    Ground was broken on Olmsted Locks and Dam in 1996. Locks and Dam 
52 and 53 will be replaced with this single facility at mile 964.4 of 
the Ohio River. Olmsted will feature twin 110  1,200 lock chambers 
and a submersible dam. During high water conditions, which should occur 
about 60 percent of each year, tows will pass over the dam using the 
navigable pass portion. The total cost is approximately $1 billion, 
with a benefit/cost ratio of 3.5 to 1. The project is scheduled for 
completion in 2011. Congress appropriated $65 million for construction 
work in fiscal year 2003.
    Olmsted has already slipped its completion date by 5 years, and 
more than $1.84 billion in transportation benefits have already been 
washed down the river (non-recoverable) because of construction 
schedule slippage. The President's Fiscal Year 2004 Civil Works Budget 
has funded the project on an Efficient Funding Schedule, and the new 
facility could be operational by 2011 if this level of funding is 
maintained. This improved construction scenario (when compared to 
fiscal year 2003 construction schedule projections) could prevent the 
loss of more than $2.63 billion in transportation benefits.
    According to the Corps of Engineers Waterborne Commerce Statistics 
for 2001, more than 82 million tons of commodities were shipped past 
the point where Olmsted is being built. These shipments had a combined 
value of $18.3 billion. The leading commodity shipped past the Olmsted 
Lock site was coal, which made up 24 percent of the total tonnage. 
Limestone, iron ore and grains such as corn and soybeans were other 
significant commodities making up this traffic.
Lower Monongahela River Locks and Dams 2, 3 & 4
    Locks and Dams 2, 3 and 4 are the first three navigation projects 
on the Monongahela River upstream of Pittsburgh. Lock and Dam 2 is 
located at Monongahela River mile 11.2, Lock and Dam 3 is located at 
mile 23.8, and Lock and Dam 4 is at mile 41.5. Lock and Dam 2 has a 
main lock chamber measuring 110  720 feet and an auxiliary lock that 
is 56  360. The other two projects have main lock chambers that are 
56  720 and auxiliary lock chambers that are 56  360. Lock and 
Dam 2 was originally built in 1905, with new locks completed in the 
early 1950's. Lock and Dam 3 was built in 1907, and Lock and Dam 4 was 
completed in 1932.
    The dam at L/D 2 is being replaced by a gated dam being built using 
an innovative in-the-wet method of fabricating segments off-site and 
floating them in place, and the project will be renamed Braddock Locks 
and Dam. L/D 3 will be removed. Twin 84  720 locks will be built at 
L/D 4 (to be renamed Charleroi Locks and Dam). Construction on this 
two-for-three replacement project began in 1994 and is scheduled for 
completion in 2010, at a total cost of $750 million. The benefit/cost 
ratio is 2.1 to 1. In fiscal year 2003, $42 million was appropriated 
for this work. Continued funding at a rate of $35 million (Fiscal Year 
2004 Budget) annually could delay completion an additional 9 years, 
possibly by 2016 and the loss of more than $267.3 million in 
transportation benefits.
    According to the Corps of Engineers Waterborne Commerce Statistics 
for 2001, almost 22.2 million tons of commodities moved through any or 
all of the three locks. Of the 19.1 million tons of coal transiting 
these locks, over 7.2 million tons were destined for 23 power plants in 
7 States. The value of the 22.2 million tons was nearly $1.6 billion. 
Nearly 10 million tons moved through all three locks.
McAlpine Locks and Dam
    McAlpine Locks and Dam is located in downtown Louisville, Kentucky. 
The dam is at mile 604.4 of the Ohio River and the locks are in the 
Louisville and Portland Canal on the Kentucky side of the river. The 
56  600 auxiliary lock was completed in 1921 and the 110  1,200 
main chamber was opened in 1961. There is also an inactive 56  360 
lock chamber. In 1960, the project was renamed from Lock and Dam 41 in 
honor of a former Louisville District Engineer.
    Construction began at McAlpine in 1999 on a new 110  1,200 lock, 
which will replace the active 110  600 auxiliary and an inactive 
auxiliary lock. The project is scheduled for completion in 2008 at a 
total cost of $278 million, with a benefit/cost ratio of 1.8 to 1. 
Congress appropriated $21 million for work in fiscal year 2003. 
McAlpine has already slipped its completion date by 6 years, and over 
$245 million in transportation benefits have been washed down the river 
(non-recoverable) because of construction schedule slippage. Failure to 
fund the project on an Efficient Funding Schedule in fiscal year 2004 
(at $70 million) and each future year could delay completion by as much 
as an additional three years, possibly to 2011. That scenario would 
wash approximately another $124.86 million in benefits down the river.
    According to the Corps of Engineers Waterborne Commerce Statistics 
for 2001, more than 55 million tons of commodities were shipped through 
McAlpine Locks. These shipments had a combined value of nearly $11.7 
billion. Of the 20 million tons of coal moving through McAlpine in 
2001, over 13 million tons went to more than 30 power plants in 8 
States. McAlpine Locks was important to the steel industry, as it 
passed 5.5 million tons of iron ore, pig iron and other raw iron and 
2.5 million tons of iron and steel products.
Marmet Lock and Dam
    Marmet Locks and Dam is located at mile 67.7 of the Kanawha River. 
The locks were opened in 1933 and the dam was completed in 1934. The 
two lock chambers measure 360  56. Located about 9 miles upstream of 
Charleston West Virginia, the project is approximately 27 miles from 
the head of navigation.
    An improvement to Marmet Locks was authorized in 1996. The proposed 
project is a new 800  110 lock chamber to go with the existing pair 
of 360  54 chambers. Property acquisition and design work continue 
and construction is underway. The total cost of the project is $313 
million, and Congress appropriated $50 million for work in fiscal year 
2003. The benefit/cost ratio is 2.9 to 1. Average annual benefits of 
this new project are about $55.9 million a year. Marmet has already 
slipped completion date by 3 years, and over $117 million in 
transportation benefits have been washed down the river (non-
recoverable) because of construction schedule slippage.
    According to the Corps of Engineers Waterborne Commerce Statistics 
for 2001, just over 17 million tons of commodities were shipped through 
Marmet Locks. These shipments had a combined value of $802 million. Of 
the 16.1 million tons of coal moving through Marmet, 11.5 million tons 
were destined for 30 power plants in 7 States, and another 1.5 million 
tons went to steel plants.
Kentucky Locks and Dam
    Kentucky and Barkley Locks work as a system for passing barge 
traffic even though they are located on different rivers. Kentucky Lock 
and Dam is located on the Tennessee River 22.4 miles upstream of the 
junction with the Ohio River. Barkley Lock and Dam is located on the 
Cumberland River 30.6 miles upstream of the Ohio. The two rivers are 
connected by the Barkley Canal, which intersects the Tennessee River at 
mile 25.3 and the Cumberland River at mile 32.8. Kentucky's lock 
chamber is 110  600 and has been in operation since 1944. Barkley 
was completed in 1966 and has a 110  800 lock chamber.
    Ground was broken in October of 1999 on a new 110  1,200 lock at 
Kentucky Lock. Completion is scheduled for 2010; the total cost will be 
approximately $533 million, with a benefit/cost ratio of 2.4 to 1. The 
existing 110  600 lock will continue to be used as an auxiliary. 
Kentucky Lock and Dam's current single lock chamber is insufficient to 
handle increasing tonnage. The lack of an auxiliary chamber forces tows 
to use Barkley Lock during periods of extended delays and closures. 
When Kentucky Lock is at 90 percent capacity, tows face average delays 
of 5 to 6 hours. $30 million was appropriated for work on Kentucky 
Lock's new chamber in fiscal year 2003. Kentucky Lock has already 
slipped completion date by 2 years, and over $74 million in 
transportation benefits have been washed down the river (non-
recoverable) because of construction schedule slippage. The President's 
fiscal year 2004 Civil Works Budget ($25 million) will delay completion 
of the project by as much as 10 years and approximately $551 million in 
transportation benefits will be washed down the river.
    In conclusion, Mr. Chairman, we thank you for your interest and 
support of lock and dam modernization on the Ohio River Navigation 
System. It was that the rivers played a tremendous role in the defense 
of our Nation. Today our Nation's security is more and more determined 
by our economic muscle, our ability to compete for more and news 
customers in different parts of the world. These locks and dams are at 
the core of our basic infrastructure that enables Americans to compete 
globally for its basic manufacturing products--iron and steel, 
chemicals, petroleum products, aluminum, etc. We urge your support of 
efficient funding of these vitally needed projects that last fifty or 
more years and provide many dollars in return for the investment sunk.
    We thank you for the opportunity to present this request and our 
thoughts on these matters.

                      TABLE 1.--INLAND WATERWAY NEW CONSTRUCTION PROJECTS--BENEFITS FOREGONE ATTRIBUTABLE TO STRETCHED PROJECT SCHEDULES IN FISCAL YEAR 2003 BUDGET REQUEST
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                     Initial Optimum         Current Optimum        Fiscal Year 2003        Average                   Est.                     Est.         Est.         Est.
                                        Schedule                Schedule             Budget Schedule        Annual                  Benefits                 Benefits     Benefits   Inflation @
                                ------------------------------------------------------------------------ Benefits \1\   Schedule    Foregone    Schedule   Foregone vs    Foregone       2.7%
                                                                                                        --------------  Change in  vs Initial   Change in  Current Opt      Not     ------------
            Project                                                                                                     Years vs     Opt \2\    Years vs  ------------- Recoverable
                                     ($         Compl        ($         Compl        ($         Compl                      PDR    ------------   Current               -------------
                                  million)                million)                million)                ($ million)                  ($          Opt     ($ million)               ($ million)
                                                                                                                                    million)                            ($ million)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Lower Mon 2-4..................      $645.0        2004      $750.0        2009      $750.0        2010       $29.17            6     $134.62           1      $19.24       $115.38       $1.27
London Rehab...................        18.7        2003        22.2        2003        22.2        2004         1.34            1        1.26           1        1.26   ...........        0.32
Marmet.........................       268.0        2007       313.0        2009       313.0        2010        55.90            3      117.53           1       36.87         80.66        0.04
Olmsted........................     1,020.0        2006     1,060.0        2010     1,052.0        2011       526.25            5    1,848.55           1      327.11      1,521.44        0.31
McAlpine.......................       255.0        2002       278.0        2007       278.0        2008        41.62            6      245.36           1       29.12        216.24        1.06
Winfield \3\...................       221.6        2002       227.5        2002       235.5        2003        56.11            1  ..........           1  ...........  ...........        0.13
R.C. Byrd \3\..................       373.0        1999       373.0        2002       379.0        2003       161.20            4  ..........           1  ...........  ...........        0.08
Kentucky Lock..................       481.5        2008       533.0        2009       533.0        2010        55.10            2       74.91           1       36.34         38.57        0.03
Inner Harbor \4\...............       575.0        2009       576.4        2012       576.4        2014       109.70            5      322.37           2      117.58        204.78        3.75
Greenup \5\....................       245.0        2008       240.7        2009       245.0        2020        26.50           12      163.92          11      163.92   ...........       81.96
Myers \5\......................       182.1        2008       225.0        2010       182.1        2020         8.60           12       53.20          10       53.20   ...........       68.69
Chickamauga \6\................       239.4        2010       239.4        2010       239.4        2015         1.96            5        5.43  ..........        5.43   ...........       34.11
                                ----------------------------------------------------------------------------------------------------------------------------------------------------------------
      TOTAL....................  ..........  ..........  ..........  ..........  ..........  ..........  ............          57    2,967.14          31      790.07      2,177.07      157.66
                                ================================================================================================================================================================
Fiscal Year 2002 Analy- sis....  ..........  ..........  ..........  ..........  ..........  ..........  ............          29    2,621.82          35    1,149.35      1,472.48      172.95
                                ================================================================================================================================================================
Change from 2002...............  ..........  ..........  ..........  ..........  ..........  ..........  ............  ..........      345.32  ..........     (359.28)       704.59      (15.29)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Average Annual Benefits based on Fiscal Year 2002 Budget Justification of Expense, February 2002.
\2\ Benefits foregone estimated from net present value of benefits in each year of delay, based on 50-year project life, and adjusted to fiscal year 2002 base year. Discount rate adjusted to
  6.125 percent.
\3\ Locks are completed, dam construction remains.
\4\ Inner Harbor ``Initial Optimum'' reflects Fiscal Year 2000 Optimum Schedule.
\5\ Greenup and Myers ``Initial Optimum'' reflects Fiscal Year 2002 Optimum Schedule.
\6\ Chickamauga not included in previous fiscal year 2002 analysis.

  Prepared Statement of the Association of State Dam Safety Officials
    Dear Chairman Domenici and Members of the Subcommittee: The 
Association of State Dam Safety Officials is pleased to offer this 
testimony on the President's proposed budget for the U.S. Army Corps of 
Engineers (USACOE) Fiscal Year 2004. The Association's testimony 
includes issues related to the safety and security of the dams owned or 
operated by the USACOE and in support of the National Inventory of Dams 
(NID) authorized by the Dam Safety and Security Act of 2002.
    The Association of State Dam Safety Officials is a national non-
profit organization of more than 2,000 State, Federal and local dam 
safety professionals and private sector individuals dedicated to 
improving dam safety through research, education and communications. 
Our goal simply is to save lives, prevent damage to property and to 
maintain the benefits of dams by preventing dam failures. Several 
dramatic dam failures in the United States called attention to the 
catastrophic consequences of failures. The failure of the federally-
owned Teton Dam in 1976 caused 14 deaths and over $1 billion in 
damages, and is a constant reminder of the potential consequences 
associated with dams and the obligations to assure that dams are 
properly constructed, operated and maintained.
                       national inventory of dams
    The National Inventory of Dams is a computer database, maintained 
by the USACOE, that houses vital information of Federal and non-Federal 
dams across the United States. The database tracks information about 
the dam's location, size, use, type, proximity to nearest town, hazard 
classification, age, height and many other technical data fields. The 
database can be used for States or Federal agencies to access 
comprehensive information for planning, security alerts or to use 
within a Graphic Information System (GIS) vital in tracking lifeline 
systems and responding to emergency events through using the geographic 
and mapping abilities along with the engineering information within the 
NID database.
    The NID can be used by policy makers as a tool when evaluating 
national or local dam safety issues. For example, it is extremely 
useful in establishing the average age of the dams in the United 
States, or identifying the number and location of a particular type of 
dam construction (i.e. the number and location of ``thin arch'' dams 
greater than 100 feet in height). In addition, the Federal Emergency 
Agency uses the State dam data to establish the amount of State grant 
assistance funds, in accordance with the National Dam Safety Program. 
It is essential that this inventory be accurate and current.
    There are over 78,000 dams on the National Inventory of Dams in the 
country. To have access to this critical data when needed and to be 
able to track trends in assessing dam safety improvements, it is 
essential that this data be current and accurate. The NID can meet this 
need, but it is only as accurate as the last update. The database must 
be continually updated, the dam information is constantly changing 
(i.e. new ownership, major repairs, removal of dams, increasing the 
height and storage, additional downstream development or changes to the 
dam's hazard classification). This data is now even more important as 
the intelligence community and Federal law enforcement have identified 
dams as a specific target of potential terrorists attacks. The data can 
also be of tremendous benefit to Federal agencies such as FEMA, NWS, 
USGS and the new Department of Homeland Security for locating large 
dams, for watershed planning, flood control planning or emergency 
response to failures or extreme storm events.
    The USACOE has done an excellent job in developing and maintaining 
the NID. Continuing updates and improvements to this database resource 
should be a high priority. Federal agencies that own dams as well as 
State dam safety programs provide updated information and corrections 
to the data fields, which provides for accurate and current data.
    The Association respectfully requests that the subcommittee 
recognize the importance of this national dam database and increase the 
appropriation amount from the proposed funding level in the President's 
budget of $300,000 to the full authorized funding amount of $500,000.
          dam safety, security, and operation and maintenance
    The USACOE is recognized as a national leader in dam construction 
and dam safety. The USACOE currently owns or operates 609 dams in the 
United States, and these dams, like other critical components of the 
national infrastructure are aging and the require vigilant inspection 
as well as routine maintenance. In addition, the security of our 
Nation's infrastructure is a major concern. Dams, especially the large 
Federally-owned dams are a potential target for terrorists attacks.
    The USACOE dams are typically very large, provide flood protection, 
water supply, hydropower, recreation and many are critical to the 
waterway navigation on the Nation's major rivers. The consequences of a 
failure or misoperation of one of these dams can cause enormous loss of 
life and property damage, as well as the loss of the benefits provided 
by the dam. Therefore, the Association strongly supports appropriations 
necessary to make needed repairs, to conduct security assessments and 
improvements wherever necessary. The Association believes that 
operation and maintenance are critical to the continued safe 
performance of the dams. Too often deferred maintenance causes a small 
problem to become larger and more costly; and if left unattended, may 
cause the dam to become more susceptible to failure.
    The Association respectfully asks that the subcommittee recognize 
that inspections, safety repairs, security and routine maintenance are 
all essential to assure the safety and the continuing benefits of 
USACOE dams.
    The Association specifically requests:
  --Increase in appropriations for the USACOE Dam Safety Program non-
        project management funds to $250,000 from the proposed $45,000;
  --Increase in appropriations for the USACOE Dam Security Program non-
        project management funds to $250,000 from the proposed $30,000 
        to include assistance to the State dam safety programs in 
        conducting security vulnerability assessments and for training 
        in the dam security assessment tools such as RAM-D;
  --Increase in the USACOE ``Planning Assistance to States Program'' 
        Line A.1e.(1) from $6,000,000 to $10,000,000 to provide much 
        needed assistance to the States to cost-share dambreak 
        modeling, developing emergency evacuation plans and to jointly 
        conduct security vulnerability assessments;
  --Appropriations of $40,000,000 for needed dam safety repairs to the 
        Canton Dam in Oklahoma, the Tuttle Creek Dam in Kansas, the 
        Clearwater Dam in Missouri and to complete the safety repairs 
        to the Waterbury Dam in Vermont.
    Finally, while the security of the USACOE dams is currently a major 
priority, the continued safety, repair and maintenance of the USCOE 
dams should not be diminished. Improved security on an unsafe dam may 
deter an attack, but it still leaves the lives and property downstream 
at an unnecessary risk. The Association also respectfully requests that 
the fiscal year 2004 funding for Line B.6 Dam Safety and Seepage/
Stability Correction Program be increased to $15,000,000 from the 
proposed $8,000,000; and that the Operation and Maintenance budget be 
increased from the proposed $1,939,000,000 to $2,000,000,000 for fiscal 
year 2004 with the additional funds dedicated to dam safety efforts not 
currently funded in the budget.
    Mr. Chairman and members of the Subcommittee, thank you for this 
opportunity to provide this testimony in support of safe dams. We look 
forward to working with the Subcommittee and staff on this important 
national issue.
                                 ______
                                 
             Prepared Statement of Volusia County, Florida
    On behalf of our citizens and fishermen, Volusia County, Florida 
requests that the Energy & Water Subcommittee appropriate:
  --$3,000,000 in fiscal year 2004 to the U.S. Army Corps of Engineers' 
        (Corps) Construction account to fund a 1,000 foot seaward 
        extension of the South Jetty of the Ponce DeLeon Inlet. The 
        Committee provided $1 million for construction of this project 
        in fiscal year 2003. The South Jetty seaward extension is 
        essential for safe inlet navigation and protection of the Inlet 
        channel and the North Jetty landward extension funded in fiscal 
        years 1999, 2000, and 2002.
  --$3,000,000 in fiscal year 2004 to the Corps' Operations and 
        Maintenance account to fund the removal of 300,000 cubic yards 
        of sand from the North Cut of the Ponce DeLeon Inlet to provide 
        for safe navigation until the South Jetty construction is 
        complete.
    A more detailed case history and description of the situation and 
projects follow below.
    Ponce DeLeon Inlet is located on the east coast of Florida, about 
10 miles south of the City of Daytona Beach in Volusia County. The 
Inlet is a natural harbor connecting the Atlantic Ocean with the 
Halifax River and Indian Rivers and the Atlantic Intra-coastal Waterway 
(AICW). Ponce DeLeon Inlet provides the sole ocean access to all of 
Volusia County and is the only stabilized inlet on the east coast of 
Florida between St. Augustine and Cape Canaveral, a distance of 112 
miles. Fishing parties and shrimp and commercial fisherman bound for 
New Smyrna Beach or Daytona Beach use the Inlet, as well as others 
entering for anchorage. Nearby fisheries enhanced by the County's 
artificial reef program attract both commercial and sport fisherman. 
Head boat operators also provide trips to view marine life and space 
shuttle launches from Cape Canaveral. In addition, U.S. Coast Guard 
Lifeboat Station Ponce is located immediately inside Ponce de Leon 
Inlet and provides navigation safety and security for boaters, 
fisherman, divers and sailors from the entire east central Florida 
region.
    Unfortunately, the Inlet is highly unstable and, despite numerous 
navigation projects, continues to threaten safe passage for the charter 
boat operators and commercial fisherman who rely on the access it 
provides for their livelihood. Recreational boaters and Coast Guard 
operators are also at risk passing through this unstable inlet. The 
shoaling of the channels in the Inlet so restricts dependable 
navigation that the Coast Guard no longer marks the north channel in 
order to discourage its use. The Coast Guard continues to move the 
south and entrance channel markers and provides warnings that local 
knowledge and extreme caution must be used in navigating the inlet. 
More seriously, the Coast Guard search and rescue data for fiscal years 
1981-1995 show that 20 deaths have resulted from vessels capsizing in 
the Inlet, the direct result of the Inlet's instability. One hundred 
forty-seven vessels capsized and 496 vessels ran aground in the Inlet 
during the same period.
    The Federal interest in navigation through the Ponce DeLeon Inlet 
dates back to 1884 and continues to the present. The existing 
navigation project was authorized by the Rivers and Harbors Act of 
1965. The construction authorized by that Act, including ocean jetties 
on the north and south sides of the Inlet, was completed in July 1972. 
It became evident soon after completion of the authorized project that 
the project did not bring stability to the Inlet. A strong northeaster 
in February 1973 created a breach between the western end of the North 
Jetty and the sand spit the Jetty was connected to inside the Inlet. 
The breach allowed schoaling to occur that was serious enough to close 
boat yards and require almost $2 million worth of repairs, including 
extending the western end of the North Jetty.
    Under the existing maintenance agreement entered into upon 
completion of the construction, the Corps periodically performs 
maintenance on the Inlet. Maintenance projects have included several 
dredging efforts, adding stone sections to the south side of the North 
Jetty, extending the westward end of the North Jetty for the second 
time, and closing the North Jetty weir. Prior to the North Jetty 
project discussed below, the Corps' last maintenance was dredging, 
completed on the entrance channel in January 1990.
    In fiscal year 1998, the Corps received a $3,500,000 appropriation 
for emergency maintenance on the North Jetty. Migration of the entrance 
channel undermined the North Jetty, seriously threatening its 
structural integrity. The fiscal year 1998 funds were used to construct 
a granite rock scour apron for the 500 to 600 feet of where the Jetty 
was undermined.
    In fiscal year 1999, the Corps received $4,034,000 from the 
Operations and Maintenance account to extend the North Jetty of the 
Inlet landward by 800 feet. This maintenance project was completed in 
July 2002 to prevent the erosion that will cause outflanking of the 
North Jetty. Continued outflanking of the west end of the North Jetty 
could create a new inlet for the Halifax and Indian Rivers resulting in 
major changes to the Ponce DeLeon Inlet. The resultant shoaling of both 
the north and south channels, as well as changes to the entrance 
channel, would make passage through the inlet extremely dangerous and 
unpredictable.
    In fiscal year 2000, the Corps received $7,696,000 in their 
Operations and Maintenance account for use in the Ponce DeLeon Inlet. 
This appropriation provided funding to continue the North Jetty 
project, funding for surveys designed to determine the scope of a new 
maintenance contract for the Ponce De Leon Inlet, and funding for a 
dredging project to address a minor maintenance issue under the 
existing maintenance contract.
    In fiscal year 2001, the Corps received $46,000 in their Operations 
and Maintenance account for standard maintenance of the Ponce DeLeon 
Inlet.
    In fiscal year 2002, Congress appropriated $2.032 million to the 
Corps' Operations and Maintenance account for completion of the North 
Jetty construction. The Corps completed construction of this project in 
July 2002.
    In fiscal year 2003, Congress provided $1 million in the Corps' 
Construction account for commencement of the South Jetty oceanward 
extension, as authorized by WRDA 1999.
    For fiscal year 2004, Volusia County requests that the Corps 
receive $3 million for the balance of the Federal share of construction 
funds for the South Jetty oceanward extension. The Corps anticipates 
that the construction of the Jetty extensions will help stabilize the 
Inlet and reduce future maintenance costs. In addition to creating a 
safer navigation environment, completion of the North and South Jetty 
will save future Federal maintenance costs.
    The Ponce DeLeon Inlet presents a serious engineering challenge, 
the success of which is measured in terms of human life and vessel 
damage. The existing project has failed to stabilize the Inlet. 
Extending the North Jetty was the first step toward correcting the 
failure and meeting the challenge. Full funding of the 1,000 foot 
oceanward extension of the South Jetty is the next critical step toward 
providing safe passage for the commercial and recreational boaters in 
Volusia County.
    State agencies, including the Florida Inland Navigation District 
and the Florida Department of Environmental Protection agree and 
therefore have committed to assisting the County in meeting the local 
cost share. In addition, providing these funds at this time is likely 
to prevent the need for a much more substantial maintenance project in 
the near future.
    In addition to the construction funding for the jetty projects to 
protect the Ponce DeLeon Inlet, the County also requests $3,000,000 be 
appropriated in the Corps' Operations and Maintenance account, for the 
Corps to remove 300,000 cubic yards of sand from the North Cut of the 
Ponce DeLeon Inlet. As discussed above, the North Jetty construction 
was completed in July 2002 and the South Jetty construction will begin 
this year. Maintenance dredging is needed until both jetties are 
constructed.
    Until both the North and South Jetty projects are operational, sand 
continues to shoal in the navigation channels of the Ponce DeLeon 
Inlet. The shoaling creates unsafe navigation conditions, thereby 
impeding commercial and recreational traffic. Removing 300,000 cubic 
feet of sand from the North Cut of the Inlet will greatly improve safe 
navigation. Finally, this effort is supported locally, as evidenced by 
the County's grant of $395,000 to the Corps for emergency dredging of 
the North Cut in fiscal year 2003.
    Thank you for your consideration of this request.
                                 ______
                                 
          Prepared Statement of the Seminole Tribe of Florida
    The Seminole Tribe of Florida is pleased to submit this statement 
regarding the fiscal year 2004 budget for the Army Corps of Engineers 
(Corps). The Tribe asks that Congress provide $14,835,000 in the Corps' 
construction budget for critical projects in the South Florida 
Ecosystem, as authorized in section 208 of the Water Resources 
Development Act (WRDA) of 1999. On January 7, 2000, the Tribe and the 
Corps signed a Project Coordination Agreement for the Big Cypress 
Reservation's critical project. The Tribe's critical project includes a 
complex water conservation plan and a canal that transverses the 
Reservation. In signing this Agreement, the Tribe, as the local 
sponsor, committed to funding half of the cost of this approximately 
$50 million project. Design and planning efforts continue, and the 
first phase of construction is nearly complete.
    The Tribe's critical project is a part of the Tribe's Everglades 
Restoration Initiative, which includes the design and construction of a 
comprehensive water conservation system. This project is designed to 
improve the water quality and natural hydropatterns in the Big Cypress 
Basin. This project will contribute to the overall success of both the 
Federal and the State governments' multi-agency effort to preserve and 
restore the delicate ecosystem of the Florida Everglades. In 
recognition of this contribution, the Seminole Tribe's Restoration 
Initiative has been endorsed by the South Florida Ecosystem Restoration 
Task Force.
                     the seminole tribe of florida
    The Seminole Tribe lives in the Florida Everglades. The Big Cypress 
Reservation is located in the western basins, directly north of the Big 
Cypress National Preserve. The Everglades provide many Seminole Tribal 
members with their livelihood. Traditional Seminole cultural, 
religious, and recreational activities, as well as commercial 
endeavors, are dependent on a healthy Everglades ecosystem. In fact, 
the Tribe's identity is so closely linked to the land that Tribal 
members believe that if the land dies, so will the Tribe.
    During the Seminole Wars of the 19th Century, the Tribe found 
protection in the hostile Everglades. But for this harsh environment 
filled with sawgrass and alligators, the Seminole Tribe of Florida 
would not exist today. Once in the Everglades, Seminoles learned how to 
use the natural system for support without harm to the environment that 
sustained them. For example, the native dwelling, the chickee, is made 
of cypress logs and palmetto fronds and protects its inhabitants from 
the sun and rain, while allowing maximum circulation for cooling. When 
a chickee has outlived its useful life, the cypress and palmetto return 
to the earth to nourish the soil.
    In response to social challenges within the Tribe, Tribal elders 
provided guidance. Tribal elders directed the Tribe's leadership to 
look to the land, for when the land was ill, the Tribe would soon be 
ill as well. When looking at the land, the leadership saw the 
Everglades in decline and recognized that the Tribe had to help 
mitigate the impacts of man on this natural system. At the same time, 
tribal members acknowledged that this land must sustain the Tribe and 
its culture. The clear message from the Tribal elders and the land 
called for a way of life to preserve the land and the Tribe. Tribal 
members must be able to work and sustain themselves. Tribal leadership 
needs to protect the land and the animals, while also protecting Tribal 
farmers and ranchers.
    Recognizing the needs of the land and the people, the Tribe, along 
with its consultants, designed a plan to mitigate the harm to the land 
and water systems within the Reservation while ensuring a sustainable 
future for the Seminole Tribe of Florida. The restoration plan will 
allow Tribal members to continue their farming and ranching activities 
while improving water quality and restoring natural hydroperiod to 
large portions of the native lands on the Reservation and ultimately, 
positively effecting the Big Cypress National Preserve and Everglades 
National Park.
    The Seminole Tribe's project addresses the environmental 
degradation wrought by decades of Federal flood control construction 
and polluted urban and other agricultural runoff. The interrupted sheet 
flow and hydroperiod have stressed native species and encouraged the 
spread of exotic species. Nutrient-laden runoff has supported the rapid 
spread of cattails, which choke out the periphyton algae mat and 
sawgrass necessary for the success of the wet/dry cycle that supports 
the wildlife of the Everglades.
    The Seminole Tribe designed an Everglades Restoration project that 
reflects the need to live off of the land while minimizing impacts on 
the Everglades. The Seminole Tribe is committed to improving the water 
quality and flows on the Big Cypress Reservation. The Tribe already has 
committed significant resources to the design and construction of this 
project and to its water quality data collection and monitoring system. 
The Tribe is willing to continue its efforts and to commit more 
resources, for its cultural survival is at stake.
             seminole tribe's big cypress critical project
    The Tribe has developed a water conservation plan that will improve 
water quality essential to the cleanup of the Everglades ecosystem and 
to plan for the storage and conveyance of Tribal water rights. The 
Tribe's Everglades Restoration Initiative is designed to mitigate the 
degradation the ecosystem has suffered through decades of flood control 
projects and urban and agricultural use and ultimately to restore the 
Nation's largest wetlands to a healthy state.
    The Seminole Tribe's critical project, a part of the water 
conservation plan, provides for the design and construction of flood 
control, storage, and treatment facilities on the western half of the 
Big Cypress reservation with other conveyance facilities on the eastern 
side. The project elements include canal and pump conveyance systems, 
including major canal bypass structures, irrigation storage cells, and 
water quality polishing areas. This project will enable the Tribe to 
meet targets for low phosphorus concentrations, as well as to convey 
and store irrigation water and improve flood control. It will also 
provide an important public benefit: a new system to convey excess 
water from the western basins to the Big Cypress National Preserve, 
where water is vitally needed for rehydration and restoration of 
natural systems within the Preserve.
                               conclusion
    Improving the water quality of the basins feeding into the Big 
Cypress National Preserve and the Everglades National Park is vital to 
restoring the Everglades for future generations. Congress has 
acknowledged this need through the passage of the last three Water 
Resource Development Acts. This Committee has consistently shown its 
support through appropriating requested amounts over the last 6 fiscal 
years. By continuing to grant this appropriation request for critical 
project funding, the Federal government will take another substantive 
step towards improving the quality of the surface water that flows over 
the Big Cypress Reservation and on into the delicate Everglades 
ecosystem. Such responsible action with regard to the Big Cypress 
Reservation, which is Federal land held in trust for the Tribe, will 
send a clear message that the Federal government is committed to 
Everglades restoration and the Tribe's stewardship of its land.
    Completion of the critical project requires a substantial 
commitment from the Tribe, including the dedication of over 2,400 acres 
of land for water management improvements and meeting a 50/50 cost 
share. The Tribe has initiated the first phase of construction with the 
main conveyance canal. As the Tribe moves forward with its contribution 
to the restoration of the South Florida ecosystem, increasing Federal 
financial assistance will be needed as well.
    The Tribe has demonstrated its economic commitment to the 
Everglades Restoration effort; the Tribe is asking the Federal 
government to also participate in that effort. This effort benefits not 
just the Seminole Tribe, but all Floridians who depend on a reliable 
supply of clean, fresh water flowing out of the Everglades, and all 
Americans whose lives are enriched by this unique national treasure.
    Thank you for the opportunity to present the request of the 
Seminole Tribe of Florida. The Tribe will provide additional 
information upon request.
                                 ______
                                 
  Prepared Statement of the Riverside County Flood Control and Water 
                         Conservation District
                  murrieta creek flood control project
    Murrieta Creek poses a severe flood threat to the cities of 
Murrieta and Temecula. Over $10 million in damages was experienced in 
the two cities as a result of Murrieta Creek flooding in 1993. The 1997 
Energy and Water Appropriations Act dedicated $100,000 to conducting a 
Reconnaissance Study of watershed management in the Santa Margarita 
Watershed ``including flood control, environmental restoration, 
stormwater retention, water conservation and supply, and related 
purposes''. The study effort was initiated in April 1997 and completed 
the following December. The Reconnaissance Study identified a Federal 
interest in flood control on the Murrieta sub-basin, and recommended 
moving forward with a detailed feasibility study for a flood control 
project on Murrieta Creek.
    Efforts on the Feasibility Study began in April 1998 and were 
completed in September 2000. The Feasibility Study Report recommends 
the implementation of Alternative 6, the Locally Preferred Plan (LPP) 
for flood control, environmental restoration and recreation. The LPP is 
endorsed by the Cities of Temecula and Murrieta and by the community as 
a whole.
    H.R. 5483, the Energy and Water Appropriations Act of 2000 included 
specific language authorizing the Corps to construct ``the locally 
preferred plan for flood control, environmental restoration and 
recreation described as Alternative 6, based on the Murrieta Creek 
Feasibility Report and Environmental Impact Statement dated September 
2000''.
    After finalizing the necessary cost sharing agreement in February 
2001, the Corps initiated the detailed engineering design necessary to 
develop construction plans and specifications for a Murrieta Creek 
Project utilizing a fiscal year 2001 appropriation of $750,000. The 
project received an additional appropriation of $1,000,000 for 
engineering design efforts in fiscal year 2002. Those funds were 
utilized to develop design-level topographic mapping for the entire 7-
mile long project, to complete all necessary geotechnical work, and to 
begin the preparation of construction drawings for the initial phases 
of construction.
    The Murrieta Creek Flood Control Project is being designed and will 
be constructed in four distinct phases. Phases 1 and 2 include channel 
improvements through the city of Temecula. Phase 3 involves the 
construction of a 240-acre detention basin, including the 160-acre 
restoration site and over 50 acres of recreational facilities. Phase 4 
of the project will include channel improvements through the city of 
Murrieta. Equestrian, bicycle and hiking trails as well as a continuous 
habitat corridor for wildlife are components of this and every phase of 
the project.
    The Omnibus Appropriations Bill for fiscal year 2003 provides $1 
million for a new construction start for this critical public safety 
project. Construction activities on Phase 1 of the project will 
commence in the Fall of 2003. The appropriation also allows the Corps 
to complete its engineering design work for Phase 2 of the project. 
Phase 2 traverses the area of Temecula hardest hit with damages from 
the severe flooding of 1993. The Corps anticipates having a Phase 2 
construction contract ready to award in the Summer of 2004. The 
District therefore respectfully requests the Committee's support of a 
$4 million appropriation in fiscal year 2004 so that the Corps may 
complete construction on Phase 1, and initiate construction on Phase 2 
of the long awaited Murrieta Creek Flood Control, Environmental 
Restoration and Recreation Project.
                       santa ana river--mainstem
    The Water Resources Development Act of 1986 (Public Law 99-662) 
authorized the Santa Ana River--All River project that includes 
improvements and various mitigation features as set forth in the Chief 
of Engineers' Report to the Secretary of the Army. The Boards of 
Supervisors of Orange, Riverside and San Bernardino Counties continue 
to support this critical project as stated in past resolutions to 
Congress.
    The three local sponsors and the Corps signed the Local Cooperation 
Agreement (LCA) in December 1989. The first of five construction 
contracts started on the Seven Oaks Dam feature in the spring of 1990 
and the dam was officially completed on November 15, 1999. A dedication 
ceremony was held on January 7, 2000. Significant construction has been 
completed on the lower Santa Ana River Channel and on the San Timoteo 
Creek Channel. Construction activities on Oak Street Drain and the Mill 
Creek Levee have been completed. Seven Oaks Dam was turned over to the 
Local Sponsors for operation and maintenance on October 1, 2002.
    For fiscal year 2004, an appropriation of $5.7 million is necessary 
to initiate construction activities on several features within ``Reach 
9'' of the Santa Ana River immediately downstream of Prado Dam. This 
segment of the Santa Ana River project is the last to receive flood 
protection improvements. The streambed existing today in a relatively 
natural state would receive only localized levee and slope revetment 
treatment to protect existing development along its southerly bank. 
Approximately $500,000 of the total $5.7 million appropriation 
requested for Reach 9 would fund environmental mitigation measures 
necessitated by the Corps' construction activities.
    The completion of landscaping activities on Reaches 5, 6 and 8 of 
the Santa Ana River Channel in Orange County would require a $5 million 
appropriation. The removal of accumulated sediment within an already 
completed section of the Santa Ana River Channel near its outlet to the 
Pacific Ocean will necessitate an fiscal year 2004 appropriation of $5 
million. This dredging work is necessary before project turnover to the 
Local Sponsors for operation and maintenance.
    Construction activities on the last remaining phase of San Timoteo 
Creek Channel, a Mainstem feature located within San Bernardino County, 
would be completed given a final $15 million appropriation.
    The Prado Dam feature of the Santa Ana River Mainstem project is in 
need of several major upgrades in order that it mitigate the potential 
impacts of a 100-year storm. All of the engineering work necessary to 
redesign the dam is now complete. In fiscal year 2003, the Corps was 
able to award a construction contract to begin modifications to the dam 
embankment and outlet works.
    An fiscal year 2004 appropriation of $37.164 million would allow 
the Corps to continue with the construction of improvements to Prado 
Dam's outlet works and embankment, and would fund all necessary 
environmental mitigation measures. We, therefore, respectfully request 
that the Committee support an overall $67,864,000 appropriation of 
Federal funding for fiscal year 2004 for the Santa Ana River Mainstem 
project including Prado Dam.
             san jacinto & santa margarita river watersheds
                     special area management plans
    The County of Riverside recognizes the interdependence between the 
region's future transportation, habitat, open space, and land-use/
housing needs. In 1999, work was initiated on Riverside County's 
Integrated Planning program (RCIP) to determine how best to balance 
these factors. The plan will create regional conservation and 
development plans that protect entire communities of native plants and 
animals while streamlining the process for compatible economic 
development in other areas. The major elements of the plan include 
water resource identification, multi-species planning, land use and 
transportation.
    In order to achieve a balance between aquatic resource protection 
and economic development, the Corps is developing what are termed 
Special Area Management Plans (SAMP) for both the San Jacinto and Santa 
Margarita Watersheds. This comprehensive planning effort will be used 
to assist Federal, State and local agencies with their decision making 
and permitting authority to protect, restore and enhance aquatic 
resources while accommodating various types of development activities. 
The Santa Margarita and San Jacinto watersheds include such resources 
as woodlands, wetlands, freshwater marshes, vernal pools, streams, 
lakes and rivers.
    The final product of the SAMP will be the establishment of an 
abbreviated or expedited regulatory permit by the Corps under Section 
404 of the Clean Water Act. The Corps' effort includes facilitating 
meetings between all potential watershed partners, and the integration 
of the joint study effort with the planning efforts of the balance of 
the RCIP project.
    The $500,000 Federal appropriation received for fiscal year 2001 
allowed the Corps to initiate work on this 3 year, $5.5 million SAMP 
effort. The $2 million appropriation received in fiscal year 2002 
allowed the Corps to make significant progress on a ``landscape level 
aquatic resource delineation'', and to initiate a functional assessment 
to determine the value of waters and wetlands. The $1 million 
appropriation received for fiscal year 2003 allowed the Corps to 
complete their wetlands delineation effort.
    Further funding is now needed to complete the SAMP effort. We, 
therefore, respectfully request that the Committee support a combined 
$2,000,000 appropriation of Federal funding for fiscal year 2004 for 
the Corps to continue its work on the Special Area Management Plans for 
the San Jacinto and Santa Margarita River Watersheds.
                                 ______
                                 
 Prepared Statement of the Metropolitan Water Reclamation District of 
                            Greater Chicago
    On behalf of the Metropolitan Water Reclamation District of Greater 
Chicago (District), I want to thank the Subcommittee for this 
opportunity to present our priorities for fiscal year 2004 and, at the 
same time, express our appreciation for your support of the District's 
projects in the years past. The District is the local sponsor for three 
Corps of Engineers priority projects of the Chicagoland Underflow Plan: 
the O'Hare, McCook and Thornton Reservoirs. We are requesting the 
Subcommittee's full support for McCook and Thornton Reservoirs, as the 
O'Hare Reservoir has been completed. Specifically, we request the 
Subcommittee to include a total of $32,000,000 in construction funding 
for the McCook and Thornton Reservoir projects in the bill. The 
following text outlines these projects and the need for the requested 
funding.
                     the chicagoland underflow plan
    The Chicagoland Underflow Plan (CUP) consists of three reservoirs: 
the O'Hare, McCook and Thornton Reservoirs. These reservoirs are a part 
of the Tunnel and Reservoir Plan (TARP). The O'Hare Reservoir Project 
was fully authorized for construction in the Water Resources 
Development Act of 1986 (Public Law 99-662) and completed by the Corps 
in fiscal year 1999. This reservoir is connected to the existing O'Hare 
segment of the TARP. Adopted in 1972, TARP was the result of a multi-
agency effort, which included officials of the State of Illinois, 
County of Cook, City of Chicago, and the District.
    TARP was designed to address the overwhelming water pollution and 
flooding problems of the Chicagoland combined sewer areas. These 
problems stem from the fact that the capacity of the area's waterways 
has been overburdened over the years and has become woefully inadequate 
in both hydraulic and assimilative capacities. These waterways are no 
longer able to carry away the combined sewer overflow (CSO) discharges 
nor are they able to assimilate the pollution associated with these 
discharges. Severe basement flooding and polluted waterways (including 
Lake Michigan, which is the source of drinking water for millions of 
people) is the inevitable result. We point with pride to the fact that 
TARP was found to be the most cost-effective and socially and 
environmentally acceptable way for reducing these flooding and water 
pollution problems. Experience to date has reinforced such findings 
with respect to economics and efficiency.
    The TARP plan calls for the construction of the new ``underground 
rivers'' beneath the area's waterways. The ``underground rivers'' are 
tunnels up to 35 feet in diameter and 350 feet below the surface. To 
provide an outlet for these tunnels, reservoirs will be constructed at 
the end of the tunnel systems. Approximately 93.4 miles of tunnels, 
constructed at a total cost of $2.0 billion, are operational. Another 
8.1 miles of tunnels, costing $141 million, are substantially complete 
and the final 7.9 miles of tunnels, costing $168 million, are under 
construction. The tunnels capture the majority of the pollution load by 
capturing all of the small storms and the first flush of the large 
storms. The completed O'Hare CUP Reservoir provides 350 million gallons 
of storage. This Reservoir has a service area of 11.2 square miles and 
provides flood relief to 21,535 homes in Arlington Heights, Des Plaines 
and Mount Prospect. In its first 5 years of operation, O'Hare CUP 
Reservoir has yielded $57.4 million in flood damage reduction benefits, 
which exceeds its $44.5 million construction costs. The Thornton and 
McCook Reservoirs are currently under construction, but until they are 
completed significant areas will remain unprotected. Without these 
outlets, the local drainage has nowhere to go when large storms hit the 
area.
    Since its inception, TARP has not only abated flooding and 
pollution in the Chicagoland area, but has helped to preserve the 
integrity of Lake Michigan. In the years prior to TARP, a major storm 
in the area would cause local sewers and interceptors to surcharge 
resulting in CSO spills into the Chicagoland waterways and during major 
storms into Lake Michigan, the source of drinking water for the region. 
Since these waterways have a limited capacity, major storms have caused 
them to reach dangerously high levels resulting in massive sewer 
backups into basements and causing multi-million dollar damage to 
property.
    Since implementation of TARP, 734 billion gallons of CSOs have been 
captured by TARP, that otherwise would have reached waterways. Area 
waterways are once again abundant with many species of aquatic life and 
the riverfront has been reclaimed as a natural resource for recreation 
and development. Closure of Lake Michigan beaches due to pollution has 
become a rarity. After the completion of both phases of TARP, 99 
percent of the CSO pollution will be eliminated. The elimination of 
CSOs will reduce the quantity of discretionary dilution water needed to 
keep the area waterways fresh. This water can be used instead for 
increasing the drinking water allocation for communities in Cook, Lake, 
Will and DuPage counties that are now on a waiting list to receive such 
water. Specifically, since 1977, these counties received an additional 
162 million gallons of Lake Michigan water per day, partially as a 
result of the reduction in the District's discretionary diversion since 
1980. Additional allotments of Lake Michigan water will be made to 
these communities, as more water becomes available from reduced 
discretionary diversion.
    With new allocations of lake water, more than 20 communities that 
previously did not get lake water are in the process of building, or 
have already built, water mains to accommodate their new source of 
drinking water. The new source of drinking water will be a substitute 
for the poorer quality well water previously used by these communities. 
Partly due to TARP, it is estimated by IDOT that between 1981 and 2020, 
283 million gallons per day of Lake Michigan water would be added to 
domestic consumption. This translates into approximately 2 million 
additional people that would be able to enjoy Lake Michigan water. This 
new source of water supply will not only benefit its immediate 
receivers but will also result in an economic stimulus to the entire 
Chicagoland area by providing a reliable source of good quality water 
supply.
                   the mccook and thornton reservoirs
    The McCook and Thornton Reservoirs of the Chicagoland Underflow 
Plan (CUP) were fully authorized for construction in the Water 
Resources Development Act of 1988 (Public Law 100-676). These CUP 
reservoirs, as previously discussed, are a part of TARP, a flood 
protection plan that is designed to reduce basement flooding due to 
combined sewer back-ups and inadequate hydraulic capacity of the urban 
waterways.
    These reservoirs will provide a storage capacity of 18 billion 
gallons and will provide annual benefits of $115 million. The total 
potential annual benefits of these projects are approximately twice as 
much as their total annual cost. The District, as the local sponsor, 
has acquired the land necessary for these projects, and will meet its 
cost sharing obligations under Public Law 99-662.
    These projects are a very sound investment with a high rate of 
return. They will enhance the quality of life, safety and the peace of 
mind of the residents of this region. The State of Illinois has 
endorsed these projects and has urged their implementation. In 
professional circles, these projects are hailed for their 
farsightedness, innovation, and benefits.
    Based on two successive Presidentially-declared flood disasters in 
our area in 1986 and again in 1987, and dramatic flooding in the last 
several years, we believe the probability of this type of flood 
emergency occurring before implementation of the critical flood 
prevention measure is quite high. As the public agency for the greater 
Chicagoland area responsible for water pollution control, and as our 
past sponsorship for flood control projects, we have an obligation to 
protect the health and safety of our citizens. We are asking your 
support in helping us achieve this necessary and important goal of 
construction completion.
    We have been very pleased that over the years the Subcommittee has 
seen fit to include critical levels of funds for these important 
projects. We were delighted to see the $14,000,000 in construction 
funds for the McCook and Thornton Reservoirs included in the Omnibus 
Appropriations bill for fiscal year 2003. However, it is important that 
we receive a total of $32,000,000 in construction funds in fiscal year 
2004 to maintain the commitment and accelerate these projects. This 
funding is critical to continue the construction of the McCook 
Reservoir on schedule, in particular, to complete construction of the 
grout curtain, distribution tunnels, and pumps and motors and to 
accelerate the design of the Thornton Reservoir. The community has 
waited long enough for protection and we need these funds now to move 
the project in construction. We respectfully request your consideration 
of our request.
                                summary
    Our most significant recent flooding occurred on February 20, 1997, 
when almost 4 inches of rain fell on the greater Chicagoland area. Due 
to the frozen ground, almost all of the rainfall entered our combined 
sewers, causing sewerage back-ups throughout the area. When the 
existing TARP tunnels filled with approximately 1.2 billion gallons of 
sewage and runoff, the only remaining outlets for the sewers were our 
waterways. Between 9:00 p.m. and 3:00 a.m., the Chicago and Calumet 
Rivers rose 6 feet. For the first time since 1981 we had to open the 
locks at all three of the waterway control points; these include 
Wilmette, downtown Chicago, and Calumet. Approximately 4.2 billion 
gallons of combined sewage and stormwater had to be released directly 
into Lake Michigan.
    Given our large regional jurisdiction and the severity of flooding 
in our area, the Corps was compelled to develop a plan that would 
complete the uniqueness of TARP and be large enough to accommodate the 
area we serve. With a combined sewer area of 375 square miles, 
consisting of the city of Chicago and 51 contiguous suburbs, there are 
1,443,000 structures within our jurisdiction, which are subject to 
flooding at any time. The annual damages sustained exceed $150 million. 
If TARP, including the CUP Reservoirs were in place, these damages 
could be eliminated. We must consider the safety and peace of mind of 
the two million people who are affected as well as the disaster relief 
funds that will be saved when these projects are in place. As the 
public agency in the greater Chicagoland area responsible for water 
pollution control, and as the regional sponsor for flood control, we 
have an obligation to protect the health and safety of our citizens. We 
are asking your support in helping us achieve this necessary and 
important goal. It is absolutely critical that the Corps' work, which 
has been proceeding for a number of years, now proceeds on schedule 
through construction.
    Therefore, we urgently request that a total of $32,000,000 in 
construction funds be made available in the fiscal year 2004 Energy and 
Water Development Appropriations Act to continue construction of the 
McCook and Thornton Reservoir Projects.
    Again, we thank the Subcommittee for its support of this important 
project over the years, and we thank you in advance for your 
consideration of our request this year.
                                 ______
                                 
       Prepared Statement of the Calaveras County Water District
          sacramento and san joaquin comprehensive basin study
   calaveras county conjunctive use and groundwater feasibility study
Calaveras County Water District
    Calaveras County (County) is located in the central Sierra Nevada 
foothills about 25 miles east of the Sacramento-San Joaquin Delta 
(Delta). Ground elevations within the County increase from 200 feet 
above mean sea level near the northwest part of the County to 8,170 
feet near Alpine County. It is a predominately rural county with a 
relatively sparse population and agricultural and industrial 
development. Calaveras County is located within the watersheds of the 
Mokelumne, Calaveras, and Stanislaus Rivers. All these rivers flow 
west, through San Joaquin County into the Delta. Most of the County is 
underlain by the igneous and metamorphic rocks of the Sierra Nevada. 
Alluvial deposits of the Central Valley, which overlie the westward 
plunging Sierra Nevada, are present along an 80 square-mile area 
located along the western edge of the county and are part of the 
Eastern San Joaquin County Groundwater Basin (ESJCGB). This requested 
conjunctive use and groundwater feasibility study under the authority 
of the Corps of Engineers' Sacramento and San Joaquin Comprehensive 
Basin Study will be focused on the western part of Calaveras County.
    In the fall of 1946, the Calaveras County Water District (CCWD) was 
organized under the laws of the State of California as a public agency 
for the purpose of developing and administering the water resources in 
Calaveras County. Therefore, CCWD is a political subdivision of the 
State of California and is governed by the California Constitution and 
the California Government and Water Codes. CCWD is not a part of or 
under the control of the County of Calaveras. CCWD was formed to 
preserve and develop water resources and to provide water and sewer 
service to the citizens of Calaveras County.
    Under State law, CCWD, through its Board of Directors, has general 
powers over the use of water within its boundaries. These powers 
include but are not limited to: the right of eminent domain, authority 
to acquire, control, distribute, store, spread, sink, treat, purify, 
reclaim, process and salvage any water for beneficial use, to provide 
sewer service, to sell treated or untreated water, to acquire or 
construct hydroelectric facilities and sell the power and energy 
produced to public agencies or public utilities engaged in the 
distribution of power, to contract with the United States, other 
political subdivisions, public utilities, or other persons, and subject 
to the California State Constitution, levy taxes and improvements.
Project Need
    The Calaveras County Conjunctive Use and Groundwater Feasibility 
Study is needed to address future increasing water demands, provide 
water supply reliability in extended droughts, and help mitigate 
groundwater overdraft conditions in the ESJCGB.
    The Calaveras County 1990 population totaled 32,000 people. By 
2040, the County population is estimated to be between 100,000 and 
150,000 (Source: Calaveras River Conjunctive Use Feasibility Study and 
Pilot Program Report prepared by Bookman-Edmonston, June 2001). The 
historic sparse population base has not required use of all the 
District's water supplies. The rate base also could not support 
construction of facilities needed to fully develop all the water 
resources available to the District. The county is now experiencing 
rapid growth, requiring the District to develop its remaining water 
supplies to meet the increasing demand.
    Multi-year droughts can threaten the District's ability to meet 
water demands in the County. For example, the District's Jenny Lind 
Water Treatment Plant is located on the Calaveras River a few miles 
downstream of New Hogan Reservoir and during extended droughts, reduced 
inflows into New Hogan increase the chance that there may not be enough 
water to meet the current water demands. With increasing water demands 
projected in the future, the water shortages will continue in dry years 
and may become prevalent in normal and wet years.
    The study area comprises the northeast portion of the ESJCGB as 
defined by the California Department of Water Resources (DWR). The 
ESJCGB is considered in an overdraft condition, and the western edge of 
the basin is subject to saline intrusion from the Delta. The California 
Department of Water Resources water level data for wells near the 
Calaveras-San Joaquin County line, have recorded water level declines 
ranging from 0.6 to 1.5 feet per year over the last 40 years. Without 
programs to mitigate the groundwater overdraft, groundwater levels will 
continue to decline in the groundwater basin.
Project Benefit
    The Calaveras County Conjunctive Use and Groundwater Feasibility 
Study would be developed to identify and maximize the use of the 
District's surface water resources on the Mokelumne, Calaveras and 
Stanislaus Rivers in conjunction with the groundwater supply to improve 
supply reliability. The District currently does not use all of its 
available surface water from the rivers flowing through the County. The 
study would allow the District to investigate the use of more of its 
entitlement in wet years by recharging the groundwater basin with water 
the District is currently not using. The storage and transmission 
capacity of the groundwater basin would be used to store the banked 
surface water until it is needed. This water could then be used during 
an extended drought to supplement reduced surface water supplies to 
provide drinking water supplies to the area.
    Maintaining supplies in District reservoirs, especially during dry 
years, provides benefit to the District and other river water users 
like the Stockton East Water District located in San Joaquin County. 
Developing local/Federal studies and programs like the Calaveras County 
Conjunctive Use and Groundwater Feasibility Study provides local and 
regional benefits. It also provides additional statewide benefits by 
contributing to the CALFED solution of meeting local water needs. By 
meeting their own water needs, local areas are not dependent upon the 
State to develop water supplies for them. This is consistent with the 
goals of the CALFED Integrated Storage Investigation (ISI).
    Because of the overdraft of the ESJCGB, coupled with extended 
drought periods, reduced inflows increase the chance that there may not 
be enough water to meet current demands. Developing local/Federal 
studies like the Calaveras County Conjunctive Use and Groundwater 
Feasibility Study provides critical local and regional benefits 
allowing these areas to meet their own needs better.
    The District, therefore, respectfully requests the Committee's 
support of $1,000,000 in appropriations in fiscal year 2004 within the 
Corps of Engineers' Program under the authority of the Sacramento and 
San Joaquin Comprehensive Basin Study, so that the Corps may initiate a 
feasibility study with regard to Calaveras County Conjunctive Use and 
Groundwater.
mokelumne river, calaveras river, and stanislaus river watersheds study
Project Need
    The Watershed Management Study Calaveras County Water District 
(CCWD) is seeking under the Corps of Engineers' program, within the 
Sacramento and San Joaquin Comprehensive Basin Study authority, 
includes the Mokelumne River, Calaveras River and Stanislaus River 
Watersheds. It proceeds from the basic assumption that water resources 
management is most efficiently and effectively conducted on a watershed 
level.
    Calaveras County is located in the central Sierra Nevada foothills. 
CCWD is responsible for developing and administering the water 
resources of Calaveras County. Historically, a significant portion of 
the water needs of Calaveras County have been met mostly with surface 
water from the Mokelumne, Calaveras or Stanislaus Rivers.
    Groundwater was only used to meet demands in local areas. This 
proposed study area, which is part of the Eastern San Joaquin County 
Groundwater Basin (ESJCGB), has been identified by the State of 
California as being in a state of overdraft.
    In an effort to gain a better understanding of the condition of the 
water sources and the surrounding environment, this watershed 
management approach is being requested. Some of the objectives of such 
a study may include:
  --To restore, protect, and enhance water quality and associated 
        aquatic resources and water supplies;
  --To conserve, protect, and restore the natural resources of the 
        Mokelumne, Calaveras and Stanislaus Rivers Watersheds (land, 
        water, forest, and wildlife);
  --To minimize the threat to life and the destruction of property and 
        natural resources from flooding and to preserve (or re-
        establish) natural hydrologic functions;
  --To restore, protect, develop, and enhance the ecological, historic, 
        cultural, recreational, and visual amenities of rural and urban 
        areas within the watersheds and particularly along stream 
        corridors.
    The terrain of the watershed varies from mild elevations and 
meadows in the western rolling foothills to more rugged mountains and 
wilderness in the eastern high Sierra region. Tourism and recreation, 
forest products, mineral resources, and agricultural products are 
significant elements of the area's economic base. As a result, a 
variety of land uses are found within the watersheds, including 
residential, forested, industrial, agricultural, and recreational. 
Residential land uses in Calaveras County are primarily rural 
residential, with the unincorporated community of San Andreas being the 
largest urban area within the watershed area. The California State 
Department of Finance (CSDF) estimates the 2000 population of Calaveras 
County to be about 38,500 persons.
    While CCWD has been pursuing watershed management study efforts 
since 2000 in partnership with adjoining counties for more focused 
watershed management efforts, specifically in the Calaveras River 
Watershed, a comprehensive management study coupling all of the three 
watersheds (Mokelumne, Calaveras and Stanislaus Rivers), which fall 
within the jurisdiction of CCWD is critical to better plan for both 
water quantity and quality issues, and the environmental and natural 
resources issues facing the watershed.
    The CCWD has not only been a principle partner in watershed 
management throughout the development of the more focused local 
watershed planning studies, but has been concerned about watershed 
issues since its very beginning as a water supply provider. CCWD 
believes that a healthy watershed, including healthy ecosystems and 
wildlife populations, makes the provision of clean drinking water 
easier for water districts.
    Because of the need for a comprehensive watershed management 
program given the diversity of water supply, quality, environmental, 
natural resources and the region's economic base, which is dependent on 
its natural resources, we believe such an effort is warranted.
    The District, therefore, respectfully requests the Committee's 
support of $500,000 in appropriations in fiscal year 2004 under the 
Corps of Engineer's program, within the authority of the Sacramento and 
San Joaquin Comprehensive Study, so that the Corps may initiate a 
feasibility study of the Mokelumne, Calaveras and the Stanislaus Rivers 
Watersheds within the service area of the CCWD.
                                 ______
                                 
     Prepared Statement of the Napa County Flood Control and Water 
                         Conservation District
              napa river flood control project--background
    The project is located in the city and county of Napa, California. 
The population in the city of Napa, approximately, 67,000 in 1994, is 
expected to exceed 77,000 this year. Excluding public facilities, the 
present value of damageable property within the project flood plain is 
well over $500 million. The Napa River Basin, comprising 426 square 
miles, ranging from tidal marshes to mountainous terrain, is subject to 
severe winter storms and frequent flooding. In the lower reaches of the 
river, flood conditions are aggravated by high tides and local runoff. 
Floods in the Napa area have occurred in 1955, 1958, 1963, 1965, 1986 
(flood of record), 1995, and 1997. In 1998, the river rose just above 
flood stage on three occasions, but subsided before major property 
damage occurred. In December of 2002, flooding occurred from the Napa 
Creek at the transition to the Napa River, resulting in damage to 
numerous residents and several businesses.
    Since 1962, twenty-seven major floods have struck the Valley 
region, exacting a heavy toll in loss of life and property. The flood 
on 1986, for example, killed three people and caused more than $100 
million in damage. Damages throughout Napa County totaled about $85 
million from the January and March 1995 floods. The floods resulted in 
27 businesses and 843 residences damaged countrywide. Almost all of the 
damages from the 1986, 1995, and 1997 floods were within the project 
area. Congress has authorized a flood control project since 1944, but 
due to expense, lack of public consensus on the design and concern 
about environment impacts, a project had never been realized. In mid-
1995, Federal and State resource agencies reviewed the plan and gave 
notice to the Corps that this plan had significant regulatory hurdles 
to face.
                    approved plan--project overview
    In an effort to identify a meaningful and successful plan, a new 
approach emerged that looked at flood control from a broader, more 
comprehensive perspective. Citizens for Napa River Flood Management was 
formed, bringing together a diverse group of local engineers, 
architects, aquatic ecologists, business and agricultural leasers, 
environmentalists, government officials, homeowners and renters and 
numerous community organizations.
    Through a series of public meetings and intensive debate over every 
aspect of Napa's flooding problems, the Citizens for Napa River Flood 
Management crafted a flood management plan offering a range of benefits 
for the entire Napa region. The Corps of Engineers served as a partner 
and a resource for the group, helping to evaluate their approach to 
flood management. The final plan produced by the Citizens for Napa 
River Flood Management was successfully evaluated through the research, 
experience and state-of-the-art simulation tools developed by the Corps 
and numerous international experts in the field of hydrology and other 
related disciplines. The success of this collaboration serves as a 
model for the Nation.
    Acknowledging the river's natural state, the project utilizes a set 
of living river strategies that minimize the disruption and alteration 
of the river habitat, and maximizes the opportunities for environmental 
restoration and enhancement throughout the watershed.
    The Corps has developed the revised plan, which provides 100-year 
protection, with the assistance of the community and its consultants 
into the Supplemental General Design Memorandum (SGDM) and its 
accompanying draft Environmental Impact Statement/Environmental Impact 
Report (SEIS/EIR). Construction of the project began 2 years ago. The 
coalition plan now memorialized in the Corps final documents includes 
the following engineered components: lowering of old dikes, marsh plain 
and flood plain terraces, oxbow dry bypass, Napa Creek flood plain 
terrace, upstream and downstream dry culverts along Napa Creek, new 
dikes, levees and flood walls, bank stabilization, pump stations and 
detention facilities, and bridge replacements. The benefits of the plan 
include reducing or elimination of loss of life, property damage, 
cleanup costs, community disruption due to unemployment and lost 
business revenue, and the need for flood insurance. In fact, the 
project has created an economic renaissance in Napa with new 
investment, schools and housing coming into a livable community on a 
living river. As a key feature, the plan will improve water quality, 
create urban wetlands and enhance wildlife habitats.
    The plan will protect over 7,000 people and over 3,000 residential/
commercial units from the 100-year flood event on the Napa River and 
its main tributary, the Napa Creek, and the project has a positive 
benefit-to-cost ratio under the Corps calculation. One billion dollars 
in damages will be saved over the useful life of the project. The Napa 
County Flood Control District is meeting its local cost-sharing 
responsibilities for the project. A countywide sales tax, along with a 
number of other funding options, was approved 4 years ago by a two-
thirds majority of the county's voters for the local share. Napa is 
California's highest repetitive loss community. This plan is 
demonstrative of the disaster resistant community initiative, as well, 
as the sustainable development initiatives of FEMA and EPA.
                            project synopsis
Fiscal Year 2003 Funding
    The 2003 appropriations bill included $9,000,000 to continue 
construction of the project. The funding was sought for demolition of 
buildings and fixtures on 24 parcels that have been acquired by the 
non-Federal sponsor, relocation of the Napa Valley Wine Train rail line 
for an approximate 3 mile distance, as well as relocation of the 
facilities serving this public utility, removal of 190,000 cubic yards 
of soil which was contaminated by petroleum products,, construction of 
marsh and flood plain terraces for an approximate 1.5 mile distance. 
Included in this amount is the reimbursement to the non-Federal sponsor 
for expenditures in excess of 45 percent of the total project costs to 
date. The local sponsor has expended $90 million plus as compared to 
Federal sponsor expenditures to date of approximately $20 million.
Necessary Fiscal Year 2004 Funding
    Funding for the Napa River Project during 2004 in the amount of 
$24,000,000 is needed to continue construction of the project. These 
funds will be used to accomplish the following tasks:
  --Complete HTRW remediation along the east side of the river for 
        additional 2 miles involving removal of an additional 200,000 
        cubic yards of contaminated soil;
  --Initiate and complete the Contract 1B excavation work in Kennedy 
        Park;
  --Initiate Contract 2East excavation work on the east side of river 
        from Imola to the Bypass;
  --Continue engineering and design on future contracts;
  --Accomplish Construction Management on contract underway;
  --Initiate reimbursement of local sponsor with funds not required for 
        the above.
    Included in this amount is the reimbursement to the non-Federal 
sponsor for expenditures in excess of 45 percent of the total project 
costs to date. By the end of June, 2003 the non-Federal sponsor will 
have expended $150 million.
              napa valley watershed management--background
    Napa Valley watershed faces many challenges and stresses to its 
environmental health and flood management abilities. From a healthy 
river point of view, the Napa River has been on a recovery path since 
its low point in the 1960's, when the last of the native salmon were 
taken from the system by severe water pollution and habitat 
destruction. Steelhead trout have survived as a remnant population of 
200 that is presently in need of higher quality and more extensive 
spawning areas for recovery to a significant population. Beginning 
populations of fall run Chinook salmon have taken up residence in the 
watershed in those few areas available for spawning. While the chemical 
and wastewater pollution of earlier years has been effectively dealt 
with, excess sediment is still a critical stress on the salmon 
population, as it is to the spawning and rearing areas of the river in 
the estuarine zone upstream of San Pablo Bay, populated by delta smelt, 
splittail, green sturgeon and striped bass.
    The U.S. EPA and Region II Water Quality Control Board have 
prioritized the River as an impaired water body because of the sediment 
production. The excess sediment generated in the watershed suffocates 
spawning areas, reduces the stream's flood-carrying ability, fills deep 
pools, increases turbidity in the stream and estuary, carries with it 
nutrients that bring significant algae blooms during the summer and 
fall, and changes the morphological balance of the streams and river 
toward more unstable conditions.
    In order to address issues such as encroachment of the river and 
loss of wetlands and to develop local tools for improving natural 
resource management, the U.S. Army Corps of Engineers, San Francisco 
District (Corps) and the Napa County Flood Control and Water 
Conservation District (NCFCWCD) is currently developing a Napa Valley 
Watershed Management Plan (WMP) which identifies problems and 
opportunities for implementing environmentally and economically 
beneficial restoration in the Napa Valley watershed providing ecosystem 
benefits, such as flood reduction, erosion control, sedimentation 
management, and pollution abatement. The plan, which the District is 
requesting funds for, would include the identification, review, 
refinement, and prioritization of restoration and flood protection 
opportunities with an emphasis on restoration of the watershed's 
ecosystem (e.g.: important plant communities, healthy fish and wildlife 
populations, rare and endangered habitats and species and wildlife and 
riparian habitats).
    The goal is to complete the WMP by providing technical, planning, 
and design assistance to the non-Federal interests for carrying out 
watershed management, restoration and development on the Napa River and 
its tributaries from Soscol Ridge, located approximately 5 miles south 
of the city of Napa, to Mt. St. Helena, the northern most reach of the 
Napa River watershed, California. A management program incorporating 
flood protection and environmental restoration would be developed as a 
result of the watershed plan.
    To address the above mentioned and other local, regional, and 
national watershed concerns, the Napa County Board of Supervisors 
appointed a Napa County Watershed Task Force (WTF) to identify 
community based and supported solutions. The WTF submitted their 
recommendation for further action to the Napa County Board of 
Supervisors.
    The Corps and the NCFCWCD developed the Napa Valley Watershed 
Project Management Plan with input from the Napa County Planning 
Department (NCPD), Napa County Up-Valley Cities, Napa County Watershed 
Task Force (WTF), Napa County Resource Conservation District (RCD), 
Regional Water Quality Control Board (RWQCB), the San Francisco Estuary 
Institute (SFEI), and other regional and local stakeholders.
    In an effort to identify problems and opportunities for 
implementing beneficial restoration in the Napa Valley Watershed, the 
Napa County Flood Control District is requesting the Napa Valley 
Watershed Management Study be continued by the Corps of Engineers. The 
authority for this study is the Northern California Streams Study 
Authority stemming from the Rivers and Harbors Act of 1962, Public Law 
87-874. Specifically, the Napa County Flood Control District is working 
closely with the Corps in the feasibility report to examine the 
watershed management needs, including flood control, environmental 
restoration, erosion control, storm water retention, storm water runoff 
management, water conservation and supply, wetlands restoration, 
sediment management and pollution abatement in the Napa Valley, 
including the communities of Napa, Yountville, St. Helena, Calistoga 
and the unincorporated areas of Napa County.
                            project synopsis
Fiscal Year 2003 Budget Funding
    The fiscal year 2003 appropriations bill included $150,000 to 
continue the Napa Valley Watershed Management Study. Funds are being 
used for data evaluation and outreach and to create a data monitoring 
framework for the watershed. This framework, known as the Watershed 
Information Center (WIC), will serve as a coordinating body and data-
monitoring framework for the watershed. The WIC will serve as a library 
for existing biological and physical data on the watershed. It can 
serve as a forum for the multiple agencies, academic researcher and 
non-profit organizations engaged in monitoring in the watershed.
Necessary Fiscal Year 2004 Funding
    Funding for the Napa Valley Watershed Management Study during 
fiscal year 2004 in the amount of $350,000 is needed to complete an 
aerial photography/mapping project of the watershed area and complete 
the Watershed Information Center. The mapping project was started in 
fiscal year 2002 and in the current fiscal year has been supplemented 
with LIDAR topography measurements provided by the State Regional Water 
Quality Control Board. This mapping provides a Geographical Information 
System (GIS) base for the management information of the watershed. The 
WIC also was started in fiscal year 2002 and the current request will 
complete creation of this data system. Both of these activities are 
cornerstone components of the Napa Valley Watershed Management Study.
                                 ______
                                 
        Prepared Statement of the City of St. Helena, California
    The City of St. Helena is located in the center of the wine growing 
Napa Valley, 65 miles north of San Francisco. The area was settled in 
1834 as part of General Vallejo's land grant. The City of St. Helena 
was incorporated as a City on March 24, 1876 and reincorporated on May 
14, 1889.
    The City from its inception has served as a rural agricultural 
center. Over the years, with the growth and development of the wine 
industry, the City has become an important business and banking center 
for the wine industry. The City also receives many tourists as a result 
of the wine industry. While, the main goal of the City is to maintain a 
small-town atmosphere and to provide quality services to its citizens, 
this is becoming increasingly difficult. Regulatory, administrative and 
resource requirements placed on the City through the listing of 
threatened and endangered species under the Endangered Species Act on 
the Napa River, as well as significant Clean Water Act requirements 
require the City with a small population base to face significant 
financial costs.
    The City of St. Helena is a General Law City and operates under the 
Council-City Manager form of government. The City Council is the 
governing body and has the power to make and enforce all laws and set 
policy related to municipal affairs. The official population of the 
City of St. Helena as of January 1, 2002 is 6,019. St. Helena is a full 
service City and encompasses an area of 4 square miles. Because of its 
size and its rural nature, St. Helena has serious infrastructure, as 
well as, flood protection and environmental needs that far exceed its 
financial capabilities.
    The Napa River flows along the north boundary of the City of St. 
Helena in northern Napa County. The overall Napa River Watershed 
historically supported a dense riparian forest and significant wetland 
habitat. Over the last 200 years, approximately 6,500 acres of valley 
floor wetlands have been filled in and 45,700 acres of overall 
watershed have been converted to urban and agricultural uses. This 
degradation of natural habitats has had a significant effect on water 
quality, vegetation and wildlife, and aquatic resources within the Napa 
River Watershed.
    Surface water quality of the Napa River is dependent upon the time 
of year, runoff from York and Sulphur Creeks, and urban area 
discharges. During the winter months when streamflow is high, 
pollutants are diluted; however, sedimentation and turbidity is high as 
well. During the summer months when streamflow is low, pollutants are 
concentrated and oxygen levels are low, thereby decreasing water 
quality. Agricultural runoff adds pesticides, fertilizer residue, and 
sometimes sediment. Discharges from urban areas can include 
contaminated stormwater runoff and treated city wastewater. The Napa 
River has been placed on the Clean Water Act 303(d) List and TMDL 
Priority Schedule due to unacceptable levels of bacteria, 
sedimentation, and nutrients. It is against this backdrop that the City 
of St. Helena faces its biggest challenges.
               st. helena napa river restoration project
    The Napa River and its riparian corridor are considered Critical 
Habitat for Steelhead and Salmon Recovery. The Steelhead is one of 6 
Federally listed threatened and endangered species within the Napa 
River and its adjoining corridor which requires attention. Current 
conditions are such that natural habitats and geomorphic processes of 
the Napa River are highly confined with sediment transport and 
geomorphic work occurring in a limited area of the streambed and 
channel banks. Napa River's habitat for the steelhead is limited in its 
ability to provide prime spawning habitat. Limitations include: (1) 
urbanization removing significant amounts of shading and cover 
vegetation within and adjacent to the river; and (2) a detrimental lack 
of pool habitat. Encroachment and channelization of Napa River have 
degraded riparian habitat for rearing, resident, and migratory fish and 
wildlife. The lack of riparian cover, increasing water temperature and 
sedimentation in the river, has resulted in poor water quality. These 
changes have reduced the project area's ability to support the re-
establishment of listed species.
    In an effort to address these Federal environmental issues, the St. 
Helena Napa River Restoration Project, a Section 206 Aquatic Ecosystem 
Restoration Project, was identified in the Napa Valley Watershed 
Management Feasibility Study in April of 2001 as a specific opportunity 
for restoration. The project would restore approximately 3 miles (20 
acres) of riparian habitat and improve the migratory capacity of 
Federally listed threatened and endangered species, providing greater 
access to rearing, resident and migratory habitats in the 80 square 
mile watershed above the project area.
    The project will interface with and complement the City of St. 
Helena's multiple objective flood project, the St. Helena Flood 
Protection and Flood Corridor Restoration Project, which will provide 
flood damage reduction through restoration and re-establishment of the 
natural floodplain along the project reach, setting back levees and the 
re-creation and restoration of a natural floodway providing high value 
riparian forest.
    This Section 206 project is necessary to ensure and improve the 
viability of Federal and State listed species by providing rearing, 
resident and migratory habitat in the project 3 mile stream corridor. 
The project will also work to improve area habitat to benefit the 
migration of steelhead to high value fisheries habitat in upper 
watershed channel reaches. In an effort to build on recent geomorphic 
and riparian studies on the Napa River, the Corps will use these 
efforts from Swanson Hydrology and Geomorphology and Stillwater Science 
to secure baseline information for this project.
    The City of St. Helena respectfully requests the Committee's 
support for $360,000 for completing the Detailed Project Report and 
initiating plans and specifications for the St. Helena Napa River 
Restoration Project under the Corps' Section 206 Aquatic Ecosystem 
Restoration Program.
             york creek dam removal and restoration project
    York Creek originates from the Coast Range on the western side of 
the Napa Valley Watershed at an elevation of approximately 1,800 feet 
and flows through a narrow canyon before joining the Napa River 
northeast of St. Helena. York Creek Dam on York Creek has been 
identified as a significant obstacle to passage for Federally listed 
Steelhead in the Central California Coast. In fact, it has been 
determined that York Creek Dam is a complete barrier to upstream fish 
migration. In addition, since the City of St. Helena has owned York 
Creek Dam, there has been a number of silt discharges from the dam into 
York Creek that have caused fish kills.
    Under the Corps of Engineers' Section 206 Authority, a study is 
underway to remove the dam structure and to restore the creek in an 
effort to improve fish passage and ecological stream function for this 
Napa River tributary. Alternatives to be investigated and pursued 
include complete removal of York Creek Dam, appurtenances and 
accumulated sediment, re-grading and restoring the creek through the 
reservoir area. Rather than merely removing the dam and accumulated 
sediments, this alternative would use a portion of the material to re-
grade the reservoir area to simulate the configuration of the 
undisturbed creek channel upstream. Material could also be used to fill 
in and bury the spillway and to fill in the scour hole immediately 
downstream of the spillway. Use of material on site will greatly reduce 
hauling and disposal costs, as well as recreating a more natural creek 
channel through the project area.
    The revegetation plan for the site following removal of the earthen 
dam will restore a self-sustaining native plant community that is 
sufficiently established to exclude nonnative invasive plants. 
Revegetation will replace vegetation that is removed due to 
construction and stabilize sediments in the stream channel riparian 
corridor and upper bank slopes. The species composition of the 
revegetated site will be designed to match that of (relatively) 
undisturbed sites both above and below the project site. In terms of 
expected outcomes for the project, the removal of York Creek Dam will 
open an additional 2 miles of steelhead habitat upstream of the dam, 
and the channel restoration will reestablish natural channel geomorphic 
processes and restore riparian vegetation.
    The City of St. Helena respectfully requests the Committee's 
support for $800,000 in appropriations under the Corps of Engineers' 
Section 206 Aquatic Ecosystem Restoration Program, so that the efforts 
can proceed on completing the plans and specification and initiating 
construction of the York Creek Dam Removal and Restoration Project.
                                 ______
                                 
     Prepared Statement of the Santa Clara Valley Water District, 
                          San Jose, California
                        guadalupe river project
    Background.--The Guadalupe River is a major waterway flowing 
through a highly developed area of San Jose, in Santa Clara County, 
California. A major flood would damage homes and businesses in the 
heart of Silicon Valley. Historically, the river has flooded downtown 
San Jose and the community of Alviso. According to the U.S. Army Corps 
of Engineers (Corps) 2000 Final General Reevaluation & Environmental 
Report for Proposed Project Modifications, estimated damages from a 1 
percent flood in the urban center of San Jose are over $576 million. 
The Guadalupe River overflowed in February 1986, January 1995, and 
March 1995, damaging homes and businesses in the St. John and Pleasant 
Street areas of downtown San Jose. In March 1995, heavy rains resulted 
in breakouts along the river that flooded approximately 300 homes and 
business.
    Project Synopsis.--In 1971, the local community requested that the 
Corps reactivate its earlier study. Since 1972, substantial technical 
and financial assistance have been provided by the local community 
through the Santa Clara Valley Water District in an effort to 
accelerate the project's completion. To date, more than $85.8 million 
in local funds have been spent on planning, design, land purchases, and 
construction in the Corps' project reach.
    The Guadalupe River Project received authorization for construction 
under the Water Resources Development Act of 1986; the General Design 
Memorandum was completed in 1992, the local cooperative agreement was 
executed in March 1992, the General Design Memorandum was revised in 
1993, construction of the first phase of the project was completed in 
August 1994, construction of the second phase was completed in August 
1996. Project construction was temporarily halted due to environmental 
concerns.
    To achieve a successful, long-term resolution to the issues of 
flood protection, environmental mitigation, avoidance of environmental 
effects, and project monitoring and maintenance costs, a multi-agency 
``Guadalupe Flood Control Project Collaborative'' was created in 1997. 
A key outcome of the collaborative process was the signing of the 
Dispute Resolution Memorandum in 1998, which modified the project to 
resolve major mitigation issues and allowed the project to proceed. 
Energy and Water Development Appropriations Act of 2002 was signed into 
law on November 12, 2001. This authorized the Modified Guadalupe River 
Project at a total cost of $226,800,000. Construction of the last phase 
of flood protection is scheduled for completion by December 2004 and is 
dependent on timely Federal funding and continuing successful 
mitigation issue resolution. The overall construction of the project 
including the river park and the recreation elements is scheduled for 
completion in 2006.
    Fiscal Year 2003 Funding.--$8 million was authorized in fiscal year 
2003 to continue Guadalupe River Project construction.
    Fiscal Year 2004 Funding Recommendation.--Based upon the need to 
continue construction to provide critical flood protection for downtown 
San Jose and the community of Alviso, it is requested that the 
Congressional Committee support an appropriation add-on of $12 million, 
in addition to the $13 million in the Administration's fiscal year 2004 
budget, for a total of $25 million to continue construction of the 
final phase of the Guadalupe River Flood Protection Project.
                     upper guadalupe river project
    Background.--The Guadalupe River is one of two major waterways 
flowing through a highly urbanized area of Santa Clara County, 
California, the heart of Silicon Valley. Historically, the river has 
flooded the central district and southern areas of San Jose. According 
to U.S. Army Corps of Engineers (Corps) 1998 feasibility study, severe 
flooding in the upper Guadalupe River's densely populated residential 
floodplain south of Interstate 280 would result from a 100-year 
flooding event and potentially cause $280 million in damages.
    The probability of a large flood occurring before implementation of 
flood prevention measures is high. The upper Guadalupe River overflowed 
in March 1982, January 1983, February 1986, January 1995, March 1995, 
and February 1998, causing damage to several residences and businesses 
in the Alma Avenue and Willow Street areas. The 1995 floods in January 
and March, as well as in February 1998, closed Highway 87 and the 
parallel light-rail line, a major commute artery.
    Project Synopsis.--In 1971, the Santa Clara Valley Water District 
(District) requested the Corps to reactivate its earlier study. From 
1971 to 1980, the Corps established the economic feasibility and 
Federal interest in the Guadalupe River only between Interstate 880 and 
Interstate 280. Following the 1982 and 1983 floods, the District 
requested that the Corps reopen its study of the upper Guadalupe River 
upstream of Interstate 280. The Corps completed a reconnaissance study 
in November 1989, which established an economically justifiable 
solution for flood protection in this reach. The report recommended 
proceeding to the feasibility study phase, which began in 1990. In 
January 1997, the Corps determined that the National Economic 
Development Plan would be a 2 percent or 50-year level of flood 
protection rather than the 1 percent or 100-year level. The District 
strongly emphasized overriding the National Economic Development Plan 
determination, providing compelling reasons for using the higher 1 
percent or 100-year level of protection. In 1998, the Acting Secretary 
of the Army did not concur to change the basis of cost sharing from the 
50-year National Economic Development Plan to the locally preferred 
100-year plan, resulting in a project that will provide less flood 
protection, and therefore, be unable to reduce flood insurance 
requirements and reimbursements, as well as eliminate recreational 
benefits and increase environmental impacts. Based on Congressional 
delegation requests, the Assistant Secretary of the Army directed the 
Corps to revise the Chief's Report to reflect more significant Federal 
responsibility. The Corps feasibility study determined the cost of the 
locally preferred 100-year plan is $153 million and the Corps National 
Economic Development Plan 50-year plan is $98 million. The District has 
requested that the costs of providing 50-year and 100-year flood 
protection be analyzed again during the preconstruction engineering 
design phase for the determination of the National Economic Development 
Plan. In a memorandum for the Assistant Secretary of the Army, dated 
October 12, 2000, Major General Hans A. Van Winkle, Deputy Commander 
for Civil Works, made a similar recommendation. The Federal cost share 
has yet to be determined. The project was approved for construction by 
the Water Resources Development Act of 1999 (Section 101).
    Fiscal Year 2003 Funding.--$200,000 was authorized in fiscal year 
2003 for the Upper Guadalupe River Project to continue preconstruction 
engineering and design.
    Fiscal Year 2004 Funding Recommendation.--Based upon the high risk 
of flood damage from the upper Guadalupe River and the need to complete 
preconstruction engineering and design, it is requested that the 
Congressional Committee support an appropriation add-on of $3.3 million 
in fiscal year 2004 for the Upper Guadalupe River Flood Protection 
Project.
            upper penitencia creek flood protection project
    Background.--The Upper Penitencia Creek Watershed is located in 
northeast Santa Clara County, California, near the southern end of the 
San Francisco Bay. In the last two decades, the creek has flooded in 
1980, 1982, 1983, 1986, 1995, and 1998. The January 1995 flood damaged 
a commercial nursery, a condominium complex, and a business park. The 
February 1998 flood also damaged many homes, businesses, and surface 
streets.
    The proposed project on Upper Penitencia Creek, from the Coyote 
Creek confluence to Dorel Drive, will protect portions of the cities of 
San Jose and Milpitas. The floodplain is completely urbanized; 
undeveloped land is limited to a few scattered agricultural parcels and 
a corridor along Upper Penitencia Creek. Based on the U.S. Army Corps 
of Engineers' (Corps) 1995 reconnaissance report, 4,300 buildings in 
the cities of San Jose and Milpitas are located in the flood prone 
area, 1,900 of which will have water entering the first floor. The 
estimated damages from a 1 percent or 100-year flood exceed $121 
million.
    Study Synopsis.--Under authority of the Watershed Protection and 
Flood Prevention Act (Public Law 83-566), the Natural Resources 
Conservation Service (formerly the Soil Conservation Service) completed 
an economic feasibility study (watershed plan) for constructing flood 
damage reduction facilities on Upper Penitencia Creek. Following the 
1990 U.S. Department of Agriculture Farm Bill, the Natural Resources 
Conservation Service watershed plan stalled due to the very high ratio 
of potential urban development flood damage compared to agricultural 
damage in the project area.
    In January 1993 the Santa Clara Valley Water District (District) 
requested the Corps proceed with a reconnaissance study in the 1994 
fiscal year while the Natural Resources Conservation Service plan was 
on hold. Funds were appropriated by Congress for fiscal year 1995 and 
the Corps started the reconnaissance study in October 1994. The 
reconnaissance report was completed in July 1995, with the 
recommendation to proceed with the feasibility study phase. The 
feasibility study, initiated in February 1998, is currently scheduled 
for completion in 2005.
    Advance Construction.--To accelerate project implementation, the 
District submitted a Section 104 application to the Corps for advance 
approval to construct a portion of the project. Approval of the Section 
104 application was awarded in December 2000. The advance construction 
is for a 2,600-foot long section of bypass channel between Coyote Creek 
and King Road. The District was planning to begin construction on this 
portion of the project in 2002. However, due to funding constraints, 
the current plan is for the District to complete the design and to turn 
it over to the Corps to construct when the upstream reaches are ready 
for construction.
    Fiscal Year 2003 Funding.--$559,000 was appropriated in fiscal year 
2003 for the Upper Penitencia Creek Flood Protection Project for 
project investigation.
    Fiscal Year 2004 Funding Recommendation.--Based upon the high risk 
of flood damage from Upper Penitencia Creek and the need to proceed 
with the feasibility study, it is requested that the Congressional 
Committee support the $460,000 in the Administration's fiscal year 2004 
budget for the Upper Penitencia Creek Flood Protection Project.
                          llagas creek project
    Background.--The Llagas Creek Watershed is located in southern 
Santa Clara County, California, serving the communities of Gilroy, 
Morgan Hill and San Martin. Historically, Llagas Creek has flooded in 
1937, 1955, 1958, 1962, 1963, 1969, 1982, 1986, 1996, 1997, and 1998. 
The 1997, 1998, and 2002 floods damaged many homes, businesses, and a 
recreational vehicle park located in areas of Morgan Hill and San 
Martin. These are areas where flood protection is proposed. Overall, 
the proposed project will protect the floodplain from a 1 percent flood 
affecting more than 1,100 residential buildings, 500 commercial 
buildings, and 1,300 acres of agricultural land.
    Project Synopsis.--Under authority of the Watershed Protection and 
Flood Prevention Act (Public Law 83-566), the Natural Resources 
Conservation Service completed an economic feasibility study in 1982 
for constructing flood damage reduction facilities on Llagas Creek. The 
Natural Resources Conservation Service completed construction of the 
last segment of the channel for Lower Llagas Creek in 1994, providing 
protection to the project area in Gilroy. The U.S. Army Corps of 
Engineers (Corps) is currently updating the 1982 environmental 
assessment work and the engineering design for the project areas in 
Morgan Hill and San Martin. The engineering design is being updated to 
protect and improve creek water quality and to preserve and enhance the 
creek's habitat, fish, and wildlife while satisfying current 
environmental and regulatory requirement. Significant issues include 
the presence of additional endangered species including the red-legged 
frog and steelhead, listing of the area as probable critical habitat 
for steelhead, and more extensive riparian habitat than were considered 
in 1982. Project economics are currently being updated as directed by 
Corps Headquarters to determine continued project economic viability.
    Until 1996, the Llagas Creek Project was funded through the 
traditional Public Law 83-566 Federal project funding agreement with 
the Natural Resources Conservation Service paying for channel 
improvements and the District paying local costs including utility 
relocation, bridge construction, and right of way acquisition. Due to 
the steady decrease in annual appropriations for the Public Law 83-566 
construction program since 1990, the Llagas Creek Project has not 
received adequate funding from U.S. Department of Agriculture to 
complete the Public Law 83-566 project. To remedy this situation, the 
District worked with congressional representatives to transfer the 
construction authority from the Department of Agriculture to the Corps 
under the Water Resources Development Act of 1999 (Section 501). Since 
the transfer of responsibility to the Corps, the District has been 
working the Corps to complete the project.
    Fiscal Year 2003 Funding.--$325,000 was appropriated in fiscal year 
2003 for the Llagas Creek Flood Protection Project for planning and 
design.
    Fiscal Year 2004 Funding Recommendation.--Based upon the high risk 
of flood damage from Llagas Creek, it is requested that the 
Congressional Committee support an appropriation add-on of $900,000 in 
fiscal year 2004 for planning and environmental updates for the Llagas 
Creek Project.
                     coyote/berryessa creek project
                    berryessa creek project element
    Background.--The Berryessa Creek Watershed is located in northeast 
Santa Clara County, California, near the southern end of the San 
Francisco Bay. A major tributary of Coyote Creek, Berryessa Creek 
drains 22 square miles in the City of Milpitas and a portion of San 
Jose.
    On average, Berryessa Creek floods once every 4 years. The most 
recent flood in 1998 resulted in significant damage to homes and 
automobiles. The proposed project on Berryessa Creek, from Calaveras 
Boulevard to upstream of Old Piedmont Road, will protect portions of 
the Cities of San Jose and Milpitas. The flood plain is largely 
urbanized with a mix of residential and commercial development. Based 
on the U.S. Army Corps of Engineers (Corps) 1993 draft General Design 
Memorandum, a 1 percent or 100-year flood could potentially result in 
damages of $52 million with depths of up to 3 feet.
    Study Synopsis.--In January 1981, the Santa Clara Valley Water 
District (District) applied for Federal assistance for flood protection 
projects under Section 205 of the 1948 Flood Control Act. The Water 
Resources Development Act of 1990 authorized construction on the 
Berryessa Creek Flood Protection Project as part of a combined Coyote/
Berryessa Creek Project to protect portions of the Cities of Milpitas 
and San Jose.
    The Coyote Creek element of the project was completed in 1996. The 
Berryessa Creek Project element proposed in the Corps' 1987 feasibility 
report consisted primarily of a trapezoidal concrete lining. This was 
not acceptable to the local community. The Corps and the District are 
currently preparing a General Reevaluation Report which involves 
reformulating a project which is more acceptable to the local community 
and more environmentally sensitive. Project features will include 
setback levees and floodwalls to preserve sensitive areas (minimizing 
the use of concrete), appropriate aquatic and riparian habitat 
restoration and fish passage, and sediment control structures to limit 
turbidity and protect water quality. The project will also accommodate 
the City of Milpitas' adopted trail master plan. Estimated total costs 
of the General Reevaluation Report work are $3.8 million, and should be 
completed in the summer of 2005.
    Fiscal Year 2003 Funding.--$750,000 was appropriated in fiscal year 
2003 for the Coyote/Berryessa Creek Flood Protection Project to 
continue the General Reevaluation Report and environmental documents 
update.
    Fiscal Year 2004 Funding Recommendation.--Based on the continuing 
threat of significant flood damage from Berryessa Creek and the need to 
continue with the General Reevaluation Report, it is requested that the 
Congressional Committee support an appropriation add-on of $750,000 for 
the Berryessa Creek Flood Protection Project element of the Coyote/
Berryessa Creek Project.
                      coyote creek watershed study
    Background.--Coyote Creek drains Santa Clara County's largest 
watershed, an area of more than 320 square miles encompassing most of 
the eastern foothills, the City of Milpitas, and portions of the Cities 
of San Jose and Morgan Hill. It flows northward from Anderson Reservoir 
through more than 40 miles of rural and heavily urbanized areas and 
empties into south San Francisco Bay.
    Prior to construction of Coyote and Anderson Reservoirs, flooding 
occurred in 1903, 1906, 1909, 1911, 1917, 1922, 1923, 1926, 1927, 1930 
and 1931. Since 1950, the operation of the reservoirs has reduced the 
magnitude of flooding, although flooding is still a threat and did 
cause damages in 1982, 1983, 1986, 1995, and 1997. Significant areas of 
older homes in downtown San Jose and some major transportation 
corridors remain susceptible to extensive flooding. The federally-
supported lower Coyote Creek Project (San Francisco Bay to Montague 
Expressway), which was completed in 1996, protected homes and 
businesses from storms which generated record runoff in the northern 
parts of San Jose and Milpitas.
    The proposed Reconnaissance Study would evaluate the reaches 
upstream of the completed Federal flood protection works on lower 
Coyote Creek.
    Objective of Study.--The objectives of the Reconnaissance Study are 
to investigate flood damages within the Coyote Creek Watershed; to 
identify potential alternatives for alleviating those damages which 
also minimize impacts on fishery and wildlife resources, provide 
opportunities for ecosystem restoration, provide for recreational 
opportunities; and to determine whether there is a Federal interest to 
proceed into the Feasibility Study Phase.
    Study Authorization.--In May 2002, the House of Representatives 
Committee on Transportation and Infrastructure passed a resolution 
directing the Corps to ``. . . review the report of the Chief of 
Engineers on Coyote and Berryessa Creeks . . . and other pertinent 
reports, to determine whether modifications of the recommendations 
contained therein are advisable in the interest of flood damage 
reduction, environmental restoration and protection, water conservation 
and supply, recreation, and other allied purposes . . .''
    Fiscal Year 2003 Funding.--No Federal funding was received in 
fiscal year 2003.
    Fiscal Year 2004 Funding Recommendation.--It is requested that the 
Congressional Committee support an appropriation add-on of $100,000 to 
initiate a multipurpose Reconnaissance Study within the Coyote Creek 
Watershed.
                   thompson creek restoration project
    Background.--Thompson Creek, a tributary of Coyote Creek, flows 
through the city limits of San Jose, California, approximately 50 miles 
south of San Francisco. Historically, the creek was a naturally-
meandering stream and a component of the Coyote Creek watershed. The 
watershed had extensive riparian and oak woodland habitat along 
numerous tributary stream corridors and upland savanna. Currently, 
these habitat types are restricted to thin sparse pockets in the 
Thompson Creek restoration project area.
    Significant urban development over the last 20 years has modified 
the runoff characteristics of the stream resulting in significant 
degradation of the riparian habitat and stream channel. The existing 
habitats along Thompson Creek, riparian forest stands, are threatened 
by a bank destabilization and lowering of the water table. Recent large 
storm events (1995, 1997, and 1998) and the subsequent wet years in 
conjunction with rapid development in the upper watershed have resulted 
in a succession of high runoff events leading to rapid erosion. Today, 
down cutting and head cutting persist and the channel continues to 
incise and material is steadily eroded, leaving a deeply gullied and 
eroded channel. Further downstream sedimentation causes problems with 
flooding.
    The upstream project limits start at the convergence of Yerba Buena 
and Thompson Creeks next to Evergreen Park. The downstream project 
limit is Quimby Road where Thompson creek has been modified as a flood 
control project. The project distance is approximately 3 miles.
    Status.--In February 2000, the Santa Clara Valley Water District 
(District) initiated discussions with U.S. Army Corps of Engineers 
(Corps) for a study under the Corps' Section 206 Aquatic Ecosystem 
Restoration Program. Based on the project merits, the Corps began 
preparation of a Preliminary Restoration Plan (PRP) and subsequent 
Project Management Plan (PMP). Approval of the PRP will lead to the 
development of a Detailed Project Report (DPR). The DPR will provide 
the information necessary to develop plans and specifications for the 
construction of the restoration project.
                            project timeline
  --Request Federal assistance under Sec. 206 Aquatic Ecosystem 
        Restoration Program--Feb 2002
  --Initiate Study--Mar 2003
  --Public Scoping Meeting and Local Involvement--Apr 2003
  --Final Detailed Project Report to South Pacific Division of Corps--
        May 2004
  --Initiate Plans and Specifications--July 2004
  --Complete Plans and Specifications--Oct 2004
  --Project Cooperation Agreement signed--Dec 2004
  --Certification of Real Estate--Mar 2005
  --Advertise Construction Contract--May 2005
  --Award Construction Contract--July 2005
  --Construction Start--Sept 2005
  --Complete Physical Construction--Dec 2006
    Fiscal Year 2003 Funding.--$10,000 was received in the fiscal year 
2003 Section 206 appropriation to complete the PRP.
    Fiscal Year 2004 Funding Recommendation.--Based upon the need to 
continue the feasibility study to provide critical ecosystem 
restoration for Thompson Creek, it is requested that the Congressional 
Committee support an earmark of $200,000 within the Section 206 Aquatic 
Ecosystem Restoration Program.
                san francisquito creek watershed project
    Background.--The San Francisquito Creek watershed comprises 45 
square miles and 70 miles of creek system. The creek mainstem flows 
through five cities and two counties, from Searsville Lake, belonging 
to Stanford University, to the San Francisco Bay at the boundary of 
East Palo Alto and Palo Alto. Here it forms the boundary between Santa 
Clara and San Mateo counties, California and separates the cities of 
Palo Alto from East Palo Alto and Menlo Park. The upper watershed 
tributaries are within the boundaries of Portola Valley and Woodside 
townships. The creek flows through residential and commercial 
properties, a biological preserve, and Stanford University campus. It 
interfaces with regional and State transportation systems in the 
mainstem area, by flowing under two freeways and the regional commuter 
rail system. The local communities have formed a Joint Powers Authority 
in 1999 to cooperatively manage flood and restoration efforts. San 
Francisquito Creek is one of the last natural continuous riparian 
corridors on the San Francisco Peninsula and home to one of the last 
remaining viable steelhead trout runs. It is a highly valued resource 
by all communities. Bank overflow has occurred eleven times since 1907 
with record flooding in February 1998. The riparian habitat and urban 
setting offer unique opportunities for a multi objective project 
addressing flood protection, habitat, water quality, and recreation.
    Flooding History.--The creeks mainstem has a flooding frequency of 
approximately once in 11 years. It is estimated that over $155 million 
in damages could occur in Santa Clara and San Mateo counties from a 1 
percent flood, affecting 4,850 home and businesses. (1998 
Reconnaissance Investigation Report, San Francisquito Creek Coordinated 
Resource Management and Planning Organization, a local stakeholder 
group). Significant areas of Palo Alto flooded in December 1955, 
inundating about 1,200 acres of commercial and residential property and 
about 70 acres of agricultural land. April 1958 storms caused a levee 
failure downstream of Highway 101, flooding Palo Alto Airport, the city 
landfill, and the golf course up to 4 feet deep. Overflow in 1982 
caused extensive damage to private and public property. The flood of 
record occurred on February 3, 1998, when overflow from numerous 
locations caused severe, record consequences with more than $28 million 
in damages, based on a March 1999 U.S. Army Corps of Engineers (Corps) 
Survey Report. More than 1,100 homes were flooded in Palo Alto, 500 
people were evacuated in East Palo Alto, and the major commute and 
transportation artery, Highway 101, was closed. This report recommended 
that the Corps proceed to a Section 905(b), expedited reconnaissance 
phase, with study costs to be federally funded and not to exceed 
$100,000.
    Status.--Active citizenry are anxious to avoid a repeat of February 
1998 flood. Numerous watershed based studies have been conducted by the 
Corps, the Santa Clara Valley Water District, Stanford University, and 
the San Mateo County Flood Control District. Grassroots, consensus-
based Coordinated Resource Management and Planning Organization, now 
called the San Francisquito Watershed Council, has united stakeholders 
including local and State agencies, citizens, flood victims, 
developers, and environmental activists for over 10 years. The San 
Francisquito Creek Joint Powers Authority was formed in 1999 to 
coordinate creek activities with five member agencies and two associate 
members. The Joint Powers Authority Board has agreed to be the local 
sponsor for a Corps project and received Congressional authorization 
for a Corps reconnaissance study in May 2002. The JPA is also in the 
process of initiating a Section 205 Continuing Authorities Program 
project with the San Francisco District of the Corps for fiscal year 
2003.
    Fiscal Year 2003 Funding.--No Federal funding was received in 
fiscal year 2003.
    Fiscal Year 2004 Funding Recommendation.--It is requested the 
Congressional Committee support the $100,000 in the Administration's 
fiscal year 2004 budget for the San Francisquito Creek Watershed.
                south san francisco bay shoreline study
    Background.--Congressional passage of Public Law 94-587, the Water 
Resources Development Act of 1976, originally authorized the South San 
Francisco Bay Shoreline Project. The Santa Clara Valley Water District 
(District) is one of the project sponsors. The Corps' 1984 
reconnaissance study included Santa Clara County, and proposed $15 
million to $20 million of improvements to protect portions of the Santa 
Clara County cities of Palo Alto, Sunnyvale, and San Jose. In 1990, the 
U.S. Army Corps of Engineers (Corps) concluded that levee failure 
potential was low and suspended the project until adequate economic 
benefits could be demonstrated.
    The District is concerned because considerable development has 
occurred in the project area since the project's suspension in 1990. 
Many major corporations have since located within Silicon Valley's 
Golden Triangle, lying within and adjacent to the tidal flood zone. 
Now, damages from a 1 percent high tide would far exceed the $34.5 
million estimated in 1981, disrupting business operations, 
infrastructure, and residences. Also, land subsidence of up to 6 feet 
near Alviso, as well as the structural uncertainty of existing salt 
pond levees, increases the potential for tidal flooding in Santa Clara 
County. When high tides coincide with wind generated waves, levee 
overtopping occurs.
    Project Synopsis.--The Corps' 1984 study assumed no change in levee 
maintenance activities and hydrology, and identified overtopping, not 
erosion or levee failure, as the most likely mode of tidal flooding. 
The Corps attributed low potential benefits to levee improvements 
because existing non-Federal, non-engineered levees have historically 
withstood overtopping without failure.
    The District believes that the low incidence of levee failure is 
due to luck and diligent private and public maintenance programs--
programs that may not continue under the present regulatory 
environment, restricted funding, and new property ownership. The trend 
toward tougher regulatory controls restricts levee maintenance, 
reducing the economic feasibility of continuing historic levels of 
maintenance activities. Lower maintenance levels would leave these 
levees and surrounding communities vulnerable to significant damages.
    Public acquisition of approximately 13,000 acres of south bay salt 
ponds was completed in early March 2003. The proposed restoration of 
these ponds to tidal marsh will significantly alter the hydrologic 
regime, which was assumed to be constant in the Corps' study. Adequate 
tidal flood protection is critical to the success of the restoration 
project, providing an opportunity for multi-objective watershed 
planning in partnership with the California Coastal Conservancy, the 
lead agency on the restoration project.
    Since 1990, Corps staff in Washington, DC, has attempted 
unsuccessfully to resolve the differences in their standards for 
freeboard and levee stability with the Federal Emergency Management 
Agency. The 1997 levee failures and floods in California's Central 
Valley elevated concern about the integrity of Bay Area levees. The 
Corps recognized the potential Federal interest and requested funding 
to reopen the reconnaissance study in fiscal years 1998 and 1999. No 
funds were included in the final congressional authorizations. The U.S. 
House of Representatives Committee on Transportation and Infrastructure 
passed a resolution in July 2002 directing the Corps to review the 
results of this study.
    Fiscal Year 2003 Funding.--No Federal appropriation was authorized 
in fiscal year 2003.
    Fiscal Year 2004 Funding Request.--It is requested that the 
Congressional Committee support an appropriation add-on of $100,000 for 
the South San Francisco Bay Shoreline Study to conduct a Reconnaissance 
Investigation.
                      pajaro river watershed study
    Background.--Pajaro River flows into the Pacific Ocean at Monterey 
Bay, about 75 miles south of San Francisco. The drainage area 
encompasses 1,300 square miles in Santa Clara, San Benito, Monterey, 
and Santa Cruz counties. Potential flood damage reduction solutions 
will require cooperation between four counties and four water/flood 
management districts. There is critical habitat for endangered wildlife 
and fisheries throughout the basin. Six separate flood events have 
occurred on the Pajaro River in the past half century. Severe property 
damage in Monterey and Santa Cruz counties resulted from floods in 
1995, 1997, and 1998. Recent flood events have resulted in litigation 
claims for damages approaching $50 million. $20 Million in U.S. Army 
Corps of Engineers (Corps) flood fight funds have been expended in 
recent years.
    Status.--Two separate Corps activities are taking place in the 
watershed. The first activity is a Corps reconnaissance study 
authorized by a House Resolution in May 1996 to address the need for 
flood protection and water quality improvements, ecosystem restoration, 
and other related issues. The second activity is a General Revaluation 
Report initiated in response to claims by Santa Cruz and Monterey 
Counties that the 13 mile levee project constructed in 1949 through 
agricultural areas and the city of Watsonville is deficient. The 
reconnaissance study on the entire watershed has been initiated by the 
San Francisco District of the Corps and will be complete in fiscal year 
2002. Watershed Stakeholders are working cooperatively to support the 
Corps' reconnaissance study, which will provide information to help 
reach an understanding and agreement about the background and facts of 
the watershed situation.
    Local Flood Prevention Authority.--Legislation passed by the State 
of California (Assembly Bill 807) in 1999 titled ``The Pajaro River 
Watershed Flood Prevention Authority Act'' mandated that a Flood 
Prevention Authority be formed by June 30, 2000. The purpose of the 
Flood Prevention Authority is ``to provide the leadership necessary to 
. . . ensure the human, economic, and environmental resources of the 
watershed are preserved, protected, and enhanced in terms of watershed 
management and flood protection.'' The Flood Prevention Authority was 
formed in July 2000 and consists of representatives from the Counties 
of Monterey, San Benito, Santa Clara, and Santa Cruz, Zone 7 Flood 
Control District, Monterey County Water Resources Agency, San Benito 
County Water District, and the Santa Clara Valley Water District. The 
Flood Prevention Authority Board sent a letter of intent to cost share 
a feasibility study of the Pajaro River Watershed to the Corps in 
September 2001.
    Fiscal Year 2003 Funding.--$100,000 was authorized in fiscal year 
2003 for the Pajaro Watershed Reconnaissance Study.
    Fiscal Year 2004 Funding Recommendation.--It is requested that the 
Congressional Committee support the $100,000 in the Administration's 
fiscal year 2004 budget for the Pajaro River Watershed Study.
           san jose area water reclamation and reuse program 
                  (south bay water recycling program)
    Background.--The San Jose Area Water Reclamation and Reuse Program, 
also known as the South Bay Water Recycling Program, will allow the 
City of San Jose and its tributary agencies of the San Jose/Santa Clara 
Water Pollution Control Plant to protect endangered species habitat, 
meet receiving water quality standards, supplement Santa Clara County 
water supplies, and comply with a mandate from the U.S. Environmental 
Protection Agency and the California Water Resources Control Board to 
reduce wastewater discharges into San Francisco Bay.
    The Santa Clara Valley Water District (District) collaborated with 
the City of San Jose to build the first phase of the recycled water 
system by providing financial support and technical assistance, as well 
as coordination with local water retailers. The design, construction, 
construction administration, and inspection of the program's 
transmission pipeline and Milpitas 1A Pipeline was performed by the 
District under contract to the City of San Jose.
    Status.--The City of San Jose is the program sponsor for Phase 1, 
consisting of almost 60 miles of transmission and distribution 
pipelines, pump stations, and reservoirs. Completed at a cost of $140 
million, Phase 1 began partial operation in October 1997. Peak 
operation occurred in the summer of 2002 with average deliveries of 10 
million gallons per day of recycled water. The system now serves over 
400 customers and delivers over 6,000 acre-feet of recycled water per 
year.
    Phase 2 is now underway. In June 2001, San Jose approved an $82.5 
million expansion of the program. The expansion includes additional 
pipeline extensions into the cities of Santa Clara and Milpitas, a 
major pipeline extension into Coyote Valley in south San Jose, and 
reliability improvements of added reservoirs and pump stations. The 
District and the City of San Jose executed an agreement in February 
2002 to cost share on the pipeline into Coyote Valley and discuss a 
long-term partnership agreement on the entire system. Phase 2's near-
term objective is to increase deliveries by the year 2010 to 15,000 
acre-feet per year.
    Funding.--In 1992, Public Law 102-575 authorized the Bureau of 
Reclamation to work with the City of San Jose and the District to plan, 
design, and build demonstration and permanent facilities for reclaiming 
and reusing water in the San Jose metropolitan service area. The City 
of San Jose reached an agreement with the Bureau of Reclamation to 
cover 25 percent of Phase 1's costs, or approximately $35 million; 
however, Federal appropriations have not reached the authorized amount. 
To date, the program has received $26 million of the $35 million 
authorization.
    Fiscal Year 2003 Funding.--$3 million was appropriated in fiscal 
year 2003 for project construction.
    Fiscal Year 2004 Funding Recommendation.--It is requested that the 
Congressional Committee support an appropriation add-on of $9 million, 
in addition to the $1 million in the Administration's fiscal year 2004 
budget, for a total of $10 million to fund the work.
                        calfed bay-delta program
    Background.--In an average year, half of Santa Clara County's water 
supply is imported from the San Francisco Bay/Sacramento-San Joaquin 
Delta estuary (Bay-Delta) watersheds through three water projects: The 
State Water Project, the Federal Central Valley Project, and San 
Francisco's Hetch Hetchy Project. In conjunction with locally-developed 
water, this water supply supports more than 1.7 million residents in 
Santa Clara County and the most important high-tech center in the 
world. In average to wet years, there is enough water to meet the 
county's long-term needs. In dry years, however, the county could face 
a water supply shortage of as much as 100,000 acre-feet per year, or 
roughly 20 percent of the expected demand. In addition to shortages due 
to hydrologic variations, the county's imported supplies have been 
reduced due to regulatory restrictions placed on the operation of the 
State and Federal water projects.
    There are also water quality problems associated with using Bay-
Delta water as a drinking water supply. Organic materials and 
pollutants discharged into the Delta, together with salt water mixing 
in from San Francisco Bay, have the potential to create disinfection-
by-products that are carcinogenic and pose reproductive health 
concerns.
    Santa Clara County's imported supplies are also vulnerable to 
extended outages due to catastrophic failures such as major earthquakes 
and flooding. As demonstrated by the 1997 flooding in Central Valley, 
the levee systems can fail and the water quality at the water project 
intakes in the Delta can be degraded to such an extent that the 
projects cannot pump from the Delta.
    Project Synopsis.--The CALFED Bay-Delta Program is an 
unprecedented, cooperative effort among Federal, State, and local 
agencies to restore the Bay-Delta. With input from urban, agricultural, 
environmental, fishing, and business interests, and the general public, 
CALFED has developed a comprehensive, long-term plan to address 
ecosystem and water management issues in the Bay-Delta.
    Restoring the Bay-Delta ecosystem is important not only because of 
its significance as an environmental resource, but also because failing 
to do so will stall efforts to improve water supply reliability and 
water quality for millions of Californians and the State's trillion 
dollar economy and job base.
    The June 2000 Framework for Action and the August 2000 Record of 
Decision/Certification contain a balanced package of actions to restore 
ecosystem health, improve water supply reliability and water quality. 
It is critical that Federal funding be provided to implement these 
actions in the coming years.
    Fiscal Year 2003 Funding.--$23 million was appropriated for CALFED 
activities under the Bureau of Reclamation's budget in fiscal year 
2003.
    Fiscal Year 2004 Funding Recommendation.--It is requested that the 
Committee support an appropriation add-on of $35 million, in addition 
to the $15 million in the Administration's fiscal year 2004 budget, for 
a total of $50 million for the CALFED Program.
                                 ______
                                 
         Prepared Statement of the Red River Valley Association
                              introduction
    The Red River Valley Association is a voluntary group of citizens 
bonded together to advance the economic development and future well 
being of the citizens of the four State Red River Basin area in 
Arkansas, Louisiana, Oklahoma and Texas.
    For the past 78 years, the Association has done notable work in the 
support and advancement of programs to develop the land and water 
resources of the Valley to the beneficial use of all the people. To 
this end, the Red River Valley Association offers its full support and 
assistance to the various Port Authorities, Chambers of Commerce, 
Economic Development Districts, Municipalities and other local 
governmental entities in developing the area along the Red River.
    The Resolutions contained herein were adopted by the Association 
during its 78th Annual Meeting in Shreveport, Louisiana on February 20, 
2003, and represent the combined concerns of the citizens of the Red 
River Basin area as they pertain to the goals of the Association, 
specifically:
  --Economic and Community Development
  --Environmental Restoration
  --Flood Control
  --Bank Stabilization
  --A Clean Water Supply for Municipal, Industrial and Agricultural 
        Uses
  --Hydroelectric Power Generation
  --Recreation
  --Navigation
    The Red River Valley Association is aware of the constraints on the 
Federal budget, and has kept those constraints in mind as these 
Resolutions were adopted. Therefore, and because of the far-reaching 
regional and national benefits addressed by the various projects 
covered in the Resolutions, we urge the members of Congress to review 
the materials contained herein and give serious consideration to 
funding the projects at the levels requested.
                             rrva testimony
    Mr. Chairman and members of the Committee, I am Wayne Dowd, and 
pleased to represent the Red River Valley Association as its President. 
Our organization was founded in 1925 with the express purpose of 
uniting the Citizens of Arkansas, Louisiana, Oklahoma and Texas to 
develop the land and water resources of the Red River Basin.
    Even though the President's budget included $4.194 billion for 
civil works programs this is $406 million (8.8 percent) less than 
appropriated in fiscal year 2003. Again, the Corps took the biggest 
reduction than any of the other major Federal agencies. This does not 
come close to the real needs of our nation. A more realistic funding 
level to meet the requirements for continuing the existing needs of the 
civil works programs is $5.5 billion. The traditional programs, inland 
waterways and flood protection remain at the low, unacceptable level as 
in past years. These projects are the backbone to our Nation's 
infrastructure for waterways, flood control and water supply. We remind 
you that civil works projects are a true ``jobs program'' in that 100 
percent of project construction is contracted to the private sector, as 
is much of the architect and engineer work. Not only do these funds 
provide jobs, but provide economic development opportunities for our 
communities to grow and prosper.
    It has come to our attention that there are some in the 
Administration who are proposing to dismantle the civil works functions 
and put them into other Federal agencies. Environmental and regulatory 
functions might go to EPA or Department of the Interior and Waterways 
may go to the Department of Transportation. This is not a good idea for 
our Nation. Placing the regulatory and environmental missions in one of 
those agencies puts it into a ``one agenda'', single focused agency. 
The Corps of Engineers is the best agency to administer the regulatory 
program, because they have all disciplines within their organization, 
to include biologists, engineers, economists, etc. When the Corps of 
Engineers reviews environmental issues we are best assured of a 
balanced outcome that would best serve the people and our ecosystems.
    Our concern with placing the inland waterways under Department of 
Transportation is that they will not receive the same attention as the 
more popular highways and airports. The facts are that one barge, 1,500 
tons of commodities, is equivalent to 15 jumbo rail hoppers or 58 
tractor-trailer trucks. According to EPA, towboats emit 35 to 60 
percent fewer pollutants than locomotives or trucks, per ton of cargo 
moved. This is why we should not dilute the importance of our 
waterways. We should increase the importance of waterborne 
transportation due to its efficiency, safety and being environmentally 
friendly. The RRVA does not support any efforts to dissolve the Corps 
of Engineer Civil Works functions into any other Federal agency.
    We do not support any efforts to increase the benefit to cost ratio 
for projects above 1.0 and we do not support increasing the local 
sponsor's cost sharing requirements. This is not ``Corps reform'' it is 
an initiative to eliminate the civil works program. We do support true 
reform that would make civil works projects less expensive and faster 
to complete. Corps reform should make the Corps of Engineers more 
efficient, cheaper and faster in the execution of civil works studies 
and completion of projects not eliminate the program.
    I would now like to comment on our specific requests for the future 
economic well being of the citizens residing in the four State Red 
River Basin regions.
    Navigation.--The J. Bennett Johnston Waterway is living up to the 
expectations of the benefits projected. We are extremely proud of our 
public ports, municipalities and State agencies that have created this 
success. New opportunities were announced in calendar year 2002 at each 
of the ports that will increase the annual tonnage. You are reminded 
that the Waterway is not complete, 12 percent remains to be 
constructed, $242 million. We appreciate Congress's appropriation level 
in fiscal year 2003; however, in order to keep the Waterway safe and 
reliable we must continue at a funding level closer to $25 million.
    The RRVA formed a Navigation Committee for industry, the Corps of 
Engineers and Coast Guard to partner in making our Waterway a success. 
In calendar year 2002 we succeeded in getting electronic charts 
completed and they are now in use. Permanent channel markers are being 
put in place and will be completed in calendar year 2003. Both of these 
initiatives will provide all the aids to navigation necessary to insure 
safe and efficient navigation, especially during high water events, 
when commercial operations have ceased in past years.
    An issue we need to address is the current 9 foot draft authorized 
for the J. Bennett Johnston Waterway. Our Waterway feeds into the 
Mississippi River, Atchafalaya River and Gulf Inter-coastal Canal, 
which all accommodate 12 foot draft barges. The Atchafalaya River and 
GIC are both authorized 12 foot channels. This would allow additional 
cargo capacity, per barge, which will greatly increase the efficiency 
of our Waterway and reduce transportation rates. We request that the 
Corps conduct a reconnaissance study, to evaluate this proposal, at a 
cost of $100,000.
    The feasibility study to continue navigation from Shreveport-
Bossier City, Louisiana into the State of Arkansas is on going. We 
appreciate that Congress appropriated adequate funding to complete this 
study in fiscal year 2003. There is great optimism that the study will 
recommend a favorable project. This region of SW Arkansas and NE Texas 
continues to suffer major unemployment and the navigation project, 
although not the total solution will help revitalize the economy. We 
request funding to initiate planning, engineering and design, PED.
    Bank Stabilization.--One of the most important, continuing 
programs, on the Red River is bank stabilization in Arkansas and North 
Louisiana. We must stop the loss of valuable farmland that erodes down 
the river and interferes with the navigation channel. In addition to 
the loss of farmland is the threat to public utilities such as roads, 
electric power lines and bridges; as well as increased dredging cost in 
the navigable waterway. These bank stabilization projects are 
compatible with subsequent navigation and we urge that they be 
continued in those locations designated by the Corps of Engineers to be 
the areas of highest priority. We appreciated the Congressional funding 
in fiscal year 2003 and request you fund this project at a level of $10 
million.
    Flood Control.--You will recall that in 1990 major areas of 
northeast Texas, Southwest Arkansas and the entire length of the Red 
River in Louisiana were ravaged by the worst flooding to hit the region 
since 1945 and 1957. More than 700,000 acres were flooded with total 
damages estimated at $20.4 million. However, it could have been much 
worse. The Corps of Engineers estimates that without the flood control 
measure authorized by Congress over the past several decades an 
additional 1.3 million acres would have been flooded with an estimated 
$330 million in additional flood damage to agriculture and urban 
developments.
    We continue to consider flood control a major objective and request 
you continue funding the levee rehabilitation projects ongoing in 
Arkansas. Five of eleven levee sections have been completed and brought 
to Federal standards. Appropriations of $4.750 million will construct 
two more levee sections in Lafayette County, AR.
    The levees in Louisiana have been incorporated into the Federal 
system; however, they do not meet current construction standards due to 
their age. These levees do not have a gravel surface roadway, 
threatening their integrity during times of flooding. It is essential 
for personnel to traverse the levees during a flood to inspect them for 
problems. Without the gravel surface the vehicles used cause rutting 
and this can create conditions for the levees to fail. Gravel surfaces 
will insure inspection personnel can check the levees during the 
saturated conditions of a flood. Funding has been appropriated in 
fiscal year 2002 and fiscal year 2003. Approximately 50 miles of levees 
in the Natchitoches Levee District will be completed this year. We 
request $2 million to continue this important project in other 
parishes.
    Clean Water.--Nearly 3,500 tons of natural salts, primarily sodium 
chloride, enter the upper reaches of the Red River each day, rendering 
downstream waters unusable for most purposes. The Truscott Brine Lake 
project, which is located on the South Fork of the Wichita River in 
King and Knox Counties, Texas became operational in 1987. An 
independent panel of experts found that the project not only continues 
to perform beyond design expectations in providing cleaner water, but 
also has an exceptionally favorable cost benefit ratio. In fiscal year 
1995 $16 million dollars was appropriated by the Administration, to 
accelerate engineering design, real estate acquisition and initiate 
construction of the Crowell Brine Dam, Area VII and Area IX.
    Due to a conflict over environmental issues, raised by the U.S. 
Fish and Wildlife Service, completion of the SFEIS was delayed pending 
further study to determine the extent of possible impacts to fish and 
wildlife, their habitats and biological communities along the Red River 
and Lake Texoma. In an effort to resolve these issues and insure that 
no harmful impact to the environment or ecosystems would result, a 
comprehensive environmental and ecological monitoring program was 
implemented. It evaluates the actual impacts of reducing chloride 
concentrations within the Red River watershed. This base line data is 
crucial to understanding the ecosystem of the Red River basin west of 
Lake Texoma and funding for this must continue.
    The Assistant Secretary of the Army (Civil Works), in October 1998, 
agreed to support a re-evaluation of the Wichita River Basin tributary 
of the project. The re-evaluation report will be completed in fiscal 
year 2003. Completion of this project will reclaim Lake Kemp as a 
usable water source for the City of Wichita Falls and the region. This 
project will provide improved water quality throughout the four States 
of the Red River providing the opportunity to use surface water and 
reduce dependency on ground water. We request appropriations of 
$2,000,000 to continue this important environmental monitoring and to 
initiate construction of the Wichita River control features.
    Water Supply.--Northwest Texas has been overrun with non-native 
species of brush and mesquite. It now dominates millions of acres of 
rangelands and has negatively impacted water runoff. Studies have 
indicated that brush management could increase runoff by as much as 30 
percent to 40 percent. This would be of great value in opportunities 
for more surface water use and less dependency on ground water. Other 
benefits include an ecological diversity of plant and animal species, 
range fire control and cattle production. A $100,000 reconnaissance 
study would determine if there is a Federal interest and what magnitude 
these benefits would be.
    Lake Kemp, just west of Wichita Falls, TX, is a water supply for 
the needs of this region. Invasion of non-native brush and siltation 
have threatened the capacity of the lake to serve its intended 
functions. A $100,000 reconnaissance study would investigate these 
issues and determine if there are any potential solutions.
    Operation & Maintenance.--We appreciate the support of your 
subcommittee to support navigation to Shreveport/Bossier City, which is 
now providing a catalyst to our industrial base, creating jobs and 
providing economic growth. We request that O&M funding levels remain at 
the expressed Corps capability to maintain a safe, reliable and 
efficient transportation system.
    It is very disturbing to see the Administration suggest that 50 
percent of O&M costs be funded from the Inland Waterway Trust Fund 
(IWTF). The law establishing this trust fund does not provide for it to 
be used for O&M activities and the trust fund would be depleted in less 
than 5 years. What is more troubling is that once this is allowed the 
situation exists to increase the existing $.20 per gallon fuel tax on 
waterway industries to $1.00 per gallon to cover 100 percent of the O&M 
costs. This additional $.80 would drastically increase shipping rates 
devastating a young waterway system such as ours. We do not believe 
there can be a ``temporary'' use of this fund. Once the trust fund is 
used for O&M purposes it will be very difficult to change.
    It is our understanding that the criterion used to determine ``low 
use'' waterways was set at 5 billion ``average ton-miles''. This is the 
wrong criteria and methodology to use. Navigation projects are 
justified using ``system ton-miles''. ``Average ton-miles'' is measured 
from point of origin to the mouth of the river, while ``system ton-
miles'' is measured from point of origin to destination of cargo, which 
makes sense. A more important issue is that ton-miles is only one 
factor in determining success. Our Nation's waterways were built to 
reduce transportation cost and they do that without moving one ton of 
cargo. ``Water Compelled Rates'' is the term used for ``competition''. 
Rail rates have dropped to match waterborne rates throughout the Red 
River Valley. Many industries have experienced great transportation 
savings without having to use the waterway. If our waterway were closed 
the rail rates would immediately increase. This is one example on why 
ton-miles cannot be the sole determining factor of success.
    Full O&M capability levels are not only important for our Waterway 
project but for all our Corps projects and flood control lakes. The 
backlog of critical maintenance only becomes worse and more expensive 
with time. We urge you to appropriate funding to address this serious 
issue at the expressed full Corps capability. The ``Summary of Fiscal 
Year 2004 Requests'', following this testimony, lists our major O&M 
projects and the level needed to address this issue.
    The Continuing Authorities Program (CAP) has never been fully 
funded to its authorized amount. This has been an outstanding program 
providing small, cost shared projects within our communities. We 
believe this program should be funded at its full-authorized amount.
    We are sincerely grateful to you for the past support you have 
provided our various projects. We hope that we can count on you again 
to fund our needs and complete the projects started that will help us 
diversify our economy and create the jobs so badly needed by our 
citizens. We have included a summary of our requests for easy 
reference.
    Thank you for the opportunity to present this testimony and project 
details of the Red River Valley Association on behalf of the 
industries, organizations, municipalities and citizens we represent 
throughout the four State Red River Valley region. We believe that any 
Federal monies spent on civil work projects are truly investments in 
our future and will return several times the original investment in 
benefits that will accrue back to the Federal Government.
                            grant disclosure
    The Red River Valley Association has not received any Federal 
grant, sub grant or contract during the current fiscal year or either 
of the two previous fiscal years.
                  summary of fiscal year 2004 requests
           [note: projects are not in any order of priority.]
General Investigation Studies (GI)
    Red River Navigation, SW Arkansas.--This is a feasibility study 
initiated on March 24, 1999 to investigate the potential to extend 
navigation from Shreveport/Bossier, LA to Index, AR. To date $2,955,000 
has been appropriated for this study and matched by the State of 
Arkansas. These funds will complete the study in fiscal year 2003. The 
initial study results indicate the probability that a project will be 
recommended. Funds are requested in fiscal year 2004 to initiate pre-
construction, engineering and design (PED). Total fiscal year 2004 
request--$400,000.
    Southeast Oklahoma Water Resource Study.--Conduct a reconnaissance 
study to evaluate the water resources in the study area. The study area 
includes the Kiamichi River basin and other tributaries of the Red 
River. A comprehensive plan will be developed to determine how best to 
conserve and utilize this water. In fiscal year 2003 $100,000 was 
received for this study. This is a complex 11-year study of ecosystem 
restoration issues and the Oklahoma Water Resource Board has signed on 
as the local sponsor. Total fiscal year 2004 request--$50,000.
    Southwest Arkansas Study.--Conduct a reconnaissance report in the 
four county areas of the Red River/Little River basins. Included would 
be the four Corps lakes; DeQueen, Dierks, Gillham and Millwood. The 
watershed study would evaluate; flooding, irrigation, fish and wildlife 
habitat, water quality, recreation and water releases for navigation. 
The State of Arkansas has expressed an interest in cost sharing the 
feasibility study. Funding of $100,000 was received in fiscal year 2003 
to initiate the study. Total fiscal year 2004 request--$200,000.
    Washita River Basin, OK.--Under Public Law 534 NRCS, Department of 
Agriculture, constructed approximately 1,100 small flood control 
structures in the Washita River basin above Lake Texoma. These 
structures have significantly reduced the sediment flow into Lake 
Texoma; however, they are reaching their 50-year life expectancy. This 
study will assist NRCS in determining how to extend the life of the 
structures, which have had a great positive impact to the water 
quality, flood storage capacity and ecosystem of Lake Texoma. Funding 
of $100,000 was received in fiscal year 2003 to initiate the study. 
Total fiscal year 2004 request--$100,000.
    Mountain Fork River Watershed, OK & AR, Reconnaissance Study.--The 
study area includes 754 square miles above Broken Bow Lake, OK. Broken 
Bow Lake was justified for flood control, hydropower, water supply, 
recreation and fish and wildlife purposes. In recent years the water 
quality of Broken Bow Lake have deteriorated. This study will 
investigate the impact of the up stream watershed nutrient and sediment 
loading to the lake. Funding of $100,000 was received in fiscal year 
2003 to initiate the study. Total fiscal year 2004 request--$100,000.
    J. Bennett Johnston Waterway, LA, 12 Foot Channel Reconnaissance 
Study.--The waterway flows directly into the Atchafalaya River and then 
to the Gulf Inter-coastal Waterway, both have authorized 12 foot 
channels. Except under extreme low water conditions the Mississippi 
River accommodates barges of 12 foot draft. It is inefficient on 
industry to have to ``special load'' barges destined for the Red River 
to 9 feet when all other barges are loaded to 12 feet. More important 
the added cargo per barge (one-third more) will have a dramatic impact 
on reducing the waterborne rates for the Waterway, making it more 
competitive. Total fiscal year 2004 request--$100,000.
    Red River Brush Management Above Denison Dam, OK & TX, 
Reconnaissance Study.--Over the past 200 years invasive and non-native 
brush species have taken over this region. These species, especially 
mesquite and salt cedar, absorbs enormous amount of water. Brush 
control could yield as much as 30 percent to 40 percent increase in 
rangeland runoff. Other benefits include an ecological diversity of 
plant and animal species, range fire control and cattle production. 
This is an eco-system restoration study. Total fiscal year 2004 
request--$100,000.
    Wichita River Basin above Lake Kemp Dam, TX, Reconnaissance 
Report.--The scope of this study is to investigate creating riparian 
eco-system features utilizing sediment depositions in the upper reaches 
of Lake Kemp, while reducing deposits into Lake Kemp. The current 
sediment deposits are impacting environmental functions of the Lake as 
well as reducing storage capacity. Opportunities exist to construct 
wetlands to improve ecological functions. Total fiscal year 2004 
request--$100,000.
    Red River Waterway, Index Arkansas to Denison Dam, TX.--Investigate 
the restoration of natural resources, such as wetlands, bottomland 
hardwoods and riparian habitat along approximately 245 river miles. 
Various types of bank stabilization would be considered to protect 
environmental zones and corridors. $63,000 was allocated in fiscal year 
2002. This study is waiting for a local sponsor to be identified. Total 
fiscal year 2004 request--$0.
    Bois D'Arc Creek, Bonham, TX.--This is a reconnaissance study to 
address the flooding on 16,100 acres on the lower two-thirds of the 
basin. The towns of Whitewright and Bonham are within the basin. A dam 
was determined feasible in the 1960's; however, there was no local 
sponsor. Currently there are local sponsors interested in this project. 
In fiscal year 2002 $126,000 was received to initiate this study. The 
total study cost will be $1,270,000, Federal funds and $1,170,000 local 
sponsor costs. This study is waiting on funding from the local sponsor, 
Fannin County, TX. Total fiscal year 2004 request--$0.
Construction General (CG)
    Red River Waterway Project--a. J. Bennett Johnston Waterway, LA.--
Seven projects will be completed or awarded in fiscal year 2003 as well 
as recreation facilities, the regional visitor center and continued 
mitigation. These ongoing projects will be completed using the $13.7 
million budgeted for fiscal year 2004. Additional funds could be used 
for new projects, which include; Westdale Realignment ($2,500,000), 
Pump Bayou Revetment ($500,000), Fausse/Natchitoches/Clarence 
Reinforcement ($1,000,000), Scott Realignment ($2,500,000), Lumbra 
Dikes ($2,000,000), Lindy C. Boggs Barrier Upgrade ($2,000,000), 
continued mitigation ($1,300,000), Shell Point Drainage Structure 
($1,000,000), Hammel/Carroll Revetments ($2,000,000) and Teague Parkway 
Revetment ($500,000). Total fiscal year 2004 request--$29,000,000.
    b. Index, AR to Denison Dam, TX; Bendway Weir Demonstration 
Project.--This stretch of the Red River experiences tremendous bank 
caving. A demonstration project using this Bendway Weir technique is 
needed to determine if this method will work in the Red River. The U.S. 
Highway 271 Bridge was selected due to the river threatening this 
infrastructure and accessibility for evaluation. The project will 
include underwater weirs 6 miles upstream and 5.5 miles downstream of 
the bridge. There is great environmental enhancement potential with 
this project. $765,000 has been appropriated to date and additional 
funds are required to develop the PCA and reevaluate the design. A 
local sponsor is still being secured. Total fiscal year 2004 request--
$250,000.
    Red River Chloride Control Project (Wichita River Basin), TX.--A 
reevaluation for the Wichita River Basin features had been ongoing 
using reprogrammed funds. The office of the ASA (CW) has supported this 
project and funds were appropriated in fiscal year 2003. The re-
evaluation report will be completed in fiscal year 2003. Funds are 
needed for design, plans and specifications and to continue 
environmental monitoring activities. Total fiscal year 2004 request--
$2,000,000.
    Red River Below Denison Dam Levees & Bank Stabilization--a. Levee 
Rehabilitation, AR--Funds are required to complete construction of 
Levee Item #5 initiated in fiscal year 2001, initiate construction of 
Levee Item #9 and initiate design for follow on Levee Item #6. Total 
fiscal year 2004 request--$4,750,000.
    b. Bowie County Levee, TX.--The local sponsor requested the 
``locally preferred option'', which was authorized for construction. In 
fiscal year 2003 $4,000,000 was appropriated to initiate this project. 
The local sponsor is willing to execute a PCA and initiate real estate 
activities in fiscal year 2003. Total fiscal year 2004 request--
$500,000.
    c. Upgrade Levees, LA.--Approximately 220 miles of levees in 
Louisiana do not have gravel surfaces on top of the levee, therefore do 
not meet Federal standards. These levees are in the Federal system and 
must be upgraded. This surface is required for safe inspections of the 
levees during times of floods and to maintain the integrity of the 
levee. The total project can be completed in four phases over 4 years. 
$1,000,000 was appropriated in fiscal year 2003 and approximately 50 
miles of levee have been upgraded in the Natchitoches Levee District, 
LA. Total fiscal year 2004 request--$2,250,000.
    d. Upgrade Levees, LA.--Many structures, through the Levee system 
in Louisiana, have deteriorated to a condition that threatens the 
integrity of the levees themselves. A project must be undertaken to 
systematically upgrade these structures. Total fiscal year 2004 
request--$600,000.
    Red River Emergency Bank Protection, Arkansas.--Funds are required 
to complete construction of Bois D'Arc Revetment ($4,200,000) initiated 
in fiscal year 2002; and Dickson Revetment ($5,800,000) initiated in 
fiscal year 2003. These funds would also complete the design on Finn 
Revetment Phase II. These are important projects for protection of 
valuable farmlands and to maintain the existing alignment of the river 
in advance of navigation. Total fiscal year 2004 request--$10,000,000.
    Little River County (Ogden Levee), AR.--A reconnaissance report in 
1991 determined that flood control levees were justified along Little 
River. The project sponsor, Arkansas Soil and Water Conservation 
Commission requests that the project proceed directly to PED, without a 
cost shared feasibility study. We request language and funding to 
accomplish this. Total fiscal year 2004 request--$200,000.
    McKinney Bayou.--The Reconnaissance Report showed a favorable 
project to clear and reshape this drainage canal. Presently, the local 
sponsor is unable to cost share continuation of this project due to the 
extremely high cost of mitigation. Total fiscal year 2004 request--$0.
    Big Cypress Valley Watershed (Section 1135).--The main focus of 
this study is within the City of Jefferson, Texas. Informal 
coordination with Jefferson has showed their continued support and 
intent to participate. Their total share is estimated to be $601,600 
with annual O&M costs of approximately $21,000. In fiscal year 2001 
$120,000 was appropriated to initiate this project. No funds can be 
expended until completion of the Master Plan and acquisition of land by 
the local sponsor. Total fiscal year 2004 request--$0.
    Millwood Lake, Grassy Lake, AR (Section 1135).--An environmental 
restoration project of 15,000 acres of wetlands located downstream from 
Millwood Dam. The Dam interrupted the flow to these wetlands and this 
project would be a water delivery system to include restoring flow to a 
400-acre pristine wetland area. It is private land; however, there is a 
national interest for migratory birds. A potential sponsor is the 
Arkansas Soil & Water Conservation Commission. Total fiscal year 2004 
request--$200,000.
    East/West Burns Run Public Use Area, Park Modernization, Lake 
Texoma, OK.--Modernization of these facilities will bring them up to 
standards to serve the high volume of users experienced each year. The 
Lake Texoma region economy depends mostly on recreation. This facility 
will ensure continued success, but also increase the economic potential 
for the area. Total fiscal year 2004 request--$6,000,000.
Operation & Maintenance (O&M)
    Red River Waterway.--The President's budget is usually sufficient 
to only operate the waterway and perform preventive maintenance. There 
are major, unfunded backlog maintenance items that must be 
accomplished. These items include inspection and repair of lock & dam 
stop logs, repairs to tainter gate diagonal bracing at Lock #3 and 
revetment repairs. The President's budget included no funding for 
backlog maintenance. Total fiscal year 2004 request--$19,900,000.
    Flood Control Lakes.--There are nine major flood control lakes in 
the Red River Valley, plus the Truscott Brine Reservoir. These lakes 
have served to prevent hundreds of millions of dollars of damage over 
the past 50 years. However, they are getting to the age where 
maintenance cannot be differed any longer. Backlog maintenance items 
include repair to flood gates, powerhouse maintenance, dam structures 
and recreation facilities. If upgrades are not made at recreation 
facilities they may have to be closed due to safety concerns to the 
public. Following is a list of the lakes and our fiscal year 2004 
requests for each.

------------------------------------------------------------------------
                                                            Fiscal Year
                   Flood Control Lake                      2004 Request
------------------------------------------------------------------------
Denison Dam, Lake Texoma, TX............................      $8,643,000
Hugo Lake, OK...........................................       3,138,000
Broken Bow Lake, OK.....................................       1,894,000
Pat Mayse Lake, TX......................................         994,000
Warrika Lake, OK........................................       1,691,000
Millwood Lake, AR.......................................       2,345,800
Direks Lake, AR.........................................       2,864,800
Gillham Lake, AR........................................       2,743,000
DeQueen Lake, AR........................................       2,768,800
Truscott Brine Dam, TX..................................       1,717,000
------------------------------------------------------------------------

    Support of MR&T Operations and Maintenance (O&M).--Old River Lock 
is the access tows have from the Mississippi River to the Red River 
Waterway. When this structure is not in service tows must go down the 
Atchafalaya River to the gulf and back to the Mississippi past New 
Orleans, LA, adding days to the trip. It is critical to the success of 
the Red River Waterway that the Old River structure be maintained. 
Currently, there is a backlog of important maintenance items that must 
be funded. Total fiscal year 2004 request--$21,000,000.
                                 ______
                                 
    Prepared Statement of the State of Louisiana Red River Waterway 
                               Commission
    On behalf of the citizens of the Red River Waterway District of 
Louisiana, the Red River Waterway Commission urges the Congress of the 
United States to allocate the funds necessary for fiscal year 2004 for 
J. Bennett Johnston Waterway. Adequate funding will allow continued 
construction progress toward actual project completion, stimulate 
continued growth in tonnage movement, encourage the continuation of 
private and public development as well as facilitate total reliability 
in project function for industrial and recreational development. While 
this project is still in its infancy stage; the infrastructure 
investment has been justified by commercial and recreational 
development along the Red River and intermodal transportation cost 
savings because of water induced rates resulting from the project.
    Tonnage volumes continue to steadily increase and cargo 
classifications diversify providing numerous business opportunities for 
this region. Further development will continue to take place with the 
knowledge that users can rely on an efficient, functional and 
environmentally sound river system.
    Construction on Red River is over 90 percent complete, however, it 
is vitally important that we understand the importance of steady 
progress toward project completion with full knowledge of the financial 
constraints on this country.
Areas of Need for the Red River Waterway Project
    Operations & Maintenance Program.--Channel Maintenance (Dredging) 
is critical to the viability of the waterway system. The President's 
Budget should reflect funding for maintenance dredging or give the 
Corps flexibility to operate and maintain projects as per our 
agreements. By the way, dredging is maintenance and reliability of 
channel should be of the highest priority. The Corps of Engineers needs 
sufficient resources to adequately maintain the navigation channel to 
provide dependable and reliable depths so that barges moving on the 
system can be loaded to the maximum nine foot draft. Maintenance of 
existing navigation structures at strategic locations is vital for 
continued development. The backlog of maintenance items at the lock & 
dam structures could be devastating to the Nation's investment in the 
navigation system.
    Navigation Structures (Revetments and Dikes).--The completion of 
these river training works is necessary to maintain the channel 
alignment so as to provide reliable navigation to the commercial users. 
In addition, the structures help insure that barges can be loaded to 
the maximum depths allowable for profitable operation and continued 
industrial growth.
    Construction/Maintenance Program.--The Corps of Engineers needs 
resources available to react quickly to landowner bank caving 
complaints that are a result of the project and are fully justified.
    Mitigation and Bendway Dredging.--Continue with land acquisition 
and developmental cost analysis associated with the mitigation portion 
of the project to enhance the bottomland hardwood acreage within the 
Red River Valley area of Louisiana. Continue the bendway dredging 
operations to maintain the backwater connection to the channel of Red 
River for ingress and egress of nutrient rich river water and numerous 
species of freshwater fish.
    Aids to Navigation.--As commercial use continues to increase, the 
Coast Guard presence and resources must reflect a similar growth to 
adequately maintain the buoy system on the Red River and stimulate 
confidence in the river system. Necessary funding to upgrade assets 
that lend reliability and credibility to our efforts is paramount.
    Recreation Development.--Design and Construction in all Pools 
should continue as practicable. Important developments such as the 
Shreveport Riverview project, Teague Parkway Trails in Bossier City, 
Colfax Recreation Area and Natchitoches Recreation Area have 
established an excellent recreation foundation in Pools 3, 4, and 5.
                                 ______
                                 
        Prepared Statement of the Caddo/Bossier Port Commission
    On behalf of the citizens of Northwest Louisiana, the Caddo-Bossier 
Parishes Port Commission respectfully urges the Congress of the United 
States to allocate in the fiscal year 2004 Budget the necessary funding 
to keep America's water navigation and transportation infrastructure 
functioning in a safe, cost-effective and reliable manner. The Port and 
Maritime Industries are a major contributor to our Nation's economy. As 
an example, one out of every eight jobs in Louisiana is attributable to 
these industries.
    Moreover, our water highways are national assets, linking every 
community in this Nation to the world. Unfortunately, the proposed 
budget does not include funding for Red River maintenance dredging in 
the Corps of Engineers' Civil Works Program. Dredging is absolutely 
essential to maintaining a safe and reliable waterways system. In 
addition, the $13.7 million budget allocated to the Corps of Engineers 
for construction does not come close to meeting expressed Corps 
capability of $29 million. Likewise, the Operating and Maintenance 
budget appropriation for the Corps at $12 million does not meet 
expressed Corps capability of $19.9 million.
    The effect of these proposed cuts could also be exponentially 
deepened by proposed changes that would finance 25 percent to 50 
percent of the cost of operation and maintenance from the Inland 
Waterways Trust Fund and the Harbor Maintenance Trust Fund. Since 1986, 
these funds have been used to pay one-half of the cost of construction 
and major rehabilitation on specified, fuel-taxed inland waterways 
segments. This action violates the agreement reached prior to passage 
of the Water Resources Development Act of 1986 affirming continued 
Federal responsibility for inland waterways operation and maintenance 
outlays in return for inland waterway users assuming the obligation for 
financing 50 percent of future construction and major rehabilitation 
expenditures. Of even greater concern is the potential this would 
create for future increases in the fuel tax, negatively impacting cargo 
rates and discouraging water transportation at a time when the industry 
is experiencing strong gains.
    The Port of Shreveport-Bossier, located at the head of Red River 
navigation and in operation since 1997, stands today as a longtime 
dream with a solid track record of success and over $95 million of 
local public investment. In 2002, the Port reached the Two Millionth 
Ton of Cargo milestone, at an earlier point in its development than 
most ports of comparable size, and it added Southern Composite Yachts 
to a growing tenant list at the 2,000-acre complex. These results 
should provide a sense of pride to all members of Congress who believed 
in the Red River Navigation Project and recognized its potential. We 
urge you to continue to fund the waterways at a responsible level in 
support of the continued growth of Port and Maritime Industries that so 
directly impact our national economy.
                                 ______
                                 
   Prepared Statement of the Board of Mississippi Levee Commissioners
    This statement is prepared by James E. Wanamaker, Chief Engineer 
for the Board of Mississippi Levee Commissioners, Greenville, 
Mississippi, and submitted on behalf of the Board and the citizens of 
the Mississippi Levee District. The Board of Mississippi Levee 
Commissioners is comprised of 7 elected commissioners representing the 
counties of Bolivar, Issaquena, Sharkey, Washington, and parts of 
Humphreys and Warren counties in the Lower Yazoo Basin in Mississippi. 
The Board of Mississippi Levee Commissioners is charged with the 
responsibility of providing protection to the Mississippi Delta from 
flooding of the Mississippi River and maintaining major drainage 
outlets for removing the flood waters from the area. These 
responsibilities are carried out by providing the local sponsor 
requirements for the Congressionally authorized projects in the 
Mississippi Levee District.
    It is apparent that the Administration loses sight of the fact that 
the Mississippi River & Tributaries Project provides protection to the 
Lower Mississippi Valley from flood waters generated across 41 percent 
of the Continental United States. These flood waters flow from 31 
States and 2 providences of Canada and must pass through the Lower 
Mississippi Valley on its way to the Gulf of Mexico. We will remind you 
that the Mississippi River & Tributaries Project is one of, if not the 
most cost effective project ever undertaken by the United States. The 
foresight used by the Congress and their authorization of the many 
features of this project is exemplary.
    The many projects that are part of the Mississippi River & 
Tributaries Project not only provides protection from flooding in the 
area, but the award of construction contracts throughout the Valley 
provides assistance to the overall economy to this area that is also 
encompassed by the Delta Regional Authority. The employment of the 
local workforce and purchases from local venders by the contractors 
help stabilize the economy in one of the most impoverished areas of our 
country. The Mississippi Valley Flood Control Association will be 
submitting a general statement in support of an appropriation of $435 
million for fiscal year 2004 for the Mississippi River & Tributaries 
Project. This is the minimum amount that we consider necessary to allow 
for an orderly completion for the remaining work in the Valley and to 
provide for the operation and maintenance as required to prevent 
further deterioration of the completed flood control and navigation 
work.
    The Delta area of Mississippi remains exposed to severe flooding 
from the Project Design Flood on the Mississippi River. The 
administrative budget for Mainline Mississippi River Levees will 
further delay protection from the River beyond the already projected 
completion date of 2031. We are asking that the Congress appropriate 
$55.609 million which will allow for the continuation of ongoing 
contracts along our levee system and for the award of one additional 
construction item in fiscal year 2004. The Board of Mississippi Levee 
Commissioners has committed the necessary financial resources and staff 
to allow for the orderly acquisition of rights-of-way which is required 
by the local sponsor and we ask that the Congress continue to provide 
adequate Federal funding to allow construction of these projects to 
move forward in an orderly manner.
    Although there is opposition to the recommended plan for the Yazoo 
Backwater Project within the environmental community, the local support 
for the recommended plan is strong. All six of the county Boards of 
Supervisors in the project area officially support the recommended plan 
provided in the Draft Reformulation Report released by the Corps of 
Engineers in September 2000. The Corps of Engineers and Environmental 
Protection Agency are currently working to gain consensus on the 
science used in evaluating impacts. The Mississippi Levee Board remains 
concerned about the apparent desire of the U.S. Fish & Wildlife Service 
to avoid the science involved and their continued effort to achieve 
their goal for change in national policy utilizing this single project 
as the vehicle. The Fish & Wildlife Service continues to advocate 
alternatives that constitute no more than land use planning for the 
area. The Vicksburg District Corps of Engineers has scheduled the 
release of the Final Report this summer which would call for initiating 
the acquisition of reforestation easements; the pump supply contract; 
and relocations during fiscal year 2004. At this time, we would ask 
that the Congress provide an appropriation of $12 million which will 
allow for the Corps of Engineers to proceed on schedule in providing 
protection to an area from flood waters that it has had to endure for 
over 60 years after the Eudora Floodway feature was removed from the 
Mississippi River & Tributaries Project.
    The completion of channel work leading into the City of Greenville 
being constructed as part of the Upper Steele Bayou Project portion of 
the Big Sunflower River & Tributaries Project has proved itself on more 
than one occasion. As we have had several rainfall events that 
previously would have caused tremendous localized flooding and flooding 
of many homes in the City of Greenville, rainfall from these storms was 
conveyed by the project without damage to any homes. We are requesting 
$1.29 million for construction to continue on the remaining features of 
this project in the Yazoo National Wildlife Refuge and for the 
acquisition of remaining mitigation lands required as this project 
nears completion.
    As with the work that provides the drainage of flood waters from 
the City of Greenville, the Upper Yazoo Project, having been completed 
to the City of Greenwood, has also proved itself during these heavy 
rainfall events. Areas that were flooded in the City of Greenwood 
during heavy rains in 1973 have remained flood free over the last 2 
years. This work needs to extend upstream toward the towns of Lambert 
and Marks so that they might receive the same level of protection as 
Greenville and Greenwood. We are requesting $15 million for the Upper 
Yazoo Project which will allow the Vicksburg District Corps of 
Engineers to continue with planning, design, and the award of 
construction contracts in an orderly manner. These channels also 
provide the outlet for the four flood control reservoirs which store 
excess waters from heavy rainfall events that occur in the upper 
reaches of the basin.
    Demonstration Erosion Control work in the Bluff Hills above the 
Mississippi Delta has time and again proven the effectiveness of 
stabilized stream banks and reduction of head cutting, both of which 
reduces sediment from entering our channels. An appropriation of $20 
million is being requested for the Demonstration Erosion Control 
Project to ensure that construction continues on schedule reducing 
maintenance requirements along the Yazoo, Tallahatchie, and Coldwater 
River Systems in years to come.
    We read day after day comments regarding the need for maintenance 
of our Nations infrastructure. Completed portions of the Mississippi 
River & Tributaries Project are no different than other infrastructure 
across the country. The Big Sunflower River & Tributaries Project 
provides the drainage outlet for over 4,000 square miles of the 
Mississippi Delta (an area almost 4 times the size of the State of 
Rhode Island). Construction on this project was initiated in 1947 and 
completed in the mid 1960's. For over 50 years, the Mississippi Delta's 
two Levee Boards, which serve as the local sponsors of this project, 
have carried out their commitment to the Corps of Engineers for the 
maintenance of this project. The Vicksburg District Corps of Engineers 
determined in the early 1990's that major maintenance of these channels 
was required to restore the project to the capacity achieved when the 
work was completed in the 1960's. Opposition to the Big Sunflower River 
Maintenance Project has led the Vicksburg District Corps of Engineers 
to prepare a Supplemental Environmental Impact Statement. The State of 
Mississippi is also re-evaluating the Water Quality Certificate. Both 
of these activities are scheduled to be completed in fiscal year 2004, 
at which time a construction contract for the first dredging item can 
be awarded. All of the required right-of-way is in place for this item 
and we are requesting $4.17 million to allow the award for this 
contract.
    Maintenance of our Mainline Mississippi River Levee System is 
provided on a day-to-day basis by the many Levee Boards along the 
Mississippi River. The Flood Control Act of 1928 clearly delineates 
activities to be performed by the local sponsor and by the Federal 
Government. We are requesting $8.69 million for the maintenance of the 
Mississippi River Levees to allow the Corps of Engineers to adequately 
carry out their responsibilities for major maintenance on this project.
    A key feature in providing flood protection to the East part of the 
Mississippi Delta are the four flood control reservoirs that hold back 
flood waters from the Bluff Hills that would otherwise inundate the 
Delta. All of these reservoirs are well over 50 years old and are 
requiring major work to comply with the provisions of the Dam Safety 
Act. We are asking for appropriation for maintenance of Arkabutla Lake 
of $10.205 million, Enid Lake $7.47 million, Grenada Lake $8.358 
million, and Sardis Lake $13.86 million. The increase in funds 
requested will be utilized for much needed maintenance to features of 
these projects. We are also asking for an appropriation of $1.135 
million for the tributaries' features of the Yazoo Basin to allow 
continued bank stabilization and shore line protection work.
    There are other issues in the Administrations' Budget for the Corps 
of Engineers that greatly concern everyone in the Valley. Inland 
navigation along the Mississippi River is a vital feature in keeping 
the economy of the Lower Mississippi Valley stable. This navigation 
system passes through the heart of an area focused on by the Delta 
Regional Authority and provides a nucleus on which other economic 
development in the area can rely. The Administration's proposal to 
utilize funds from the Inland Waterways Trust Fund for daily operation 
of maintenance of the waterway is unacceptable. It is a proven fact 
that construction rehabilitation funds needed to keep the navigation 
system operational are insufficient and the depletion of the Trust Fund 
for operation and maintenance will further hinder the rehabilitation of 
the navigation system so vital to the economy of our Nation. Our inland 
waterways navigation system provides benefits to the Nation of 
approximately $900 million each year.
    We have also been informed that the Secretary of the Army desires 
to ``out source'' up to 90 percent of the civil work functions being 
carried out by the Corps of Engineers. The Board of Mississippi Levee 
Commissioners has long been concerned about the reduction of personnel 
employed by the Corps of Engineers and its impact to the design and 
construction of our projects, along with the lack of experienced 
individuals available to assist during a major flood event along the 
Mississippi River. The Board of Mississippi Levee Commissioners is 
opposed to any further ``out sourcing'' of activities currently being 
performed in-house by the Corps of Engineers. We have found ourselves 
in a position that local sponsor personnel are required to perform 
activities during the design phase of our projects, or suffer from 
delays to the contract award. This is caused by the time required by 
procedures to have the work ``out sourced''. We are also opposed to any 
function currently administered by the Corps of Engineers being 
transferred to any other department of the Federal Government. The 
experience of personnel throughout the Corps of Engineers in carrying 
out their Congressionally authorized civil work functions cannot be 
replaced if moved to other departments of the Federal Government.
    We are grateful to the committee for providing us the opportunity 
each year to present our testimony for the record.
                                 ______
                                 
             Letter From the Little River Drainage District
                          Cape Girardeau, Missouri, March 19, 2003.
Senator Peter V. Domenici,
127 Dirksen, Washington, DC 20510.
    Dear Senator Domenici: My name is Dr. Sam Hunter, DVM of Sikeston, 
Missouri. I am a veterinarian, landowner, farmer and resident of 
Southeast Missouri.
    I am the President of the Little River Drainage District, the 
largest such entity in the Nation. Our District serves as an outlet 
drainage and flood control District to parts of 7 counties in Southeast 
Missouri. We provide flood control protection to a sizable area of 
Northeast Arkansas as well. Our District is solely tax supported by 
more than 3,500 private landowners in Southeast Missouri.
    Our District, as well as other Drainage and Levee Districts in 
Missouri and Arkansas, is located within the St. Francis River Basin. 
This is a project item of the Mississippi River and Tributaries 
Project.
    The St. Francis Basin Project was authorized by Congress in 1928 
for improvements by the U.S. Army Corps of Engineers. The initial 
authorization was justified by a projected benefit cost ratio of 2.4:1. 
Today this ratio is 3.6:1 and the project is still not completed. As 
you can see this has been a wise investment of our Federal tax dollars. 
Few projects or ventures with funding levels provided by the Federal 
Government return more than they cost. This one does and we need to 
complete it in a timely fashion.
    Local interests have done their part in providing rights of way, 
roads, utilities and the like. Our government now needs to fulfill 
their obligatory part of the project and bring it to completion as 
quickly as possible.
    The amount allocated for maintenance in the St. Francis Basin 
Project for fiscal year 2003 was approximately $12,000,000. This is a 
funding level that will permit adequate funding to maintain the 
features within that project on which the Corps of Engineers has made 
improvements and which it is the responsibility of the Federal 
Government to maintain. As a matter of information the Memphis District 
U.S. Army Corps of Engineers was able to execute 99 percent of the 
available funds for maintenance within that project for fiscal year 
2003.
    The President's budget for fiscal year 2004 contains $2.91 million 
for construction whereas the Corps of Engineers has the capability of 
$7.6 million. The President's budget has only $7.505 million for 
maintenance within the St. Francis Basin Project whereas the Corps of 
Engineers has a stated capability of $10.305 million for maintenance.
    We believe the Corps could adequately use between $13 and $15 
million each year for maintenance within this basin. We realize the 
budgetary restraints this year and respectively request Congress to 
approve funding for maintenance in the St. Francis Basin Project for 
fiscal year 2004 in the amount of $10.505 million. This is 
approximately $2 million less than what was actually spent in fiscal 
year 2003 but it will provide funds for adequate maintenance of the 
features within this basin which need annual attention.
    Regarding the construction request we respectively request the 
Congress to fund the amounts for construction for this project equal to 
the Corps capability of $7.6 million.
    Many positive changes have occurred to and within our sector of our 
Nation because of this project. We who live there welcome these 
changes. We, local interests, in Southeast Missouri and Northeast 
Arkansas want this project brought to completion and adequately 
maintained. We have waited over 70 years and we believe it is now time 
to complete this wise investment for our Nation.
    Secondly, the Corps of Engineers has a stated capability of more 
than $435,000,000 for fiscal year 2004 in the MR&T Project. We ask you 
to give consideration to provide funding levels at $435,000,000 for 
this project. This will provide some very needed new construction and 
some maintenance. The President's budget contains only $162,440,000 for 
maintenance which is not adequate. The Corps has a stated capability of 
$208,443,000. We respectively request full capability amounts. The 
President's budget is for only $280,000,000 for construction which to 
put it simply is not enough to keep this vital project maintained and 
moving to a modernization and a reasonable completion date. Authorized 
since 1928 and not completed does not bode well for such a wise 
investment.
    The Mississippi River and Tributaries Project was authorized 
following a record flood in 1927 that inundated more than 26,000 square 
miles of the Mississippi River Valley. Over 700,000 people were left 
homeless, many lives were lost, most if not all East-West commerce was 
stopped and it adversely effected the economy and the environment of 
our Nation. After that devastating event Congress in its infinite 
wisdom passed a bill and established the Mississippi River and 
Tributaries Project (MR&T) and authorized the U.S. Army Corps of 
Engineers to develop a plan to prevent such a disaster in the future.
    To date the MR&T Project has prevented over $180 billion in flood 
damages for an investment of less than $10 billion. Additionally our 
Nation receives more than $900 million of navigational benefits each 
year due to this project. It is readily seen that this project had 
merit from the beginning and continues to reward the citizens not only 
of the valley itself but of the citizens of the entire Nation. It is a 
wise investment for this country, it is good for our economy, and it 
will be a vital link to the defense of our Nation in the event of an 
attack by our enemies.
    This project is not completed and needs to be completed 
immediately. Our locks are aged and have exceeded by 20 percent in some 
instances of their expected life expectancy. The entire lock and dam 
system on the Mississippi River and Tributaries Project needs to be 
modernized in order for our shipping interests to compete with foreign 
markets. While we sit idly by and watch our infrastructure deteriorate 
our competitors in South America and Central America are building 
better and more efficient features throughout their countries. 
Ultimately this will lead to competition which our Nation will not be 
able to fairly compete with.
    Further, we are very concerned and strongly opposed to the 
administration's recommendation in its fiscal year 2004 budget 
submission to use funds from the Inland Waterways Trust Fund to pay for 
part of the operation and maintenance cost of the inland waterways as 
well as some construction. The trust fund was established in 1978 and 
was to be made available for construction and rehabilitation for 
navigation on the inland and coastal waterways not for operations and 
maintenance. This is not what our Nation agreed to in 1978 and is not 
what was renewed under WRDA in 1986. We petition this Congress to stand 
up and have our Nation live up to the promises made to the contributors 
of that trust fund and abide by past agreements.
    Should Congress allow this recommendation to come to fruition the 
trust fund would be drained of all its funds in a short period of time 
and the 50 percent cost share to pay for the construction for 
navigation would not be available unless the tax on fuel used by our 
shipping interests was raised considerably. In most cases these taxes 
would have to be doubled. This industry and its operators would suffer 
dreadfully and many would have to cease operations. Even today at least 
one has filed for bankruptcy and at least one or two others is 
contemplating the same. Should this continue to happen the best and 
most desirable mode of transportation to get our farm commodities and 
products to market would require overland transportation which would 
place a giant burden on our highway system. Further, it would add to 
the expense to our farmers for getting their products to market as well 
as increasing the cost of fuel oil, gasoline, coal, chemicals, and the 
other many items shipped by our barge industry.
    It has been proven year after year our waterway transportation 
system is the safest, the most environmentally acceptable, and the most 
fuel efficient in moving mass amounts of commodities and materials 
throughout our Nation. It would be totally unacceptable and extremely 
unwise to diminish the role of that mode of moving products throughout 
our Nation and expect them to be moved either by rail or by highways. 
Our highway systems already are in dire need of repair and to add 
additional demands on them would be extremely costly. They would become 
very unsafe, and would require much more fuel consumption which we 
currently do not have but must import. Hopefully, common sense will 
prevail and Congress will make the choice to invest into one of the 
greatest assets we have in our Nation.
    The many locks and dams on our rivers are needed. They were 
designed to accommodate traffic 50-60 years ago and it is now time to 
upgrade, enlarge, and construct them to accommodate the industry as we 
have it today. We have done the same thing with our vehicular traffic 
on our roads by upgrading, enlarging, and constructing to meet the 
modern day demands. It is now time and past time to do the same for our 
water industry. Former President Eisenhower saw an increase in our car 
and truck traffic on the horizon and thus we implemented an extensive 
interstate system. Let's look to the future with progressive and wise 
vision and do something in a similar way on our rivers. Our Nation is 
the world's leading maritime and trading nation. We rely on an 
efficient and effective marine transport system to maintain our role as 
a global power. We must continue that role by setting the pattern for 
our neighbor, allies, and other foes.
    Our current waterway system has improved the quality of life and 
has provided a foundation for economic growth and development in the 
United States particularly throughout the Mississippi Valley. Our flood 
control systems work, our transport systems are efficient, our multi-
purpose projects all contribute to our national prosperity. The 
benefits are real, the flood damages are known to have prevented much 
devastation. Transportation costs have been reduced and increased trade 
worldwide has increased. Unfortunately our Nation has not invested in 
water resource projects and has not kept pace with the economic and 
social expansion not only in this country but on global markets as 
well. Most of our locks and dams are outdated and were designed only 
for a 50 year life. We have exceeded that on nearly half of those 
locks. Many of our locks are undersized for modern commercial barge 
demands and need to be modernized. Imagine our Highway system being as 
it was 50 years ago and having to accommodate the massive number of 
cars we have today. That is precisely what we are doing on our 
waterways. We need to have greater vision and mettle and become 
aggressive and progressive in meeting today's needs. There is currently 
$10 billion needed for waterway improvements in addition to a backlog 
of approximately $300,000,000 which we need to address in this country. 
Our country should have the same vision and the same goal of 
modernizing and upgrading our waterway system as we upgraded and 
modernized our interstate system across our country in the 1960's.
    The latest report by the American Society of Civil Engineers 
provides us an independent report card review on America's 
infrastructure. Features that were graded were roads, bridges, transit 
systems, aviation schools, drinking water, waste water, dams, solid 
waste, hazardous waste, navigable waterways, and energy. The highest 
grade this independent organization gave was a C+ to our solid waste 
disposal system. The overall average which they gave to our 
infrastructure was a D+. This is shameful and this needs to be 
corrected. The ASCE estimates approximately $1.3 trillion needs to be 
spent on our infrastructure over the next 5 years. We can and should 
heed their recommendation. This is not an ``in house'' review but an 
independent assessment.
    What a great way for our country to stimulate its economy and at 
the same time be building and making investments into a system for the 
future which will return back more dollars than expended. We petition 
you to give this vital industry of our Nation a strong endorsement and 
do all you can to ensure our waterways systems stay competitive with 
our foreign competitors.
    At a time when we need to stimulate our economy and at a time that 
safety from terrorist activities needs to be enhanced and at a time 
that many in our Nation are concerned about cleaner air, cleaner water, 
etc., we have a great opportunity to meet the needs of all. We can be 
making sound investments into our infrastructure which will turn back 
more monies to the taxpayers of this country than was invested. We will 
be increasing our defense capabilities should our Nation be attacked 
from an outside force.
    We are strongly opposed to any action that would transfer any part 
or all of the U.S. Army Corps of Engineers Civil Works mission to any 
other agency or department of the Federal Government. This agency has 
completed and overseen the Civil Works mission since its inception and 
has done quite well. Very few of our other governmental bodies can 
report and show a return of the taxpayers investment as the Corps of 
Engineers can and has been doing for many years. It has been reported 
this administration desires to transfer the Corps Civil Works program 
to the Department of Transportation, the Flood Control and 
Environmental Restoration to the Department of Interior and the 
Regulatory Program to the Environmental Protection Agency. The U.S. 
Army Corps of Engineers has rendered extremely valuable services to 
this Nation for many years. The Corps has created an inland waterways 
system that is the envy of the rest of the world. Our Nation's 
commercial transportation system is critical to the Nation's economy 
and the environmental well being and part of this system is used to 
transport military equipment in support of the war on terrorism. The 
Corps has also been in the forefront to provide flood control and 
environmental restoration projects and have supported our troops at 
every armed conflict this Nation has been engaged in. In our opinion, 
it will be a serious mistake and have a negative nationwide impact to 
spread the functions of the Corps into several parts and across a 
Federal bureaucracy. This Nation would lose a wonderful asset and one 
we have enjoyed for many years.
    Further, we are opposed to the continued trend to ``out-source'' or 
to contract-out many of the present positions in the Army Corps of 
Engineers, Civil Works Division. The current Secretary of Army has 
proposed 90 percent of all Corps of Engineers positions be contracted 
out which would eliminate approximately 22,000 current employees and 
would make it almost impossible for much of their work to continue. The 
Corps of Engineers needs to have a good core group of employees ``in 
house'' in order to continue to function in an orderly manner and in a 
fashion their mission was set out by Congress. It is our hope that our 
good Congressional friends will recognize this as a problem and do all 
they can to insure that such efforts are not successful.
    I wish to thank you very much for your time and kind attention and 
for taking the time to review the above discourse. We would be very 
appreciative of anything this committee can do to help us improve our 
environment, improve our livelihood, and improve the area in which we 
live and work which ultimately is good for America. We are also very 
appreciative of all this Committee has done for us in the past. We 
trust you will hear our pleas once more and act accordingly.

                                         Dr. Sam M. Hunter,
                                                         President.
                                 ______
                                 
 Prepared Statement of the Mississippi Valley Flood Control Association
    My name is M.V. Williams and I am the President of the West 
Tennessee Tributaries Association. It is also my privilege to serve as 
the Chairman of the Executive Committee of the Mississippi Valley Flood 
Control Association.
    I hope that every one here has knowledge of the Mississippi Valley 
Flood Control Association and a general idea of our objectives. For the 
sake of time let me sum it up by saying we are an agency that gives all 
the people of the Mississippi River Valley the opportunity to speak and 
act jointly on all matters pertaining to flood control, navigation, 
bank stabilization and major drainage problems. We have been coming to 
Washington since 1922 and continuously since re-organization in 1935, 
that's 68 years. Our members for the most part are elected officials 
that give of their time and resources because they know full well that 
their well-being and that of their family, friends and neighbors 
depends on the whims of the majestic and mighty Mississippi River and 
its Tributaries.
    Today our great Nation is engaged in a global war on terrorism and 
our first priority is to win this war and to give back to our citizens 
that feeling of safety that was so rudely taken from us on the 11th day 
of September, 2001 by a bunch of self-destructive fanatical murderers. 
We know that each of you shares our concerns on this matter.
    I am here today to talk about the fiscal year 2004 Appropriations 
for the Mississippi River and Tributaries Project. But before I do, I 
wish to thank all the Members of the United States Congress for adding 
funds to the President's fiscal year 2003 Budget for the U.S. Army, 
Corps of Engineers' Civil Works program. These additional funds are 
needed to insure the continuation of the improvement of our water 
resources, the restoration and protection of our natural environment 
and the operations and maintenance of our inland waterways system and 
our vitally needed flood control structures.
    Today we are again faced with the Administration's Budget that is 
totally inadequate to accomplish those things that I have just 
mentioned. In addition to a lack of funding this 2004 Budget contains 
requirements that are totally unacceptable to us. I would at this time 
desire to address these concerns before talking briefly about the 
Appropriations.
    First, the Administration is proposing to reach into the Inland 
Waterways Trust Fund to pay a large share of the cost of operations and 
maintenance of the inland waterways of this country which by the way 
are the envy of the rest of those that inhabit this planet.
    The Inland Waterways Trust Fund was established by the Congress in 
1978 to make available funds for future construction and rehabilitation 
for navigation on the inland and coastal waterways, not for use for the 
operations and maintenance of those waterways. The funds came from a 
tax levied on the diesel fuel used by the commercial tow boats that 
used the waterways. These funds were not used until the passage of the 
Water Resources Development Act of 1986 at which time an agreement was 
reached between the waterways operators and the Federal Government that 
would call for an increase in the amount of fuel taxes coupled with the 
understanding that the trust fund would not be used for operation and 
maintenance costs.
    If the Congress allows the use of trust funds for operations and 
maintenance, the trust fund will be exhausted in a short period of time 
and the 50 percent share to pay for construction for navigation 
facilities will not be available unless the tax on fuel used by the tow 
boats is raised once again. This action would make it extremely 
difficult for barge operators to continue their operations thereby 
making it more expensive for farmers to get their products to market 
and for the public to realize savings in transportation cost for bulk 
commodities such as fuel oil, gasoline and other crucial items shipped 
by barge. We urge you not to accept this proposal made by the 
Administration.
    We again wish to express our strong opposition to any action that 
would transfer any part of the Corps of Engineers' Civil Works mission 
to other agencies or departments of the government and also our strong 
opposition to any ``out-sourcing'' of the present positions in the 
Corps' civil works functions.
    We were very pleased to see that section 109 of the Fiscal Year 
2003 Appropriations Bill reflected that the Congress shares our 
opposition to these matters and did in fact see that no funds 
appropriated would be used to study or implement any plans privatizing, 
divesting or transferring of civil works missions, functions, or 
responsibilities for the United States Army Corps of Engineers. Thank 
you very much for that.
    Now if I may let me speak very briefly on the amount of funds we 
consider to be required for the Fiscal Year 2004 Mississippi River and 
Tributaries Appropriations.
    The management and direction of the Mississippi Valley Flood 
Control Association is vested in a ten member Executive Committee who 
are elected by the members of the Association from their respective 
states, two each from the states of Louisiana, Mississippi and Arkansas 
and one each from the states of Tennessee, Kentucky, Missouri and 
Illinois. The Executive Committee has spent time reviewing and 
examining the Fiscal Year 2004 Proposed Budget for the Mississippi 
River and Tributaries Project and after careful consideration we 
arrived at the amount of $435,000,000 that we consider the amount 
required to complete the MR&T Project in the most economically and 
engineeringly feasible time frame that will also benefit, preserve and 
restore the natural environment. I have attached a sheet to my 
statement that reflects our request in more detail.
    In closing let me state once again that our priorities are to win 
the war on terrorism, to protect the homeland and to revitalize the 
Nation's economy.
    We must not forget the importance of funding the critical water 
resources infrastructure needs in order to protect the lives and 
property of our citizens and to protect the investment that has already 
been made.
    Thank you for giving me the opportunity to speak to you today. The 
speakers to follow me will be more specific in their statements.
    I shall close with the sincere hope that god will continue to bless 
this country and bring about a quick and kind end to all the discord in 
the world.

  MISSISSIPPI VALLEY FLOOD CONTROL ASSOCIATION--FISCAL YEAR 2004 CIVIL
WORKS REQUESTED BUDGET--MISSISSIPPI RIVER AND TRIBUTARIES APPROPRIATIONS
------------------------------------------------------------------------
                    Project and State                      MVCFA Request
------------------------------------------------------------------------
Surveys, Continuation of Planning and Engineering &
 Advance Engineering & Design:
    Memphis Harbor, TN..................................        $700,000
    Germantown, TN......................................         171,000
    Millington, TN......................................         127,000
    Fletcher Creek, TN..................................         150,000
    Southeast Arkansas..................................       1,000,000
    Coldwater Basin Below Arkansas......................         500,000
    Quiver River, MS....................................         100,000
    Alexandria, LA to the Gulf of Mexico................         700,000
    Morganza, LA to the Gulf of Mexico..................       7,992,000
    Donaldsonville, LA to Gulf of Mexico................       1,400,000
    Spring Bayou, LA....................................         832,000
    Tensas River, LA....................................         500,000
    Donaldsonville Port Development, LA.................         100,000
    Collection & Study of Basic Data....................         695,000
                                                         ---------------
      Subtotal--Surveys, Continuation of Planning &           14,967,000
       Engineering & Advance Engineering & Design.......
                                                         ---------------
Construction:
    St. John's Bayou-New Madrid Floodway, MO............       7,600,000
    Eight Mile Creek, AR................................       2,050,000
    Helena & Vicinity, AR...............................       3,407,000
    Grand Prairie Region, AR............................      24,700,000
    Bayou Meto, AR......................................      16,000,000
    West Tennessee Tributaries, TN......................         620,000
    Nonconnah Creek, TN.................................       3,068,000
    Wolf River, Memphis, TN.............................       2,500,000
    Reelfoot Lake, TN...................................       1,240,000
    St. Francis Basin, MO & AR..........................       6,300,000
    Yazoo Basin, MS.....................................      53,555,000
    Atchafalaya Basin, LA...............................      21,235,000
    Atchafalaya Basin Floodway..........................      14,200,000
    MS Delta Region, LA.................................       3,400,000
    Horn Lake Creek, MS.................................         395,000
    MS & LA Estaurine Area, MS & LA.....................          30,000
    Channel Improvements, IL, KY, MO, AR, TN, MS & LA...      44,017,000
    Mississippi River Levees, IL, KY, MO, AR, TN, MS &        50,645,000
     LA.................................................
                                                         ---------------
      Subtotal--Construction............................     254,962,000
      Subtotal--Maintenance.............................     208,433,000
                                                         ---------------
      Subtotal--Mississippi River & Tributaries.........     478,362,000
Less Reduction for Savings & Slippage...................     -43,362,000
                                                         ---------------
      Grand Total--Mississippi River & Tributaries......     435,000,000
------------------------------------------------------------------------

                                 ______
                                 
 Prepared Statement of the Board of Levee Commissioners for the Yazoo-
                           Mississippi Delta
        yazoo basin, mississippi rivers and tributaries project
    This statement today, made on behalf of the citizens represented by 
the Yazoo-Mississippi Delta Levee Board, is not only in support of the 
funding requests contained herein, but also for the general funding 
testimony offered for Fiscal 2004 by the Mississippi Flood Control 
Association. The association is requesting funding in the amount of 
$435 million for the Mississippi Rivers and Tributaries Project (MR&T), 
an amount based on the association's professional assessment of the 
capabilities of the U.S. Army Corps of Engineers, Mississippi Valley 
Division.
    I would ask that these remarks be made a part of the record.
    In the aftermath of the devastating and historic Great Flood of 
1927, the Flood Control Act of 1928 established as national priority, 
the development of a comprehensive flood control plan to reduce the 
likelihood of such a horrific event's ever happening again in the Lower 
Mississippi Valley. As we look back, the MR&T has returned $180 billion 
in benefits for the $10 billion invested--truly an American public 
works success story.
    Significantly, however, a substantial amount of uncompleted work on 
the project remains, necessarily exposing many areas to the risks of 
flooding. Consequently, the Yazoo-Mississippi Delta Levee Board asks 
Congress to provide funding at a level which will allow the MR&T to 
continue at a pace commensurate with the national priority to protect 
people and property from the ravages of flooding. In order to avoid the 
sorts of delays which can result in the loss of life and livelihood, we 
must again depend upon the good men and women of Congress to add the 
necessary funding to the administration's budget which will allow the 
Corps of Engineers to proceed with its work at full capacity.
    A line-item chart reflecting existing and needed funding levels for 
MR&T projects in the Lower Mississippi Valley follows, with special 
emphasis given to those projects most critical to our levee district:
                        mississippi river levees
    Overall, the construction needs for levees and channels in the 
Lower Mississippi Valley is $55.609 million, with an additional $8.59 
million required for maintenance. Work to continue the ongoing process 
of strengthening deficient levees to the south of our district is 
underway and needs to continue on schedule. Of particular interest to 
our levee board is a series of projects designed to address the problem 
of levee under seepage. We are asking that $2.93 million be allocated 
to the Memphis District for three projects designed to address this 
problem.
                       upper yazoo projects (uyp)
    The number one priority for the Yazoo-Mississippi Delta Levee 
Board, the Upper Yazoo Project was conceived in 1936. The project 
includes a system of flood control reservoirs which discharge into a 
system of channels and levees intended to safely convey headwater from 
the hills to the Mississippi River. While this project has been 
advancing smoothly, it is critical to the people of the North Delta 
that it continue to do so. While the President's budget contains only 
$6.62 million for this project, we are asking that Congress increase 
its appropriation to $15 million to insure that this important project 
continues without interruption. These additional funds will be used to 
complete Items 5A and 5B; to initiate construction on Item 6A; and to 
acquire right of ways and mitigation lands for Item 6 and Item 7.
                yazoo headwater flood control reservoirs
    Four major flood control reservoirs exist in Mississippi to control 
the release of headwater into the Yazoo River system--Sardis, 
Arkabutla, Enid and Grenada. These have prevented significant flood 
damages through allowing drainage from the State's hill section to be 
released into the much lower Delta at controlled rates. All four are 
aging and require both routine maintenance and upgrading. We are 
requesting that Congress allocate the needed $39.89 million so that 
they can continue to function effectively.
                big sunflower river maintenance project
    The primary drainage outlet for 10 counties in Mississippi, the 
Sunflower River System has been subject to the same siltation factors 
common to all Delta streams. The Corps of Engineers has determined that 
the river has had a 40 percent reduction in its flow capacity.
    The Levee Boards have been working closely with the Vicksburg 
District as they complete the SEIS for the remaining work and with MDEQ 
on obtaining the Water Quality Certificate for the work. Both of these 
efforts are scheduled to be completed in 2004. Right-of-way is in place 
for the next construction item. We are requesting $4.17 million so that 
the SEIS can be completed and construction can be reinitiated as soon 
as the Water Quality Certificate is issued.
                 demonstration erosion control project
    We feel strongly that continued funding of DEC is important due to 
the fact that substantial amounts of the sediments which would be 
controlled by them would eventually end up within the 
ColdwaterTallahatchie/Yazoo river system. We urge Congress to allocate 
$20 million to this effort.
                          big sunflower river
    We are requesting that Congress allocate $1.29 million so that the 
Corps might purchase mitigation lands.
                     continuing authority programs
    The YMD Levee Board has committed to assist local governments in 
co-sponsoring projects that fall under the Corps' Continuing Authority 
Program. There is tremendous need for Section 14, Section 205 and 
Section 208 programs throughout our district. We urge Congress to both 
increase the limits for these projects and to make the eligibility 
process more competitive.
                        yazoo backwater project
    We continue to support the Mississippi Levee Board's and Corps' 
recommended project to address the problems of backwater flooding in 
the South Delta. We support their funding request of $12 million to 
advance design, initiate real estate activity and initiate a pump 
supply contract.
    Those of us at the Yazoo-Mississippi Delta Levee Board are deeply 
appreciative of the enormous amount of support lent our efforts by 
Congress in the past, and it is with full awareness of the challenges 
facing our great Nation that we earnestly request you support us again 
in meeting our challenge of keeping the floodwaters at bay.
    Humbly submitted on behalf of the Yazoo-Mississippi Delta Levee 
Board and all the citizens it seeks to keep dry.
                                 ______
                                 
      Prepared Statement of St. Francis Levee District of Arkansas
                           executive summary
    The Mississippi Valley Flood Control Association fiscal year 2004 
Civil Works Budget, Mississippi River and Tributaries Appropriations-
Requesting Appropriations of $6,300,000 for Construction and 
$14,733,000 for Maintenance and Operation in the St. Francis Basin 
Project and a Total of $435,000,000 for the Mississippi River 
Tributaries Project.
                         background information
    My name is Rob Rash, and my home is in Marion, Arkansas, located on 
the West side of the Mississippi River and in the St. Francis Basin. I 
am the Chief Engineer of the St. Francis Levee District of Arkansas. 
Our District is the local cooperation organization for the Mississippi 
River and Tributaries Project and the St. Francis Basin Project in 
Northeast Arkansas. Our District is responsible for the operation and 
maintenance of 160 miles of Mississippi River Levee and 75 miles of St. 
Francis River Tributary Levee in Northeast Arkansas.
    The St. Francis Basin is comprised of an area of approximately 
7,550 square miles in Southeast Missouri and Northeast Arkansas. The 
basin extends from the foot of Commerce Hills near Cape Girardeau, 
Missouri to the mouth of the St. Francis River, 7 miles above Helena, 
Arkansas, a total distance of 235 miles. It is bordered on the east by 
the Mississippi River and on the West by the uplands of Bloomfield and 
Crowley's Ridge, having a maximum width of 53 miles.
    The Mississippi River and Tributaries Project and the St. Francis 
Basin Project provide critical flood protection to over 2,500 square 
miles in Northeast Arkansas alone. This basin's flood control system is 
the very lifeblood of our livelihood and prosperity. Our resources and 
infrastructure are allowing the St. Francis Basin and the Lower 
Mississippi Valley to develop into a major commercial and industrial 
area for this great Nation. The basin is quickly becoming a major steel 
and energy production area. The agriculture industry in Northeast 
Arkansas and the Lower Mississippi Valley continues to play an integral 
role in providing food and clothing for this Nation. This has all been 
made possible because Congress has long recognized that flood control 
in the Lower Mississippi Valley is a matter of national interest and 
security and has authorized the U.S. Army Corps of Engineers to 
implement a flood control system in the Lower Mississippi Valley that 
is the envy of the civilized world. With the support of Congress over 
the years, we have continued to develop our flood control system in the 
Lower Mississippi Valley through the Mississippi River and Tributaries 
Project and for that we are extremely grateful.
    Although, at the current level of project completion, there are 
areas in the Lower Mississippi Valley that are subject to major 
flooding on the Mississippi River. The level of funding that has been 
included in the President's Budget for the overall Mississippi River 
and Tributaries Project is not sufficient to adequately fund and 
maintain this project. The level of funding will require the citizens 
of the Lower Mississippi Valley to live needlessly in the threat of 
major flood devastation for the next 30 years. Timely project 
completion is of paramount importance to the citizens of the Lower 
Mississippi. Ten and Fifteen Mile Bayou improvements are just one of 
many construction projects necessary for flood relief in the St. 
Francis Basin. Ten and Fifteen Mile Bayou improvements were 
reauthorized by Congress through the Flood Control Act of 1928, as 
amended. Section 104 of the Consolidated Appropriation Act of 2001 
modified the St. Francis Basin to expand the project boundaries to 
include Ten and Fifteen Mile Bayous and shall not be considered 
separable elements. Total project length of 38 miles includes Ten and 
Fifteen Mile Bayou, Ditch No. 15 and the 10 Mile Diversion Ditch that 
provide drainage for the West Memphis and Vicinity. Without additional 
funds, construction would be delayed and West Memphis and Vicinity will 
continue to experience record flooding as seen December 17, 2001. West 
Memphis and Vicinity would experience immediate flood relief when the 
first item of construction is completed.
                      u.s. army corps of engineers
    We are strongly opposed to any action that would transfer any part 
or the entire U.S. Army Corps of Engineers Civil Works mission to any 
other agency or department of the Federal Government. This agency has 
completed and overseen the Civil Works mission since its inception and 
has done quite well. Very few of our other governmental bodies can 
report and show a return of the taxpayer's investment as the Corps of 
Engineers can and has been doing for many years. It has been reported 
this administration desires to transfer the Corps Civil Works program 
to the Department of Transportation, the Flood Control and 
Environmental Restoration to the Department of Interior and the 
Regulatory Program to the Environmental Protection Agency. The U.S. 
Army Corps of Engineers has rendered extremely valuable services for 
this Nation for many years. The Corps has created an inland waterways 
system that is the envy of the rest of the world. Our Nation's 
commercial transportation system is critical to the Nation's economy 
and the environmental well being and part of this system is used to 
transport military equipment in support of the war on terrorism. The 
Corps has also been in the forefront to provide flood control and 
environmental restoration projects and have supported our troops at 
every armed conflict this Nation has engaged in. In our opinion, it 
will be a serious mistake and have a negative nationwide impact to 
spread the functions of the Corps into several parts across a Federal 
bureaucracy. This Nation would lose a wonderful asset and one we have 
enjoyed for over 200 years.
                            proposed funding
    We support the amount of $435,000,000 requested by the Mississippi 
Valley Flood Control Association for use in the overall Mississippi 
River and Tributaries Project. This is the minimum amount that the 
Executive Committee of the Association feels is necessary to maintain a 
reasonable time line for completion of the overall Mississippi River 
and Tributaries Project. Also, the amounts that have been included in 
the President's Budget for the St. Francis Basin Project; construction, 
operation and maintenance have not been sufficient to fund critical 
projects. These declined amounts have resulted in a significant backlog 
of work within the St. Francis Basin. Therefore, our District is 
requesting additional capabilities of 6,300,000 for the St. Francis 
Basin Project construction funds and $14,733,000 for the St. Francis 
Basin operation and maintenance funds. The amounts requested for the 
St. Francis Basin Project are a part of the total amounts requested for 
the Mississippi River and Tributary Appropriations of the Civil Works 
Budget.
                               summation
    As your subcommittee reviews the Civil Works Budget of fiscal year 
2004 Appropriations for the Mississippi River and Tributaries Project, 
please consider the significance of this project to the Mississippi 
Valley and the Nation's, economy and infrastructure. As always, I feel 
the Subcommittee will give due regard to the needs of the Mississippi 
River Valley as it considers appropriations for the Mississippi River 
and Tributaries Project. I would like to sincerely thank the 
Subcommittee for its past and continued support of the Mississippi 
River and Tributaries Project.

  MISSISSIPPI VALLEY FLOOD CONTROL ASSOCIATION--FISCAL YEAR 2004 CIVIL
WORKS REQUESTED BUDGET--MISSISSIPPI RIVER AND TRIBUTARIES APPROPRIATIONS
------------------------------------------------------------------------
                                            President's     Recommended
            Project and State                 Budget          Program
------------------------------------------------------------------------
Surveys, Continuation of Planning and
 Engineering & Advance Engineering &
 Design:
    Memphis Harbor, TN..................  ..............        $700,000
    Germantown, TN......................         $51,000         171,000
    Millington, TN......................          84,000         127,000
    Fletcher Creek, TN..................         120,000         150,000
    Southeast Arkansas..................  ..............       1,000,000
    Coldwater Basin Below Arkansas......         185,000         500,000
    Quiver River, MS....................  ..............         100,000
    Alexandria, LA to the Gulf of Mexico         435,000         700,000
    Morganza, LA to the Gulf of Mexico..       3,487,000       7,992,000
    Donaldsonville, LA to Gulf of Mexico         800,000       1,400,000
    Spring Bayou, LA....................         500,000         832,000
    Tensas River, LA....................  ..............         500,000
    Donaldsonville Port Development, LA.  ..............         100,000
    Collection & Study of Basic Data....         695,000         695,000
                                         -------------------------------
      Subtotal--Surveys, Continuation of       6,357,000      14,967,000
       Planning & Engineering & Advance
       Engineering & Design.............
                                         -------------------------------
Construction:
    St. John's Bayou-New Madrid           ..............      7, 600,000
     Floodway, MO.......................
    Eight Mile Creek, AR................       2,050,000       2,050,000
    Helena & Vicinity, AR...............       2,180,000       3,407,000
    Grand Prairie Region, AR............  ..............      24,700,000
    Bayou Meto, AR......................  ..............      16,000,000
    West Tennessee Tributaries, TN......  ..............         620,000
    Nonconnah Creek, TN.................       2,618,000       3,068,000
    Wolf River, Memphis, TN.............  ..............       2,500,000
    Reelfoot Lake, TN...................  ..............       1,240,000
    St. Francis Basin, MO & AR..........       2,365,000       6,300,000
    Yazoo Basin, MS.....................       7,740,000      53,555,000
    Atchafalaya Basin, LA...............      14,075,000      21,235,000
    Atchafalaya Basin Floodway..........       7,768,000      14,200,000
    MS Delta Region, LA.................       3,200,000       3,400,000
    Horn Lake Creek, MS.................  ..............         395,000
    MS & LA Estaurine Area, MS & LA.....  ..............          30,000
    Channel Improvements, IL, KY, MO,         39,562,000      44,017,000
     AR, TN, MS & LA....................
    Mississippi River Levees, IL, KY,         42,919,000      50,645,000
     MO, AR, TN, MS & LA................
                                         -------------------------------
      Subtotal--Construction............     124,477,000     254,962,000
      Subtotal--Maintenance.............     162,440,000     208,433,000
                                         -------------------------------
      Subtotal--Mississippi River &          293,274,000     478,362,000
       Tributaries......................
Less Reduction for Savings & Slippage...     -13,274,000     -43,362,000
                                         -------------------------------
      Grand Total--Mississippi River &       280,000,000     435,000,000
       Tributaries......................
------------------------------------------------------------------------

                                 ______
                                 
 Prepared Statement of the Louisiana Department of Transportation and 
                              Development
    The Louisiana Department of Transportation and Development, Office 
of Public Works and Intermodal Transportation, is the agency designated 
to represent the State of Louisiana for the coordinated planning and 
development of water resources, including flood control, navigation, 
drainage, water conservation and irrigation projects. This statement, 
submitted on behalf of the State of Louisiana and its twenty levee 
boards, presents the recommendations for fiscal year 2004 
appropriations for all U.S. Army Corps of Engineers Civil Works 
Projects in Louisiana.
    Louisiana contains the terminus of the Mississippi River, third 
largest drainage basin in the world, draining 41 percent, or 1\1/4\ 
million square miles, of the contiguous United States and parts of two 
Canadian provinces. In addition, Louisiana contends with flows from the 
Sabine River, the Red River, the Ouachita River, the Amite River and 
the Pearl River. All of these river systems combined drain almost 50 
percent of the contiguous land mass of this Nation through Louisiana.
    Louisiana also plays a strategic part in providing the middle of 
this Nation with access to the global marketplace through the Federally 
constructed Inland Waterway System. Approximately 75 percent of all 
soybeans, animal feed and corn, and almost 50 percent of all rice and 
cereals grown in mid-America are shipped to world markets through 
Louisiana. The 230 mile deepwater channel portion of the Mississippi 
River from Baton Rouge to the Gulf is the largest port complex in the 
world allowing Louisiana to rank first in the Nation in volume of 
waterborne traffic. Louisiana's maritime industry accounts for 22.5 
percent of the total Louisiana gross state product and supports 
directly and indirectly almost 244,000 jobs. The ready availability of 
this low cost waterborne transportation system allowed Louisiana to 
develop the second largest refining capacity in the Nation, producing 
15 billion gallons of gasoline annually at 19 refineries. Louisiana 
ranks second in produced natural gas and third for oil production. The 
pipeline system which supplies much of this Nation with natural gas and 
refined petroleum products originates in Louisiana. But none of this 
would have been possible without a comprehensive and extensive flood 
control system to protect the landside facilities. Louisiana is 
protected from riverine and tidal flooding by almost 3,000 miles of 
levees (1,500 in the MR&T system) constructed jointly by Federal, State 
and local entities. Louisiana's 20 levee boards are responsible for the 
maintenance and upkeep of these levees which allow one-third of 
Louisiana to be habitable year-round. Concentrated behind these levees 
are the vast majority of Louisiana's urban centers and petro-chemical 
complexes. Nearly 75 percent of the population lives and works in these 
protected areas and produces more than 90 percent of the State's 
disposable personal income. Approximately 60 percent of the State's 
agricultural products are produced in these protected areas. The lives 
and livelihoods of most of Louisiana's citizens depends on the 
effectiveness of this comprehensive flood control system. But Louisiana 
is not the only beneficiary of this investment. The petrochemical, oil 
and gas industries in Louisiana that contribute to the economic well 
being of the Nation are almost totally dependent on the Federally 
constructed flood control system to protect their facilities. These 
industries, and most of the agricultural industries in mid-America, are 
heavily dependent on the Federally maintained navigable waterway system 
to move their products. It is appropriate that the Federal Government 
has committed to providing combined flood control and navigation 
measures that benefit both Louisiana and the rest of the Nation.
    But the levees and channel improvements that benefit the entire 
Nation have been blamed for the rapidly deterioration of our coastal 
wetlands that annually produce a commercial fish and shellfish harvest 
worth $600 million and 40 percent of the Nation's wild fur and hides 
harvest worth $15 million. Additionally these coastal marshes produce a 
tidal surge dampening effect that was incorporated into the design of 
our hurricane protection levees. The loss of these wetlands is 
adversely impacting both the area's natural resources and the 
effectiveness of the protection system. These wetlands are not 
Louisiana's alone; they constitute 40 percent of the Nation's wetlands 
and their restoration needs to be a national priority.
    The Mississippi River and Tributaries Project (MR&T) has been 
underway since 1928 and isn't scheduled for completion until the year 
2031--a date that will continually move further into the future unless 
an adequate level of funding is provided each year. The 
Administration's budget proposals for the MR&T Project for the past 
several years appear to indicate a declining interest on the part of 
the Federal Government in seeing this project through to a successful 
completion. The Administration's proposed budget of $298 Million for 
fiscal year 2004 is totally unacceptable. We strongly support the 
Mississippi Valley Flood Control Association's request for $435 Million 
for the MR&T Project. This is the minimum amount necessary to continue 
the on-going construction work and perform the bare minimum of 
maintenance required to prevent further deterioration of the Federal 
investment. We urge you to support this requested level of funding.
    We strongly oppose the Administration's proposal to use funds from 
the Inland Waterways Trust Fund to pay for part of the waterway 
system's routine operations and maintenance costs. The Inland Waterways 
Trust Fund, established in 1978 and funded by user fee revenues 
generated by a tax on towboat fuel, was intended to be used to pay one-
half the cost of construction and major rehabilitation of navigation 
infrastructure. The Administration proposal will rapidly deplete the 
fund and set the stage for significantly increasing--some say more than 
doubling--the user fee. This will adversely impact the Nation's economy 
in the agricultural, energy and transportation sectors and will 
undermine America's international competitiveness. We urge you to 
reject this ill-advised raid on the Inland Waterways Trust Fund, as 
well as the tax increase it promises, and to insure that the balance 
and all future Trust Fund revenues are spent for their original purpose 
of modernizing the system to keep it functioning efficiently well into 
the future.
    We are also opposed to the Administration's budget proposal to 
classify segments of the Inland Waterway System for funding purposes as 
either high or low use dependent on the tonnage moved over a particular 
segment. The Inland Waterway System--the whole system--allowed 
industrial facilities scattered throughout the central portion of the 
United States to obtain raw materials and fuel from distant locations 
and to reach worldwide markets. The economies of thousands of inland 
cities and towns are dependent on low cost waterborne transportation to 
link America's far-flung mining, manufacturing, forestry and 
agricultural industries with deepwater ports. To give preferential 
status to the maintenance of only the main-stem portion of the waterway 
system will wreak havoc on the economies of all the communities located 
on the so-called low-use waterways, especially now when the Nation's 
economy is still struggling to recover.
    In making the following funding recommendations regarding specific 
construction, studies, and operation and maintenance items, the State 
of Louisiana would hope that Congress and the Administration will honor 
their prior commitments to infrastructure development and fund our 
requests. We feel that water resources projects are probably the most 
worthwhile and cost-effective projects in the Federal budget, having to 
meet stringent economic justification criteria not required of other 
programs. We ask that this be taken into consideration in the final 
decision to appropriate the available funds.
    We wish to express our thanks to the Appropriations Subcommittees 
on Energy and Water Development of the House and Senate for allowing us 
to present this brief on the needs of Louisiana. Without reservation, 
practically every single project in Louisiana which has been made 
possible through actions of these committees has shown a return in 
benefits many times in excess of that contemplated by the authorizing 
legislation. The projects which you fund affect the economy of not only 
Louisiana, but the Nation as a whole. The State of Louisiana 
appreciates the accomplishments of the past and solicits your 
consideration of the appropriations requested for fiscal year 2004.

MISSISSIPPI RIVER AND TRIBUTARIES--SUMMARY OF RECOMMENDED APPROPRIATIONS
                FOR FISCAL YEAR 2004--STATE OF LOUISIANA
------------------------------------------------------------------------
                                          Administrative     Louisiana
                Louisiana                     Budget          Request
------------------------------------------------------------------------
FC MR&T General Investigations:
    Alexandria to the Gulf..............        $435,000        $435,000
    Donaldsonville to the Gulf..........         800,000       1,200,000
    Morganza to the Gulf, PED...........       3,487,000      10,000,000
    Collection & Study Data.............         190,000         190,000
    Donaldsonville Port Development, LA.  ..............         100,000
    Point Coupee St Mary Watershed......  ..............         100,000
    Collect & Study of Basic Data (AR,           280,000         280,000
     LA, MS)............................
    Spring Bayou Area, LA...............         500,000         600,000
    Tensas River Basin, LA..............  ..............         500,000
FC MR&T Construction:
    Atchafalaya Basin...................      14,075,000      24,075,000
    Atchafalaya Basin Floodwater System.       7,768,000      11,668,000
    Channel Improvement.................       8,900,000       8,900,000
    Mississippi Delta Region (FED)......       3,200,000       3,200,000
    Mississippi River Levees, LA........       4,110,000       4,110,000
    Mississippi River Levees (AR, LA,         23,615,000      25,115,000
     MS)................................
    Channel Improvement (AR, LA, MS)....      15,235,000      17,735,000
FC MR&T Maintenance:
    Atchafalaya Basin...................      13,335,000      18,296,000
    Atchafalaya Basin Floodway System...       2,450,000       3,850,000
    Baton Rouge Harbor (Devil's Swamp)..          15,000         281,000
    Bayou Cocodrie and Tributaries......          85,000          85,000
    Bonnet Carre Spillway...............       1,975,000       3,009,000
    Channel Improvement.................      15,300,000      15,300,000
    Dredging............................         700,000         700,000
    Inspection of Completed Works.......         425,000         425,000
    Mapping.............................         440,000         440,000
    MS Delta Region.....................         910,000         910,000
    Mississippi River Levees, LA........         785,000       1,285,000
    Old River...........................       9,915,000      21,102,000
    Mississippi River Levees (AR, LA,          2,050,000       2,650,000
     MS)................................
    Revetments & Dikes (AR, LA, MS).....      14,000,000      14,000,000
    Dredging (AR, LA, MS)...............       5,600,000       5,600,000
    Mapping (AR, LA, MS)................         365,000         365,000
    Inspection of Completed Works (AR,           375,000         375,000
     LA, MS)............................
    Boeuf & Tensas Rivers...............       2,400,000       2,400,000
    Red River Backwater.................       3,425,000       3,982,000
    Lower Red River.....................       2,207,000       2,207,000
------------------------------------------------------------------------
NOTE: The projects listed above are only those in Louisiana (except when
  noted) and directly affect the State. We realize that there are other
  projects in the Valley. We endorse the recommendations of the
  Mississippi Valley Flood Control Association.

    The following is a list of budgetary items that the State of 
Louisiana requests funding that differs from what is recommended in the 
Fiscal Year 2004 Administrative Budget or is an item of particular 
importance for the State. Those items that the State of Louisiana 
believes have been appropriately funded have not been included.

   FLOOD CONTROL, NAVIGATION, HURRICANE PROTECTION AND WATER RESOURCES
PROJECTS IN LOUISIANA--SUMMARY OF RECOMMENDED APPROPRIATIONS FISCAL YEAR
                                  2004
------------------------------------------------------------------------
                                          Administrative     Louisiana
                Louisiana                     Budget          Request
------------------------------------------------------------------------
General Investigations:
    Studies:
        Amite River & Tributaries, LA--         $100,000        $800,000
         Bayou Manchac..................
        Atchafalaya River, Bayous Chene,         150,000       1,000,000
         Boeuf & Black, LA..............
        Calcasieu Lock, LA..............         100,000         800,000
        Calcasieu River Pass Ship         ..............         200,000
         Channel Enlargement, LA........
        GIWW--Ecosystem Restoration, LA.         100,000         600,000
        Hurricane Protection, LA........         100,000       1,000,000
        LCA--Ecosystem Restoration, LA..         848,000       3,000,000
        Plaquemines Parish, LA..........         100,000         500,000
        Port of Iberia, LA..............         150,000       2,000,000
        St. Bernard Parish Urban Flood           100,000         500,000
         Control, LA....................
        St. Charles Parish Urban Flood           100,000         450,000
         Control, LA....................
        St. John the Baptist Parish, LA.         100,000         400,000
        Southwest, AR (AR, LA)..........  ..............         400,000
        Pearl River, Bogalusa (MS)......  ..............         350,000
    PED:
        West Shore-Lake Pontchartrain,    ..............         600,000
         LA.............................
        West Baton Rouge Parish, LA.....  ..............       1,500,000
    New Studies:
        Bayou Nezpique Watershed, LA....  ..............         100,000
        Millennium Port, LA.............  ..............         100,000
        Tangipahoa River Ecosystem        ..............         100,000
         Restoration, LA................
Construction General:
    Comite River, LA....................       2,000,000       6,565,000
    East Baton Rouge Parish, LA.........  ..............       4,600,000
    Grand Isle, LA......................  ..............         200,000
    Inner Harbor Navigation Canal Lock,        7,000,000      20,000,000
     LA (IWWTF & CG)....................
    Lake Pontchartrain, LA..............       3,000,000      16,000,000
    Larose to Golden Meadow, LA.........         461,000       1,200,000
    MR-GO (Reevaluation Study)..........  ..............         250,000
    New Orleans to Venice, LA...........       2,000,000       6,000,000
    Southeast, LA.......................      16,500,000      65,000,000
    West Bank and Vicinity, New Orleans,      35,000,000      35,000,000
     LA.................................
    Red River Below Den Dam (AR, LA)....  ..............       7,000,000
    Red River Emergency (AR, LA)........  ..............      10,000,000
    J. Bennett Johnston Waterway, MS          13,700,000      29,000,000
     River to Shreveport................
    Ouachita River Levees...............  ..............       3,000,000
Operations & Maintenance General:
    Atchafalaya River, Bayous Chene,          19,367,000      24,367,000
     Boeuf & Black......................
    Barataria Bay Waterway..............         286,000       4,909,000
    Bayou Lacombe.......................  ..............         315,000
    Bayou Lafourche.....................         133,000       1,221,000
    Bayou Segnette......................         165,000       1,535,000
    Bayou Teche.........................          48,000         354,000
    Calcasieu River & Pass..............      12,064,000      20,559,000
    Freshwater Bayou....................       1,558,000       3,558,000
    Grand Isle, LA & Vicinity...........  ..............         455,000
    Gulf Intracoastal Waterway..........      19,418,000      29,028,000
    Houma Navigation Canal..............       1,242,000       1,422,000
    Mermentau River.....................       2,651,000       4,651,000
    Mississippi River, Baton Rouge to         56,206,000      64,566,000
     the Gulf...........................
    Mississippi River--Gulf Outlet......      13,485,000      34,325,000
    Mississippi River, Outlets at Venice       1,841,000       5,116,000
    Waterway Empire to the Gulf.........           7,000         247,000
    Waterway Intracoastal Waterway to             37,000         237,000
     Bayou Dulace.......................
    Ouachita & Black Rivers (AR, LA)....      10,221,000      16,145,000
    J. Bennett Johnston Waterway........      12,013,000      19,900,000
    Lake Providence Harbor..............          32,000         421,000
    Madison Parish Port.................          13,000          80,000
------------------------------------------------------------------------
NOTE: The projects listed above are only those in Louisiana (except
  where noted) and directly affect the State.

                                 ______
                                 
  Prepared Statement of the Upper Mississippi River Basin Association
                              introduction
    The Upper Mississippi River Basin Association (UMRBA) is the 
organization created in 1981 by the Governors of Illinois, Iowa, 
Minnesota, Missouri, and Wisconsin to serve as a forum for coordinating 
river-related State programs and policies and for collaborating with 
Federal agencies on regional issues. As such, the UMRBA works closely 
with the Corps of Engineers on a variety of programs for which the 
Corps has responsibility. Of particular interest to the basin states 
are the following:
                       inland waterway trust fund
    The UMRBA opposes expanding the uses of the Inland Waterway Trust 
Fund to include operation and maintenance of the inland navigation 
system. The Inland Waterway Trust Fund was established in 1986 to help 
meet the Nation's navigation infrastructure investment needs for new 
construction and major rehabilitation on inland rivers. That dedicated 
revenue source, generated by taxes on commercial users of the inland 
waterway system, should not be diverted to uses other than those for 
which it was established. Moreover, the Corps has estimated that 
partially funding inland waterway O&M from the Inland Waterway Trust 
Fund would deplete the Fund entirely by the end of fiscal year 2006. 
Given the pressing navigation infrastructure needs in coming years, 
such a course would be imprudent.
                    environmental management program
    For the past 16 years, the Upper Mississippi River System 
Environmental Management Program (EMP) has been the premier program for 
restoring the river's habitat and monitoring the river's ecological 
health. As such, the EMP is key to achieving Congress' vision of the 
Upper Mississippi as a ``nationally significant ecosystem and a 
nationally significant commercial navigation system.'' Congress 
reaffirmed its support for this program in the 1999 Water Resources 
Development Act by reauthorizing the EMP as a continuing authority and 
increasing the annual authorized appropriation to $33.52 million. The 
UMRBA is pleased that the Administration's budget request, for the 
first time since the 1999 reauthorization of the program, includes 
nearly full funding for the EMP. The fact that the Administration has 
identified the EMP as one of eight Corps projects ``that are the 
highest priorities in the Nation,'' is tribute to the EMP's success.
    EMP habitat restoration projects include activities such as 
building and stabilizing islands, controlling water levels and side 
channel flows, constructing dikes, and dredging backwaters and side 
channels. At the recommended EMP funding level of $33.32 million, 
approximately $18.8 million would be allocated to the planning, design, 
and construction of such habitat projects. In particular, this level of 
investment will support planning work on 15 projects, design of 14 
projects, and construction of 12 projects. Approximately $8.6 million 
would be devoted to the EMP Long Term Resource Monitoring program 
(LTRMP) under a fully funded EMP budget of $33 million. At this funding 
level, data collection activities would be revived, including 
monitoring of water quality, sediment, fish, invertebrates, and 
vegetation. This monitoring, along 300 of the river system's 1,300 
miles, had to be suspended in fiscal year 2003 due to lack of funding. 
If funding is not restored in fiscal year 2004, the LTRMP will need to 
be significantly restructured. Either the spatial extent of the program 
will need to be reduced, by eliminating field stations, or sampling 
intensity and rigor will need to be reduced. Neither alternative is 
sustainable and ultimately the ability of the program to fulfill its 
Congressionally mandated mission will be jeopardized.
    Meeting the ecological restoration and monitoring needs on the 
Upper Mississippi River with renewed commitment and enhanced investment 
is critical, given the setback that the EMP suffered in fiscal year 
2003, when funding was cut by nearly 40 percent. Within the next year, 
the Corps is expected to release its Navigation Study on the Upper 
Mississippi River and Illinois Waterway System, including a recommended 
plan for improving both the river navigation infrastructure and 
ecosystem. Yet, without a strong EMP program as one of the tools to 
meet river environmental needs, it is unlikely that the plan can be 
successfully implemented. The UMRBA thus strongly urges that the EMP be 
funded at $33.32 million in fiscal year 2004, as recommended by the 
President.
                 major rehabilitation of locks and dams
    Given that most of the locks and dams on the Upper Mississippi 
River System are over 60 years old, they are in serious need of repair 
and rehabilitation. For the past 17 years, the Corps has been 
undertaking major rehabilitation of individual facilities throughout 
the navigation system in an effort to extend their useful life. This 
work is critical to ensuring the system's reliability and safety.
    The UMRBA supports the Corps' fiscal year 2004 budget request for 
major rehabilitation work at 3 locks and dams on the Upper Mississippi 
River, including Lock and Dam 24, Lock and Dam 11, and Lock and Dam 3. 
Half of these amounts are to be provided by the Inland Waterways Trust 
Fund. Lock and Dam 24, located near Clarksville, Missouri, is nearing 
completion of the first phase of its $87 million rehabilitation. Lock 
wall concrete repairs are underway and expected to continue in fiscal 
year 2004. However, the fiscal year 2004 budget request of $13 million 
is a constrained funding level, which may require suspension of the 
contract, thus ultimately increasing project cost. UMRBA thus supports 
$17 million for rehabilitation of Lock and Dam 24, which is the fiscal 
year 2004 capability level.
    Rehabilitation of Lock and Dam 11, located near Dubuque, Iowa, 
began in fiscal year 2002. The work includes repair and replacement of 
various miter and tainter gate components, culvert valve 
rehabilitation, and additional scour protection above and below the 
dam. The fiscal year 2004 budget request is $1.313 million, but the 
UMRBA supports the full capability funding of $6.52 million.
    Lock and Dam 3, near Red Wing, Minnesota is located on a bend in 
the river, which causes an outdraft current that tends to sweep down-
bound tows toward the gated dam. A related problem is maintaining the 
structural integrity of a set of 3 earthen embankments connecting the 
gated dam to high ground on the Wisconsin side. A reevaluation study is 
now underway to assess alternatives for addressing these related 
navigation safety problems and potentially combining the projects. The 
UMRBA supports fiscal year 2004 funding of $600,000, as requested by 
the President, to complete the study and begin work on plans and 
specifications.
    operation and maintenance (o&m) of the upper mississippi river 
                           navigation system
    The Corps of Engineers is responsible for operating and maintaining 
the Upper Mississippi River System for navigation. This includes 
channel maintenance dredging, placement and repair of channel training 
structures, water level regulation, and the routine operation of 29 
locks and dams on the Mississippi River and 7 locks and dams on the 
Illinois River. The fiscal year 2004 budget totals approximately $144 
million for O&M of this river system, which includes $97.859 million 
for the Mississippi River between Minneapolis and the Missouri River, 
$18.099 million for the Mississippi River between the Missouri River 
and Ohio River, and $27.615 million for the Illinois Waterway.
    These funds are critical to the Corps' ability to maintain a safe 
and reliable commercial navigation system. In addition, these funds 
support a variety of activities that ensure the navigation system is 
maintained while protecting and enhancing the river's environmental 
values. For example, O&M funds support innovative environmental 
engineering techniques in the open river reaches such as bendway weirs, 
chevrons, and notched dikes that maintain the navigation channel in an 
environmentally sensitive manner. In addition, water level management 
options for a number of pools in the impounded portion of the river are 
being evaluated under the O&M program. Pool level management, such as 
that being tested in Pool 8 and proposed in Pools 6 and 9, is a 
promising new approach for enhancing aquatic plant growth and 
overwintering conditions for fish, without adversely affecting 
navigation.
    Although the President's fiscal year 2004 funding request for O&M 
is slightly higher than fiscal year 2003 funding levels for most 
segments of the river system, unfortunately it is substantially less 
for the St. Paul District (MVP) and well below capability levels in the 
other two Districts.

                                              [Millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                                    Fiscal Year
           Upper Mississippi River System O&M Accounts              Fiscal Year     Fiscal Year      2004 Full
                                                                   2003 Omnibus    2004 Request     Capability
----------------------------------------------------------------------------------------------------------------
Mississippi River Between MO River and Minneapolis:
    St. Paul District (MVP).....................................          41.820          36.056          56.306
    Rock Island District (MVR)..................................          41.820          44.429          54.779
    St. Louis District (MVS)....................................          15.443          17.374          26.434
Mississippi River Between Ohio and MO Rivers....................          17.000          18.099          29.399
Illinois Waterway:
    Rock Island District (MVR)..................................          25.154          25.726          35.026
    St. Louis District (MVS)....................................           1.683           1.889           1.889
----------------------------------------------------------------------------------------------------------------

    The 23 percent reduction in Mississippi River O&M funding for the 
St. Paul District is of particular concern. This dramatic cut will 
eliminate the Mississippi River Endangered Species Recovery program and 
all maintenance construction contracts, with the exception of dredging 
and the continuing contract for the Lock and Dam 9 control systems and 
building replacement. Anticipated contract suspensions or cancellations 
include those for tow haulage unit replacements, Lock and Dam 4 dam 
gate painting, Lock and Dam 1 Ambursen Dam rehabilitation, Lock and Dam 
6 fixed crest spillway repairs, Lock and Dam 10 control systems and 
building replacement, West Newton dredged material site unloading, and 
Upper St. Anthony Falls lock dewatering. In addition, the St. Paul 
District will be unable to address the recently-identified lock 
bulkhead problems at several facilities. It is projected that $31 
million will be required over the next 5 years to construct bulkhead 
slots needed to safely dewater Locks 2-10 for repair.
    The UMRBA supports increased funding for O&M of the Upper 
Mississippi and Illinois River System, particularly in the St. Paul 
District. Full capability funding in fiscal year 2004 for all three 
Upper Mississippi River districts totals $204 million.
                            navigation study
    The Upper Mississippi River and Illinois Waterway Navigation Study, 
which began in 1993, was restructured in 2001, in response to 
recommendations from the National Research Council and a new Task Force 
of senior leaders from 5 Federal agencies. Now that the study is on a 
new course, designed to address both navigation and environmental needs 
in an integrated fashion, the UMRBA is anxious to see the study brought 
to a successful and timely conclusion. On-going analyses are expected 
to yield results that will be used to develop tentative integrated 
plans by October 2003, incorporating both navigation improvements and 
ecosystem restoration. Fiscal year 2004 activities will thus focus on 
agency, stakeholder, and public review and input. This will be an 
extremely critical step in the collaborative process, which is expected 
to yield a Chief's Report by November 2004. In order to keep this 
process on track, it is essential to fully fund the Navigation Study, 
as requested by the President.
  upper mississippi river comprehensive plan (flood damage reduction)
    Section 459 of the Water Resources Development Act of 1999 
authorized the Corps to develop what is termed the ``Upper Mississippi 
River Comprehensive Plan,'' the primary focus of which is systemic 
flood damage reduction and flood protection. In fiscal year 2003, a 
Project Management Plan (PMP) was developed and data gathering efforts 
are now underway. Funding is needed in fiscal year 2004 to continue the 
inventory and digital data coverages of floodplain land use, 
infrastructure, natural resources, and socioeconomic data and to begin 
the development and analysis of alternatives. Development of the 
Comprehensive Plan has been awaiting completion of the Flow Frequency 
Study, which will provide updated flood elevation profiles and models. 
That work is scheduled for completion this fiscal year, thus paving the 
way for the Comprehensive Plan to be undertaken in earnest.
    The total study costs for the Upper Mississippi River Comprehensive 
Plan are estimated to be $5.13 million. In fiscal year 2002, the first 
year that funding was provided, $692,000 was allocated. In fiscal year 
2003, an additional $1.814 million was provided. However, only $492,000 
has been requested for fiscal year 2004. Unless additional funds are 
made available in fiscal year 2004, the study will not be completed in 
the 3-year time frame Congress directed when the study was first 
authorized in WRDA 1999, and later reaffirmed in WRDA 2000. Thus, the 
UMRBA supports full funding of $2.624 million in fiscal year 2004.
                             stream gaging
    The Corps of Engineers in cooperation with the USGS operates 
approximately 150 stream gages in the Upper Mississippi River Basin. In 
fiscal year 2003, the Corps' share of the cost of these gages is $1.888 
million. Most of these stream gages are funded through the Corps' O&M 
account for the specific projects to which the gages are related. 
However, there are a number of gages that are not associated with a 
particular project. Thus, UMRBA supports the $500,000 requested under 
General Investigations to support the Corps' share of non-project USGS 
stream gages, many of which are located in the 5 States of the Upper 
Mississippi River Basin. In fiscal year 2003, approximately $127,000 
was provided by these ``General Coverage Funds'' for gages in the St. 
Paul and Rock Island Districts.
                                 ______
                                 
              Prepared Statement of The Nature Conservancy
    Mr. Chairman and members of the subcommittee, I appreciate this 
opportunity to present The Nature Conservancy's recommendations for 
fiscal 2004 appropriations. We understand and appreciate that the 
subcommittee's ability to fund programs within its jurisdiction is 
limited by current national emergency but appreciate your consideration 
of these important programs.
    The Nature Conservancy is an international, non-profit organization 
dedicated to the conservation of biological diversity. Our mission is 
to preserve the plants, animals and natural communities that represent 
the diversity of life on Earth by protecting the lands and waters they 
need to survive. The Conservancy has more than 1,000,000 individual 
members and 1,900 corporate associates. We have programs in all 50 
States and in 28 foreign countries. We have protected more than 14.0 
million acres in the United States and more than 80 million acres with 
local partner organizations worldwide. The Conservancy owns and manages 
1,400 preserves throughout the United States--the largest private 
system of nature sanctuaries in the world. Sound science and strong 
partnerships with public and private landowners to achieve tangible and 
lasting results characterize our conservation programs.
    The Nature Conservancy urges the Committee to support the following 
appropriation levels in the fiscal 2004 Energy and Water Development 
Appropriation bill:
                    construction general priorities
    Section 1135: Project Modification for the Improvement of the 
Environment.--The Section 1135 Program authorizes the Army Corps of 
Engineers (Corps) to restore areas damaged by existing Corps projects. 
This program permits modification of existing dams and flood control 
projects to increase habitat for fish and wildlife without interrupting 
a project's original purpose. The Nature Conservancy is the non-Federal 
cost share partner on several projects including the McKarran Ranch on 
the Truckee River, NV and Spunky Bottoms on the Illinois River, IL. The 
Nature Conservancy supports full funding of $25.0 million for the 
Section 1135 program in fiscal 2004, an increase over the 
administration's $14.0 million request.
    Section 206: Aquatic Ecosystem Restoration.--Section 206 is a newer 
Corps program that authorizes the Corps to restore aquatic habitat 
regardless of past activities. The Nature Conservancy has several 
projects that put Section 206 to work restoring important habitat, 
including a $5 million project at Kankakee Sands in Indiana, and the 
Mad Island Aquatic Ecosystem Restoration Project in Texas. The Nature 
Conservancy supports full funding of $25.0 million for this valuable 
program in fiscal 2004, an increase over the administration's $10.0 
million request.
    Upper Mississippi River System Environmental Management Program.--
The Environmental Management Program (EMP) is an important Corps 
program that constructs habitat restoration projects as well as 
conducts long-term resource monitoring of the Upper Mississippi and 
Illinois Rivers. The EMP operates as a unique Federal-State partnership 
affecting 5 States (Illinois, Iowa, Minnesota, Missouri, and 
Wisconsin). The EMP was reauthorized in WRDA 1999 with an increased 
authorization in the amount of $33.3 million. The Nature Conservancy 
supports the President's request for full funding of $33.3 million for 
fiscal 2004.
    Estuary Habitat Restoration Program.--The Estuary Habitat 
Restoration Program was established with the intent to restore 1 
million acres of estuary habitat by 2010. This multi-agency program 
will promote projects that result in healthy ecosystems that support 
wildlife, fish and shellfish, improve surface and groundwater quality, 
quantity, and flood control; and provide outdoor recreation. The Nature 
Conservancy supports $10 million in fiscal 2004.
    Everglades and South Florida Ecosystem Restoration.--The Everglades 
and South Florida Ecosystem Restoration program is designed to save and 
restore a critical natural treasure by acquiring high priority natural 
lands for protection, capturing runoff lost to tide, restoring natural 
hydropatterns essential for the overall heath of the system and for 
protecting water supplies for human use. The Nature Conservancy 
supports $45.0 million in fiscal 2004, an increase over the 
administration's $14.8 million request.
    Florida Keys Water Quality Program.--The Florida Keys Water Quality 
Program is a unique restoration program designed to protect the fragile 
marine and coral ecosystem off the Florida Keys. This marine ecosystem 
is being impacted by excessive nutrients due to storm and waste water 
pollution. This program is cost shared with State and local interests 
to repair and improve the storm and wastewater treatment facilities on 
the Florida Keys to reduce the harmful levels of nutrient pollution. 
The Nature Conservancy, and its partners the State of Florida, Florida 
Keys Aqueduct Authority, Monroe County, City of Islamorada, City of 
Layton, City of Key Colony Beach, City of Marathon, and City of Key 
West, support $30.0 million for fiscal 2004.
    Missouri River Fish and Wildlife Mitigation.--Created in WRDA 1986, 
the Missouri River Fish and Wildlife Mitigation Project is designed to 
reverse the negative environmental impacts of lower river 
channelization and bank stabilization through land acquisition from 
willing sellers. The Mitigation Project allows the Corps to restore 
chutes, side channels, and other off-channel floodplain habitat for 
river wildlife. The Nature Conservancy supports the President's request 
of $22.0 million for fiscal 2004.
    Challenge 21: Riverine Ecosystem Restoration and Flood Hazard 
Mitigation Program.--The Water Resources Development Act (WRDA) 1999 
authorized the Challenge 21 program as a 5-year, $200 million effort to 
enhance riverine ecosystems and encourage non-structural flood control 
projects. Challenge 21 directs non-structural flood control, in part 
through relocation of frequently flooded homes and businesses in 
smaller communities; and habitat restoration, including floodplain 
wetland restoration. The Nature Conservancy supports $5.0 million as an 
initial appropriation in fiscal 2004.
                    general investigation priorities
    White River Basin Comprehensive Study in Arkansas.--The White River 
Basin Comprehensive Study will enable the Corps to pull together the 
needs of myriad issues in the White River basin and permit a sensible 
long term plan for the region. The Nature Conservancy strongly supports 
$1.0 million in fiscal 2004 for the Army Corps of Engineers (Corps) to 
continue the Comprehensive Study in the White River basin, an increase 
over the administration's $300,000 request.
    Savannah River Basin Comprehensive Water Resources Study.--The 
Savannah Basin Comprehensive Water Resources Study will enable the 
Corps and other partners to gain a better understanding of the 
influence of hydrologic processes such as timing, duration, frequency, 
magnitude, and rate of change of river flows on the river's ecology. 
The Nature Conservancy, under a cooperative agreement funded by the 
USACE and its cost share partners Georgia and South Carolina, is 
working to develop a set of ecosystem flow recommendations for the 
Savannah River Basin. Draft flow recommendations will be finalized by 
May 2003. The Nature Conservancy supports the President's request of 
$200,000 in fiscal 2004.
    Sacramento and San Joaquin Comprehensive Basin Study.--The 
Sacramento and San Joaquin Comprehensive Basin Study is examining how 
to reduce the risk of flood while restoring the watershed's diverse 
ecosystem. The Nature Conservancy supports the President's request of 
$1.0 million in fiscal 2004.
    Connecticut River Ecosystem Restoration Study.--The Connecticut 
River Ecosystem Restoration Study identified several ecosystem 
restoration opportunities along the mainstem of the Connecticut River. 
These funds will support studies of the ecological flow needs and 
initiate needed modeling on the Ashuelot River, NH and the West River, 
VT, part of the Sustainable Rivers Project, a unique collaboration with 
the Army Corps of Engineers and The Nature Conservancy. The Sustainable 
Rivers Project seeks to reoperate 16 dams on 12 rivers to better meet 
the needs of the freshwater ecosystem while still abiding by the 
required purposes of the dams. The Nature Conservancy supports $315,000 
for fiscal 2004, an increase over the administration's $115,000 
request.
    Southeast Oklahoma Feasibility Study.--The reconnaissance phase of 
the Southeast Oklahoma Feasibility Study determined there is Federal 
interest to preserve and/or restore the riverine ecosystem of the 
Kiamichi River Basin between the confluence of Jackfork Creek and the 
Kiamichi River and the upper reaches of Hugo Lake over the 50-year 
period of analysis. These funds will support studies of the ecological 
flow needs and initiate needed modeling on the Kiamichi River which is 
part of the Sustainable Rivers Project, a unique collaboration with the 
Army Corps of Engineers and The Nature Conservancy. The Sustainable 
Rivers Project seeks to reoperate 16 dams on 12 rivers to better meet 
the needs of the freshwater ecosystem while still abiding by the 
required purposes of the dams. The Nature Conservancy supports $100,000 
for fiscal 2004, an increase over the administration's $50,000 request.
                     regulatory program priorities
    Southern California Special Area Management Plan (SAMP).--For the 
past 3 years, the Army Corps has been working with three Southern 
California counties to develop region-wide Special Area Management 
Plans that identify, delineate and plan for the conservation of 
wetlands within their jurisdictions. These SAMPs are a critical part of 
the regional effort to protect critical natural and resources to plan 
for continued economic growth in Southern California. They are emerging 
as an important planning tool that addresses streamlining of Federal 
wetlands regulations while promoting more effective wetlands 
conservation and providing long-term certainty for economic interests 
in the region. The Southern California SAMP process is being evaluated 
as a model for wetlands planning in other areas. The Nature Conservancy 
supports $1.9 million for fiscal 2004.
                    bureau of reclamation priorities
    Recovery Implementation Program for Colorado Endangered Fish 
Species.--The Recovery Program is in its thirteenth year of working for 
the recovery of endangered fish species in the Upper Colorado River 
Basin. The Recovery Program serves as a model of successful cooperation 
between three States (Colorado, Utah, and Wyoming), Federal agencies, 
water development interests, power users and the environmental 
community in the recovery of four endangered fish species. The Nature 
Conservancy supports $5.9 million in fiscal 2004 for the Bureau of 
Reclamation.
    Thank you for the opportunity to present The Nature Conservancy's 
comments on the Energy and Water Development Appropriations bill. We 
recognize that you receive many worthy requests for funding each year 
and appreciate your consideration of these requests and the generous 
support you have shown for these and other conservation programs in the 
past. If you have any further questions, please do not hesitate to 
contact us.
                                 ______
                                 
    Prepared Statement of Southeastern Federal Power Customers, Inc.
    Mr. Chairman and Members of the Subcommittee: On behalf of the 
Southeastern Federal Power Customers' (``SeFPC''), I am pleased to 
provide testimony in reference to the Administration's fiscal year 2004 
budget request for the U.S. Army Corps of Engineers (``Corps''). My 
testimony will focus primarily on the budget request for the Corps' 
South Atlantic Division (``SAD'') and the Great Lakes and Ohio River 
Division (``LRD'').
    The SeFPC has enjoyed a long and successful relationship with the 
Corps' SAD and LRD offices that has greatly benefited the approximately 
5.8 million customers that are SeFPC members. As the Subcommittee is 
aware, the Corps is responsible for operating and maintaining Federal 
hydropower generating facilities. The Southeastern Power Administration 
(``SEPA'') then markets the energy and capacity that is generated from 
the Federal projects in the Southeast. The SeFPC represents some 238 
rural cooperatives and municipally owned electric systems in the States 
of Alabama, Georgia, Mississippi, Kentucky, North Carolina, South 
Carolina, Florida, Virginia, and West Virginia, which purchase power 
from SEPA. In some cases, SEPA supplies as much as 25 percent of the 
power and 10 percent of the energy needs of SeFPC customers. The SeFPC 
therefore greatly relies on the power generated at Corps' projects in 
the SAD and LRD.
                   drastic cuts in the corps' budget
    The members of the SeFPC are dedicated to providing reliable and 
economic power for their consumers. We therefore are concerned that the 
President has proposed a 30 percent reduction in the Corps' Operations 
& Maintenance (``O&M'') account and 25 percent reduction in the 
Construction General Account for the upcoming fiscal year. With these 
reductions in funding, the Corps will not be able to undertake the O&M 
and Renewals & Replacements (``R&R'') work necessary to ensure the 
long-term reliability of the Southeastern Federal hydropower 
facilities. We are particularly concerned about the effects of the 
proposed budget cuts on ongoing O&M work on hydropower infrastructure 
within the SEPA system of projects.
    The proposed reductions will impede the Corps' work in the 
following SEPA projects: Walter F. George, J. Strom Thurmond, John H. 
Kerr, Allatoona, and Carters.
    We also are concerned the President's budget request has zeroed out 
funds for construction at many of the projects operated by the Corps of 
Engineers. If enacted, the prohibition on ``new starts'' would delay 
the badly needed rehabilitation of generating facilities in the 
Cumberland River System and throughout the Southeast. Many of the 
hydroelectric generating facilities in SEPA's service area are nearing 
the 50-year mark, when major rehabilitations are critical if the 
project is to continue. Regrettably, the fiscal year 2004 budget 
request does not place a high priority on critical needs, such as: (1) 
$4 million for replacement of generating units at Wolf Creek project; 
and (2) $2.8 million to initiate replacement of generating units at 
Center Hill.
    When a generating unit becomes inoperable, SEPA may be forced to 
purchase expensive replacement power which could result in a reduction 
of energy and capacity, possibly forcing the customer to purchase 
expensive capacity elsewhere. This has occurred so frequently in the 
last several years that the new SEPA rate design now includes a monthly 
payment provision by customers to cover any replacement power. Such a 
result is inappropriate because preference customers already have 
contributed to the Corps' O&M and R&R expenses, and in essence are 
double-charged. Even though excess payments pay down the debt 
associated with the projects, when generating units deteriorate, the 
O&M expenses greatly increase.
    We are working on a long-term customer funding proposal that would 
facilitate this badly needed replacement and rehabilitation work at 
hydroelectric facilities in the LRD and SAD. We anticipate, however, 
that this long-term initiative will not be finalized for several years. 
In the meantime, some of these facilities will not be able to continue 
running without Federal funds.
          administration's proposal for direct funding of o&m
    It is important to note that the relationship of the Corps, SEPA, 
and the SeFPC, forged pursuant to the Federal Power Marketing Program, 
is separate and distinct from other Corps activities. The Federal Power 
Marketing Program is designed to pay for itself--consumers are 
responsible for repaying the Federal taxpayer investment in the Corps' 
multi-purpose hydroelectric facilities. In the rates charged by SEPA to 
preference customers, a portion of each rate is devoted to future O&M 
and R&R activities at these facilities. In turn, these revenues are 
deposited in the Treasury and used to reimburse Congressionally 
appropriated funds for O&M and R&R expenses at the Corps' hydropower 
facilities. Funds collected from consumers may also be used for the 
joint costs of dam activities such as recreation, navigation and flood 
control. To date, preference customers have paid in SEPA rates over 
$108 million in excess of amounts spent by the Corps on O&M and R&R.
    The Administration's fiscal year 2004 budget request proposes to 
alter this funding arrangement. This year's request includes a 
provision from the President's fiscal year 2003 request calling for 
direct funding of routine hydropower O&M for SEPA and the other Federal 
Power Marketing Administrations. While we support the concept of direct 
funding for O&M expenses, we have concerns with the Administration's 
proposal. We believe the proposal could limit customer oversight and 
involvement in how O&M funds are spent. Moreover, as we have discussed 
in greater detail above, some of the most pressing needs at the 
Nation's Federal hydropower facilities would require major 
rehabilitation and other new construction expenses not covered by the 
O&M proposal.
    Thank you in advance for your consideration of our comments on the 
Administration's fiscal year 2004 budget request for the Corps. We look 
forward to working with you to ensure these critical needs are met.
                                 ______
                                 
     Prepared Statement of the City of Los Angeles Board of Harbor 
                   Commissioners, Port of Los Angeles
    Chairman Domenici, and Members of the Subcommittee: We are Nicholas 
G. Tonsich, President of the City of Los Angeles Board of Harbor 
Commissioners, and Larry A. Keller, Executive Director of the Port of 
Los Angeles. Together, we oversee the activities of the Port of Los 
Angeles, the largest container seaport in the United States. Our 
testimony speaks in support of continuing the Federal role in carrying 
out the major navigation improvements underway at the Port, which 
underpin the United States' decisive role in global trade.
    We thank your Subcommittee for its unwavering support of the now 
completed Pier 400 Deep-Draft Navigation and Landfill Project that was 
the first phase of the 2020 Infrastructure Development Plan at the 
Port. In fiscal year 2002, your Subcommittees appropriated $5.8 
million, thereby enabling the Port and the Corps of Engineers to 
complete the Preconstruction and Engineering Design Phase resulting in 
the successful commencement of construction of the Channel Deepening 
Project, the second phase of strategic navigation improvements under 
the 2020 Plan. The construction contract was awarded in August 2002 and 
dredging began the following month. The project is scheduled for 
completion in fiscal year 2005.
    Again, in fiscal year 2003, your Subcommittee demonstrated its 
decisive role in promulgating support for critical national water 
resources policy through the appropriation of scarce Federal funds to 
continue development of our Nations' navigation infrastructure program. 
The Subcommittee's fiscal year 2003 earmark of $12 million has kept the 
Channel Deepening Project on schedule.
    Today, we respectfully submit testimony requesting full Federal 
funding in fiscal year 2004 for continued construction dredging of the 
Channel Deepening Project and for particular operations and maintenance 
requirements. Consistent with the goals and priorities of the 
Administration and the Congress, the Channel Deepening Project will 
provide significant economic return to the Nation, fulfill the 
commitment to environmental stewardship, and maintain essential 
readiness for our national security while fostering positive 
international relations. Therefore, we respectfully ask the 
Subcommittee to fully fund our fiscal year 2004 appropriations 
requests.
   the importance of the 2020 infrastructure development plan to the 
                         united states economy
    Dramatic increases in Pacific Rim and Latin American trade volumes 
have far exceeded our expectations! Consequently, infrastructure 
development at the Port of Los Angeles is now more critical than ever. 
More than 35 percent of containerized trade entering the United States 
through the San Pedro Bay port complex that comprises both the Port of 
Los Angeles and the Port of Long Beach. More than 20 percent represents 
container throughputs at the Port of Los Angeles, alone. In fact, the 
Port of Los Angeles handled more than 5.1 million TEUs in 2002. Those 
figures have escalated to more than 6 million TEUs of container cargo 
through the end of January of this year. These container throughputs 
represent $300 billion in goods coming into the United States, and are 
keen evidence of the unprecedented and continued growth for any 
American seaport--and the importance of the Port of Los Angeles in the 
national economy.
    Pacific Rim and Mexican trade volumes with the United States are 
also at an all-time high. These increased trade volumes have solidified 
the Port of Los Angeles as a pivotal player in the global trading 
network. With a robust Asian economy, we can best describe the 
potential for increased two-way trade with the Pacific Rim region, 
alone, as colossal! These goods went on to stores and manufacturing 
plants across the United States, supporting jobs and local economies. 
As was evidenced by the recent West Coast labor lock out, the indirect 
impacts to our national economy are significant, and are a result of 
the leading position the Port of Los Angeles enjoys in the national and 
world economies.
    In the late 1970s, the Port of Los Angeles quite accurately 
forecast the current surge in the international trade needs of both the 
Southern California region and the Nation. In the early 1980s, the Port 
entered a long-term cooperative planning effort with the Corps of 
Engineers, known as The 2020 Infrastructure Development Plan. Designed 
to meet the extraordinary infrastructure demands placed on it in the 
face of the continued explosion in global trade, the 2020 Plan 
acknowledges the phenomenal growth of trade through the Port of Los 
Angeles. Further, the 2020 Plan has become a blueprint for the 
infrastructure development of other ports and adaptation to changes in 
maritime technology and to the projected growth in trade volumes 
experienced by most ports nationally. The Channel Deepening Project 
marks the second phase of the 2020 Plan begun with the Pier 400 Deep-
Draft Navigation and Landfill Project. The Port of Los Angeles is 
moving forward with the 2020 Plan.
                     the channel deepening project
    The Channel Deepening Project began in February 1999 when the Port 
and the Los Angeles District Corps executed a Memorandum of Agreement 
(MOA). The MOA expedited the preliminary study phase required to engage 
the Corps in the Channel Deepening Project, a Federal navigation 
improvement project. In anticipation of a favorable Chief of Engineers' 
Report, Congress authorized the Channel Deepening Project in The Water 
Resources Development Act of 2000. The Corps of Engineers approved the 
Feasibility Study on December 29, 2000, thereby enabling the Channel 
Deepening Project to proceed.
    In fiscal year 2004, the Port of Los Angeles requests that your 
Subcommittee include an appropriation of $35,000,000 for the Federal 
share of continued construction dredging of the Channel Deepening 
Project. The Corps of Engineers' has estimated the total project cost 
of approximately $194,000,000 \1\ with a Federal share of $57,400,000, 
and a local share of $136,600,000.
---------------------------------------------------------------------------
    \1\ Escalated through end of construction in fiscal year 2005, per 
OMB.
---------------------------------------------------------------------------
    We cannot over emphasize the critical importance of continuing 
construction of the Channel Deepening Project in fiscal year 2004. At 
-45 Mean Lower Low Water (MLLW), the Main Channel is too shallow to 
accommodate the new state-of-the-art container vessels designed to 
draft as much as -48 feet and hold containers than 6,000 TEUs. The 
Chief of Engineers' Report, issued in December 2000, concurred with the 
Feasibility Study's recommendation that the Corps dredge the Channel to 
at least -53 feet, including a modest allowance for varied tidal 
conditions and under-keel clearance. The project also includes dredging 
approximately 8.4 million cubic yards of sediment from the Turning 
Basin, the West and East Basins, and the East Basin Channel. Of the 
major container shipping lines that currently call at the Port of Los 
Angeles, five have vessels that draft -46 feet when fully laden. 
Consequently, they call with only partial loads to be able to safely 
navigate the Harbor's channels. While unavoidable, this makes for an 
inefficient shipping system and opens the door to cargo diversion to 
Vancouver, Canada or other non-U.S. West Coast ports.
    Simply, Mr. Chairman, there are no other ports on the West Coast of 
the United States with the current infrastructure capacity to serve 
these container ships in the Pacific Rim trade or to absorb the volume 
of container throughputs. These state-of-the-art container ships 
represent the new competitive requirements for international shipping 
efficiencies in this century. It is imperative that Congress 
appropriate the requested funding that will enable the Channel 
Deepening Project to continue, with full funding that will keep the 
project on schedule for completion in fiscal year 2005.
           continued funding of the los angeles harbor models
    Furthermore, the Port of Los Angeles also requests a total 
appropriation of $3,170,000 for the San Pedro Bay Models at the Corps 
of Engineers' Waterways Experiment Station (WES) at Vicksburg, 
Mississippi. This funding is critical for the Corps to maintain the Los 
Angeles Harbor Model studies and the Wave Gauge Program. Our request 
includes $170,000 for the maintenance of the physical model of the San 
Pedro Bay to maintain operational readiness for the continued study of 
navigation improvements at the Port, and $3,000,000 to upgrade the wave 
gauges, wave generators, and computer systems that are now 
technologically outdated and beyond their physical service life.
    The information derived from these study tools is critical to the 
validation of the numerical and physical models used for the design of 
ongoing projects under the 2020 Plan of the Port. For example, during 
the state-of-the-art design of the Pier 400 Project, the scientists and 
engineers at WES, the Port of Los Angeles and the Corps' Los Angeles 
District used eight separate, but related models, to site the land 
reclamation element of the project and its effect on tidal resonance on 
container ships at dock. As a result, maintenance of the hydraulic and 
physical models at WES, and their prototype data acquisition 
facilities, continue to be an essential resource for the Corps of 
Engineers and the Port of Los Angeles.
    the economic impact of the 2020 infrastructure development plan
    As we have testified before, cargo throughput for the Port of Los 
Angeles has a tremendous impact on our national economy. This fact 
cannot be over emphasized. The ability of the Port to meet the 
spiraling demands of the phenomenal growth in global trade through its 
facilities is directly dependent upon the construction of sufficiently 
deep navigation channels that will accommodate the largest state-of-
the-art deep-draft cargo container ships that are already in service. 
These new ships provide greater efficiencies in cargo transportation, 
thereby offering American consumers lower prices on imported goods and 
exports that are more competitive from the United States to foreign 
markets. However, for American seaports to remain abreast of these 
industry trends, we must immediately make the necessary infrastructure 
improvements that will enable the Port to participate in this rapidly 
changing global trading arena.
    The Channel Deepening Project is clearly a commercial navigation 
project of national economic significance and one that will yield 
exponential economic returns to the United States--and the Southern 
California region--well into the future. The national economic benefits 
are evidenced by the creation of more than one million permanent well-
paying jobs across the United States; more than $1 billion in wages and 
salaries; and, local, State and Federal sales and income tax revenues, 
including increased U.S. Customs Service revenues, deposited into the 
Federal treasury. The return on the Federal investment is real and 
quantifiable, and we expect it to surpass the cost-benefit ratio as 
determined by the Corps of Engineers' project Feasibility Study many 
times over. The Federal investment in the Channel Deepening Project 
will ensure that the Port of Los Angeles, the Nation's largest 
container seaport, remains at the forefront of the new global trade 
network well into the 21st century.
                               in summary
    Mr. Chairman, the Port of Los Angeles respectfully urges your 
Subcommittee to include the following appropriations earmarks in the 
fiscal year 2004 Budget to support the U.S. Army Corps of Engineers 
navigation construction projects on behalf of the Port of Los Angeles:
  --$35,000,000 to continue construction dredging of the Channel 
        Deepening Project;
  --$170,000 for ongoing maintenance of the Los Angeles Harbor Model at 
        WES; and,
  --$3,000,000 to upgrade wave gauge and generators of the Los Angeles 
        Harbor Model at WES.
    Thank you, Chairman Domenici, for the opportunity to submit this 
testimony in support of continued Congressional support of the Channel 
Deepening Project and other important Federal navigation projects at 
the Port of Los Angeles. The Port has long valued the support of your 
Subcommittee and its appreciation of the significant role the port 
industry plays in maintaining the economic vitality of the United 
States, and, in particular, the role of the Port of Los Angeles in 
contributing to this country's economic vigor and national security.
                                 ______
                                 
 Prepared Statement of the Louisiana Governor's Task Force on Maritime 
                                Industry
    As Chairman of the Louisiana Governors Task Force on Maritime 
Industry, I hereby submit testimony to the Senate Subcommittee on 
Energy and Water Development on behalf of the ports on the lower 
Mississippi River, the J. Bennett Johnston Waterway and the Calcasieu 
River waterway and the maritime interests related thereto of the State 
of Louisiana relative to Congressional appropriations for fiscal year 
2004.
    The U.S. Army Corps of Engineers reports that in 2001 a total of 
420.3 million tons of foreign and domestic waterborne commerce moved 
through the consolidated deepwater ports of Louisiana situated on the 
lower Mississippi River between Baton Rouge and the Gulf of Mexico. 
Deepening of this 232-mile stretch of the River to 45 feet has been a 
major factor in tonnage growth at these ports. Due in large part to the 
efforts of Congress and the New Orleans District of the Corps, 
Louisiana's ports and the domestic markets they serve can compete more 
productively and effectively in the global marketplace. Ninety-one 
percent of America's foreign merchandise trade by volume (two-thirds by 
value) moves in ships, and 20.8 percent of the Nation's foreign 
waterborne commerce passes through Louisiana's ports. Given the role 
foreign trade plays in sustaining our Nation's growth, maintaining the 
levels of productivity and competitiveness of Louisiana's ports is 
essential to our Nation's continued economic well-being.
    In terms of transportation services and global access, Louisiana 
ports enjoy a distinct competitive advantage. Hundreds of barge lines 
accommodate America's waterborne commerce on the lower Mississippi 
River. The high level of barge traffic on the river is indicated by the 
passage of more than 222,500 barges through the Port of New Orleans 
annually. In 2001, 2,020 ocean-going vessels operated by more than 100 
steamship lines serving U.S. trade with more than 150 countries called 
at the Port of New Orleans. The Port's trading partners include: Latin 
America (40.3 percent); Asia (25.3 percent); Europe (23.6 percent); 
Africa (9.4 percent) and North America (1.5 percent). During the same 
year, 5,621 vessels called at Louisiana's lower Mississippi River 
deepwater ports.
    The foreign markets of Louisiana's lower Mississippi River ports 
are worldwide; however, their primary domestic market is mid-America. 
This heartland region currently produces 60 percent of the Nation's 
agricultural products, one half of all of its manufactured goods and 90 
percent of its machinery and transportation equipment.
    The considerable transportation assets of Louisiana's lower 
Mississippi River ports enable mid-America's farms and industries to 
play a vital role in the international commerce of this Nation. In 
2001, the region's ports and port facilities handled 232.5 million tons 
of foreign waterborne commerce. Valued at $38.4 billion, this cargo 
accounted for 18.1 percent of the Nation's international waterborne 
trade and 26.7 percent of all U.S. exports. Bulk cargo, primarily 
consisting of tremendous grain and animal feed exports and petroleum 
imports, made up 91.2 percent of this volume. Approximately 49 million 
tons of grain from 17 States, representing 58.5 percent of all U.S. 
grain exports, accessed the world market via the 10 grain elevators and 
midstream transfer capabilities on the lower Mississippi River. This 
same port complex received 94 million short tons of petroleum and 
petroleum products, 15.9 percent of U.S. waterborne imports of 
petroleum products.
    In 2001, public and private facilities located within the 
jurisdiction of the Board of Commissioners of the Port of New Orleans, 
the fourth largest port in the United States, handled a total of 85.6 
million tons of international and domestic cargo. International general 
cargo totaled 8.9 million tons. Although statistically dwarfed by bulk 
cargo volumes, the movement of general cargo is of special significance 
to the local economy because it produces greater benefits. On a per ton 
basis, general cargo generates spending within the community more than 
three times higher than bulk cargo. Major general cargo commodities 
handled at the Port include: iron and steel products; coffee; forest 
products; copper; aluminum products; and natural rubber.
    Fostering the continued growth of lower Mississippi River ports is 
necessary to maintain the competitiveness of our Nation's exports in 
the global marketplace and, consequently, the health of the Nation's 
economy. Assuring deep-water access to ports has been a priority of our 
trading partners around the world. Moreover, an evolving maritime 
industry seeking greater economies of scale continues to support 
construction of larger vessels with increased draft requirements. 
Because it facilitated the provision of deepwater port access, passage 
of the Water Resources Development Act of 1986, played a most 
significant role in assuring the competitiveness of ports on the lower 
Mississippi river and throughout the United States.
    By December 1994, the Corps completed dredging of the 45-foot 
channel from the Gulf of Mexico to Baton Rouge, LA (Mile 233 AHP). 
Mitigation features associated with the first phase of the channel-
deepening project in the vicinity of Southwest Pass of the river, 
accomplished in 1988, are nearing completion. We urge the continued 
funding for this work in fiscal year 2004 to complete construction of 
improvements to the Belle Chasse water treatment plant. This will 
complete the approximate $15 million in payments to the State of 
Louisiana for construction of a pipeline and pumping stations to 
deliver potable fresh water to communities affected by saltwater 
intrusion. We further urge that the Corps be provided funding to 
proceed with design studies for Phase III, which will allow deepening 
of the river to the 55-foot authorized depth.
    Along with the Port of New Orleans, the Port of South Louisiana, 
the Nation's largest port with 212.6 million tons of foreign and 
domestic cargo in 2001, and the Port of Baton Rouge, the Nation's tenth 
largest port with 61.4 million tons of foreign and domestic cargo in 
2001, and other lower Mississippi River ports are dependent upon timely 
and adequate dredging of Southwest Pass to provide deep draft access to 
the Gulf of Mexico. The President's fiscal year 2004 Budget is 
$56,206,000 under O&M General. We, however, strongly recommend that the 
Corps be funded $64,566,000 to repair and construct foreshore dikes, 
lateral dikes and jetties.
    Maintenance of adequate depths and channel widths in the 
Mississippi River Gulf Outlet Channel (MRGO) is also of great concern. 
This channel provides deep draft access to the Port of New Orleans 
principal container terminals and generates an annual economic impact 
of nearly $800 million. In 2001, 418 general cargo vessels calling on 
the Port's MRGO terminals accounted for 31.2 percent of the general 
cargo tonnage handled over public facilities at the Port and 68.7 
percent of Louisiana's containerized cargo.
    Because of the MRGO's demonstrated vulnerability to coastal storm 
activity, annual channel maintenance dredging and bank stabilization 
are essential to assure unimpeded vessel operations. The President's 
fiscal year 2004 Budget is $13,485,000 under O&M General. We, however, 
strongly recommend that the Corps be funded $34,325,000 for maintenance 
dredging and bank stabilization.
    We recognize the need for the Corps to evaluate the feasibility of 
continuing the maintenance of a deep draft channel in the MRGO because 
of increased maintenance costs and environmental impacts. 
Unfortunately, the President's fiscal year 2004 Budget does not include 
funding for such a study. We, however, strongly recommend that the 
Corps be funded $813,000 to complete the MRGO Reevaluation Study. It is 
important to note that although the Port of New Orleans plans to 
relocate much of its container terminal capacity to the Mississippi 
River, a determination to discontinue maintenance of the MRGO's deep 
draft channel must be preceded by completion of the IHNC Lock 
replacement project to assure continued deep draft access to the many 
businesses serviced by the MRGO.
    The Inner Harbor Navigation Canal (IHNC) Lock is a critical link in 
the U.S. Inland Waterway System as well as the Gulf Intracoastal 
Waterway (GIWW), and provides a connection between the Port of New 
Orleans Mississippi River and IHNC terminals. In 1998, the Corps 
approved a plan for replacement of this obsolete facility. The Corps 
estimates that the lock replacement project will have a cost-benefit 
ratio of 2.1 to one and will provide $110 million annually in 
transportation cost savings. To minimize adverse impacts to adjacent 
neighborhoods, the project includes a $37 million Community Impact 
Mitigation Program. The President's fiscal year 2004 Budget of 
$7,000,000 for the IHNC Lock Replacement will pay for engineering and 
design work, construction, and the mitigation program, all on a delayed 
basis. We, therefore, strongly recommend that the Corps be funded 
$20,000,000 to complete demolition on the east side, and advance 
engineering and design, levee contracts, and mitigation measures.
    Operation and maintenance of the Mississippi River Outlets at 
Venice, LA are essential to providing safe offshore support access to 
energy-related industries. In 2001, these channels accommodated cargo 
movements exceeding 3 million tons. In addition to routine traffic, 
shallow draft vessels use Baptiste Collette Bayou as an alternate route 
between the MRGO, GIWW and the Mississippi River. The President's 
fiscal year 2004 Budget is $1,841,000 under O&M General. We, however, 
strongly recommend that the Corps be funded $5,116,000 to perform 
critical maintenance dredging.
    More than 74.9 million tons of cargo transverse the GIWW in the New 
Orleans District annually. The President's fiscal year 2004 Budget is 
$19,418,000 under O&M General. We, however, strongly recommend that the 
Corps be funded $29,028,000 to perform critical maintenance at the 
navigation locks.
    The President's fiscal year 2004 Budget for the Bayou Sorrel Lock, 
LA project is $707,000 in GI funds. To assure the efficient flow of 
commerce on the GIWW, we urge that the Corps be funded $707,000 to 
advance the completion of the pre-engineering design for replacement of 
the Bayou Sorrel Lock, Morgan City-to-Port Allen alternate route. We 
further recommend that the Corps be funded $800,000 in GI funds to 
advance the completion of the feasibility phase of the study to replace 
Calcasieu Lock on the GIWW by 3 years.
    The Port of Lake Charles, Louisiana, is served by the Calcasieu 
River, which often does not meet project depth and width requirements. 
This Port is one of Louisiana's major deep-water ports, benefitting the 
economy of the State and the Nation. In 2001, the Port handled 37.1 
million tons of import cargo and 17.3 million tons of export cargo. The 
Port and private facilities along this waterway provide thousands of 
jobs for the Lake Charles area. In 2001, 1,284 ships and 7,893 barges 
used the Calcasieu River waterway. The Port area's growth and continued 
success depends on the provision of a reliable and safe channel at full 
project dimensions. The President's fiscal year 2004 Budget is 
$12,064,000 under O&M General. We, however, strongly recommend that the 
Corps be funded $20,559,000 to construct revetment at Devil's Elbow.
    One additional project warrants consideration. The J. Bennett 
Johnston Waterway, Mississippi River to Shreveport, LA Project provides 
236 miles of navigation improvements, 225 miles of channel 
stabilization works and various recreational facilities. Project 
completion will stimulate economic growth along the Red River Basin and 
increase cargo flows through the deep draft ports on the lower 
Mississippi River. The President's fiscal year 2004 Budget is 
$13,700,000 (Construction General) and $12,013,000 (O&M General). We, 
however, strongly recommend that the Corps be funded $29,000,000 
(Construction General) and $19,900,000 (O&M, General) to complete work 
already underway.
    The need and impetus to reduce the Federal budget is certainly 
acknowledged; however, reduced funding on any of the above projects 
will result in decreased maintenance levels which will escalate 
deterioration and, ultimately, prevent them from functioning at their 
full authorized purpose. Reduction in the serviceability of these 
projects will cause severe economic impacts not only to this region, 
but to the Nation as a whole that will far outweigh savings from 
reduced maintenance expenditures. Therefore, we reiterate our strong 
recommendation that the above projects be funded to their full 
capability.
    1. Mississippi River Ship Channel, Gulf to Baton Rouge, LA.--
Recommend the Corps be funded $196,000 (Construction General) to 
perform required work on the saltwater intrusion Phase 1 mitigation 
plan.
    2. Mississippi River, Baton Rouge to the Gulf, Maintenance 
Dredging.--The President's Fiscal Year 2004 Budget is $56,206,000 under 
O&M General. Recommend that the Corps be funded $64,566,000 to 
construct foreshore rock dike, soft dike at deep draft crossings, and 
to repair Southwest Pass pile dike and tie-in.
    3. Mississippi River Gulf Outlet (MRGO), LA, Maintenance 
Dredging.--The President's Fiscal Year 2004 Budget is $13,485,000 under 
O&M General. Recommend that the Corps be funded $34,325,000 for 
maintenance dredging and bank stabilization.
    4. Inner Harbor Navigation Canal (IHNC) Lock, LA.--The President's 
Fiscal Year 2004 Budget is $7,000,000 in Construction General funds. 
Recommend that the Corps be funded $20,000,000 to continue construction 
and mitigation for the IHNC Lock replacement.
    5. Mississippi River Outlets at Venice, LA.--The President's Fiscal 
Year 2004 Budget is $1,841,000 under O&M General. Recommend that the 
Corps be funded $5,116,000 to perform critical maintenance dredging and 
to repair jetties.
    6. Bayou Sorrel Lock, LA.--The President's Fiscal Year 2004 Budget 
is $707,000 under General Investigation Studies. Recommend that the 
Corps be funded $707,000 to advance pre-engineering design for the 
replacement of Bayou Sorrel Lock on the Gulf Intracoastal Waterway 
(GIWW), Morgan City-to-Port Allen alternate route.
    7. Gulf Intracoastal Waterway, LA and TX.--The President's Fiscal 
Year 2004 Budget is $19,418,000 under O&M General. Recommend that the 
Corps be funded $29,028,000 to perform critical maintenance at the 
navigation locks.
    8. Calcasieu Lock, LA.--The President's Fiscal Year 2004 Budget is 
$100,000 in GI funds. Recommend that the Corps be funded $800,000 to 
advance the feasibility phase of the study to replace Calcasieu Lock on 
the GIWW.
    9. Calcasieu River and Pass, LA.--The President's Fiscal Year 2004 
Budget is $12,064,000 under O&M General. Recommend that the Corps be 
funded $20,559,000 to construct revetment at Devil's Elbow, perform 
critical dredging and maintenance of disposal area.
    10. MRGO Reevaluation Study, LA.--The President's Fiscal Year 2004 
Budget has no funding for this study. Recommend that the Corps be 
funded $813,000 (Construction General). Funds are needed to complete a 
study to determine the advisability of maintaining the 36-foot depth of 
the MRGO.
    11. J. Bennett Johnston Waterway, Mississippi River to Shreveport, 
LA.--The President's Fiscal Year 2004 Budget is $13,700,000 
(Construction General) and $12,013,000 (O&M General). Recommend that 
the Corps be funded $29,000,000 (Construction General) and $19.9 
million (O&M, General) to complete work already underway.
                                 ______
                                 
             Prepared Statement of the Port of New Orleans
    The Port of New Orleans is located at the terminus of the most 
extensively developed waterway system in the world, the 14,500 mile 
inland waterway system of the United States. The Port, via the 
Mississippi River and the Mississippi River Gulf Outlet, serves as the 
gateway between America's heartland and the global marketplace.
    The Louisiana Governor's Task Force on the Maritime Industry has 
submitted a statement in support of fiscal year 2004 Congressional 
appropriations for the U.S. Army Corps of Engineers. This statement 
addresses Corps activities on the Lower Mississippi River and 
connecting waterways, the J. Bennett Johnston Waterway, and the 
Calcasieu River Waterway. We endorse the statement of the Governor's 
Task Force and the funding levels recommended therein.
    We greatly appreciate the outstanding support and cooperation 
received over many years from the subcommittee, and look forward to 
working with you on these vitally important projects.
                                 ______
                                 
      Prepared Statement of the Steamship Association of Louisiana
    I am President of the Steamship Association of Louisiana (SALA). 
Our Association represents ship owners, operators, and agents who 
handle the majority of the 7,000 ocean-going vessels that call 
Louisiana's deep-water ports each year. SALA is dedicated to the safe, 
efficient movement of maritime commerce through the State's deep-water 
ports. We endorse the testimony of Mr. Donald T. Bollinger, Chairman of 
the Governor's Task Force on Maritime Industry.
    Channel stabilization and maintenance dredging in Southwest Pass 
(SWP) are critical to maintaining project draft. Project draft ensures 
the Mississippi River's deep-water ports will continue to handle the 
country's foreign and domestic waterborne commerce in the most cost-
effective way possible.
    For years we have urged this Committee to provide funds to maintain 
project draft at SWP. You have responded, and your wisdom has 
benefitted the entire American heartland served by the Mississippi 
River system. SWP was greatly restricted throughout the 1970's. From 
1970 to 1975, the channel was at less than project draft 46 percent of 
the time. In 1973 and 1974, the channel was below the 40-foot project 
draft 70 percent of the time. During some periods, drafts were limited 
to 31 feet. Fortunately, those conditions have not recurred because of 
a combination of factors: Your help, and the constant vigilance of the 
Pilots, the Corps, and the maritime community. The years 1990 through 
2002 show a tremendous improvement in channel stability. The funding 
you provided was money well spent. The repairs to the jetties and 
dikes, and the Corps' ability to rapidly respond to shoaling, have been 
instrumental in maintaining project dimensions. However, the lack of 
available hopper dredges has, at times, threatened the integrity of the 
channel.
    The Pilots have taken advantage of tidal flows and other factors to 
recommend the maximum draft possible consistent with safe navigation. 
This results in additional sales and increased competitiveness for U.S. 
products on the world market. Industry's partnership with you has kept 
Mississippi River ports competitive and attractive to vessels. An 
additional 12 inches of draft to a large vessel with a loading capacity 
of 250 metric tons per inch is an added 3,000 tons of cargo. As of this 
writing, freight rates for grain moving from the Mississippi River to 
the Far East were $24 per metric ton before world events increased them 
to $30 per ton as this letter is written. Using $24 per ton, each foot 
of draft represents an additional $72,000 in vessel revenue, or 
$360,000 for the five additional feet over the old 40-foot project 
draft that the new channel provides.
    The funds we request for maintenance dredging ($64.6 million, $8.4 
million over the President's request) are essential for the Corps to 
maintain a reliable channel and respond rapidly to potential problems. 
This builds the confidence of the bulk trade in a reliable Mississippi 
River draft, which is critically important. Much of Louisiana's bulk 
trade is exported agricultural products and imported petroleum 
products. The export commodities are neither captive to Louisiana nor 
the United States if they can be shipped from competing countries at a 
consistently lower cost.
    The deeper the channel, the more important channel stabilization 
becomes. Adequate channel stabilization work minimizes the maintenance 
cost of the deeper channel--a cost-effective investment. The faster the 
project is stabilized, the faster and greater the benefits of reduced 
O&M costs will be realized. Also, we recommend that the Corps conduct 
research on prototype dredging techniques.
    Funds are also needed for dustpan dredges to work the crossings 
above New Orleans. These crossings control the draft to the Ports of 
South Louisiana and Baton Rouge, home to eight of our ten major grain 
elevators plus many mid-stream and other bulk cargo facilities. This 
area caters to the bulk trade and must have a stable channel depth 
consistent with the depth at Southwest Pass. Only two dustpan dredges 
in the world are available to maintain the deep-draft crossings between 
New Orleans and Baton Rouge. There are times when a high river is 
followed by a rapid drop in the river's stage. In such cases, the 
dustpan dredges may not be available, or both dredges may not be 
capable of restoring the 12 crossings within a reasonable time. When 
this happens, hopper dredges are used to assist in the work.
    For all of the above reasons, we request full funding for the 
mitigation features of the O&M General, 45-foot Mississippi River 
project. We also request that the New Orleans District receive an 
additional $32.1 million to address the shortfall carried forward from 
fiscal year 2002. These funds were not provided by Congress in an 
fiscal year 2002 supplemental appropriation as requested by the Corps 
and are seriously impacting needed channel maintenance on the 
Mississippi River, the Mississippi River-Gulf Outlet (MR-GO) and the 
Calcasieu Ship Channel in fiscal year 2003. To ``catch up'' with the 
dredging needs on these channels, we respectfully request this 
additional funding in fiscal year 2004 if it is not provided in a 
fiscal year 2003 supplemental appropriation.
    We also support Phase III of the Mississippi River channel 
deepening project and urge that the Corps be funded to proceed with 
design studies for the 55-foot channel, Baton Rouge to the Gulf of 
Mexico.
    The MR-GO is also a viable channel for the State of Louisiana. The 
funds you provided in past fiscal years have allowed the Corps to 
improve the channel considerably. However, the channel width has 
remained limited primarily because of erosion. For safety reasons in 
this narrow channel, one-way traffic restrictions apply to vessels with 
a draft of 30 feet or more, causing delays to the tightly-scheduled 
container traffic using the MR-GO. These specialty vessels serving the 
Port's facilities are becoming larger. The highest wages under the 
International Longshoremen's Association's contract ($27 per straight-
time hour) is paid for work at the MR-GO container facilities. Anything 
that threatens the MR-GO jeopardizes these high-paying jobs, which are 
held mostly by minority workers.
    To improve safety on the MR-GO and protect Louisiana's container 
trade (and the well-paying, minority employment it produces), we 
request that the Corps be funded at $34.3 million for the MR-GO in 
fiscal year 2004. This will allow annual maintenance dredging, north 
and south bank stabilization, and jetty maintenance, which is essential 
to provide the stability needed for vessel and port operations.
    With facilities located on both the MR-GO and the Mississippi 
River, an adequate route between the two is essential for efficient 
transit between these facilities. The shortest route is the inadequate, 
antiquated Inner Harbor Navigation Canal (IHNC) Lock built in the 
1920's with a width of 75 feet and limited depth of 30 feet. Its 
maximum capacity has long been exceeded. The average waiting time for 
passage through the Lock has increased from 8\1/2\ hours in 1985 to 
about 12 hours at present; however, we understand that waiting time can 
be more than a day in some instances. A much larger ship lock is 
necessary to accommodate today's traffic.
    The replacement project for the IHNC Lock is important to the ports 
on the lower Mississippi River and to the Nation's commerce since it is 
on the corridor for east/west barge traffic. Without full funding, the 
project will be delayed and increase the overall cost of the project. 
We urge Congress to provide the Corps' full fiscal year 2004 capability 
($20 million) for this important project to insure its completion. 
Delays are unthinkable since the new lock is long overdue.
    The Port of Lake Charles, Louisiana, is served by the Calcasieu 
River, which is often below project depth and width. This is another of 
Louisiana's major deep-water ports that benefits the economy of the 
State and the Nation. The public and private facilities along this 
waterway provide thousands of jobs for the Lake Charles area. This 
channel, because of its project deficiencies, requires one-way traffic 
for many ships, causing delays that disrupt cargo operations. This is 
costly and inefficient for industry. The Port area's growth and 
continued success depends on a reliable and safe channel that should be 
at full project. We request funding to the full capability of the Corps 
($20.6 million) to maintain this channel at its project dimensions and 
to construct needed revetments at Devil's Elbow.
    The J. Bennett Johnston Waterway, Mississippi River to Shreveport, 
Louisiana, Project is directly related to our deep-water ports. The 
continuation and completion of this work will stimulate the economy all 
along the Red River Basin with jobs and additional international trade. 
This increased trade will help the Port of Shreveport and the ports on 
the lower Mississippi River, providing needed growth and benefitting 
the States of Louisiana, Texas, Oklahoma, and Arkansas, which are 
served through the Shreveport distribution center. Therefore, we 
strongly recommend that the Corps be funded to full capability for 
fiscal year 2004 at $29 million for Construction General and $19.9 
million for O&M General to complete work already underway.
                                 ______
                                 
           Prepared Statement of the Port of South Louisiana
    The Port of South Louisiana very much appreciates being given the 
opportunity to submit this statement and supportive material to signify 
its endorsement of the statement of Mr. Donald T. Bollinger, Chairman 
of the Louisiana Governor's Task Force on Maritime Industry.
    The Port of South Louisiana is comprised of nearly 54 miles of 
Mississippi River north of New Orleans and south of Baton Rouge, with 
more than 50 private and public docks and wharves. The Port of South 
Louisiana is the largest tonnage port in the United States and third 
largest in the world, handling more than 260 million short tons of 
cargo during 2002. Of this total tonnage, more than 133 million tons 
are shipped in international trade by deep water vessel and 127 million 
tons are shipped in domestic trade by vessels and barges. Each year 
more than 100,000 barges transport cargo at the Port of South Louisiana 
and more than 4,300 ships call at the public and private wharves of our 
Port.
    A recent study by Dr. Tim Ryan of the University of New Orleans 
indicates that nearly 20 percent of the domestic gross product of the 
State of Louisiana is dependent upon the maritime industry and one of 
eight jobs is created from the economic activity of the maritime 
industry. Attached you will find statistics which have been developed 
from the records of the Port of South Louisiana.
    The Port of South Louisiana strongly urges the Congress to fund all 
of the following projects.
  --Mississippi River Ship Channel, Gulf to Baton Rouge, LA;
  --Mississippi River, Baton Rouge to the Gulf, Maintenance Dredging;
  --Mississippi River-Gulf Outlet (MR-GO), LA., Maintenance Dredging;
  --Inner Harbor Navigation Canal (IHNC) Lock, LA;
  --Mississippi River Outlets at Venice, LA;
  --Bayou Sorrel Lock, LA;
  --Gulf Intracoastal Waterway, LA and TX;
  --Calcasieu Lock, LA;
  --Calcasieu River & Pass, LA;
  --Mississippi River-Gulf Outlet (MR-GO) Reevaluation Study, LA;
  --J. Bennett Johnston Waterway, Mississippi River to Shreveport.
    The Port of South Louisiana strongly believes that the funding and 
completion of the above maritime projects will enhance the ability of 
the ports in the region to be competitive in the global economy and 
will enhance the ability of domestic industry and agriculture to 
compete in the export of its products.
                                 ______
                                 
         Prepared Statement of the Port of Greater Baton Rouge
    Maintaining open navigable channels for the Mississippi River and 
its tributaries is vital to the Nation's commerce and national 
interest. Therefore, the Port of Greater Baton Rouge respectfully 
requests that you and your committee give favorable consideration to 
the following U.S. Corps of Engineers projects:
    1. Mississippi River Ship Channel--Gulf to Baton Rouge, Louisiana 
(Construction General).--The Port of Greater Baton Rouge supports full 
funding of $196,000 in fiscal year 2004 to the U.S. Corps of Engineers 
General Construction Budget. These funds will provide for the required 
work on the saltwater intrusion mitigation plan and the Phase I design 
studies for the 55-foot channel. Both projects are important to the 
future success of the Port of Greater Baton Rouge.
    2. Mississippi River--Baton Rouge to the Gulf--Maintenance 
Dredging.--The President's Fiscal Year 2004 Budget is $56,206,000 under 
O&M General. The Port of Greater Baton Rouge recommends that the Corps 
be funded $64,566,000 to construct foreshore rock dike, soft dike at 
deep draft crossings, and to repair Southwest Pass pile dike and tie-
in.
    3. Mississippi River--Gulf Outlet (MRGO), LA., Maintenance 
Dredging.--The President's Fiscal Year 2004 Budget is $13,485,000 under 
O&M General. The Port of Greater Baton Rouge recommends that the Corps 
be funded $34,325,000 for maintenance dredging and bank stabilization.
    4. Inner Harbor Navigation Canal (IHNC) Lock, LA.--The President's 
Fiscal Year 2004 Budget is $7,000,000 in Construction General Funds. 
The Port of Greater Baton Rouge recommends the Corps be funded 
$20,000,000 to continue construction and mitigation for the IHNC Lock 
replacement.
    5. Mississippi River Outlets at Venice, LA.--The President's Fiscal 
Year 2004 Budget is $1,841,000 under O&M General. The Port of Greater 
Baton Rouge recommends that the Corps be funded $5,116,000 to perform 
critical maintenance dredging and to repair jetties.
    6. Bayou Sorrel, Lock, LA.--The President's Fiscal Year 2004 Budget 
is $707,000 under General Investigation Studies. The Port of Greater 
Baton Rouge recommends that the Corps be funded $707,000 to advance 
pre-engineering design for the replacement of Bayou Sorrel Lock on the 
Gulf Intracoastal Waterway (GIWW), Morgan City-to-Port Allen alternate 
route.
    7. Gulf Intracoastal Waterway, LA and TX.--The President's Fiscal 
Year 2004 Budget is $19,418,000 under O&M General. The Port of Greater 
Baton Rouge recommends that the Corps be funded $29,028,000 to perform 
critical maintenance at the navigation locks.
    8. MRGO Reevaluation Study, LA.--The President's Fiscal Year 2004 
Budget has no funding for this study. The Port of Greater Baton Rouge 
recommends that the Corps be funded $813,000 (Construction General). 
Funds are needed to complete a study to determine the advisability of 
maintaining the 36-foot depth of the MRGO.
    9. J. Bennett Johnston Waterway, Mississippi River to Shreveport, 
LA.--The President's Fiscal Year 2004 Budget is $13,700,000 
(Construction General) and $12,013,000 (O&M General). The Port of 
Greater Baton Rouge recommends that the Corps be funded $29,000,000 
(Construction General) and $19.9 million (O&M, General) to complete 
work already underway.
    As stated in previous correspondence, these projects are vital not 
only to the Port of Greater Baton Rouge but to the entire lower 
Mississippi River and the Nation. They are projects of critical 
national significance and have a tremendous impact on shipping for both 
ocean-going vessels and barge traffic. The great Mississippi River is 
the premier national waterway, providing accessibility to and from 
foreign countries for the transportation of goods and services used by 
countless number of U.S. companies and individual citizens. The channel 
must be properly designed and maintained for the benefit of all ports 
and commerce.
    We also earnestly request your support for funding of the other 
projects included in March 2003 testimony prepared and submitted by Mr. 
Donald T. Bollinger. A summary of Mr. Bollinger's statement is 
attached. Our waterway infrastructure must be properly maintained if we 
are to increase trade and have the confidence of our trading partners 
around the world. Your cooperation and support of these important 
projects for the Mississippi River are greatly appreciated.
                                 ______
                                 
  Prepared Statement of the Lake Charles Harbor and Terminal District
    The Lake Charles Harbor and Terminal District (Port of Lake 
Charles, Louisiana) respectfully requests that the U.S. Senate 
Appropriations Committee and Subcommittee on Energy and Water 
Development afford favorable consideration to proposed U.S. Army Corps 
of Engineers projects affecting the Calcasieu River Waterway, Calcasieu 
Lock and Gulf Intracoastal Waterway. We specifically endorse the 
appropriateness and necessity for increased funding levels as advocated 
by testimony offered by Mr. Donald T. Bollinger, Chairman of the 
Governor of Louisiana's Maritime Industry Task Force.
    The Calcasieu River Waterway, including its nexus with the Gulf 
Intracoastal Waterway and Calcasieu Lock, is deemed ``military 
essential'' and further supports two refineries, a major portion of the 
Nation's liquefied natural gas imports, chemical industries, USDA 
programs, and is a major economic engine for the region.
    Your support of these essential projects toward maintaining our 
contribution to the Marine Transportation System (MTS) infrastructure 
will well serve regional and National interests.
                                 ______
                                 
Prepared Statement of the Associated Branch Pilots, Port of New Orleans
    The Associated Branch Pilots is an Association of Pilots that have 
been guiding oceangoing vessels into the entrances of the Mississippi 
River system for over 125 years. We are called Bar Pilots because we 
guide the ships past the constantly shifting and shoaling sand bars in 
the area.
    Southwest Pass of the Mississippi River is the main entrance for 
deep draft oceangoing vessels entering the Lower Mississippi River 
System. It is the shallowest stretch of the Lower Mississippi River 
System and the area that requires the greatest effort by the Corps of 
Engineers to maintain project depth.
    In 2002, the Associated Branch Pilots made 10,850 transits on 
oceangoing vessels through Southwest Pass. Of these ships, 3,444 were 
of 50,000 deadweight tons or greater and 686 had a draft in excess of 
40 feet.
    This number of heavily laden vessels calling on the Lower 
Mississippi River System is a result of having a channel with a depth 
of 45 feet.
    This first phase has proven to be extremely well designed and well 
maintained by the fact that the maximum draft recommended by my 
Association for vessels using Southwest Pass has been 45 feet or 
greater, except for periods of extremely high water that caused 
shoaling that overwhelmed the dredging efforts. This is in stark 
contrast to the late 1970's and early 1980's when we often had to 
recommend drafts less than the project depth due to shoaling.
    To the world shipping community, this means that calling at ports 
on the Mississippi River system will be more profitable because larger 
ships can enter and carry greater amounts of cargo.
    This is beneficial to the entire United States because it makes the 
large quantities of petroleum, agricultural, and manufactured products 
shipped from the Mississippi Valley more desirable due to increased 
profitability.
    I would also like to comment briefly on the East-West navigation 
channels near Venice, Louisiana. Tiger Pass and Baptiste Collette 
provide a shorter, more direct route to Breton Sound and the Gulf of 
Mexico for offshore supply boats and small tugs and barges. These 
channels not only represent a savings in time and money for these 
vessels, but reduce the traffic in the main shipping channel, the 
Mississippi River and its passes, which is one of the most congested 
waterways in the country.
    The dredging and maintaining of South Pass would contribute to the 
safety of the overall waterway.
    The Associated Branch Pilots also pilot vessels in the Mississippi 
River Gulf Outlet, a man-made tidewater channel 75 miles long, 
stretching from the Gulf of Mexico to an intersection of the 
Intercoastal Waterway in New Orleans.
    This channel leads to the Main Container Terminals for the Port of 
New Orleans, the Roll On, Roll Off Terminal, the Port of New Orleans 
Bulk Handling Plant, and additional General Cargo Docks. For the Port 
of New Orleans to remain competitive in the ever growing container 
trade, the continued maintenance of this channel is crucial. In 2002, 
719 ships called on the port using the Mississippi River Gulf Outlet.
    Much is being said pro and con concerning the Mississippi River 
Gulf Outlet. There is, admittedly, an erosion problem in the 
Mississippi River Gulf Outlet, but any curtailment of shipping traffic 
in the channel without regard to the long term effect upon the Port of 
New Orleans would be disastrous. I strongly support approval of funding 
for both the maintenance dredging/jetty repair project and the erosion/
rip rap study for the Mississippi River Gulf Outlet.
    Funding of the Corps of Engineers' projects in the Lower 
Mississippi River System has proven to be money well spent. It has 
increased exports and imports that have benefited the entire United 
States. I urge your support of the funding requested to enable the 
Corps to continue to maintain and improve the most efficient and 
productive waterway system in the country.
                                 ______
                                 
   Prepared Statement of the Crescent River Port Pilots' Association
    I am President of the largest pilot association in the United 
States. The Crescent River Port Pilots furnish pilots for ships 
destined to the Port of Baton Rouge, Port of South Louisiana, Port of 
New Orleans, Port of St. Bernard, and the Port of Plaquemines.
    The Crescent River Port Pilots have piloted and shifted over 14,750 
ships during 2002. We pilot deep draft vessels on more than 100 miles 
on the lower Mississippi River and 35 miles on the Mississippi River 
Gulf Outlet.
    The lower end of our route on the Mississippi River has a shoaling 
problem starting with the high water season each year. The shoaling 
requires daily attention by the United States Army Corps of Engineers 
to maintain project depth.
    Heavy-laden vessel calls on the lower Mississippi River system as a 
direct result of the completion by the Corps of Engineers of the 
deepening of the channel from 40 feet to 45 feet.
    For several years now, we have had extraordinary success in keeping 
the river dredges to project depth. This success is a direct result of 
an experienced and vigilant Corps of Engineers that, through 
experience, is able to timely bid in dredges to avoid extra dredging 
cost by waiting too long to start maintenance dredging.
    Channel stability sends a positive message to the world's shipping 
community that schedule cargo for deep draft vessels months in advance 
is reliable. This makes the port call on the Mississippi River very 
profitable since the ships can lift greater tonnage.
    Keeping project depth is beneficial to 27 States that are directly 
tied to the Mississippi River Port Complex.
    Additionally, I would like to comment on the east and west 
navigation channels near Venice, Louisiana. Baptiste Collette and Tiger 
Pass provide a shorter and more direct route to Breton Sound and West 
Delta in the Gulf of Mexico for oil field support vessels.
    The Crescent River Port Pilots also pilot ships in the Mississippi 
River Gulf Outlet. A man-made channel approximately 75 miles long 
starting in Breton Sound in the Gulf of Mexico and ending in New 
Orleans where it intersects with the Intercoastal Waterway.
    The Mississippi River Gulf Outlet feeds the main container 
terminals in the Port of New Orleans. Additional docks, such as Bulk 
Terminal and general cargo facilities depend on this channel, which 
handled approximately 847 ship calls last year.
    The Mississippi River Gulf Outlet has been a controversial channel 
since its inception, but being an integral part of the Port of New 
Orleans, it would be a disaster if it is not kept at project width and 
depth. The Crescent River Pilots strongly support approval of funding 
for both the maintenance dredging, and jetty repair projects.
    Funding of the United States Army Corps of Engineers projects in 
the lower Mississippi River system which includes the Mississippi River 
Gulf Outlet, Tiger Pass, Baptiste Collette, and Southwest Pass has 
proven to be money well spent.
    I urge your support of the funding requested to allow the Corps of 
Engineers to continue to maintain and improve the most productive 
waterway system in the world.
    Mr. Chairman, thanks for allowing me the opportunity to submit my 
comments to your subcommittee.
                                 ______
                                 

 FISCAL YEAR 2004 CONGRESSIONAL APPROPRIATIONS FOR THE LOWER MISSISSIPPI
    RIVER AND CONNECTING WATERWAYS, J. BENNETT JOHNSTON WATERWAY AND
  CALCASIEU RIVER WATERWAY--PRESIDENT'S BUDGET REQUEST AND RECOMMENDED
                             FUNDING LEVELS
                        [In thousands of dollars]
------------------------------------------------------------------------
                                            President's     Recommended
                 Project                  Budget Request  Funding Levels
------------------------------------------------------------------------
Mississippi River Ship Channel Gulf to               196             196
 Baton Rouge, LA (Construction General).
Mississippi River, Baton Rouge to the             56,206          64,566
 Gulf, Maintenance Dredging, and
 Stabilization (O&M General)............
Mississippi River--Gulf Outlet (MR-GO),           13,485          34,325
 LA (O&M General).......................
Inner Harbor Navigation Canal Lock, LA             7,000          20,000
 (Construction General).................
Mississippi River Outlets at Venice, LA            1,841           5,116
 (O&M General)..........................
Bayou Sorrel Lock, LA (GI Funds)........             707             707
Gulf Intracoastal Waterway, LA & TX (O&M          19,418          29,028
 General)...............................
Calcasieu Lock, LA (GI Funds)...........             100             800
Calcasieu River and Pass, LA (O&M                 12,064          20,559
 General)...............................
MRGO Reevaluation Study, LA                            0             813
 (Construction General).................
J. Bennett Johnston Waterway                      13,700          29,000
 (Construction General).................
J. Bennett Johnston Waterway (O&M                 12,013          19,900
 General)...............................
                                         -------------------------------
      TOTAL.............................         136,730         225,010
------------------------------------------------------------------------

          Prepared Statement of the City of Flagstaff, Arizona
    Chairman Domenici, Ranking Member Reid, and distinguished members 
of the subcommittee, thank you for allowing me to testify on behalf of 
the City of Flagstaff, Arizona in support of $4.5 million in the Army 
Corps of Engineers budget for the Rio de Flag flood control project in 
fiscal year 2004. I believe this project is critically important to the 
City, to northern Arizona, and, ultimately, to the Nation.
    As you may know, Mr. Chairman, with this subcommittee's help last 
year, Rio de Flag received $1 million to start construction on this 
important project. We are extremely grateful that the subcommittee 
boosted this project well above the President's request, and we would 
appreciate your continued support for this project in fiscal year 2004.
    Like many other projects under the Army Corps's jurisdiction, Rio 
de Flag received no funding for fiscal year 2004, although the Corps 
has expressed capability of $4.5 million to continue construction on 
the project. We are hopeful that the subcommittee will fund the Rio de 
Flag project at $4.5 million when drafting its bill in order to keep 
the project on an optimal schedule.
    Flooding along the Rio de Flag dates back as far as 1888. The Army 
Corps has identified a Federal interest in solving this long-standing 
flooding problem through the Rio de Flag, Flagstaff, Arizona--
Feasibility Report and Environmental Impact Study (EIS). The 
recommended plan contained in this feasibility report was developed 
based on the following opportunities: (1) flood control and flood 
damage reduction; (2) environmental mitigation and enhancement; (3) 
water resource management; (4) public recreation; and (5) redevelopment 
opportunities. This plan will result in benefits to not only the local 
community, but to the region and the Nation.
    The feasibility study by the Corps of Engineers has revealed that a 
500-year flood could cause serious economic hardship to the City. In 
fact, a devastating 500-year flood could damage or destroy 
approximately 1,500 structures valued at more than $395 million. 
Similarly, a 100-year flood would cause an estimated $95 million in 
damages. In the event of a catastrophic flood, over half of Flagstaff's 
population of 57,000 would be directly impacted or affected.
    In addition, a wide range of residential, commercial, downtown 
business and tourism, and industrial properties are at risk. Damages 
could also occur to numerous historic structures and historic Route 66. 
The Burlington Northern & Santa Fe Railway (BNSF), one of the primary 
east-west corridors for rail freight, could be destroyed, as well as 
U.S. Interstate 40, one of the country's most important east-west 
interstate links. Additionally, a significant portion of Northern 
Arizona University (NAU) could incur catastrophic physical damages, 
disruptions, and closings. Public infrastructure (e.g., streets, 
bridges, water, and sewer facilities), and franchised utilities (e.g., 
power and telecommunications) could be affected or destroyed. 
Transportation disruptions could make large areas of the City 
inaccessible for days.
    Mr. Chairman, the intense wildfires that have ripped through the 
West over the last several years have only exacerbated the flood 
potential and hazard in Flagstaff. An intense wildfire near Flagstaff 
could strip the soil of ground cover and vegetation, which could, in 
turn, increase runoff and pose an even greater threat of a catastrophic 
flood.
    In short, a large flood could cripple Flagstaff for years and even 
decades. That is why the City believes it is so important to ensure 
that this project remains on schedule and that the Corps is able to 
maximize its capability of $4.5 million in fiscal year 2004 for 
construction of the Rio de Flag flood control project.
    In the City's discussions with the Corps, both the central office 
in Washington and its Los Angeles District Office also believe that the 
Rio de Flag project is of the utmost importance and both offices 
believe the project should be placed high on the subcommittee's 
priority list. We are hopeful that the subcommittee will heed this 
advice and also place the project high on its priority list and fully 
fund the project at $4.5 million for fiscal year 2004.
    As you may know, project construction and implementation of Rio de 
Flag was authorized in the Water Resources Development Act (WRDA) of 
2000. The total project is estimated to cost $24,072,000 (October 1999 
price levels). The non-Federal share is currently $8,496,000 and the 
Federal share is currently $15,576,000. Final project costs must be 
adjusted based on Value Engineering and final design features. It is 
important to note that the City of Flagstaff has already committed more 
than $10 million to this project, which is well in excess of its cost 
share agreement and shows the City's commitment to completing this 
important project. Through this investment in the project, the City is 
prepared to enter into the Project Cooperation Agreement (PCA) with the 
Department of the Army.
    The City of Flagstaff, as the non-Federal sponsor, is responsible 
for all costs related to required Lands, Easements, Rights-of-Way, 
Relocations, and Disposals (LERRD's). The City has already secured the 
necessary property rights to begin construction in 2003. Implementation 
of the City's Downtown and Southside Redevelopment Initiatives 
($100,000,000 in private funds) are entirely dependent on the success 
of the Rio de Flag project. The Rio de Flag project will also provide a 
critical missing bike/pedestrian connection under Route 66 and the BNSF 
Railroad to replace the existing hazardous at grade crossings.
    Both design and construction are divided into two phases. Phase I 
is currently scheduled to commence construction in July of 2003. Phase 
II of the project is scheduled to commence in April of 2004.
    Mr. Chairman, the Rio de Flag project is exactly the kind of 
project that was envisioned when the Corps was created because it will 
avert catastrophic floods, it will save lives and property, and it will 
promote economic growth. In short, this project is a win-win for the 
Federal Government, the City, and the surrounding communities.
    Furthermore, the amount of money invested in this project by the 
Federal Government--approximately $15 million--will be saved 
exponentially in costs to the Federal Government in the case of a large 
and catastrophic flood, which could be more than $395 million. It will 
also promote economic growth and redevelopment along areas that are 
currently underserved because of the flood potential.
    In conclusion, the Rio de Flag project should be considered a high 
priority for this subcommittee, and I encourage you to support full 
funding of $4.5 million for this project in the fiscal year 2004 Energy 
and Water Development Appropriations bill. Thank you in advance for 
your consideration.
                                 ______
                                 
  Prepared Statement of the Arkansas River Basin Interstate Committee
    Mr. Chairman and members of this distinguished Committee, my name 
is Lew Meibergen. I am Chairman of the Board of Johnston Enterprises 
headquartered in Enid, Oklahoma. It is my honor to serve as Chairman of 
the Arkansas River Basin Interstate Committee, members of which are 
appointed by the governors of the great States of Arkansas, Colorado, 
Kansas, Missouri, and Oklahoma.
    In these trying times of war on terrorism, homeland defense and 
needed economic recovery, our thanks go to each of you, your staff 
members and the Congress. Your efforts to protect our Nation's 
infrastructure and stimulate economic growth in a time of budget 
constraints are both needed and appreciated.
    Our Nation's growing dependence on others for energy, and the need 
to protect and improve our environment, make your efforts especially 
important. Greater use and development of one of our Nation's most 
important transportation modes--our navigable inland waterways--will 
help remedy these problems. At the same time, these fuel-efficient and 
cost-effective waterways keep us competitive in international markets.
    As Chairman of the Interstate Committee, I present this summary 
testimony as a compilation of the most important projects from each of 
the member States. Each of the States unanimously supports these 
projects without reservation. I request that the copies of each State's 
individual statement be made a part of the record, along with this 
testimony.
Montgomery Point Lock and Dam
    The Interstate Committee continues to identify Montgomery Point 
Lock and Dam as our top priority. As completion of construction nears, 
we respectfully request a $15 million Congressional Add for a total 
budget of $35 million for fiscal year 2004 to ensure that this urgently 
needed lock and dam is in operation as soon as possible at the lowest 
possible cost. Scheduled to be operational in 2004, Montgomery Point 
will protect over $5 billion in public and private investments, some 
50,000 jobs, world trade, growing military shipments and future 
economic development.
    Continuing problems caused by the lowering of the Mississippi River 
continue to plague McClellan-Kerr entrance channel users. During times 
of low water on the Mississippi River the entrance channel is drained 
of navigable water depth. As the Mississippi River bottom continues to 
lower, the McClellan-Kerr moves toward total shutdown. Thus, the entire 
Arkansas River Navigation System is at risk, and its long-term 
viability is threatened without Montgomery Point.
    Use of the temporary by-pass channel increases navigation hazards 
and existing dredge disposal areas are virtually full. Mr. Chairman and 
Members of the Committee, continuing Congressional support is essential 
at this crucial time in the history of the project.
    The Interstate Committee also respectfully recommends the following 
as important priorities:
Backlog of Major Maintenance--Arkansas
    A $2 million Congressional Add to the fiscal year 2004 O&M funding 
for advance maintenance dredging and a $5 million add for the backlog 
of channel maintenance, for the McClellan-Kerr Arkansas River 
Navigation System in Arkansas is vitally important. These additional 
funds will help repair bank stabilization, channel and other 
navigational system components that have deteriorated over the past 3 
decades.
    The O&M funding level has been stagnant for the past 11 years while 
cost and maintenance needs have continued to increase. Your help in 
adding $7 million to the project will reduce the critical backlog of 
needed maintenance repairs, the lack of which cause impediments to 
commercial navigation.
Equus Beds Aquifer--Kansas
    Equus Beds Aquifer Storage and Recovery Project--continuation of a 
City of Wichita, Groundwater Management District No. 2 and the State of 
Kansas project to construct storage and recovery facilities for a major 
groundwater resource supplying water to more the 20 percent of Kansas 
municipal, industrial and irrigation users. The project will capture 
and recharge in excess of 100 million gallons per day and will also 
reduce on-going degradation of the existing groundwater by minimizing 
migration of saline water. Federal authorization and continued Federal 
funding is requested in the minimum amount of $1.5 million for fiscal 
year 2004 for the budget of the Bureau of Reclamation.
Tow Haulage Equipment--Oklahoma
    We also request funding of $2.5 million to initiate the 
installation of tow haulage equipment on the locks located along the 
Arkansas River Portion of the McClellan-Kerr Arkansas River Navigation 
System in Oklahoma. Total cost for these three locks is $4.7 million. 
This project will involve installation of tow haulage equipment on W.D. 
Mayo Lock and Dam #14, Robert S. Kerr Lock and Dam #15, and Webbers 
Falls Lock and Dam #16, on the Oklahoma portion of the waterway. The 
tow haulage equipment is needed to make transportation of barges more 
efficient and economical by allowing less time for tows to pass through 
the various locks. Plans are complete and ready to implement.
    The testimony we present reveals our firm belief that our inland 
waterways and the Corps efforts are especially important to our Nation 
in this time of trial. Transportation infrastructure like the inland 
waterways, need be operated and maintained for the benefit of the 
populace. Without adequate annual budgets this is impossible.
    We strongly urge the Appropriations Committee to increase the Corps 
fiscal year 2004 budget so that long deferred system-wide maintenance 
may be accomplished and delayed construction projects may be completed 
in a timely and cost-effective manner.
    Mr. Chairman, Members of this Committee, we respectfully request 
that you and members of your staff review and respond in a positive way 
to the attached individual statements from each of our States which set 
forth specific requests pertaining to those States.
    We sincerely appreciate your consideration and assistance.
                                arkansas
          statement of paul latture, ii, chairman for arkansas
    Mr. Chairman and members of the Committee, thank you for the 
opportunity to present testimony to this most important committee. I 
serve as Executive Director for the Little Rock Port Authority and as 
Arkansas Chairman for the Interstate Committee. Other committee members 
representing Arkansas, in whose behalf this statement is made, are 
Messrs. Wally Gieringer of Hot Springs Village, retired Executive 
Director of the Pine Bluff-Jefferson County Port Authority; Scott 
McGeorge, President, Pine Bluff Sand and Gravel Company, Pine Bluff; 
Barry McKuin of Morrilton, President of the Conway County Economic 
Development Corporation; and N.M. ``Buck'' Shell, CEO, Five Rivers 
Distribution in Van Buren and Fort Smith, Arkansas.
    In this time of war concerns, war on terrorism, homeland defense 
and needed economic recovery, our thanks go to each of you, your staff 
members and the Congress. Your efforts to protect our Nation's 
infrastructure and stimulate economic growth in this time of trial and 
tight budgets are greatly appreciated. Our fiscal year 2004 requests 
are modest.
    First, we have grave concern about a provision of the President's 
fiscal year 2004 budget request which would be very detrimental to the 
inland waterways, and especially the McClellan-Kerr Arkansas River 
Navigation System. That budget proposes 25 percent to 50 percent of the 
cost of Operation & Maintenance of fuel-taxed inland waterways segments 
be financed by the Inland Waterways Trust Fund (which by law is to be 
used to pay 50 percent of the cost of lock-and-dam replacements and 
major rehabilitations).
    This budget proposal singles out so-called ``low-use'' waterway 
segments moving less than 5 billion ton-miles of commerce annually, a 
category which would include the McClellan-Kerr, and would require 
reimbursement of 50 percent of O&M outlays from the trust fund.
    The proposal is unfair. The inland waterways provide multiple 
benefits: flood control, water supply, hydropower, transportation, and 
recreation. While not the sole user of the waterways, transportation 
users would be the only beneficiaries paying for the modernization and 
maintenance of the waterways.
    To take a portion of the inland O&M expenditures out of the Inland 
Waterways Trust Fund would quickly deplete the present surplus and lead 
to calls for closure of so-called low-use waterways or else for higher 
fuel taxes, which would adversely impact our Nation's agricultural, 
energy, and transportation sectors at a time when the economy is 
struggling to recover.
    We urge you to reject this ill-advised proposal and the tax 
increase it promises as well.
    We call to your attention four projects on the McClellan-Kerr 
Arkansas River Navigation System that are especially important to 
navigation and the economy of this multi-State area: completion of 
Montgomery Point Lock and Dam, needed advance maintenance dredging, 
backlog of channel maintenance, and completion of the Arkansas River 
Navigation Study, AR & OK.
Montgomery Point Lock and Dam
    Mr. Chairman and Members of the Committee, continuing Congressional 
support is essential as construction for this major project nears 
completion. We respectfully request a $15 million Congressional Add for 
a total budget of $35 million for fiscal year 2004. With this funding 
Montgomery Point is scheduled to be operational in 2004.
    Montgomery Point will ensure reliable navigation to and from the 
McClellan-Kerr Arkansas River Navigation System during periods of low 
water on the Mississippi. Thus, it will protect over $5 billion in 
public and private investments, some 50,000 jobs, world trade and 
growing military shipments that have resulted from the McClellan-Kerr.
    Completion of this $262 million project is near. We are very 
grateful that you, your associates, and the Congress have recognized 
the urgency of constructing Montgomery Point.
Advance Maintenance Dredging
    A $2,000,000 Congressional Add to the fiscal year 2004 O&M account 
for the McClellan-Kerr in Arkansas is needed for advance maintenance 
dredging to assure that the authorized depth of 9 feet is maintained. 
This funding is vitally important.
    We especially appreciate your help in the fiscal year 2003 budget 
by adding $1,000,000 to the O&M account for this procedure which is 
used to dredge in known problem areas prior to an event that is 
predicted to cause siltation above the authorized 9-foot channel depth.
    Dredging of the system is currently done after areas have silted in 
above the authorized channel depth causing light loading and delay 
problems for the navigation industry. Locations of needed dredging 
include the lower White River, at Pool 2, and the downstream approaches 
to Locks 6, 5, 4, and 3.
Backlog of Channel Maintenance
    A $5 million Congressional Add to the fiscal year 2004 O&M funding 
for the McClellan-Kerr will help repair bank stabilization and other 
components that have deteriorated over the past 3 decades and reduce 
the critical backlog of maintenance repairs essential to commercial 
navigation.
    Bank stabilization and other components have deteriorated over the 
past 3 decades and reducing the critical backlog of maintenance repairs 
is essential. Repairs are necessary to maintain channel alignment, 
provide full channel width, eliminate shoaling and solve sediment 
build-up problems that cause light loading and delay problems for the 
navigation industry.
    The O&M funding level has been stagnant for the past 10 years while 
cost and maintenance needs have continued to increase.
Arkansas River Navigation Study, Arkansas & Oklahoma
    A $430,000 Congressional Add is needed for a total budget of 
$1,500,000 for the important Arkansas River Navigation Study, AR & OK.
    While navigation is the primary purpose of the McClellan-Kerr 
System, navigation needs and flood control are closely related. Chronic 
high-water flows and channel restrictions result in decreased 
navigation traffic, as well as continued flooding in the vicinity of 
Fort Smith, Arkansas and reduced recreational use.
    This study addresses the Navigation System Operating Plan and 
navigable depths to improve navigation conditions on the river as well 
as the performance of flood control measures and the impacts of high/
low flows on environmental quality and recreation uses.
    In addition, taking into account the need to realize the total 
economic potential of the McClellan-Kerr Navigation System, WRDA 2000 
directed the Corps to ``expedite completion of the Arkansas River 
Navigation Study, including the feasibility of increasing the 
authorized channel depth from 9 feet to 12 feet.''
    Other projects are important to the environment, social and 
economic well-being of our region and Nation. We recognize the 
importance of continued construction of needed features to the 
McClellan-Kerr Arkansas River Navigation System and strongly recommend 
that you favorably consider the following in your deliberations:
  --Support continued funding for the construction, and Operation and 
        Maintenance of the McClellan-Kerr Arkansas River Navigation 
        System. Completion of Montgomery Point will eliminate up 95 
        percent of the need for dredging in the Lower White and bring 
        about substantial O&M savings for the Navigation System.
  --It is important that future budgets include funds for needed 
        construction and the backlog of major channel maintenance that 
        continues to grow. Repairs are necessary to maintain channel 
        alignment, provide full channel width, and eliminate shoaling. 
        This channel maintenance will further contribute to the 
        efficiency and economy of the system.
  --Continue construction authority for the McClellan-Kerr Arkansas 
        River Navigation Project until remaining channel stabilization 
        problems identified by the Little Rock District Corps of 
        Engineers have been resolved. It is vitally important that the 
        Corps continue engineering studies to develop a permanent 
        solution to the threat of cutoffs developing in the lower 
        reaches of the navigation system and for the Corps to construct 
        these measures under the existing construction authority.
    In conclusion, Mr. Chairman, please help prevent a crisis for the 
Arkansas River Navigation System and the multi-State region it serves 
by appropriating $35 million for use in fiscal year 2004 to complete 
construction for Montgomery Point Lock and Dam.
    The entire Arkansas River Navigation System is at risk and remains 
at risk until Montgomery Point is completed. Some $5 billion in Federal 
and private investments, thousands of jobs, world trade and growing 
military shipments for national security are endangered.
    We fully endorse the statement presented to you today by the 
Chairman of the Arkansas River Basin Interstate Committee. We 
appreciate the opportunity to provide testimony to your most important 
subcommittee and urge you to favorably consider these requests that are 
so important to the economic recovery of our region and Nation.
                                 kansas
           statement of gerald h. holman, chairman for kansas
    Mr. Chairman and members of the committee, I am Gerald H. Holman, 
Senior Vice President of the Wichita Area Chamber of Commerce, Wichita, 
Kansas and Chairman of the Kansas Interstate Committee for the Arkansas 
Basin Development Association (ABDA). I also serve as Chairman of ABDA.
    The Kansas ABDA representatives join with our colleagues from the 
States of Oklahoma, Arkansas and Colorado to form the multi-State 
Arkansas River Basin Interstate Committee. We fully endorse the summary 
statement of the Arkansas River Basin Interstate Committee.
    In addition to the important projects listed below, continued 
construction to completion of the Montgomery Point Lock and Dam Project 
is essential to maintain viable navigation for commerce on the 
McClellan-Kerr Navigation System. This inland waterway is vital to the 
economic health of our multi-State area. Likewise, your support is 
vital to maintain its future viability. Construction is more than 80 
percent complete and continued funding is needed. We state our 
unanimous support for the $35 million needed by the Corps of Engineers 
for fiscal year 2004 to maintain the most economical and cost efficient 
construction schedule.
    The critical water resources projects in the Kansas portion of the 
Arkansas River Basin are identified below. The projects are safety, 
environmental and conservation oriented and all have regional and/or 
multi-State impact. We are grateful for your leadership and your past 
commitment to our area.
    We ask for your continued support for these important Bureau of 
Reclamation projects on behalf of the Wichita/South Central Kansas 
area:
Equus Beds Aquifer Storage and Recovery Project
    This is the continuation of a Bureau of Reclamation project jointly 
endorsed by the City of Wichita, Groundwater Management District No. 2 
and the State of Kansas. This model technology has proven the 
feasibility of recharging a major groundwater aquifer supplying water 
to nearly 600,000 irrigation, municipal and industrial users. The 
demonstration project has successfully recharged more than 1 billion 
gallons of water from the Little Arkansas River. The project is 
essential to help protect the aquifer from on-going degradation caused 
by the migration of saline water.
    The State of Kansas supports this much-needed project in order to 
secure the quality of life and economic future for more than 20 percent 
of the State's population. The project is included within the Kansas 
Water Plan. All interested parties fully support the project as the 
needed cornerstone for the area agricultural economy and for the 
economy of the Wichita metropolitan area.
    The demonstration project has confirmed earlier engineering models 
that the full scale aquifer storage and recovery project is feasible 
and capable of meeting the increasing water resource needs of the area 
to the mid 21st century. Presently, the Equus Beds provide 
approximately half of the Wichita regional municipal water supply. The 
Equus Beds are also vital to the surrounding agricultural economy. 
Environmental protection of the aquifer, which this strategic project 
provides, has increasing importance to ensure quality water for the 
future since south central Kansas will rely to an even greater extent 
on the Equus Beds aquifer for water resources.
    The aquifer storage and recovery project is a vital component of 
Wichita's comprehensive and integrated water supply strategy. The full 
scale design concept for the aquifer storage and recovery project calls 
for a multi-year construction program. Phase One is estimated to cost 
$17.1 million. The total project involving the capture and recharge of 
more than 100 million gallons of water per day is estimated to cost 
$110 million over 10 years. This is substantially less costly, both 
environmentally and economically, when compared with reservoir 
construction or other alternatives.
    We are grateful for your previous cost share funding during the 
demonstration phase, as a compliment to funds provided by the City of 
Wichita. As we enter the construction phase, we request continued 
Congressional support:
  --By authorizing as a Federal project, the Aquifer Storage and 
        Recovery Project and directing the Bureau of Reclamation to 
        participate in its final design and construction to completion.
  --Through continued cost share funding of the full-scale Aquifer 
        Storage and Recovery Project in the minimum amount of 
        $1,500,000 for fiscal year 2004.
Cheney Reservoir
    The reservoir provides approximately half of Wichita's regional 
water supply. Two continuing environmental problems threaten the water 
quality and longevity of the reservoir. One is sedimentation from soil 
erosion and the other is non-point source pollution, particularly the 
amount of phosphates entering the reservoir resulting in offensive 
taste and odor problems. A partnership between farmers, ranchers and 
the City of Wichita has proven beneficial in implementing soil 
conservation practices and to better manage and therefore reduce and/or 
eliminate non-point source pollution. Lansat 7 imaging and digital 
elevation modeling have been employed to identify high priority areas. 
To date, over 2,000 environmental projects have been completed within 
the 543,000-acre watershed. Buffer strips are most important for the 
control of pollution from intermittent streams and also from livestock 
waste. This partnership must continue indefinitely to protect the 
reservoir and to extend the life of the Wichita regional water supply. 
The City of Wichita is providing funding for this critical, nationally 
acclaimed model nonpoint source pollution project. We request continued 
Federal funding in the amount of $125,000 for fiscal year 2004.
    Many of our agricultural communities have historically experienced 
major flood disasters, some of which have resulted in multi-State 
hardships involving portions of the State of Oklahoma. The flood of 
1998 emphasized again the need to rapidly move needed projects to 
completion. Major losses also took place in the Wichita metropolitan 
area. Projects in addition to local protection are also important.
    Our small communities lack the necessary funds and engineering 
expertise and Federal assistance is needed. This Committee has given 
its previous support to Kansas Corps of Engineers projects and we 
request your continued support for the following:
  --Arkansas City, Kansas Flood Protection.--Unfortunately, this 
        project was not completed prior to the flood of 1998. The flood 
        demonstrated again the critical need to protect the 
        environment, homes and businesses from catastrophic damages 
        from either Walnut River or Arkansas River flooding. When the 
        project is complete, damage in a multi-county area will be 
        eliminated and benefits to the State of Oklahoma just a few 
        miles south will also result. The Secretary of the Army was 
        authorized to construct the project in fiscal year 1997. The 
        project is slated for completion in fiscal year 2005. We 
        request your continued support in the amount of $2.6 million, 
        the level needed by the Corps of Engineers.
  --Walnut River Basin, Kansas Feasibility Study.--This basin including 
        the Whitewater and Little Walnut Rivers is located in south 
        central Kansas. The feasibility study will identify ecosystem 
        resources, evaluate the system qualities, determine past losses 
        and current needs, and evaluate potential restoration and 
        preservation measures. The non-Federal sponsor is the Kansas 
        Water Office who believes that environmental restoration is a 
        primary need in the basin. Environmental restoration features 
        may also stabilize and protect streambanks from erosion and 
        improve the water quality in the basin. The request for fiscal 
        year 2004 is $160,000, which is the Corps' capability.
  --John Redmond Reservoir Reallocation Study.--John Redmond Reservoir 
        remains a primary source of water supply for many small 
        communities in Kansas. It is suffering loss of capacity ahead 
        of its design rate due to excessive deposits within the 
        conservation pool. The flood pool remains above its design 
        capacity. Funding was provided in fiscal year 2001 to initiate 
        a study, which will ascertain the equitable distribution of 
        sediment storage between conservation and flood control 
        storages and also evaluate the environmental impact of the 
        appropriate reallocation. Additional funding of $75,000 is 
        needed in fiscal year 2004 to complete the study.
  --Grand Lake Feasibility Study.--A need exists to complete evaluation 
        of water resource problems in the Grand-Neosho River basin in 
        Kansas and Oklahoma to evaluate solutions to upstream flooding 
        problems associated with the adequacy of existing real estate 
        easements necessary for flood control operations of Grand Lake, 
        Oklahoma. A study authorized by the Water Resources Development 
        Act of 1996 was completed in September of 1998 and determined 
        that if the project were constructed based on current criteria, 
        additional easements would be required. Section 449 of WRDA 
        2000 directed the Secretary to evaluate backwater effects 
        specifically due to flood control operations on land around 
        Grand Lake. That study indicated that Federal actions have been 
        a significant cause of the backwater effects and according to 
        WRDA 2000, the feasibility study should be 100 percent 
        federally funded. A Feasibility study is necessary to determine 
        the most cost-effective solution to the real estate 
        inadequacies. Changes in the operations of the project or other 
        upstream changes could have a significant impact on flood 
        control, hydropower, and navigation operations in the Grand 
        (Neosho) River system and on the Arkansas River basin system, 
        as well. We request funding in the amount of $3 million in 
        fiscal year 2004 to fully fund Feasibility studies evaluating 
        solutions to upstream flooding associated with existing 
        easements necessary for flood control operations of Grand Lake.
  --Grand (Neosho) Basin Watershed Reconnaissance Study.--A need exists 
        for a basin-wide water resource planning effort in the Grand-
        Neosho River basin, apart from the issues associated with Grand 
        Lake, Oklahoma. The reconnaissance study would focus on the 
        evaluation of institutional measures needed to improve the 
        quality of the aquatic and terrestrial habitat in the basin and 
        to assist communities, landowners, and other interests in 
        southeastern Kansas and northeastern Oklahoma in the 
        development of non-structural measures to reduce flood damages. 
        We request funding in the amount of $100,000 in fiscal year 
        2004.
  --Continuing Authorities Programs.--We support funding of needed 
        programs including the Small Flood Control Projects Program 
        (Section 205 of the 1948 Flood Control Act, as amended) as well 
        as the Emergency Streambank Stabilization Program (Section 14 
        of the 1946 Flood Control Act, as amended). Smaller communities 
        in Kansas (Iola, Liberal, McPherson, Augusta, Parsons, Altoona, 
        Kinsley, Newton, Arkansas City, Coffeyville and Medicine Lodge) 
        have previously requested assistance from the Corps of 
        Engineers under these programs. The City of Wichita is also 
        requesting funding through this program to address flooding 
        problems. We urge you to support these programs to the $50 
        million programmatic limit for the Small Flood Control Projects 
        Program and $15 million for the Emergency Streambank 
        Stabilization Program.
      The Planning Assistance to States Program under section 22 of the 
        Water Resources Development Act of 1974, as amended, provides 
        Federal funding to assist the States in water resource 
        planning. The State of Kansas is grateful for previous funding 
        under this program which has assisted small Kansas communities 
        in cost sharing needed resource planning as called for and 
        approved in the Kansas State Water Plan. We request continued 
        funding of this program at the level which will allow the State 
        of Kansas to receive the $500,000 limit.
      Also, Ecosystem Restoration Programs are relatively new programs 
        which offer the Corps of Engineers a unique opportunity to work 
        to restore valuable habitat, wetlands, and other important 
        environmental features which previously could not be 
        considered. Preliminary Restoration Plan studies are underway 
        at Newton, Garden City and Neosho County. We urge you to 
        support section 1135 of the Water Resources Development Act of 
        1986 and Section 206 of the Water Resources Development Act of 
        1996 at their $25 million programmatic limits.
    Finally, we are very grateful that both the Corps of Engineers and 
Bureau of Reclamation have the expertise needed for the development and 
protection of water resources infrastructure. It is essential to have 
the integrity and continuity these agencies provide on major public 
projects. Your continued support of these vital agencies, including 
funding, will be appreciated. Our infrastructure must be maintained and 
where needed, enhanced for the future.
    Mr. Chairman and Members of these Committees, we thank you for the 
dedicated manner in which you have dealt with the Water Resources 
Programs and for allowing us to present our funding requests.
    Thank you very much.
                                oklahoma
       statement of james m. hewgley, jr., chairman for oklahoma
    Mr. Chairman and members of the committee, I am James M. Hewgley, 
Jr., Oklahoma Chairman of the Arkansas River Basin Interstate 
Committee, from Tulsa, Oklahoma.
    It is my privilege to present this statement on behalf of the 
Oklahoma Members of our committee in support of adequate funding for 
water resource development projects in our area of the Arkansas River 
Basin. Other members of the Committee are: Mr. Ted Coombes, Tulsa; Mr. 
A. Earnest Gilder, Muskogee; Mr. Terry McDonald, Tulsa; and Mr. Lew 
Meibergen, Enid.
    Together with representatives of the other Arkansas River Basin 
States, we fully endorse the statement presented to you by the Chairman 
of the Arkansas River Basin Interstate Committee. We appreciate the 
opportunity to present our views of the special needs of our States 
concerning several studies and projects.
Montgomery Point Lock and Dam--Montgomery Point, Arkansas
    As we have testified for several years, we are once again 
requesting adequate appropriations to continue construction of this 
most important and much needed project. This project must be kept on 
the current schedule to insure the shippers on the system will not be 
impacted by a low water event after that date. Lower funding will only 
stretch out the completion of the project and add to the final cost in 
real dollars and subject the shippers to possible losses due to low 
water and restrictions on, or halting, navigation.
    We respectfully request the Congress to appropriate $35 million in 
the fiscal year 2004 budget cycle to continue construction on the 
current project schedule. With the needed funding for fiscal year 2004 
the project can be finished by July of 2004. This request coincides 
with the President's recommendation that ``funding go toward ongoing 
projects, particularly those nearing completion.'' This will help 
insure the project is completed and in operation in a timely manner at 
the lowest possible cost.
    Mr. Chairman, it is my pleasure to point out to this distinguished 
Committee that this navigation system has brought low cost water 
transportation to Oklahoma, Arkansas and the surrounding States. There 
has been over $5.5 billion invested in the construction and development 
of the McClellan-Kerr Arkansas River Navigation system by the Federal 
Government ($1.3 billion) and the public and private ($4.2 billion+) 
sector, resulting in the creation of over 50,000 jobs in this partnered 
project.
Maintenance of the Navigation System
    We request additional funding in the amount of $2 million, over and 
above normal funding, for deferred channel maintenance. These funds 
would be used for such things as repair of bank stabilization work, 
needed advance maintenance dredging, and other repairs needed on the 
system's components that have deteriorated over the past 3 decades.
    In addition to the systemwide needed maintenance items mentioned 
above, the budget for the Corps of Engineers for the past several years 
has been insufficient to allow proper maintenance of the McClellan-Kerr 
Arkansas River Navigation System--Oklahoma portion. As a result, the 
backlog of maintenance items has continued to increase. If these 
important maintenance issues are not addressed soon, the reliability of 
the system will be jeopardized. The portion of the system in Oklahoma 
alone is responsible for returning $2.6 billion in annual benefits to 
the regional economy. We therefore request that $2.8 million be added 
to the budget to accomplish the critical infrastructure maintenance 
items following: Repair weir at L&D 14; repair tainter gates at L&D 17; 
upgrade gate motor controls at L&D 14; dewater, inspect, repair Locks 
14, 15, & 16; repair tainter gates at L&D 18; L&D 14-18--remote control 
tainter gates; R.S. Kerr--repair miter gates; R.S. Kerr--repair Lock 15 
support cell; replace pole lighting--Locks 14--18; replace tainter gate 
limit switches--R.S. Kerr. These are the very worst of the needed 
repairs of the many awaiting proper preventive maintenance and repair.
Tow Haulage Equipment--Oklahoma
    We also request funding of $2.5 million to initiate the 
installation of tow haulage equipment on the locks located along the 
Arkansas River Portion of the McClellan-Kerr Arkansas River Navigation 
System. Total cost for these three locks is $4.7 million. This project 
will involve installation of tow haulage equipment on W.D. Mayo Lock 
and Dam #14, Robert S. Kerr Lock and Dam #15, and Webbers Falls Lock 
and Dam #16, on the Oklahoma portion of the waterway. The tow haulage 
equipment is needed to make transportation of barges more efficient and 
economical by allowing less time for tows to pass through the various 
locks.
Arkansas River System Operations Feasibility Study--Arkansas and 
        Oklahoma
    We are especially pleased that the budget includes funds to 
continue the Arkansas River Navigation Study, a feasibility study which 
is examining opportunities to optimize the Arkansas River system. The 
system of multipurpose lakes in Arkansas and Oklahoma on the Arkansas 
River and its tributaries supports the McClellan-Kerr Arkansas River 
Navigation System, which was opened for navigation to the Port of 
Catoosa near Tulsa, Oklahoma, in 1970. The navigation system consists 
of 445 miles of waterway that passes through the States of Oklahoma and 
Arkansas. This study would optimize the reservoirs in Oklahoma and 
Arkansas that provide flows into the river, with a view toward 
improving the number of days per year that the navigation system would 
accommodate tows. This study could have significant impact on the 
economic development opportunities in the States of Oklahoma, Arkansas 
and the surrounding States. Due to the critical need for this study, we 
request funding of $1.2 million, which is greater than shown in the 
budget, to continue feasibility studies in fiscal year 2004.
Miami, Oklahoma and Vicinity Feasibility Study
    We request funding of $231,000 to complete the reconnaissance phase 
for the vicinity in Ottawa County including and surrounding Miami, 
Oklahoma in the Grand (Neosho) Basin. Water resource planning-related 
concerns include chronic flooding, ecosystem impairment, poor water 
quality, subsidence, chat piles, mine shafts, health effects, and 
Native American issues. The State of Oklahoma's desire is to address 
the watershed issues in a holistic fashion and restore the watershed to 
acceptable levels. Study alternatives could include structural and non-
structural flood damage measures, creation of riverine corridors for 
habitat and flood storage, development of wetlands to improve aquatic 
habitat and other measures to enhance the quality and availability of 
habitat and reduce flood damages.
    We are pleased that the President's budget includes funds to 
advance work for Flood Control and other water resource needs in 
Oklahoma. Of special interest to our committee is funding for the 
Skiatook and Tenkiller Ferry Lakes Dam Safety Assurance Projects in 
Oklahoma and that construction funding has been provided for those 
important projects. We would like to see Tenkiller funded at the $6.0 
million level, which is the Corps' capability for fiscal year 2004. We 
request that funding in the amount of $1.2 million be provided to 
initiate the Canton Lake Dam safety project. We are also pleased that 
funding is included to continue reconnaissance studies for the Oologah 
Watershed, the Wister Watershed and the Miami, OK and Vicinity region. 
We are also pleased to see continued funding for the SE Oklahoma Water 
Resource Study, and the Miami, OK and Vicinity region.
Oologah Lake Watershed Feasibility Study
    We request funding of $259,000 for ongoing feasibility studies at 
Oologah Lake and in the upstream watershed. The lake is an important 
water supply source for the city of Tulsa and protection of the lake 
and maintaining and enhancing the quality of the water is important for 
the economic development of the city. Recent concerns have been 
expressed by the City of Tulsa and others regarding potential water 
quality issues that impact water users, as well as important aquatic 
and terrestrial habitat. Concerns are related to sediment loading and 
turbidity, oilfield-related contaminants and nutrient loading.
Illinois River Watershed Reconnaissance Study
    We request funding in the amount of $100,000 to conduct a 
reconnaissance study of the water resource problems of the Illinois 
River Basin. The Illinois River watershed is experiencing continued 
water resource development needs and is the focus of ongoing Corps and 
other agency investigations. However, additional flows are sought 
downstream of the Lake Tenkiller Dam and there are increasing watershed 
influences upstream of Lake Tenkiller which impact on the quality of 
water available for fish and wildlife, municipal and industrial water 
supply users, and recreation users of the Lake Tenkiller and Illinois 
River waters.
Grand (Neosho) Basin Reconnaissance Study
    We request funding in the amount of $100,000 to conduct a 
reconnaissance study of the water resource problems in the Grand 
(Neosho) Basin in Oklahoma and Kansas. There is a need for a basin-wide 
water resource planning effort in the Grand-Neosho River basin, apart 
from the issues associated with Grand Lake, Oklahoma. The 
reconnaissance study would focus on the evaluation of institutional 
measures which could assist communities, landowners, and other 
interests in northeastern Oklahoma and southeastern Kansas in the 
development of non-structural measures to reduce flood damages in the 
basin.
Grand Lake Feasibility Study
    A need exists to evaluate water resource problems in the Grand-
Neosho River basin in Kansas and Oklahoma to evaluate solutions to 
upstream flooding problems associated with the adequacy of existing 
real estate easements necessary for flood control operations of Grand 
Lake, Oklahoma. A study authorized by the Water Resources Development 
Act of 1996 was completed in September of 1998 and determined that if 
the project were constructed based on current criteria, additional 
easements would be required. Section 449 of WRDA 2000 directed the 
Secretary to evaluate backwater effects specifically due to flood 
control operations on land around Grand Lake. That study indicated that 
Federal actions have been a significant cause of the backwater effects 
and according to WRDA 2000, the feasibility study should be 100 percent 
federally funded. A Feasibility study is necessary to determine the 
most cost-effective solution to the real estate inadequacies. Changes 
in the operations of the project or other upstream changes could have a 
significant impact on flood control, hydropower and navigation 
operations in the Grand (Neosho) River system and on the Arkansas River 
Basin system, as well. We urge you to provide $3 million to fully fund 
Feasibility studies for this important project in fiscal year 2003 and 
to direct the Corps of Engineers to execute the study at full Federal 
expense.
Wister Lake Watershed Feasibility Study
    We request funding of $200,000 to continue feasibility studies of 
the Wister Lake watershed. Wister Lake is located on the Poteau River 
near Wister, Oklahoma. The lake was completed in 1949 for flood 
control, water supply, water conservation and sediment control. Wister 
Lake is the primary water resource development project in the Poteau 
River Basin. It provides substantial flood control, municipal and 
industrial water supply, and recreation benefits for residents of 
LeFlore County, Oklahoma, and the southeastern Oklahoma region. 
Ecosystem degradation in the lake and in the basin, in general, is 
occurring primarily as a result of non-point source pollution from 
poultry operations, forestry practices, abandoned strip coal mines, and 
natural gas exploration operations. The study will identify potential 
measures to restore the ecosystem in the basin and will evaluate other 
water resource problems and potential solutions.
    We also support funding for the Continuing Authorities Program, 
including the Small Flood Control Projects Program, (Section 205 of the 
1948 Flood Control Act, as amended) and the Emergency Streambank 
Stabilization Program, (Section 14 of the 1946 Flood Control Act, as 
amended). We want to express our appreciation for your continued 
support of those programs.
Section 205
    Although the Small Flood Control Projects Program addresses flood 
problems which generally impact smaller communities and rural areas and 
would appear to benefit only those communities, the impact of those 
projects on economic development crosses county, regional, and 
sometimes State boundaries. The communities served by the program 
frequently do not have the funds or engineering expertise necessary to 
provide adequate flood damage reduction measures for their citizens. 
Continued flooding can have a devastating impact on community 
development and regional economic stability. The program is extremely 
beneficial and has been recognized nationwide as a vital part of 
community development, so much so in fact, that there is currently a 
backlog of requests from communities who have requested assistance 
under this program. There is limited funding available for these 
projects and we urge this program be fully funded to the programmatic 
limit of $50 million.
Section 14
    Likewise, the Emergency Streambank Stabilization Program provides 
quick response engineering design and construction to protect important 
local utilities, roads and other public facilities in smaller urban and 
rural settings from damage due to streambank erosion. The protection 
afforded by this program helps ensure that important roads, bridges, 
utilities and other public structures remain safe and useful. By 
providing small, affordable and relatively quickly constructed 
projects, these two programs enhance the lives of many by providing 
safe and stable living environments. There is also a backlog of 
requests under this program. Funding is also limited for these projects 
and we urge this program be fully funded to the programmatic limit of 
$15 million.
    We also request your continued support of the Flood Plain 
Management Services Program (Section 206 of the 1960 Flood Control Act) 
which authorizes the Corps of Engineers to use its technical expertise 
to provide guidance in flood plain management matters to all private, 
local, State and Federal entities. The objective of the program is to 
support comprehensive flood plain management planning. The program is 
one of the most beneficial programs available for reducing flood losses 
and provides assistance to officials from cities, counties, States and 
Indian Tribes to ensure that new facilities are not built in areas 
prone to floods. Assistance includes flood warning, flood proofing, and 
other flood damage reduction measures, and critical flood plain 
information is provided on a cost-reimbursable basis to home owners, 
mortgage companies, Realtors and others for use in flood plain 
awareness and flood insurance requirements.
    We also request your support of the Planning Assistance to States 
Program (Section 22 of the 1974 Water Resources Development Act) which 
authorizes the Corps of Engineers to use its technical expertise in 
water and related land resource management to help States and Indian 
Tribes solve their water resource problems. The program is used by many 
States to support their State Water Plans. As natural resources 
diminish, the need to manage those resources becomes more urgent. We 
urge your continued support of this program as it supports States and 
Native American Tribes in developing resource management plans which 
will benefit citizens for years to come. The program is very valuable 
and effective, matching Federal and non-Federal funds to provide cost-
effective engineering expertise and support to assist communities, 
States and tribes in the development of plans for the management, 
optimization and preservation of basin, watershed and ecosystem 
resources. The Water Resources Development Act of 1996 increased the 
annual program limit from $6 million to $10 million and we urge this 
program be fully funded to the programmatic limit of $10 million.
    On a related matter, we would share with you our concern that the 
administration has not requested, nor has the Congress appropriated, 
sufficient funds to meet the increasing infrastructure needs of the 
inland waterways of our Nation. The administration's requests will not 
keep projects moving at the optimum level to complete them on a cost-
effective basis. Moving the completion dates out is an unacceptable 
exercise since 50 percent of the funds come from the Waterways Trust 
Fund. This will not only waste Federal funds but, those from the trust 
fund as well.
    As the Waterways Trust Fund is now defined, it is to be used for 
the Waterway Industries' cost share of new construction and major rehab 
of the inland waterway navigation system, so stated by law in the 1986 
WRDA. The Administration's request to redirect some of those funds to 
operation and maintenance is in conflict with the agreement between the 
Congress and the Industry. We urge the Congress to protect and use 
these funds for their intended purpose and to honor the agreement 
between the Federal Government and the Waterway Industry.
    We strongly urge the Appropriations Committee to raise the Corps of 
Engineers' budget to $5 billion to help get delayed construction 
projects back on schedule and to reduce the deferred maintenance 
backlog which is out of control. This will help the Corps of Engineers 
meet the obligations of the Federal Government to people of this great 
country.
    Concerning another related matter, we have deep concerns about the 
attempt to re-authorize the Endangered Species Act without significant 
beneficial reforms. If a bill is passed through without reforms, it 
will be devastating to industry and the country as a whole. We strongly 
urge you to take a hard look at any bill concerning this re-
authorization and insure that it contains reasonable and meaningful 
reforms. We urge the re-authorization of the act with reforms at the 
earliest possible time.
    Mr. Chairman, we appreciate this opportunity to present our view on 
these subjects.
                                 ______
                                 
Prepared Statement of the Salt River Pima-Maricopa Indian Community and 
                       the City of Mesa, Arizona
    Chairman Domenici, Ranking Member Reid, and distinguished members 
of the subcommittee, thank you for allowing us to testify on behalf of 
the Salt River Pima-Maricopa Indian Community (SRPMIC) and the City of 
Mesa in support of a fiscal year 2004 appropriation of $870,000 for the 
Va Shly'ay Akimel, Arizona, project of the U.S. Army Corps of 
Engineers. This project, intended to restore a degraded stretch of the 
Salt River in central Arizona, is critically important to the tribe, 
the City, and the region.
    Mr. Chairman, because of this subcommittee's efforts, $800,000 was 
appropriated for the feasibility phase of the Va Shly'ay Akimel project 
in fiscal year 2003. We are extremely grateful for the subcommittee's 
ongoing support of the project. We respectfully request your continued 
support for this project in fiscal year 2004 with an appropriation of 
$870,000, the amount required to complete the feasibility study.
    Like many projects of the U.S. Army Corps of Engineers, Va Shly'ay 
is drastically underfunded in the President's budget. Although the 
budget does include $400,000 for the project in fiscal year 2004, the 
Corps has a capability of $870,000 to complete the feasibility study in 
the coming year. We hope that the subcommittee will provide this level 
of funding in order to contain costs and maintain an optimal project 
schedule.
    SRPMC and the City of Mesa fully recognize the importance of 
restoring the Salt River's environmental integrity. As a consequence, 
the tribe and City--the non-Federal sponsors of the project--remain 
committed to discharging the requisite cost-sharing obligations 
associated with the project. We would also note that, as far as we 
know, this project is the only one in the Nation featuring a joint 
cost-share agreement between an Indian tribe and a local community. 
This makes it a unique project of the Corps of Engineers. We have every 
reason to believe that this example of municipal-tribal cooperation 
could serve as a model for future joint projects of tribal communities 
and local governments.
    In conclusion, it is critically important that this project remain 
on an optimal schedule. The Corps has expressed a maximum capability of 
$870,000 to complete the feasibility study in fiscal year 2004. On 
behalf of the SRPMIC and the City of Mesa, we ask that you fully fund 
the Va Shly'ay Akimel project at $870,000 in fiscal year 2004.
                                 ______
                                 
         Prepared Statement of the National Mining Association
    The National Mining Association (NMA) membership includes companies 
engaged in the production of coal, metallic ores, nonmetallic minerals, 
and in manufacturing mining machinery and equipment. The transportation 
of coal and minerals to domestic and international markets utilizes our 
Nation's inland waterways system, Great Lakes, coastal shipping lanes 
and harbors and shipping channels at deep draft inland and coastal 
ports.
    NMA believes that a strong transportation network comprised of our 
highways, rails, inland waterways and ports is critical to the economic 
growth, security and competitiveness of the United States. According to 
the U.S. Army Corps of Engineers Waterborne Commerce Statistics of 
2001, approximately 2.4 billion tons of commerce moved in the U.S. 
marine system (inland waterways, Great Lakes, coastal and deep-draft 
ports). Of that total, approximately 1.04 billion tons were domestic 
movements with coal comprising approximately 223 million tons or 21 
percent of all commodities. Of the 223 million tons of coal, 170 
million tons were carried on the inland and intracoastal waterways, 
18.5 million tons on the Great Lakes and the remainder moved in 
coastwise and intraport shipments. On the Ohio River system and its 
tributaries, coal movements totaled 157 million tons or 56 percent of 
all the traffic. Coal moved to power plants along the system and to 
power plants in 8 States outside of the basin. In addition, 55 million 
tons of coal was exported in 2001.
    Iron ore, phosphate rock, and other minerals also utilize the 
inland waterways system. In 2001, almost 66 million tons of iron ore 
moved on the system. Of the total, 48.4 million tons moved domestically 
with 44.8 million tons moved on the Great Lakes and 3.5 million tons on 
the inland system. More than 1.7 million tons of phosphate rock moved 
on the waterways system through coastwise movements.
    NMA strongly opposes the administration's proposals in the fiscal 
year 2004 budget to expand the responsibilities of the Inland Waterways 
Trust Fund (IWTF) and the Harbor Maintenance Trust Fund (HMTF). These 
trust funds were established after a great deal of public debate and 
study as part of the Water Resources Development Act of 1986. The 
unique partnership for sharing construction, rehabilitation and 
maintenance costs between the public and private sectors has built a 
marine transportation system that is world class.
    In addition, NMA is very concerned that the proposed Fiscal Year 
2004 Budget for the Corps of Engineers does not provide sufficient 
funding to keep critical navigation projects on schedule, allow for the 
start of new projects, and address the maintenance backlog for existing 
navigation projects. As the system is asked to do more, it is critical 
that all parties are committed and a critical demonstration of the 
commitment is through appropriations levels that address the current 
challenges facing the system and plan for future demands.
administration's proposals to expand expenditures from the iwtf and the 
                                  hmtf
    Users of the inland waterways system pay a fuel tax of 20 cents per 
gallon, which has historically generated approximately $100 million 
annually for the IWTF. Also, an additional fuel tax of 4.3 cents is 
paid to the General Treasury for deficit reduction. These monies in the 
IWTF are used to pay 50 percent of the annual costs associated with new 
construction and major rehabilitation of locks and dams on the fuel-
taxed inland waterways. The remaining 50 percent is matched by money 
from the Federal Government. Instead of being used immediately as 
originally intended for inland waterways projects, the IWTF has a 
surplus of approximately $394 million. In reality, there is no surplus 
because these funds, as well as the revenue generated by the 20-cents-
per gallon fuel tax for the next 8 years, are committed to complete six 
of the priority and congressionally-approved projects currently under 
construction.
    Without existing authorization, the administration's fiscal year 
2004 budget proposes to use the surplus and future trust fund revenues 
to finance 25-50 percent of the costs associated with operations and 
maintenance in addition to current expenditures for new construction 
and maintenance. The proposal is for IWTF to provide $146 million for 
operations and maintenance in addition to the $110 million for IWTF 
projects.
    It is estimated that under this proposal the IWTF will be out of 
funds in 3 years. The real effect of the administration's proposal is 
an increase in user taxes for the transporters. It is estimated that 
the diesel tax would have to be increased from its current 20 cents per 
gallon to 53.5 cents per gallon--a stunning 168 percent increase. These 
increases would be passed along as additional transportation costs and 
reflected in the cost of coal and other minerals shipped on the inland 
waterways systems. In 2001, more than 293 million tons of coal moved 
domestically or to international markets. Consumers would see cost 
increases for electricity generated by coal and for products such as 
steel that use coal as a raw material. The already dismal coal exports 
would be further disadvantaged in the international marketplace.
    Barge companies and private sector companies, such as coal and 
mineral producers, are not the only beneficiaries of a well-maintained 
inland waterways system. However, they would be the only beneficiaries 
paying for operations and maintenance of the system. The system also 
provides benefits related to national security, water supply, flood 
control, hydropower, and recreation. The Federal Government, up until 
this time, has recognized the multiple benefits and has assumed 
responsibility for operations and maintenance. During consideration of 
the Water Resources Act of 1986, Congress debated this issue and the 
current system was the outcome. And in 1996, a proposal to increase the 
fuel tax by $1.00 per gallon was rejected by Congress.
    The administration's proposal related to the HMTF would require 
that the Federal share of deep-draft navigation channel construction 
costs be allocated from the trust fund rather than the Federal 
Government as currently mandated. Again, authorization does not exist 
for this proposal. Investment in the Nation's ports and harbors is a 
local and Federal partnership. Local authorities invest in marine 
terminal capacity and efficiency, dredging of berths and approach 
channels and cost sharing new construction dredging projects to widen 
or deepen navigation channels. Ports are expected to spend 
approximately $1.9 billion over the next 5 years on capital 
expenditures. Currently, the HMTF covers 100 percent of all operations 
and maintenance costs associated with maintaining our Nation's harbors. 
The funds for the HMTF come from a tax on the value of cargo imported 
into the United States or moved coastwise.
    The Federal Government invests only in navigation projects that 
return national benefits. The administration's proposal relieves the 
Federal taxpayer, who is the ultimate beneficiary of these projects 
from any responsibility to pay for the modernization of our Nation's 
deep-draft navigation system. In addition, the proposal completely 
abdicates the Federal responsibility for national security. The U.S. 
Coast Guard, Navy and other units of the Armed Forces depend on well-
maintained and deepened harbors as bases of operation. At this time, 
more than any other in recent history, the national security 
implications are very clear. Furthermore, with the administration's 
proposal for HMTF covering 100 percent of costs related to operations 
and maintenance as well as the Federal share for new construction 
projects, any Federal responsibility or role related to our Nation's 
ports and harbors is abdicated.
  general recommendations for fiscal year 2004 appropriations for the 
              army corps of engineers civil works program
    NMA reviewed the proposed fiscal year 2004 Appropriations for the 
Army Corps of Engineers and the Civil Works Program and has the 
following general recommendations.
  --A minimum of $5 billion should be appropriated in fiscal year 2004 
        for the Civil Works Program. This level balances the need to 
        address the significant project backlog and the capability of 
        the Corps with our Nation's need at this time for homeland 
        security and national defense.
  --A level of $150 million should be withdrawn from the Inland 
        Waterways Trust Fund to be matched by an equal appropriation 
        from the general fund for the construction and major 
        rehabilitation of locks and dams on the inland waterway system. 
        By maintaining this level of appropriations for the next 10 
        years, the surplus in the Trust Fund can be reduced to more 
        appropriate levels. Timely completion of these required 
        navigation projects would accelerate the national economic 
        benefits from the projects, minimize cost increases and ensure 
        a viable and reliable national waterways system.
  --The fiscal year 2004 appropriations for the Corps' General 
        Investigations account should be increased to $154.4 million, 
        the same level as appropriated in fiscal year 2002. The 
        proposed fiscal year 2004 level of $100 million will not permit 
        the Corps to undertake any new studies. These studies are 
        critical to ascertaining and developing future projects that 
        will be needed to maintain and improve our system. It takes 
        time to complete these projects and while there are issues 
        related to new construction starts, projects should be in the 
        pipeline and ready should funds be available.
  --The fiscal year 2004 proposed funding in the amount of $1.939 
        billion for the Corps' Operations and Maintenance functions 
        should be increased. At the end of fiscal year 2003, it was 
        estimated that critical maintenance backlog was $884 million. 
        Of the total, $534 million is navigation's share with $364 for 
        inland waterways. Currently, 53 percent of the locks and dams 
        operated by the U.S. Army Corps of Engineers are 50 years or 
        more. With the constraints related to funds for new 
        construction and rehabilitation, it is imperative that existing 
        locks and dams are maintained. Delaying necessary maintenance 
        impacts the ability to move commerce efficiently, exasperates 
        further deterioration and accelerates the need for major 
        rehabilitation and possibly at higher costs than necessary. 
        Further comments and specific project recommendations are 
        outlined below.
                   budget proposals supported by nma
    NMA strongly supports the administration's fiscal year 2003 budget 
proposal to increase funding for two priority projects: the Olmsted 
Locks and Dam on the Ohio River (between Illinois and Kentucky) and the 
Marmet Locks and Dam on the Kanawha River in West Virginia. The 
proposed fiscal year 2004 funding level for Olmsted of $73 million, 
which is the efficient funding level for the project, illustrates the 
approach that should be taken for other priority projects as well. This 
level will reduce any further construction delays resulting in delayed 
economic benefits for the country. While Marmet is not at the efficient 
funding level, the appropriations level is significantly more than 
fiscal year 2003 and is recognition of the importance of the project.
    Following the testimony is a list of projects that NMA supports for 
additional appropriations to permit efficient funding schedules. By 
appropriating funds at the level to permit efficient funding schedules, 
the backlogs will be reduced and the Nation will be able to realize the 
economic benefits that were projected when these projects were 
authorized. The list also contains recommendations for additional funds 
for preconstruction, engineering and design and surveys.
                                 ports
    Our Nation's ports and harbors provide the critical link in our 
marine transportation system that provide U.S. shippers, both importers 
and exporters, with options that maximize their ability to compete and 
remain competitive in a global marketplace. U.S. deep-draft commercial 
ports handle over 95 percent of the volume and 75 percent of the value 
of cargo moving in and out of the United States. For the U.S. mining 
industry, coal, iron ore, phosphate, and other minerals move to export 
out of U.S. ports. In addition, minerals critical to the United States 
are imported through our ports. Unfortunately, many of these minerals 
could be produced in the United States but current policies are making 
it increasingly difficult for U.S. mineral companies to remain in the 
country. By providing the United States with much needed minerals from 
domestic sources, our reliance on imports would be reduced and equally 
important new jobs would be created contributing to the country's 
economic strength.
    The proposed fiscal year 2004 budget proposes only $212 million, 
which represents less than half of the $430 million necessary to fund 
ongoing and new projects for deep-draft harbors. As with inland 
waterways projects, failure to maintain optimal schedules increase 
costs and delay project benefits.
                               conclusion
    NMA strongly opposes the administration's proposals to expand the 
IWTF to cover 25-50 percent of operation and maintenance costs and the 
expansion of the HMTF to cover deep-draft construction costs. In 
addition, we are concerned that the administration continues to propose 
funding levels for our inland waterways system that will continue to 
have very negative impacts on the system. As a country we cannot afford 
to neglect the continued improvement and maintenance of our Federal 
navigation system. Failure to continue our investment and commitment to 
all aspects of our marine system will have serious long-term 
consequences for our Nation's economic health, safety and security.
  nma's fiscal year 2004 appropriations request for inland waterways 
                                projects

         FISCAL YEAR 2004 APPROPRIATIONS LEVELS SUPPORTED BY NMA
                              [In millions]
------------------------------------------------------------------------
                                           Fiscal Year      Efficient
                                          2004 Request    Funding Level
------------------------------------------------------------------------
Olmsted Lock and Dam...................         $73                $73
Greenup Lock and Dam...................           2.895              3
Ohio River Mainstem Study..............           1.35               1.5
------------------------------------------------------------------------

 fiscal year 2004 project appropriation levels needing additional funds
Construction and Rehabilitation
            McAlpine Locks Replacement Project--Fiscal Year 2004 
                    Request: $26.1 million, Efficient Funding Level: 
                    $70 million
    Located in downtown Louisville, Kentucky and near Jefferson, 
Indiana, the project provides for a new 1,200 lock that will replace 
an inactive 56360 lock and a 110600 auxiliary lock. According to 
the U.S. Army Corps of Engineers Waterborne Commerce Statistics for 
2001, more than 55 million tons of commodities valued at nearly $11.7 
billion were shipped through the locks. Coal was the leading commodity, 
comprising 37 percent of all shipments. Of the 20 million tons of coal 
moving through McAlpine in 2001, 13 million tons went to 30 power 
plants in 8 States. Kentucky received the most tonnage with 12.6 
million tons valued at $1.6 billion and coal was the top commodity 
received in Kentucky. The total project cost is $278 million. The 
project is 6 years behind schedule with a current loss of $245 million 
in benefits.
            Locks and Dams 2, 3, and 4--Fiscal Year 2004 Request: $35 
                    million, Efficient Funding Level: $61 million
    Located on the Monongahela River near Pittsburgh, Pennsylvania this 
project replaces some of the oldest structures (some parts are more 
than 100 years old) operating in the inland system. The extreme 
structural deterioration of Dam 2 and Locks 3 and Dam 3 are of major 
concern. According to the U.S. Army Corps of Engineers Waterborne 
Commerce Statistics for 2001, almost 22.2 million tons of commodities 
valued at $1.7 billion were shipped through any or all of the locks. 
Coal comprised 86 percent of the tonnage moving through the locks. Of 
the 19.2 million tons of coal moving through the locks, more than 7.2 
million tons went to 23 power plants in 7 States. The value of the coal 
was almost $1.6 billion. Pennsylvania received and shipped the most 
tonnage through the locks with coal the No. 1 commodity. Construction 
began on the $750 million project in 1994 and is scheduled for 
completion in 2010. The project is 6 years behind schedule with a 
current loss of $134.6 million in benefits.
            Marmet Locks and Dams--Fiscal Year 2003 Request: $52.154 
                    million, Efficient Funding Level: $69.2 million
    Located on the Kanawha River near Belle, West Virginia this project 
includes the construction of an additional 110800 lock landward of 
the existing smaller dams, which would be converted to auxiliary 
status. According to the U.S. Army Corps of Engineers Waterborne 
Commerce Statistic for 2001, 17.1 million tons of commodities valued at 
$802 million were shipped through the locks. Coal shipments comprised 
95 percent of all shipments with 16.1 million tons moving through 
Marmet. West Virginia shipped the most tonnage with 16.4 million tons 
valued at $665 million. Ohio received the most tonnage with 6.4 million 
tons valued at $245 million. For both States, coal was the No. 1 
commodity shipped. The project cost is $313 million. Originally 
scheduled to be completed in 2007, it will not be completed until 2010 
with a current loss of benefits of almost $118 million.
            Kentucky Lock--Fiscal Year 2004 Request: $24.8 million, 
                    Efficient Funding Level: $53 million
    Located on the Tennessee River near Grand Rivers, Tennessee this 
project includes the addition of a 1101,200 lock and the relocation 
of an existing railroad, highway and powerhouse access road. According 
to the U.S. Army Corps of Engineers Waterborne Commerce Statistics for 
2001, almost 35 million tons of commodities valued at $6.2 billion 
moved through Kentucky Lock. Coal was No. 1 commodity with 12.6 million 
tons or 36 percent of all shipments. The value was almost $500 million. 
Of the total coal shipments nearly 10 million tons moved to 9 power 
plants. Construction began on this project in 1999 and the total cost 
of $533 million. The project is now scheduled to be completed in 2010 
(originally 2008) with a current loss of $75 million in benefits.
Preconstruction Engineering and Design
            J.T. Myers Locks and Dam--Fiscal Year 2004 Request: $0, 
                    Efficient Funding Level: $2 million
    The John T. Myers Locks and Dam located on the Ohio River about 
3\1/2\ miles downstream from Uniontown, KY. The John T. Myers and 
Greenup Locks Improvements Interim Feasibility Report, a product Ohio 
River Mainstem Study, recommends a 600 extension of the auxiliary 
chambers at both locations along the Ohio River. This project was 
authorized in the Water Resources Development Act of 2000. The expected 
cost is $225 million with a benefit/cost ratio of 1.8 to 1. According 
to the U.S. Army Corps of Engineers Waterbourne Commerce Statistics for 
2001, over 75 million tons of commodities were shipped through the 
project with a total value of $13.8 billion. Coal comprised almost 33 
million tons or 44 percent of all shipments. Most of the coal went to 
31 power plants in 8 States. Louisiana shipped the most commodities 
with iron and steel No. 1 at almost 21 million tons. Indiana received 
the most commodities with coal being No. 1 at 16.1 million tons.
Surveys
            Emsworth, Dashields & Montgomery Lock and Dams--Fiscal Year 
                    2004 Request: $0, Efficient Funding Level: $1.5 
                    million
    As the uppermost navigation projects on the Ohio River (located 
downstream of Pittsburgh, PA), these three projects have main lock 
chambers measuring 600100 and auxiliary locks of 36056. The main 
chambers are one-half the size of the standard chamber (1,200110) on 
the Ohio River and the auxiliary locks are one-fourth the standard 
auxiliary locks (600100). Major remedial work was done in the 1980s 
at a total cost of more than $100 million. The work was designed to 
extend the life of the projects to the 2005-2010 timeframe. In order to 
look at all of the problems and needs associated with the three 
projects, Congress authorized and provided funding for a detailed 
feasibility study.
                                 ______
                                 
      Prepared Statement of the Midwest Area River Coalition 2000
    Mr. Chairman and Members of the Committee, I am Christopher 
Brescia, President of the Midwest Area River Coalition 2000 (MARC 
2000). Thank you for the opportunity to submit MARC 2000's views on the 
needs of the Mississippi Valley and especially the Upper Mississippi 
River Basin for fiscal year 2004.
    MARC 2000 supports full efficient funding levels for the Upper 
Mississippi/Illinois River Navigation Feasibility Study and key major 
rehabilitation projects on the Upper Mississippi/Illinois Rivers, 
including the Environmental Management Program (EMP). We would like to 
specifically highlight the increasing backlog of navigation-related 
operation and maintenance projects in the entire Mississippi River 
Valley. MARC 2000 rejects the call to raid the Inland Waterway Trust 
Fund (Trust Fund) for purposes other than it was originally created.
     upper mississippi/illinois river navigation feasibility study
    This study is the most important ``project'' for the Upper 
Mississippi River Basin. Full efficient funding is critical to keep 
this study from falling even further behind. Re-initiation of the study 
along broader parameters has increased the cost once again. Every year 
we fail to complete this work adds burden to the system and increases 
the risk of failure of these 70-year-old lock and dam structures.
    MARC 2000 requests an increase to the President's request for a 
total of $7.216 million for this study in fiscal year 2004 to keep the 
study on schedule. Alternatively, $3.8 million in fiscal year 2003 
supplemental funds along with the President's $3.216 fiscal year 2004 
request would be an even more efficient funding stream. This is the No. 
1 priority of our coalition.
    Linked to this study is the need to begin PED for both 1,200 lock 
design and enhanced environmental restoration. MARC 2000 urges the 
appropriation of $8 million for this very important effort in providing 
a seamless process and for not falling further behind in assuring the 
region of a modernization program.

                                                   [In millions]
----------------------------------------------------------------------------------------------------------------
                      General Investigative                       Budget Request   Needed Amount     Variance
----------------------------------------------------------------------------------------------------------------
Upper Miss Nav. Study...........................................          $3.216          $7.216          $3.8
Comprehensive Plan..............................................            .494           2.6             2.106
Upper Miss/Illinois PED.........................................           0               8.0             8.0
                                                                 -----------------------------------------------
      Subtotal..................................................           3.710          17.616          13.906
----------------------------------------------------------------------------------------------------------------

    Addressing these functions immediately, as we approach the close of 
the study phase, prepares us for Congressional authorization for large-
scale construction for the basin. Waiting until the study's completion 
to address design work causes at least 2 more unnecessary years in 
elevated competitive risk, a problem recognized in WRDA'99.
    While this study evaluates navigation needs and environmental 
restoration options for the basin, conclusion of the Comprehensive 
Plan, along with full efficient funding, is needed so the Basin can 
evaluate all aspects including: navigation, flood control and 
environmental restoration.
             construction general and major rehabilitation
    The lock and dam system on the Upper Mississippi, once considered a 
flagship for the Nation's principal artery, the Mississippi River, is 
virtually crumbling in some cases.
    MARC 2000, in concert with the Inland Waterway Users Board, 
supports full efficient funding for key priority projects already 
underway, with priority given to Lock and Dam 24 at $17.2 million 
(+$4.2 million); Lock and Dam 11 at $6.5 million (+$5.187) and Lock and 
Dam 3 at $.6 million. A congressionally approved fiscal year 2003 new 
start at Lock and Dam 19 and a fiscal year 2004 new start at Lock and 
Dam 27 need attention this year as well. Funding for EMP has met 
requested levels, ensuring its credibility for fiscal year 2004.

                                                   [In millions]
----------------------------------------------------------------------------------------------------------------
          Construction General and Major Rehabilitation           Budget Request   Needed Amount     Variance
----------------------------------------------------------------------------------------------------------------
Lock & Dam 24...................................................         $13.00          $17.20           $4.2
L&D 11..........................................................           1.313           6.50            5.187
L&D 3...........................................................            .6              .6             0
L&D 19..........................................................           0               1.2             1.2
L&D 27..........................................................           0               6.0             6.0
Environmental Management Program................................          33.320          33.320           0
                                                                 -----------------------------------------------
      Subtotal..................................................          51.943          78.636          26.690
----------------------------------------------------------------------------------------------------------------

    As indicated in the preceding table, construction and general 
rehabilitation funding is severely lacking with an additional need of 
$26.690 million in fiscal year 2004. Consistent under funding by the 
President's budget results in inefficient timelines, extended 
schedules, delayed projects, and broken commitments from our Federal 
Government, and the loss of benefits to the Nation from an efficient 
inland waterway system.
                       operations and maintenance
    The President's budget continues to place a strain on the 
operations and maintenance (O&M) of the system. One example of this is 
the failure to fund an additional $26 million in non-deferrable 
maintenance and operations services, work that is essential to keeping 
the program working properly.

                                                   [In millions]
----------------------------------------------------------------------------------------------------------------
                   Operations and Maintenance                     Budget Request   Needed Amount     Variance
----------------------------------------------------------------------------------------------------------------
Miss. River--StL................................................         $35.473         $38.00           $2.527
Miss. River--Rock Island........................................          44.429          54.429          10.00
Miss. River--St. Paul...........................................          36.056          45.405           9.394
Illinois River..................................................          27.615          31.915           4.3
                                                                 -----------------------------------------------
      Subtotal..................................................         143.573         169.749          26.176
----------------------------------------------------------------------------------------------------------------

    Funding support for Operations and Maintenance has been lacking for 
the last 5 years. The result is an accumulated backlog of critical 
maintenance on the Upper Mississippi approaching $200 million in 
navigation needs alone. As O&M allotment fails to address the 
maintenance of our region's lock & dam sites, we face the greater risks 
of lock closures and the hundreds of millions of dollars costing the 
Nation via tows waiting for repairs to lock gates, chambers, and other 
parts of the system.
                            critical backlog
    An issue of paramount importance to the entire inland navigation 
system is new safety-imposed de-watering requirements for locking 
chambers. The recently discovered need to establish bulkheads at 
virtually every lock in our system will compound the resource 
allocation of existing dollars without additions to the President's 
Budget. At least $81 million is needed in the Mississippi Valley to 
address these concerns in fiscal year 2003-fiscal year 2005. The 
inability to de-water a lock resulting from emergency closures or 
winter rehabilitation work could bring the Mississippi River to a 
standstill.
             oppose raiding the inland waterway trust fund
    Even more disconcerting than lack of funding support and a growing 
backlog is the proposed raid of the Inland Waterway Trust Fund to be 
reallocated to O&M needs. This fuel tax depository, founded over 20 
years ago, was a result of a unique agreement between the Federal 
Government and industry to establish a funding mechanism for costs 
toward major construction of our infrastructure. Through the years, 
industry has contributed more than a billion dollars into this fund, 
into which over $400 million now sits while we await the conclusion of 
the navigation study, and lose world market opportunities.
    Proposals to use these dollars to cover 25 percent-50 percent of 
the cost of O&M will eliminate the balance of the fund in just 2\1/2\ 
years, exactly when an Upper Mississippi Basin modernization plan 
should be in place and begin to utilize those dollars for the purpose 
for which they were intended. The implications of this trust fund raid 
would also require additional .30-.40 cents per gallon to meet O&M 
needs alone, or a 200 percent tax increase. The Inland Waterway Trust 
Fund must be reserved for its original purpose. Anything less 
constitutes a violation of the agreement and trust forged between the 
Federal Government and industry in a good faith effort to ensure the 
future of our inland waterways.
                                 ______
                                 
 Prepared Statement of the Moss Landing Harbor District, Monterey Bay, 
                               California
    Mr. Chairman and Members of the Subcommittee, on behalf of the 
Chairman and Members of the Board of Harbor Commissioners, thank you 
for the opportunity for me, Russell Jeffries, as President of the Board 
of Harbor Commissioners of Moss Landing Harbor District in California 
to submit prepared remarks to you for the record in support of the 
fiscal year 2004 Energy and Water regular appropriations measure.
    The Commission recognizes and expresses its gratitude to our local 
Congressman, the Honorable Sam Farr, a valued member of the 
Appropriations Committee for his continued assistance and support on 
our behalf.
    We express our profound appreciation to the Subcommittee and full 
Committee for its inclusion of approximately $2.750 million in fiscal 
year 2002 funds for periodic maintenance dredging of the federal 
entrance channel and the initiation of a first-ever Dredged Material 
Management Plan (DMMP) for the Harbor District in order to plan for 
orderly maintenance dredging of the federal channel and local berths 
over the next twenty or more years. This effort is supported by a 
working group organized under national dredging team local planning 
guidance, including representatives of the federal, state and local 
agencies, and other stakeholder and public interest groups with an 
interest in dredging activities.
    To put our needs in proper perspective, our geographical location 
and marine ecosystem is unique in that the harbor district is located 
at the confluence of the Pajaro and Salinas Rivers in between two 
national treasures--the Monterey Bay National Marine Sanctuary and the 
Elkhorn Slough National Estuarine Research Reserve--precluding most 
potential upland disposal sites. The SF-12 Aquatic Disposal Site is 
grandfathered for sanctuary purposes. It is located fifty yards 
offshore at the apex of the Monterey Bay Submarine Canyon which plunges 
to a depth of 8,000 feet in less than one mile. Every year deposition, 
erosion, and flushing cycles transport thousands of tons of sedimentary 
material down the canyon like a chute--so much so that our dredged 
material is a miniscule amount measured against the total annual 
flushing event.
    Periodic El Nino events deposit trace elements of DDT in our harbor 
sediments traced to Salinas Valley agriculture--America's salad bowl--
as a natural sink. With no realistic long term alternative--including 
upland disposal--to continued use of our current disposal site, our 
very livelihood as the largest fishing port on the central coast and 
largest concentration of marine scientific research south of Seattle, 
is at stake.
    Of amounts previously appropriated, approximately $2.4 million has 
been expended for maintenance dredging to date and $350,000 has been 
expended to begin the DMMP process. Most of that was transferred to the 
Corps of Engineers Waterways Experiment Station (WES) to prepare a 
preliminary Ecological Risk Assessment (ERA). We expect that something 
on the order of $1,250,000 will belatedly emerge in operations and 
maintenance funds in the fiscal year 2003 budget. Much of that has 
already been expended or will be used to reimburse the San Francisco 
District for program management costs, conduct of the required economic 
analysis (including of a finding of a very favorable current benefit 
cost ratio of 1.7 to 1), DMMP plan formulation and project scoping 
(including alternative upland disposal site analysis), and technical 
support to WES.
    The completion of both the federal channel work and the Inner 
Harbor with a combination of beach replenishment and ocean disposal at 
the SF-12 historic disposal site marks the first time in a decade that 
we have returned to a normal three year maintenance cycle of the 
federal channel.
    We are just now embarking on the heart of the ERA process defining 
a preliminary statement of work, identifying data gaps to drive the WES 
model, and initiating complementary local site-specific scientific 
studies, and with those results completing the remainder of the DMMP 
process.
    To this end we request the Subcommittee's approval of $2.0 million 
in appropriations from the Operations and Maintenance General Account 
in fiscal year 2004 in order to complete the Ecological Risk Assessment 
and Dredged Material Management Plan so that the process is completed 
and plan implemented prior to the next periodic maintenance event 
scheduled to occur in fiscal year 2005.
    With the assistance of the local scientific community, we are 
fortunate to have as much as three years of scientific data in the form 
of benthic community biomass and tissue sampling, and first-ever 
nearshore state-of-the-art bathymetric survey of the disposal site and 
Monterey Bay Canyon. These efforts should prove invaluable in measuring 
before and after direct impacts of dredged material disposal at the 
disposal site.
    With the assistance of the San Francisco district, we were 
determined to take advantage of this year's dredging episode to do 
before and after measurement of both sedimentary transport at the 
disposal site and to measure any direct impacts on benthic 
communities--the source of any bioaccumulation of contaminated 
sediments in trace amounts. It appears that this will now occur with 
district support as we proceed to the use of current dredging activity 
as an experiment involving approximately 20,000 cubic yards from which 
we can derive valuable data.
    Despite the drastic differences between the use of the WES ERA 
model adapted from aquatic Mississippi River application and our unique 
submarine canyon ecosystem and volume of material, the district has 
elected to proceed with a tracer study using European technology that 
may be of help in other areas with similar problems. We now recognize 
that we must undertake local site-specific data collection and studies 
to complement the WES activities or the end result will not be a 
document that will prove persuasive to the greater scientific 
community, federal and state regulatory agencies, and an informed and 
involved public in our community.
    We now know that there is a considerable body of unpublished 
relevant data concerning the Monterey Bay Canyon and the impact, fate 
and effect of sedimentary material transport in the hands of the local 
scientific community that must be collected, catalogued, analyzed, and 
used both as input data and for comparison with the WES model so that 
each can operate as an invaluable countercheck on the output results of 
the other in predicting and directly measuring the impacts of dredged 
material disposal at our ocean disposal site.
    We have agreed with the district that in order to remove any 
potential bias in data interpretation, an independent scientific peer 
review group will be convened utilizing EPA guidelines for ERA review 
to oversee this process.
    The next periodic maintenance cycle would normally occur in fiscal 
year 2005. We do not anticipate either another El Nino event on the 
heels of the last severe one. Beyond completion of the ERA and gap 
filling scientific research and peer review, a significant part of the 
DMMP process is the identification and evaluation of potential upland 
disposal sites of which there are few choices in our situation. 
Nonetheless a long lead time would be necessary in our situation, front 
end funding of which would necessarily be a part in order to complete 
the DMMP process in exhaustive fashion.
    From our perspective the better job we do completing the DMMP/ERA 
process now in developing a persuasive case to the various 
constituencies as a decision document supporting continued aquatic 
disposal for all but a very small fraction of total dredged material in 
exceptional circumstances over the twenty year span of the study will 
save significant amounts of scarce federal and local dollars in the 
future . . . that said, we sincerely hope our experience in this effort 
will:
  --Produce both a useful and practical multidisciplinary decision 
        document for those agencies exercising regulatory or oversight 
        jurisdiction over dredging in both our and other settings; and
  --Serve as a model for collaborative effort in dredged material 
        disposal consensus decisionmaking in unique situations such as 
        for other Corps districts and local sponsors seeking to balance 
        required maintenance dredging to support navigation with the 
        corresponding need to protect environmentally sensitive areas, 
        in this instance the unique Monterey submarine canyon located 
        at the heart of the Monterey Bay Marine sanctuary.
    I am prepared to supplement my prepared remarks for the record in 
response to any questions that the Chair, Subcommittee Members, or 
staff may wish to have me answer. Thank you Mr. Chairman and Members of 
the Subcommittee. This concludes my prepared remarks.
                                 ______
                                 
              Prepared Statement of the Port of Garibaldi
    Mr. Chairman and members of the Subcommittee, my name is Carol 
Brown. I am one of three elected Commissioners of the Port of 
Garibaldi, Oregon, located on Tillamook Bay on the Oregon Coast. We are 
thankful for the support provided by the Committee for fiscal year 2002 
and 2003, and we also appreciate the opportunity to present our views 
on fiscal year 2004 appropriations issues.
                         appropriations request
    The Port of Garibaldi requests an $8,000,000 appropriation for 
operations and maintenance (O&M) of Tillamook Bay and Bar, Oregon. 
These funds will allow the U.S. Army Corps of Engineers' (Corps) 
Portland District begin the protection, restoration and repair of the 
Tillamook Bay North and South Jetties. Specifically, the funds will 
allow the Corps to build a revetment near the North Jetty root, and 
perform additional restoration and repair work on the South Jetty.
    The Committee provided an additional $200,000 for a Major 
Maintenance Report in fiscal year 2002, and an additional $300,000 for 
Plans and Specifications in fiscal year 2003. Both of these 
appropriations were made above the Administration's budget requests for 
the project. The Major Maintenance Report is nearly complete, and the 
Corps will begin Plans and Specifications soon after the completion of 
the report. We believe that the total cost to protect, restore and 
repair the jetties will be $10-$15,000,000. The Administration did not 
request funding for this project for fiscal year 2004.
                report on the tillamook bay jetty system
    There are serious problems with both jetties. The Corps' recent 
engineering analysis demonstrates that erosion on the north side of the 
North Jetty continues at a highly accelerated rate. Frequently, the 
U.S. Coast Guard (USCG) pulls its crewmembers out of the tower located 
near the root of the North Jetty because of the threat of a jetty 
breach at that site during periods of high seas. Should the breach 
occur, shellfish beds, a county park and a state highway would sustain 
severe damage. The USCG has also determined that deterioration of the 
South Jetty has created a dangerous threat to navigation safety.
    A functional Tillamook Bay Jetty System is key to maintaining 
navigation safety, protecting both public and private property and the 
environment, and preserving the economic vitality of the Oregon Coast.
    In December 2000, The Board of Commissioners of the Port of 
Garibaldi and Tillamook County prepared a report on the Tillamook Bay 
jetty system and bar to inform legislators and other concerned parties 
of the need to restore the jetties and their bar to safe, acceptable 
engineering standards. Excerpts of that report are included below.
    There are three major issues currently associated with the 
deterioration of the system.
  --There is a clearly documented increasing hazard to navigation from 
        erosion around the ocean ends of both jetties and resultant 
        damage to the bar, which is causing an escalating loss of life 
        in boating accidents every year.
  --There is a potentially significant loss of landmass containing 
        recreational facilities and permanent structures in one area 
        where the North Jetty has already breached near its root.
  --There is data currently being collected (but incomplete at this 
        time) which suggests a possible relationship between the 
        deteriorated condition of the jetties and bar and the degree of 
        flooding in some land areas surrounding Tillamook Bay.
    The report contains a history of construction and repair of the 
jetties by the Corps, an overview of construction and repair results, a 
summary of an independent engineering report solicited by the Port and 
the Corps' own evaluations of the jetties' present condition, reasons 
for restoration of the jetties and bar, and the Commissioners' 
endorsement of repair of the jetty system and bar as both an urgent 
public safety measure and possible contribution to mitigation of 
flooding in the estuary. We will provide a copy of the report to the 
Committee upon request.
    Background.--Since settlement in the 1800s, Tillamook County's 
primary industries have been dairy, water and timber oriented. 
Tillamook Bay and the five rivers which feed it have historically 
furnished an abundance of shellfish, salmon and other species of fresh-
water and ocean food fish. Over the past century the area has become 
renowned as one of the West's premier sport fishing locations.
    Tillamook County's economy has always depended on prime conditions 
in Tillamook Bay, its estuary and watershed for cultivation and use of 
these natural resources. However, human activities including forestry, 
agriculture and urban development have adversely impacted the entire 
Bay area by increasing erosion rates and landslide potential in the 
forest slopes and significantly reducing wetland and riparian habitat. 
All five rivers entering Tillamook Bay now exceed temperature and/or 
bacteria standards established by the Oregon Department of 
Environmental Quality. The installation of a north jetty on Tillamook 
Bay begun in 1912 caused increased erosion of the Bay's westerly land 
border, Bayocean Spit, on the ocean side. The Spit breached in 1950. 
This allowed the Bay to fill with ocean sands on its southern and 
western perimeters and caused a major reduction in shellfish habitat, 
sport-fishing area, and an increase in the cross-section of the bar. A 
south jetty begun in 1969 helped stabilize the Spit and created the 
navigation channel presently in use.
    Increasingly poor water quality in the Bay's feeder rivers and a 
substantial loss of marine life over the past twenty-five years enabled 
Tillamook Bay to become part of the National Estuary Program in 1992. 
The Project's scope of study included the estuary and watershed. One of 
the stated goals in the Project's final Comprehensive Conservation and 
Management Plan is ``the reduction of magnitude, frequency and impact 
of flood events.'' This goal was found to be consistent with the scope 
of study of the Corps' Feasibility Study for Water Resources in 
Tillamook County now being conducted, and was incorporated into this 
new project.
    Previous Corps' evaluations of jetty systems clearly state the 
adverse effects of jetty deterioration and infilling of channels and 
bars on tidal prism (the rate at which water flows into and out of the 
Bay) and indicate that they may influence flooding in a bay's estuary. 
During the past thirty-six months measurements have been taken of 
differential water levels in Tillamook Bay and its estuary and speeds 
of tidal flows during normal and high water events. This data suggests 
an increase in the cross-section of the Tillamook Bay bar and some 
channel infilling, which may be affecting estuarine flooding. These 
measurements are of stated interest to the Corps. The Port of 
Garibaldi, many Tillamook County businesses that have been victims of 
flooding, and some governmental agencies concerned with various aspects 
of the flooding issue are supporting continuing gathering of these 
measurements of water levels and tidal flow speeds.
    While the conditions of jetties and their resultant bars invariably 
and continually affect the bay on which they are constructed, their 
basic function is the creation of a safe channel between ocean and 
harbor for the transit of maritime traffic. As originally designed and 
constructed, the Tillamook Bay jetties accomplished this. Due to their 
present state of deterioration, that initial effectiveness has been 
substantially reduced.
    Results in Brief.--Tillamook County has suffered a series of 
devastating floods since the winter of 1996. The storms caused by El 
Nino/La Nina events have increased the rate of deterioration of 
Tillamook Bay's jetties and bar. Their present condition is raising 
increasing navigational safety issues. The North Jetty is now breached 
in an especially sensitive location near its root where the wall 
protects inhabited land, and the eroded area is increasing in size. A 
significant quantity of water flowing through this area would result in 
loss of the existing landmass adjacent to it and the structures on it. 
A second area of deterioration on the North Jetty at the beach line is 
threatening to breach. But in either location, an infill of the channel 
with sands would reduce the navigability of the channel, further slow 
the rate of tidal flow and impact the cross-section of the bar. An even 
greater degree of danger to boaters than that which presently exists 
would surely be created.
    The Bayocean Spit breach in 1950 buried one-third the Bay's 
shellfish habitat under ocean sands and did extensive damage to 
estuarine lands. The lost shellfish habitat has never been recovered. 
The direction of tidal flow in the Bay is such that a breach in the 
North Jetty would cause additional buildup of ocean sands to the inside 
edge of the Spit. This infill would eventually deposit toward the south 
end of the Bay and demolish even more shellfish habitat and sport 
fishing area, adversely impacting Tillamook County's already reduced 
economy. The harbor area would certainly suffer some degree of damage, 
resulting in increased commercial hardship.
    But the most serious impact of jetty and bar deterioration has been 
on navigational safety. The USCG Tillamook Bay Station has publicly 
commented on the threat of a jetty breach to its observation tower, and 
transit danger to sport, commercial and their own vessels due to 
erosion effects, which now constitute a maritime hazard. Many local 
sport and most commercial fishermen have abandoned Garibaldi as a 
permanent berth and sought harbor facilities where channel navigation 
is easier and transit of the bar less treacherous. The USCG has 
formally requested that the Corps ``restore the north and south jetties 
to their original dimensions, and remove materials from the original 
construction that may now pose a maritime hazard.''
    Principal Findings.--Since the last repair to the South Jetty, 
approximately 302 feet have been lost to erosion, 215 feet of that 
amount since 1998. The North Jetty was designed and authorized by the 
USACOE to be 5,700 feet in length. As of December 2000, approximately 
275 feet of the ocean end of the North Jetty is eroded and remains 
below mean lower low water level--submerged, in other words. In 1990 
the USACOE capped the head of the North Jetty from its above-water 
point going landward for a distance of 161 feet in an unsuccessful 
attempt at erosion control. The North Jetty remains at least 300 feet 
short of its engineering-approved and authorized length. In the spring 
of 2001, the Corps put in place temporary barriers to provide support 
to the North Jetty at the root. These temporary barriers have largely 
eroded since that time.
    Because of the increased magnitude of storms since 1996, both 
jetties have suffered far more damage than that normally expected to 
occur to such structures. Erosion and displacement of large support 
stones at the ocean ends of both jetties is particularly severe, and 
the submerged ends of both structures are being pushed southward. The 
USCG now identifies these two areas, adjacent to popular sport fishing 
locations, as extremely dangerous locations. Water swirls around the 
displaced boulders causing eddies sometimes strong enough to suck small 
boats into them. Even in calm, flat seas, water breaks over these 
boulders into waves powerful enough to throw smaller vessels onto the 
jetties. (This was the case on September 22, 2000, when a sport fishing 
boat inadvertently drifted inside the 200 foot exclusion zone and was 
dashed onto the end of the South Jetty. Two people were killed and a 
third injured, this incident being the most recent loss of life this 
year in the accident record of the Tillamook Bay jetties and bar.)
    Conclusion.--On behalf of the Port of Garibaldi and Tillamook 
County, I thank the Committee for giving me this opportunity to provide 
testimony on the Tillamook Bay Jetty System.
                                 ______
                                 
 Prepared Statement of the Coosa-Alabama River Improvement Association
                                summary
    Mr. Chairman & distinguished Committee members, this statement 
includes the following: A) A plea to rend maintain our Nation's inland 
waterways system as a vital part of the national transportation 
infrastructure; B) A request for support in the following areas: 1) 
Sufficient funding to maintain and improve our nation's inland waterway 
system; 2) O&M funding for federal projects in the Coosa-Alabama Basin; 
3) Funding to renovate and upgrade a recreation site on the Alabama 
River; 4) Funding to complete backlogged maintenance items to keep the 
Alabama River navigation channel a viable economic asset to the State 
of Alabama.
                           expanded statement
    The Coosa-Alabama River Improvement Association is a large and 
diverse group of private citizens and political and industrial 
organizations that sees the continued development of the Coosa-Alabama 
Waterway as an opportunity for economic growth in our region as well as 
the Nation. The attached statements from many of our members and 
interested parties in our region call for measures to assure a viable 
inland waterways system and are indicative of the strong support of the 
inland waterways system in our region of the country.
    Our Association is concerned about the deteriorating waterway 
infrastructure throughout the Nation. The waterways are vital to our 
export and import capability, linking our producers with consumers 
around the world. Barges annually transport 15 percent of the Nation's 
commodities, 1 out of every 8 tons. It is incumbent upon the Federal 
Government to maintain and improve this valuable national asset. 
Therefore, we ask Congress to appropriate funds for required 
maintenance and construction to keep the waterways the economic 
multiplier they are. To maintain the inland waterways facilities and to 
accommodate vitally needed growth will require a minimum of $5 billion. 
The Federal Government must commit to improve the waterways 
infrastructure or risk serious economic consequences and jeopardizing 
large public benefits.
    We are concerned that any budget strategy that reduces funding for 
the operations and maintenance of inland and intracoastal waterways 
will have a detrimental effect on the economic growth and development 
of the river system. We are especially concerned about the President's 
direction to direct funding away from those waterways suffering 
temporary downturns in barge transportation. We cannot allow that to 
happen. In the Alabama-Coosa River Basin, we must be able to maintain 
the existing river projects and facilities that support the commercial 
navigation, hydropower, and recreational activities so critical to our 
region's economy. The first priority must be the O&M funding 
appropriated to the Corps of Engineers to maintain those projects.
    The President's Budget for fiscal year 2004 does not provide enough 
funding to keep the Alabama River navigation channel open. Most 
conspicuous is the absence of money for dredging, a vital element of 
keeping the channel operational. We ask Congress to reinstate the 
dredging capability on the Alabama River by adding $3 million for 
dredging on the Alabama-Coosa River project. Without dredging, the 
channel is vulnerable to being closed for several months of the year. 
Without the channel, the State of Alabama has no hope of attracting 
prospective users of barge transportation in the Alabama River basin, 
which traverses counties with some of the highest unemployment in the 
Nation. We cannot close any opportunities to bring jobs to these 
counties. Several prospective barge-using shippers (representing 3 to 4 
million tons a year) are currently evaluating the Alabama River basin 
for relocating or expanding their businesses. A fully-maintained 
channel is crucial to their decision. Maintaining the channel also 
dampens the rail and truck prices for movement of goods between Mobile 
and Montgomery. The relatively small investment in this channel pays 
large dividends for the consumers and businesses in Alabama.
    Recreation is a major economic factor on our waterways. Boating, 
fishing, swimming, and camping have become an indispensable economic 
tool for many of our lake and river communities, and, in that respect, 
the Alabama River has extraordinary potential. One of the most 
promising sites for development is the Corps-owned Swift Creek 
campground. Now a minimally developed site, Swift Creek needs to be 
upgraded and renovated to serve an ever-increasing demand for 
recreational facilities on the waterway. We ask that $1.5 million be 
added to the RF Henry project to renovate and upgrade Swift Creek.
    Studies predict international trade, particularly with Latin 
America, over the next 20 years will double or even triple current 
levels of activity. Containerized cargo is expected to increase 
dramatically as shippers move away from break bulk shipping and realize 
the economies of moving goods in containers. The primary method of 
moving that cargo out of the Port of Mobile is by truck and rail. There 
is limited capacity to increase rail. Our highways cannot accommodate 
the expected increase in truck traffic. The only logical, safe, and 
environmentally-friendly alternative mode of transportation is by 
water. With Montgomery sitting at a junction of road, rail, air, and 
water modes, it makes sense to evaluate the feasibility of an 
intermodal port in the Montgomery area. We ask the Committee to include 
$100,000 in General Investigations to allow Mobile District of the U.S. 
Army Corps of Engineers to conduct this study, which was authorized by 
resolution (Docket 2699) in July 2002 by the House Transportation and 
Infrastructure Committee of the 107th Congress.

----------------------------------------------------------------------------------------------------------------
                                                                                                   Association's
                                                                    Fiscal Year     President's     Fiscal Year
                             Project                                   2003        Budget Fiscal    2004 Budget
                                                                   Appropriation     Year 2004        Request
----------------------------------------------------------------------------------------------------------------
Alabama-Coosa River, AL \1\ (AL River incl Claiborne L&D).......      $3,174,000      $2,961,000      $5,961,000
Miller's Ferry L&D..............................................       7,094,000       5,429,000       5,429,000
Robert F. Henry L&D \2\.........................................       5,858,000       5,726,000       7,326,000
Lake Allatoona, GA..............................................       6,456,000       6,000,000       6,000,000
Carters Lake, GA................................................       9,958,000      10,012,000      10,012,000
                                                                 -----------------------------------------------
      Totals....................................................      34,413,000      30,128,000     34,728,000
----------------------------------------------------------------------------------------------------------------
\1\ Includes dredging from the mouth of the Alabama River through Claiborne L&D to Miller's Ferry. Coosa River
  not included. The Fiscal Year 2004 Budget Request includes funding for maintenance dredging to keep the
  Alabama River navigation channel open.
 \2\ Fiscal year 2004 request includes $1.5 million for upgrade and rehabilitation of Swift Creek campground and
  $100,000 for a Federal study to determine feasibility of an intermodal port in the Montgomery-Selma, area.

    In summary, we request your support in the following areas:
  --Sufficient O&M funding of the US Army Corps of Engineers Civil 
        Works budget to maintain the Alabama River navigation channel, 
        including dredging below Claiborne Dam;
  --Funding to renovate and upgrade Swift Creek campground on the 
        Alabama River; and
  --Funding to evaluate the feasibility of an intermodal port in the 
        Montgomery-Selma area.
    Thank you for allowing us to submit this testimony and for your 
strong support of the Nation's waterways.
                                 ______
                                 
   Prepared Statement of the Perkins County Rural Water System, Inc.
    The Perkins County Rural Water System, Inc. respectfully submits 
this written testimony to the Appropriations Sub-Committee on Energy 
and Water Development for appropriations for fiscal year 2004.
    Perkins County is located in northwestern South Dakota on the North 
Dakota State line. We are the second largest county in South Dakota and 
have a total of 2,866 square miles. Perkins County has a population of 
3,542 people, of which 2,065 live in the two incorporated towns of 
Lemmon and Bison. Number one business in our country is agriculture and 
support services for the farmer and rancher. We have three 
manufacturing plants in Lemmon that employ approximately 130-140 full-
time jobs. Other large employers in Perkins County are Federal 
Government offices, State highway district offices, rural electric 
offices, county government, hospital and clinic and three school 
districts. Perkins County and the rest of northwestern South Dakota is 
a semi-arid climate with an annual precipitation of 14 inches, of which 
76 percent falls normally in April through September.
    History of this project goes back to 1982 when a group of farmers 
and ranchers in Perkins County were contacted by Southwest Pipeline 
project in North Dakota if they would be interested in obtaining water 
to serve Perkins County. At that time, approximately 100 farms and 
ranches and the towns of Bison and Lemmon were interested, so Perkins 
County was included in their feasibility study. In November of 1992, 
Southwest Water Pipeline Project had grown to the point that Perkins 
County was contacted about receiving water from the project and to be 
included in the engineering design work. A committee of interested 
landowners and representatives from the two incorporated towns were 
organized through the Perkins County Conservation District/Natural 
Resources Conservation Service. From this committee, nine directors 
volunteered to serve on a board to study the feasibility of rural water 
for the county. In March of 1993, Perkins County Rural Water System, 
Inc. was organized as a non-profit organization. Two grants were 
obtained from the South Dakota Department of Environment and Natural 
Resources for $50,000 each to do a feasibility study. At the same time, 
the Directors were able to acquire good intention fees from rural 
landowners, State land, Federal land, and the two towns for a total of 
$28,250 to cost share the State money on an 80-20 share basis. A 
feasibility study was conducted for Perkins County Rural Water by KBM, 
Inc. of Grand Forks, North Dakota, and the Alliance of Rapid City, 
South Dakota in 1994. In the 1995-96 South Dakota legislature, we 
obtained State authorization and appropriation of $1 million. This 
money was used to up-size the pipe in North Dakota for our capacity and 
for administration costs of Perkins County Rural Water. We have signed 
a contract with the North Dakota State Water Commission to deliver 400 
gallons per minute to the border. We have also signed contracts with 
both towns to be the sole supplier for their water systems. We have had 
a very good response from the rural farmers and ranchers in that 50 to 
60 percent have signed and paid for water contracts delivered to their 
farmstead. The total for those contracts equals $81,500 plus 
obligations of another $72,000 when the project becomes a reality. To 
the ranchers and farmers of Northwestern South Dakota, that is a 
substantial investment for them to make. We also have signed a contract 
with a grazing association that run livestock on U.S. Forest Service 
land. In the fall of 1999, we received Federal authorization with the 
106th Congress for a 75 percent grant of $20 million. We have received 
appropriations for the last two appropriation's bill in 2002 and 2003 
for $3.4 million and $4.3 million respectively. The budget presented 
has been sent to the Bureau of Reclamation in Bismarck, North Dakota to 
be entered in their budget processing for 2004.
    During our feasibility study, conducted by the combination of two 
engineering firms of the Alliance of South Dakota and KBM, Inc. of 
North Dakota, several alternatives were looked at to provide Perkins 
County with quality water. These alternatives were pumping water from 
Shadehill Lake or from deep-water wells drilled into the Fox Hills 
formation. Due to the high salt content, both of these sources would 
have to use reverse osmosis treatment that is very costly to build and 
operate. Buying bulk water from a large rural water system turned out 
to be the most feasible. Water from Southwest Water Authority is 
already treated at a large treatment plant and distributed to the 
border of North Dakota and South Dakota.
    The quality of water in Northwestern South Dakota is the main 
concern for the health and well being of the people. Although the water 
in Perkins County typically meets the primary standards established by 
the U.S. EPA, most of the chemicals in the water are exceedingly high 
by the State of South Dakota standards. Due to the fact that new 
standards by the EPA are set each year, it will be impossible for small 
water systems such as those in our towns to comply. Just across the 
line in North Dakota, two small towns have exceeded the fluoride levels 
from the same aquifer that water is pumped in South Dakota. At this 
time, fluoride in the Town of Lemmon is within one- to two-tenths of 
the MCL set by EPA through the Safe Drinking Water Act. In the deep 
wells of both Bison and Lemmon, the total dissolved solids, sulfates, 
and sodium consistently exceed the recommended levels set by EPA. 
Sodium is the major concern with the water in Perkins County. Running 
at 450 parts per million and above, the medical community has problems 
with people who have to be on a salt free diet. In the rural areas, 
bacteria contamination has been noted in wells that dug into shallow 
aquifers. The rural population has noticed declining water levels in 
these same wells due to drought and over use. We are currently in a 
drought that has dried up any surface water supplies for livestock. If 
water had been available, some ranches would not have had to sell or 
ship livestock out of the country last fall.
    Inserts include the request for fiscal year 2004. We are able to do 
this much construction work in 1 year and hope to finish the project in 
6 years with this size appropriation per year.

                               2004 BUDGET
------------------------------------------------------------------------
 ------------------------------------------------------------------------
Income:
    Bureau of Reclamation \1\...........................   $5,000,000.00
    Projected Water Sales...............................      259,000.00
    All Other Income....................................      101,000.00
                                                         ---------------
      Total Income......................................    5,360,000.00
                                                         ===============
Expenses:
    Administrative expenses.............................      195,150.00
    O&M expenses including water purchases..............      156,500.00
    Engineering, construction, contingency..............    5,008,350.00
                                                         ---------------
      Total Expenses....................................   5,360,000.00
------------------------------------------------------------------------
\1\ Request is for $5,000,000.00 in the Bureau of Reclamation Budget.

    Water quality and quantity in Perkins County has been a plague for 
the county over many years. Droughts, both long and short term, are a 
fact of life for the people in this area. Being able to obtain quality 
water during these periods and having a backup system for other times 
would make the life in the country easier. Due to our isolation from 
major water supplies, this may be our only chance to obtain water at an 
affordable cost.
    At the present time, we have finished our final engineering report, 
environmental and cultural resources reports, and, with a 50-60 percent 
signup rate, we are still signing up farmers and ranches. Upon 
obtaining the amount requested, we would be able to proceed with 
construction in the spring of 2004 and have the system completed in 6 
years. We know that funds are hard to obtain, but finding quality water 
in our area is even harder. Thank you for reading our report and, on 
behalf of the people of Perkins County South Dakota, we hope you can 
find the funds to build our system.
                                 ______
                                 
         Prepared Statement of the Pontchartrain Levee District
               mississippi river and tributaries project

               FISCAL YEAR 2004 RECOMMENDED APPROPRIATIONS
------------------------------------------------------------------------
                         Project                            Recommended
------------------------------------------------------------------------
Mississippi River & Tributaries Flood Control Project...    $435,000,000
------------------------------------------------------------------------

                          comments on projects
    History.--The Mississippi River and Tributaries Project (MR&T) was 
authorized following the Record Flood of 1927 that inundated some 
26,000 square miles of the fertile and productive land in the Alluvial 
Valley of the Mississippi River, left 700,000 people homeless, stopped 
all East/West Commerce and adversely affected both the Economy and 
Environment of the entire Nation.
    The MR&T Project has prevented over $180 billion in flood damages 
for an investment of less that $70 billion and in addition the Nation 
derives about $900 million in Navigation Benefits each year due to the 
MR&T.
    The Project is not complete and we cannot pass another event as 
great as the 1927 Flood safety to the Gulf, this is an Historical 
Event--not the much greater Project Flood.
    Levees.--The Mississippi River and Tributaries Flood Control 
Project has been under construction as an authorized project for about 
76 years, and yet there are a number of segments not yet complete. 
Although most levees are complete to grade and section in south 
Louisiana and extensive reach from the Old River Control Structure in 
lower Concordia Parish upstream to the Lake Providence area is still 
below grade. Should these levees be overtopped during a major flood, 
those people in south Louisiana know full well those flood waters are 
going to head southward. Other items not yet complete are slope 
protection and crown surfacing. It is recommended that a minimum of 
$50,645,000 be appropriated for Mississippi River Levees.
    Channel.--The second item of indispensable importance to the 
Pontchartrain Levee District and the State of Louisiana is Channel 
Improvements. Main line levees must be protected from caving banks 
throughout this lower river reach where extremely narrow battures are 
the last line of defense against levee crevasses and failures. If 
caving banks are not controlled the only answer is ``setback''. Simply 
stated there is no room remaining for levee setbacks in the 
Pontchartrain Levee District. Revetment construction must be annually 
funded to prevent levee failures, land losses and relocations. This 
item also benefits the 55-foot depth navigation channel. The 
Pontchartrain Levee District recommends at least $44,017,000 be 
appropriated for fiscal year 2004 for Mississippi River Channel 
Improvements.
    Total Appropriation Request for MR&T.--The $435 million we are 
requesting for Fiscal Year 2004 Appropriations for the MR&T Project is 
the minimum amount we consider necessary to continue with vital on-
going construction work and to do the barest amount of maintenance work 
that is required to prevent further deterioration of the Federal 
investment already made to our Flood Control and Navigation Work and to 
continue to work of restoring and protecting our natural environmental 
including providing for adequate water supply. The total appropriation 
we are requesting is attached.
    Opposition.--We strongly oppose the Administration's recommendation 
in its fiscal year 2004 Budget Submission to use funds from the INLAND 
WATERWAYS TRUST FUND to pay for a part of the Operations and 
Maintenance Cost of the Inland Waterways. The Trust Fund was 
established in 1978 to make available monies for Construction and 
Rehabilitation for navigation on the Inland and Coastal Waterways, not 
for Operations and Maintenance. If Congress allows this recommendation 
the Trust Fund would be drained in a short period of time and the 50 
percent share to pay for Construction for Navigation would not be 
available unless the tax on fuel used by tow-boats was raised, some day 
doubled, which would make it extremely difficult for barge operators to 
continue their operations and making it more expensive for farmers to 
get their products to market and for the public to realize savings in 
transportation cost for bulk commodities such as fuel, oil, gasoline 
and other items shipped by barge.
    We are also strongly opposed to any action that would transfer all 
or any part of the U.S. Army, Corps of Engineers Civil Works mission to 
other agencies or department of the Federal Government. It has been 
reported that the Administration would desire to transfer the Corps 
NAVIGATION program to the Department of Transportation, FLOOD CONTROL 
AND ENVIRONMENTAL RESTORATION to the Department of the Interior, and 
the REGULATORY PROGRAMS to EPA. The U.S. Army Corps of Engineers has 
rendered extremely valuable services to this Nation since 1802 (over 
200 years). The Corps has created an Inland Waterways System that is 
the envy of the rest of the world. This commercial transportation 
system is critical to the Nation's economy and environmental well-being 
and part of this system is used to deploy military equipment in support 
of the war on terrorism. The Corps has also been in the forefront to 
provide Flood Control and Environmental Restoration Projects, they have 
also supported our troops in every armed conflict this Nation has 
engaged in. It would be a serious mistake of Nation-wide impact to 
spread the functions of the Corps into several parts and across the 
Federal Bureaucracy. This Nation would lose a wonderful asset that we 
have enjoyed for many, many years.
    We are strongly opposed to any proposal to ``out-source'' or 
contract-out any of the present positions in the Corps of Engineers' 
Civil Works function. The Secretary of the Army has proposed that 90 
percent of all Corps of Engineers' positions be contracted out, this 
would eliminate approximately 32,000 current employees and make it 
almost impossible to continue with our work.
                                comments
    The Pontchartrain Levee District has full realization of the 
necessity of keeping these Subcommittees advised of current and future 
needs for Federal monetary support on vital items of the MR&T Flood 
Control Project. Beginning in 1995 the subcommittees refused to give 
audience to the Mississippi Valley Flood Control Association. This year 
no oral testimony will be heard. Again, this is a great travesty of 
justice. Such actions seriously erode the partnership that has been 
built between Congress, the Corps of Engineers and local sponsors.
    We trust that this pattern will revert back to the 63-year practice 
of hearing our delegation.
                               conclusion
    The Board of Commissioners, Pontchartrain Levee District, 
compliments the Subcommittees on Energy and Water Development for its 
keen understanding of real needs for the MR&T Flood Control Project 
along with Hurricane Protection and efficient, alert actions taken to 
appropriate funds for the many complex requirements. We endorse 
recommendations presented by the Association of Levee Boards of 
Louisiana, Department of Transportation and Development, Mississippi 
Valley Flood Control Association and Red River Valley Association. The 
Board of Commissioners desires our statement be made a part of the 
record.

   FISCAL YEAR 2004 CIVIL WORKS REQUESTED BUDGET--MISSISSIPPI RIVER AND
                       TRIBUTARIES APPROPRIATIONS
------------------------------------------------------------------------
                    Project and State                         Request
------------------------------------------------------------------------
SURVEYS, CONTINUATION OF PLANNING AND ENGINEERING &
 ADVANCE ENGINEERING & DESIGN:
    Memphis Harbor, TN..................................        $700,000
    Germantown, TN......................................         171,000
    Millington, TN......................................         127,000
    Fletcher Creek, TN..................................         150,000
    Southeast Arkansas..................................       1,000,000
    Coldwater Basin Below Arkansas......................         500,000
    Quiver River, MS....................................         100,000
    Alexandria, LA to the Gulf of Mexico................         700,000
    Morganza, LA to the Gulf of Mexico..................       7,992,000
    Donaldsonville, LA to Gulf of Mexico................       1,400,000
    Spring Bayou, LA....................................         832,000
    Tensas River, LA....................................         500,000
    Donaldsonville Port Development, LA.................         100,000
    Collection & Study of Basic Data....................         695,000
                                                         ---------------
      SUBTOTAL--SURVEYS, CONTINUATION OF PLANNING &           14,967,000
       ENGINEERING & ADVANCE ENGINEERING & DESIGN.......
                                                         ---------------
CONSTRUCTION:
    St. John's Bayou-New Madrid Floodway, MO............       7,600,000
    Eight Mile Creek, AR................................       2,050,000
    Helena & Vicinity, AR...............................       3,407,000
    Grand Prairie Region, AR............................      24,700,000
    Bayou Meto, AR......................................      16,000,000
    West Tennessee Tributaries, TN......................         620,000
    Nonconnah Creek, TN.................................       3,068,000
    Wolf River, Memphis, TN.............................       2,500,000
    Reelfoot Lake, TN...................................       1,240,000
    St. Francis Basin, MO & AR..........................       6,300,000
    Yazoo Basin, MS.....................................      53,555,000
    Atchafalaya Basin, LA...............................      21,235,000
    Atchafalaya Basin Floodway..........................      14,200,000
    MS Delta Region, LA.................................       3,400,000
    Horn Lake Creek, MS.................................         395,000
    MS & LA Estaurine Area, MS & LA.....................          30,000
    Channel Improvements, IL, KY, MO, AR, TN, MS & LA...      44,017,000
    Mississippi River Levees, IL, KY, MO, AR, TN, MS &        50,645,000
     LA.................................................
                                                         ---------------
      SUBTOTAL--CONSTRUCTION............................     254,962,000
      SUBTOTAL--MAINTENANCE.............................     208,433,000
                                                         ---------------
      SUBTOTAL--MISSISSIPPI RIVER & TRIBUTARIES.........     478,362,000
LESS REDUCTION FOR SAVINGS & SLIPPAGE...................     -43,362,000
                                                         ---------------
      GRAND TOTAL--MISSISSIPPI RIVER & TRIBUTARIES......     435,000,000
------------------------------------------------------------------------

                                 ______
                                 
        Prepared Statement of the Fifth Louisiana Levee District
    In order to continue the current level of construction on the 
Mississippi River and Tributaries Project (MR&T), and to provide proper 
maintenance of the completed portions, it is essential that the $435 
million, as requested by the Mississippi Valley Flood Control 
Association for fiscal year 2004 (copy attached), be appropriated for 
the MR&T Project.
    Less than $10 billion has been invested in the MR&T Project since 
its authorization following the great flood of 1927, but even in its 
incomplete stage, the MR&T project has prevented over $180 billion in 
flood damages and makes possible about $900 million in navigation 
benefits each year.
    Levee enlargements have been completed along most of the 
Mississippi River Levee, with one exception being portions of the 
system in Louisiana where people and property remain vulnerable to a 
Levee that is the lowest in the MR&T system, even though it conducts to 
the Gulf 41 percent of the total water runoff of the Nation. It is 
imperative that construction of these Levees remain a top priority for 
the Administration and U.S. Army Corps of Engineers and that adequate 
funding be provided.
    I urge reconsideration of the Administration's recommendation (in 
its Fiscal Year 2004 Budget Submission) to fund Operations and 
Maintenance cost of the Inland Waterways by using funds from the Inland 
Waterways Trust Fund. Depletion of that fund will have long term 
effects on construction for navigation, and ultimately on commerce and 
individuals dependent upon River transportation of bulk commodities.
    It is essential that the U.S. Army Corps of Engineers remain intact 
and not be divided into separate, smaller entities and transferred to 
administration of other established Departments. The Inland Waterways 
System created by the Corps is recognized world-wide and has set the 
standard for construction of water control and navigational systems. It 
must continue to function as one unit to retain its effectiveness.
    It is vital to the people of Louisiana and to the Nation that the 
Mississippi River and Tributaries Project be completed as designed and 
as quickly as possible. To transfer any part of the Civil Works 
mission, or to ``out-source'' or contract-out positions in the Corps' 
Civil Works organization, as proposed by the Secretary of The Army, 
will wreck the current construction and maintenance time table and 
eliminate approximately 32,000 current employees.
    I respectfully request that $435 million be appropriated for the 
MR&T Project for the coming fiscal year, and urge your support for 
protection of the Inland Waterways Trust Fund and the structure of the 
U.S. Army Corp of Engineers as it currently exists.

  FISCAL YEAR 2004 CIVIL WORKS REQUESTED BUDGET--MISSISSIPPI RIVER AND
                       TRIBUTARIES APPROPRIATIONS
------------------------------------------------------------------------
                    Project and State                      MVFCA Request
------------------------------------------------------------------------
SURVEYS, CONTINUATION OF PLANNING AND ENGINEERING &
 ADVANCE ENGINEERING & DESIGN:
    Memphis Harbor, TN..................................        $700,000
    Germantown, TN......................................         171,000
    Millington, TN......................................         127,000
    Fletcher Creek, TN..................................         150,000
    Southeast Arkansas..................................       1,000,000
    Coldwater Basin Below Arkansas......................         500,000
    Quiver River, MS....................................         100,000
    Alexandria, LA to the Gulf of Mexico................         700,000
    Morganza, LA to the Gulf of Mexico..................       7,992,000
    Donaldsonville, LA to Gulf of Mexico................       1,400,000
    Sprung Bayou, LA....................................         832,000
    Tensas River, LA....................................         500,000
    Donaldsonville Port Development, LA.................         100,000
    Collection & Study of Basic Data....................         695,000
                                                         ---------------
      SUBTOTAL--SURVEYS, CONTINUATION OF PLANNING &           14,967,000
       ENGINEERING & ADVANCE ENGINEERING & DESIGN.......
                                                         ---------------
CONSTRUCTION:
    St. John's Bayou-New Madrid Floodway, MO............       7,600,000
    Eight Mile Creek, AR................................       2,050,000
    Helena & Vicinity, AR...............................       3,407,000
    Grand Prairie Region, AR............................      24,700,000
    Bayou Meto, AR......................................      16,000,000
    West Tennessee Tributaries, TN......................          620,00
    Nonconnah Creek, TN.................................       3,068,000
    Wolf River, Memphis, TN.............................       2,500,000
    Reelfoot Lake, TN...................................       1,240,000
    St. Francis Basin, MO & AR..........................       6,300,000
    Yazoo Basin, MS.....................................      53,555,000
    Atchafalaya Basin, LA...............................      21,235,000
    Atchafalaya Basin Floodway..........................      14,200,000
    MS Delta Region, LA.................................       3,400,000
    Horn Lake Creek, MS.................................         395,000
    MS & LA Estaurine Area, MS & LA.....................          30,000
    Channel Improvements, IL, KY, MO, AR, TN, MS & LA...      44,017,000
    Mississippi River Levees, IL, KY, MO, AR, TN, MS &        50,645,000
     LA.................................................
                                                         ---------------
      SUBTOTAL--CONSTRUCTION............................     254,962,000
      SUBTOTAL--MAINTENANCE.............................     208,433,000
                                                         ---------------
      SUBTOTAL--MISSISSIPPI RIVER & TRIBUTARIES.........     478,362,000
LESS REDUCTION FOR SAVINGS & SLIPPAGE...................     -43,362,000
                                                         ---------------
      GRAND TOTAL--MISSISSIPPI RIVER & TRIBUTARIES......     435,000,000
------------------------------------------------------------------------

                                 ______
                                 
   Prepared Statement of the Brazos River Harbor Navigation District
    On behalf of the Brazos River Harbor Navigation District and the 
users of Freeport Harbor, we extend gratitude to Chairman Domenici and 
members of the subcommittee for the opportunity to submit testimony in 
support of the feasibility study for the proposed channel improvement 
project for Freeport Harbor and Stauffer Channel, Texas.
    We express full support of the inclusion in the fiscal year 2004 
budget for: Second phase of a Corps of Engineers feasibility study for 
Freeport Harbor, Texas--$500,000.
                         history and background
    Port Freeport is an autonomous governmental entity authorized by an 
act of the Texas Legislature in 1925. It is a deep-draft port, located 
on Texas' central Gulf Coast, approximately 60 miles southwest of 
Houston, and is an important Brazos River Navigation District 
component. The port elevation is 3 to 12 feet above sea level. Port 
Freeport is governed by a board of six commissioners elected by the 
voters of the Navigation District of Brazoria County, which currently 
encompasses 85 percent of the county. Port Freeport land and operations 
currently include 186 acres of developed land and 7,723 acres of 
undeveloped land, five operating berths, a 45-inch deep Freeport Harbor 
Channel and a 70-foot deep sink hole. Future expansion includes 
building a 1,300-acre multi-modal facility, cruise terminal and 
container terminal. Port Freeport is conveniently accessible by rail, 
waterway and highway routes. There is direct access to the Gulf 
Intracoastal Waterway, Brazos River Diversion Channel, and, State 
Highways 36 and 288. Located just 3 miles from deep water, Port 
Freeport is one of the most accessible ports on the Gulf Coast.
                          project description
    The Fiscal Year 2002 Energy and Water Appropriations signed into 
law included a $100,000 appropriation to allow the United States Army 
Corps of Engineers (USACE) to conduct a reconnaissance study to 
determine the Federal interest in an improvement project for Freeport 
Harbor, Texas. The USACE, in cooperation with the Brazos River Harbor 
Navigation District as the local sponsor, has completed that study. The 
report indicates that ``transportation savings in the form of National 
Economic Development Benefits (NED) appear to substantially exceed the 
cost of project implementation'', thus confirming ``a strong Federal 
interest in conducting the feasibility study of navigation improvements 
at Freeport Harbor''. In fact, the Corps anticipates a benefit to cost 
ratio of the project to be at an impressive more than 20 to 1 benefit 
to cost.
    Port Freeport has the opportunity to solidify significant new 
business for Texas with this improvement project. In addition, the 
improvement to the environment by taking a huge number of trucks off of 
the road, transporting goods more economically and environmentally 
sensitive by waterborne commerce is infinitely important to the 
community, the State, and the Nation. Moreover, the enhanced safety of 
a wider channel cannot be overstated.
                    economic impact of port freeport
    Port Freeport is 16th in foreign tonnage in the United States and 
24th in total tonnage. The port handled over 25 million tons of cargo 
in 2001 and an additional 70,000 T.E.U.'s of containerized cargo. It is 
responsible for augmenting the Nation's economy by $7.06 billion 
annually and generating 30,000 jobs. Its chief import commodities are 
bananas, fresh fruit and aggregate while top export commodities are 
rice and chemicals. The port's growth has been staggering in the past 
decade, becoming one of the fastest growing ports on the Gulf Coast. 
Port Freeport's economic impact and its future growth is justification 
for its budding partnership with the Federal Government in this 
critical improvement project.
                     defense support of our nation
    Port Freeport is a strategic port in times of National Defense of 
our Nation. It houses a critically important petroleum oil reserve--
Bryan Mound. It also is the only port in Texas that is being considered 
by the United States Navy and General Dynamics as the site for the 
building of Amphibious Assault Vehicles. Its close proximity to State 
Highways 36 and 288 make it a convenient deployment port for Fort Hood. 
In these unusual times, it is important to note the importance of our 
ports in the defense of our Nation and to address the need to keep our 
Federal waterways open to deep-draft navigation.
                     community and industry support
    This proposed improvement project has wide community and industry 
support. The safer transit and volume increase capability is an 
appealing and exciting prospect for the users of Freeport Harbor and 
Stauffer Channel. The anticipated more than 20-to-1 benefit-to-cost 
ratio that was indicated from the Corps of Engineers reconnaissance 
study firmly solidified the Federal interest.
         what we need from the subcommittee in fiscal year 2004
    The Administration's budget included $250,000 for the first phase 
of the feasibility study, which will be conducted at a 50/50 Federal 
Government/local sponsor share. The Corps had indicated a capability 
for Fiscal Year 2004 of $500,000 to continue the feasibility study and 
keep this project on an optimal and most cost-efficient time frame for 
the Federal Government and the local sponsor. We respectfully request 
the additional $250,000 for fiscal year 2004.
                                 ______
                                 
              Prepared Statement of Cameron County, Texas
    On behalf of Cameron County and the users of the Gulf Intracoastal 
Waterway, (GIWW) Texas, we extend gratitude to Chairman Domenici, and 
members of the subcommittee for the opportunity to submit testimony in 
support of an appropriation to direct the United States Army Corps of 
Engineers (USACE) to conduct a reconnaissance study to reroute the 
GIWW.
    We express full support of the inclusion in the fiscal year 2004 
budget for: First Phase of feasibility study--$500,000.
                         history and background
    On September 15, 2001, a tugboat and several barges struck the 
Queen Isabella Causeway on the Gulf Intracoastal Waterway at the mouth 
of the Brownsville Ship Channel east of Port Isabel. The accident took 
the lives of eight people. On May 2, 2002, three barges being pushed by 
a tug collided with the swing bridge at Port Isabel, Texas, closing the 
waterway and stranding residents of Long Island Village. These 
accidents prompted Cameron County to request a reconnaissance study to 
study realignment of the portion of the Gulf Intracoastal Waterway near 
the swing bridge to straighten the circuitous route, thus significantly 
reducing the threat of future accidents.
    A January 1997 Reconnaissance Report of the Gulf Intracoastal 
Waterway-Corpus Christi Bay to Port Isabel, Texas (Section 216), was 
conducted by the United States Army Corps of Engineers. The study was 
initiated to determine the Federal interest in rerouting the GIWW. The 
information available at the time indicated a less than favorable 
benefit-to-cost ratio for the proposed realignment. Since the September 
15 incident, the Corps, Cameron County officials, and a number of local 
entities and residents of the County have reopened discussion of the 
rerouting of the GIWW.
    The Corps of Engineers agrees that new facts regarding the safety 
of the current alignment warrants a revisiting of the issue to 
determine the viability of rerouting the channel in a direct line from 
the point where the waterway crosses underneath the causeway to the 
point where it reaches the Brazos Santiago Pass and the Brownsville 
Ship Channel. The route in question is the exact one traveled by the 
tugboat and barges that struck the bridge on September 15, killing 
eight people. The tugboat captain failed to negotiate the sharp turn 
after it passed through the Long Island Swing Bridge. This particular 
turn is one of the most dangerous on the entire waterway.
                          project description
    The reconnaissance study allowed the Corps to reopen the 
examination of the rerouting of the GIWW on the basis of safety. The 
measure would seek to eliminate safety hazards to Port Isabel and Long 
Island residents created by barges that move large quantities of fuel 
and other potentially dangerous explosive chemicals through the 
existing route under the Queen Isabella Causeway. The overall goal of 
the study would be to enhance safety and transportation efficiency on 
this busy Texas waterway by removing the treacherous turn tug and barge 
operators are forced to make as they navigate the passage through the 
Long Island Swing Bridge. In addition to the hazardous curve, the 
winding and congested course taken by the waterway through the City of 
Port Isabel adds needless distance and time to the transportation of 
goods to and from Cameron County ports. These costs are borne not only 
by commercial operators using the waterway, but also by consumers and 
businesses all across Texas and the Nation. The rerouting would also 
seek to correct the adverse impact of waterway traffic on Cameron 
County residents. Apart from the obvious potential for damage to the 
Queen Isabella Causeway, adverse impacts are created by waterway 
traffic in the form of traffic delays associated with the Long Island 
Swing Bridge and the transportation of hazardous materials within 
several hundred feet of densely populated areas in Port Isabel and Long 
Island.
    Currently, a 1950's era swing bridge that floats in the waterway 
channel connects Long Island and the City of Port Isabel. As waterborne 
traffic approaches the bridge, cables are used to swing it from the 
center of the channel and then swing it back into place. This costly 
and time-consuming process, which frequently backs up traffic into the 
downtown business district of Port Isabel, is estimated to drain 
hundreds of dollars a year from the economy of this economically 
distressed area. More serious problems are created when the heavily 
used cables or winch motors on the swing bridge fail, leaving the 
bridge stuck in an open or closed position. Equipment failures often 
cause delays for several days and leave Long Island residents cut off 
from vehicle access or the ports of Port Isabel and Brownsville cut off 
from in-bound and out-bound barge traffic. During these times, supplies 
of vital commodities are halted all across the Rio Grande Valley as 
stocks dwindle and produce and finished goods begin to pile up.
                impact of the gulf intracoastal waterway
    The Gulf Intracoastal Waterway is an integral part of the inland 
transportation system of the United States. Stretching across more than 
1,300 coastal miles of the Gulf of Mexico, this man-made, shallow-draft 
canal moves a large variety and great number of vessels and cargoes. 
The 426 miles of the waterway running through Texas makes it possible 
to supply both domestic and foreign markets with chemicals, petroleum 
and other essential goods. Barge traffic is essential to many of the 
port economies from Texas to Great Lakes ports, indeed, throughout the 
entire GIWW. Some ports feel their future strategic plans are closely 
linked to the efficient operation of the GIWW. This is true for ports 
that rely almost entirely on barge traffic as well as ports that 
function primarily as recreational facilities. Most of the cargo moved 
along Texas waterways is petroleum and petroleum products. The GIWW is 
well suited for the movement of such cargo, and, therefore, has allowed 
many of the smaller, shallow-draft facilities to engage in both 
interstate and international trade. Commercial fishing access via the 
GIWW has had a significant impact on these port economies as well.
                               conclusion
    A 1995 Lyndon Baines Johnson School of Public Affairs report 
entitled ``The Texas Seaport and Inland Waterway System'' warned of 
concern with the safe operation of barges on the GIWW citing, ``a 
serious accident perhaps involving a collision between two barges 
carrying hazardous materials could force closure of the waterway''. No 
one foresee the terrible accident that occurred on September 15 or the 
additional one on May 2, 2002. The lives of eight people came to an end 
and the lives of their loved ones was irrevocably changed forever. This 
important waterway must be improved to prevent another tragedy.
         what we need from the subcommittee in fiscal year 2004
    The $500,000 that must be added to the fiscal year 2004 
appropriations bill will allow the Corps of Engineers to begin to 
remedy this dangerous situation. Cameron County, the users of the GIWW, 
and the residents of the area respectfully requests the addition of 
this much-needed appropriation.
                                 ______
                                 
   Prepared Statement of the Chambers County-Cedar Bayou Navigation 
                                District
    On behalf of the Chambers County-Cedar Bayou Navigation district 
and the users of the Cedar Bayou Channel, Texas, we extend gratitude to 
Chairman Domenici and members of the subcommittee for the opportunity 
to submit testimony in support of the improvement project for the Cedar 
Bayou Channel, Texas.
    We express full support of the inclusion in the fiscal year 2004 
budget for: Pre-Construction Engineering and Design (OEM) For Cedar 
Bayou, Texas--$100,000.
                         history and background
    The River and Harbor Act of 1890 originally authorized navigation 
improvements to Cedar Bayou. The project was reauthorized in 1930 to 
provide a 10-foot deep and 100-foot wide channel from the Houston Ship 
Channel to a point on Cedar Bayou 11 miles above the mouth of the 
bayou. In 1931, a portion of the channel was constructed from the 
Houston Ship Channel to a point about 0.8 miles above the mouth of 
Cedar Bayou, approximately 3.5 miles in length.
    A study of the project in 1971 determined that an extension of the 
channel to project Mile 3 would have a favorable benefit to cost ratio. 
This portion of the channel was realigned from mile 0.1 to mile 0.8 and 
extended from mile 0.8 to Mile 3 in 1975. In October 1985, the portion 
of the original navigation project from project Mile 3 to 11 was 
deauthorized due to the lack of a local sponsor. In 1989, the Corps of 
Engineers, Galveston District completed a Reconnaissance Report dated 
June 1989, which recommended a 12125 channel from the Houston Ship 
Channel Mile 3 to Cedar Bayou Mile 11 at the State Highway 146 Bridge. 
The Texas Legislature created the Chambers County-Cedar Bayou 
Navigation District in 1997 as an entity to improve the navigability of 
Cedar Bayou. The district was created to accomplish the purpose of 
Section 59, Article XVI, of the Texas Constitution and has all the 
rights, powers, privileges and authority applicable to Districts 
created under Chapters 60, 62, and 63 of the Water Code--Public Entity. 
The Chambers County-Cedar Bayou Navigation District then became the 
local sponsor for the Cedar Bayou Channel.
                project description and reauthorization
    Cedar Bayou is a small coastal stream, which originates in Liberty 
County, Texas, and meanders through the urban area near the eastern 
portion of the City of Baytown, Texas, before entering Galveston Bay. 
The bayou forms the boundary between Harris County on the west and 
Chambers County on the east. The project was authorized in Section 349 
of the Water Resources Development Act 2000, which authorized a 
navigation improvement of 12 feet deep by 125 feet wide from mile 2.5 
to mile 11 on Cedar Bayou.
                   justification and industry support
    First and foremost, the channel must be improved for safety. The 
channel is the home to a busy barge industry. The most cost-efficient 
and safe method of conveyance is barge transportation. Water 
transportation offers considerable cost savings compared to other 
freight modes (rail is nearly twice as costly and truck nearly four 
times higher). In addition, the movement of cargo by barge is 
environmentally friendly. Barges have enormous carrying capacity while 
consuming less energy, due to the fact that a large number of barges 
can move together in a single tow, controlled by only one power unit. 
The result takes a significant number of trucks off of Texas highways. 
The reduction of air emissions by the movement of cargo on barges is a 
significant factor as communities struggle with compliance with the 
Clean Air Act. Several navigation-dependent industries and commercial 
enterprises have been established along the commercially navigable 
portions of Cedar Bayou. Several industries have docks on at the mile 
markers that would be affected by this much-needed improvement. These 
industries include: Reliant Energy, Bayer Corporation, Koppel Steel, 
CEMEX, US Filter Recovery Services and Dorsett Brothers Concrete, to 
name a few.
                       project costs and benefits
    Congress appropriated $100,000 in fiscal year 2001 for the Corps of 
Engineers to conduct the feasibility study to determine the Federal 
interest in this improvement project. The study indicated a benefit to 
cost ratio of the project of 2.8 to 1. The estimated total cost of the 
project is $16.8 million with a Federal share estimated at $11.9 
million and the non-federal sponsor share of approximately $4.9 
million. Total annual benefits are estimated to be $4.8 million, with a 
net benefit of $3 million. Congress appropriated $400,000 each in 
fiscal year 2002 and fiscal year 2003 to support the feasibility study. 
This project is environmentally sound and economically justified.
         what we need from the subcommittee in fiscal year 2004
    We would appreciate the subcommittee's support of the required add 
of the $100,000 appropriation needed by the Corps of Engineers to 
complete the plans and specifications of the project so that it can 
move forward at an optimum construction schedule. The users of the 
channel deserve to have the benefits of a safer, most cost-effective 
Federal waterway.
                                 ______
                                 
          Prepared Statement of the City of Newark, New Jersey
    Chairman Domenici and members of the Subcommittee, thank you for 
giving the City of Newark the opportunity to submit testimony about a 
project under your jurisdiction which is very important to the quality 
of life of the people of Newark, New Jersey and the surrounding region. 
The Passaic River Streambank Restoration Project, known as the Joseph 
G. Minish Passaic River Waterfront Park and Historic Area, is an 
important part of the overall economic, land use and transportation 
development plan of the City of Newark.
    The Joseph G. Minish Park/Passaic Riverfront Historic Area project 
addresses the restoration and rehabilitation of approximately 9,000 
linear feet of Passaic River shoreline. This encompasses the eastern 
boundary of Newark's Central Business District, as well as the edge of 
the City's densely populated Ironbound neighborhood. This reach of the 
Passaic River, from Bridge Street to Brill Street, in the City of 
Newark is eroded, deteriorated and environmentally degraded due to past 
heavy commercial and industrial use and flooding. The total project 
includes bulkheading and other streambank restoration measures, the 
creation of a 40-foot-wide walkway on top of the bulkhead, and a system 
of open spaces tying together large public park areas as well as open 
space required in any private development.
    The project was authorized in the Water Resources Development Act 
(WRDA) of 1990 (Public Law 101-640) as an element of the Passaic River 
Flood Damage Reduction Project on November 28, 1990, modified in the 
Water Resources Development Act of 1992 (Public Law 102-580) by 
extending the project area, and further modified in the Water Resources 
Development Act of 1996 (Public Law 104-303). The project is divided 
into three phases. Phase I consists of 6,000 feet of bulkhead 
replacement (Bridge Street to Jackson Street) and 3,200 feet of 
wetlands restoration (Jackson Street to Brill Street). The Project 
Cooperation Agreement for Phase I was executed in May 1999. Plans and 
specifications for this first phase have been prepared, and it is being 
implemented in four contracts. Construction of the first bulkhead 
section at a value of $2,069,910 was completed in September of 2000. A 
second construction contract to continue Phase I has been contracted at 
a cost of $4.7 million, and is scheduled for completion in March 2003. 
The third contract specifications have been prepared, and will be bid 
as soon as required property remediation is completed by a private 
owner. The fourth contract includes a naturalized streambank area in 
the riverfront area adjacent to City and County parkland in a densely 
populated neighborhood, and could be constructed simultaneously to 
contract three. The Army Corps of Engineers has committed funds still 
available to apply toward Phase I elements. The State of New Jersey has 
been the primary cost-sharing sponsor of Phase I, with significant City 
investment and support. Some additional funding will be needed for 
Phase I, according to the U.S. Army Corps of Engineers March 2002 
project fact sheet. Prior appropriated funds have been utilized to 
fully design the bulkhead, a segment of naturalized streambank, and a 
system of walkways and public open spaces.
    City Engineering professionals are coordinating with the Corps to 
complete all elements of the bulkheading and its integration with 
significant Combined Sewer Overflow facilities and related Phase I 
costs. Close coordination has also been continuing with the NJ 
Department of Transportation, which is rebuilding the section of Route 
21 adjacent to Minish Park, and NJ Transit, which has begun 
construction of the Minimum Operable Segment of a light rail line, the 
Newark Elizabeth Rail Link, on the west side of Route 21. Adjacent, 
previously dormant, sites have become desirable locations for 
development of commercial properties, due to the projected walkway, 
park and open space facilities. The Federal Bureau of Investigation has 
become the tenant in a new office building on the riverfront, and a 
private developer is planning new housing units on a riverfront site 
adjacent to Penn Station. The complexity of all of these interrelated 
projects, as well as the private development of properties in the area, 
has increased the importance of moving the Minish Park construction at 
an accelerated pace.
    As planned, Phase II will add a 9,200-foot long and 40-foot-wide 
waterfront walkway on top of and adjacent to the bulkhead, and Phase 
III adds park facilities, plazas, and landscaping on the inland side of 
the promenade, between the river and Newark's downtown edge. Future 
project segments will create linkages to Riverbank Park and other 
community facilities, including a naturalized streambank and a new 
Essex County Park. However, a change in the phasing, but not the scope, 
of the overall project would provide needed open space in one of our 
Nation's oldest and most densely populated cities.
    It is vital to the interests of the City of Newark, its residents, 
visitors, businesses and investors that construction of the walkway and 
park between Penn Station and the northern end of the completed 
bulkhead proceed as soon as possible. This area includes the large park 
proposed at Center Street and the Riverfront. Construction of this 
project segment will allow pedestrians safe and convenient access to 
the riverfront from Newark Penn Station north to the New Jersey 
Performing Arts Center. The Army Corps has completed preliminary 
designs, so that the waterfront walkway can built over the two sections 
of the bulkhead which have been substantially completed, and the park 
built on adjacent property now owned by the City of Newark and other 
public entities.
    Mandatory site remediation by private owners on property slated for 
bulkhead construction has become more extensive than originally 
anticipated. Since design efforts for Phases II and III are underway, 
as are negotiations for a Project Cooperation Agreement, construction 
of Phases II and III can take place on completed areas of Phase I. This 
restoration will provide a new focal point for downtown development 
activities, reconnect Newark to its riverfront and maritime history, 
and allow neighborhood residents direct access to the riverfront as 
part of a much-needed recreation complex.
    An appropriation of $14 million for the continuation of 
construction on the Newark Riverfront Project is requested, so that 
this integral element in Newark's revitalization can move forward as 
planned, and can be utilized by the Army Corps of Engineers, in fiscal 
year 2004. The current funding will only take us through the 
construction of bulkhead and some of the mud flats restoration, not to 
a usable facility. An additional appropriation will enable the City, 
State and Corps to proceed with a Phase II City/Corps cooperative 
program agreement on the next set of essential Phase II and Phase III 
elements. This will include the walkway/greenway component above and 
behind the completed bulkheading, and the critical connective 
infrastructure that will be needed to insure access and maximum 
effectiveness and utilization of this project for the community and key 
stakeholders and project partners.
    A supplemental appropriation of $14 million is requested so that 
this integral element in Newark's revitalization can move from partial 
construction to the beginning of full project build-out. This 
investment in Newark's future will help us to improve the economic 
status of our Nation's third oldest major city. The development of the 
riverfront now is a critical element in the overall plan for Newark's 
downtown revitalization. This linear park will serve as a visual and 
physical linkage among several key and exciting development projects. 
It is adjacent to one of the oldest highways in the Nation, Route 21, 
which is undergoing a multi-million dollar realignment and enhancement. 
A light rail system, the Newark-Elizabeth Rail Link, is under 
construction. It will connect Newark's two train stations, and 
ultimately, Newark International Airport and the neighboring City of 
Elizabeth, providing users with access to mass transportation. 
Conversely, the riverfront will become a destination served by that 
system, providing an important open space and waterfront opportunity 
for residents of one of the most densely populated cities in the 
Nation.
    The environmental benefits of the project include flood control, 
riverbank and wetlands restoration, creation of urban green space, and 
enhancement of water quality in the Passaic River. These improvements 
will allow the Passaic River to be converted from one of the nation's 
most troubled waterways to a cultural and recreational asset. Ongoing 
and planned greenway projects will provide pedestrian and bicycle 
access to the waterfront from Newark's residential neighborhoods as 
well as the City's five major institutions of higher learning.
    The riverfront development will complement and provide a visual and 
physical connection with the $170 million New Jersey Performing Arts 
Center, which opened in the Fall of 1997 and has been incredibly 
successful. Further north along the riverfront, also accessible from 
the riverfront walkway when it is fully built, the City of Newark and 
Essex County have opened Riverfront Stadium, home to a minor league 
baseball team as well as community sporting events such as the Project 
Pride Bowl. Also in close pedestrian proximity is the site for the new 
Newark Sports and Entertainment Arena, which is expected to bring two 
million visitors a year into the area. In addition, NJ Transit has 
completed construction of a new concourse, which is directly adjacent 
to the riverfront. Once the park and walkway are completed, rail and 
bus passengers will be able to exit the Penn Station north concourse 
directly onto the riverfront area. On the eastern portion of Minish 
Park, residents of a crowded community, Newark's Ironbound, will have 
direct access to the river and its streambank for active and passive 
recreation for the first time.
    The riverfront will be the nexus of these activities, creating a 
vibrant downtown center that will provide economic development 
opportunities for the citizens of Newark and our region. Visitors from 
throughout the Nation are expected to come to visit our revitalized 
city, and participate in the exciting growth and development taking 
place. There is tremendous potential for Newark's riverfront to mirror 
the success of other riverfront developments throughout the country, 
and Newark stands ready to accept the challenges such developments 
present.
    The City of Newark has completed conducting a master plan study for 
the entire riverfront area, which will guide us in tying together these 
incredibly exciting, and challenging, projects. We have received State 
of New Jersey planning funds to develop a redevelopment plan for the 
entire site, which will serve to coordinate redevelopment plans with 
private developers, public agencies, and non-profit partners. Funds 
have also been made available by the State for a Newark Waterfront 
Community Access Study, which is examining the optimum way to safely 
cross Route 21 to enable pedestrians to enjoy the riverfront area. We 
have a once in a lifetime opportunity to coordinate several major 
development activities into a virtually seamless development plan. The 
appropriation of $15 million which Newark requests will serve to 
incorporate the Army Corps of Engineers' construction into our overall 
economic development plan to reinvigorate Newark. I urge you to support 
this appropriation request, and help us to continue Newark's 
revitalization.
    In closing, I would like to extend my thanks to the entire New 
Jersey delegation for its ongoing support, especially to subcommittee 
member Rodney Frelinghuysen for his advocacy of Newark's critical 
projects. The time and attention of this subcommittee are deeply 
appreciated.
                                 ______
                                 
         Prepared Statement of the City of Miami Beach, Florida
    On behalf of the City of Miami Beach, I appreciate this opportunity 
to submit for the record testimony in support of the request by Miami-
Dade County for beach renourishment funds.
              support for miami-dade construction request
    The City of Miami Beach would first like to thank the members of 
the subcommittee for all their efforts in the past to provide support 
for the State of Florida's beaches and in particular, those of Miami 
Beach.
    Beaches are Florida's number one tourist ``attraction.'' In 2002, 
beach tourism generated more than $16 billion for Florida's economy and 
more tourists visited Miami Beach than visited the three largest 
national parks combined.
    In addition to their vital economic importance, beaches are the 
front line defense for multi-billion dollar coastal infrastructure 
during hurricanes and storms. When beaches are allowed to erode away, 
the likelihood that the Federal Government will be stuck with 
astronomical storm recovery costs is significantly increased.
    The Florida Department of Environmental Protection estimates that 
at least 276 miles (35 percent) of Florida's 787 miles of sandy beaches 
are currently at a critical state of erosion. This includes the entire 
6 miles of Miami Beach. As a result of the continuing erosion process 
and more dramatically, recent intense storms which have caused 
tremendous damage to almost all of the dry beach and sand dune 
throughout the middle segment of Miami Beach. Three years ago, most of 
the Middle Beach dune cross-overs were declared safety hazards and 
closed, as the footings of the boardwalk itself were in immediate 
jeopardy of being undercut by the encroaching tides. If emergency 
measures, costing approximately $400,000 had not been taken by the 
City, there would have been considerable risk of coastal flooding west 
of the dune line in residential sections of Miami Beach. As you can 
see, this example points to the commitment we as a beach community have 
to our beaches, but Federal assistance remains crucial. While we are 
thankful of the substantial commitment made by the subcommittee in the 
fiscal year 2002 Energy and Water Conference Report, there is still 
much work to be done. Our beaches must be maintained not only to ensure 
that our residents and coastal properties are afforded the best storm 
protection possible, but also to ensure that beach tourism, our number 
one industry, is protected and nurtured.
    In 1987, the Army Corps of Engineers and Metropolitan Dade County 
entered into a 50-year agreement to jointly manage restore and maintain 
Dade County's sandy beaches. Since then, Metropolitan Dade County has 
been responsible for coordinating and funding the local share of the 
cost for the periodic renourishment of our beaches.
    In order to ensure that adequate funding will continue to be 
available, the City of Miami Beach supports and endorses the 
legislative priorities and appropriation requests of Metropolitan Dade 
County, as they relate to the restoration and maintenance of Dade 
County's sandy beaches. Specifically, the City respectfully adds their 
strong support for the efforts of Miami-Dade County and wholeheartedly 
supports their fiscal year 2003 request for beach renourishment funds.
    Your support would be appreciated, Mr. Chairman. The City of Miami 
Beach thanks you for the opportunity to present these views for your 
consideration.
                                 ______
                                 
     Prepared Statement of the Green Brook Flood Control Commission
                                summary
    The Commission requests that the Congress appropriate $10,000,000 
in Construction General Funds for the Project in fiscal year 2004, to 
continue construction of the Project.
    Mr. Chairman and Members of the Subcommittee, my name is Vernon A. 
Noble, and I am the Chairman of the Green Brook Flood Control 
Commission. I submit this testimony in support of the Raritan River 
Basin--Green Brook Sub-Basin project, which we request be budgeted in 
fiscal year 2004 for $10,000,000 in Construction General funds.
    As you know from our previous testimony, a tremendous flood took 
place in September of 1999. Extremely heavy rainfall occurred, 
concentrated in the upper part of Raritan River Basin. As a result, the 
Borough of Bound Brook, New Jersey, located at the confluence of the 
Green Brook with the Raritan River, suffered catastrophic flooding. 
Water levels in the Raritan River and the lower Green Brook reached 
record levels.
    There were tremendous monetary damages, and extensive and tragic 
human suffering.
    As we have previously reported to you, a thorough study of the 
water levels throughout the Bound Brook Borough area in the terrible 
flood of September, 1999 showed that although the flood water reached 
record levels, it would have been contained by the extra margin of 
safety, the ``free board'', which the Corps. of Engineers has 
incorporated in the design of this Project.
    The flooding of September 1999 is not the first bad flood to have 
struck this area. Records show that major floods have occurred here as 
far back as 1903.
    Disastrous flooding took place in the Green Brook Basin in the late 
summer of 1971. That flood caused $304,000,000 in damages (April 1996 
price level) and disrupted the lives of thousands of persons.
    In the late summer of 1973, another very severe storm struck the 
area, and again, thousands of persons were displaced from their homes. 
$482,000,000 damages was done (April 1996 price level) and six persons 
lost their lives.
    As you no doubt know, actual construction of the Project began in 
late fiscal year 2001. This first construction involved the replacement 
of an old bridge over the Green Brook which connects East Main Street 
in the Borough of Bound Brook, Somerset County, New Jersey, with 
Lincoln Boulevard in the Borough of Middlesex, in Middlesex County, New 
Jersey. That work is now complete, and the new bridge is in use.
    Last year, the New York District of the Corps of Engineers awarded 
the second construction contract, known as Segment T.
    This Segment T contract will complete the construction of 
protection for the eastern section of the Borough of Bound Brook, New 
Jersey. The protection consists of levees and associated elements which 
will connect with the new and higher bridge. This Segment T also 
includes a large pumping station being built into the levee, for the 
purpose of gathering up the internal rain water, and pumping it safely 
over the levee and in to the Green Brook stream on the other side of 
the levee.
    The next following segment of the Project is planned for 
construction to begin later this year. This next construction, known as 
Segment U, will begin the protection for the western portion of Bound 
Brook Borough.
    As that segment gets into construction, the final plans for the 
remaining segments for the protection of Bound Brook Borough will be 
translated into construction documents.
    It is important to recognize that the Borough of Bound Brook will 
remain in danger of further catastrophic flooding until the ring of 
protection for the Borough is completed.
    The constructed completed thus far will not provide protection for 
Bound Brook Borough until the ring is closed around the Borough. It is 
of the utmost importance that the remaining construction to complete 
the protection for the people and property of Bound Brook Borough be 
carried forward with dispatch. With the continued support of the 
Congress, this work can continue seamlessly during the next few years.
    Since the devastating Floyd flood of 1999, the Borough of Bound 
Brook has been in desperate financial condition. That flood destroyed 
extensive tax rateables, and the Borough is in a critical situation. 
The only hope for stabilizing the municipal tax situation is 
redevelopment projects in Bound Brook. Because of its strategic 
location, there appear to be significant redevelopment opportunities 
available for Bound Brook Borough.
    However, realization of redevelopment depends upon completion of 
flood protection on schedule.
    Bound Brook Borough needs flood protection sooner, not later.
    To accomplish that, the Project requires $10,000,000 in Federal 
appropriation for fiscal year 2004.
    The Green Brook Flood Control Commission was established in 1971, 
pursuant to an Act of the New Jersey Legislature shortly after the very 
bad flood of 1971.
    The Green Brook Flood Control Commission is made up of appointed 
representatives from Middlesex, Somerset and Union Counties in New 
Jersey, and from the 13 municipalities within the Basin. This 
represents a combined population of about one-quarter of a million 
people.
    The Members of the Commission are all volunteers, and for 32 years 
have served, without pay, to advance the cause of flood protection for 
the Basin. Throughout this time, the Corps of Engineers, New York 
District, has kept us informed of the progress of their work, and a 
representative from the Corps has been a regular part of our monthly 
meetings.
    We believe that it is clearly essential that the Green Brook Flood 
Control Project be carried forward, and pursued vigorously, to achieve 
protection at the earliest possible date. This Project is needed to 
prevent loss of life and property, as well as the trauma caused every 
time there is a heavy rain.
    New Jersey has programmed budget money for its share of the Project 
in fiscal year 2004.
    We urgently request an appropriation for the Project in fiscal year 
2004 of $10,000,000.
    The Green Brook Flood Control Commission is dedicated to the 
proposition that Bound Brook Borough, and the other municipalities, and 
their thousands of residents, who would otherwise suffer in the next 
major flood, must be protected. We move forward with continued 
determination to achieve the protection which the people of the flood 
area need and deserve.
    With your continued support, we are determined to see this Project 
through to completion.
    Thank you, Mr. Chairman, and Members of the subcommittee, for your 
vitally important past support for the Green Brook Flood Control 
Project; and we thank you for the opportunity to submit this testimony.

                                                                            GREEN BROOK FLOOD CONTROL PROJECT FUNDING
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                                                                Cumulative Money
                                                                  Federal         Congressional                         Effective Net    Transfer by Corps      Net Money      Received by Corps
                    Federal Fiscal Year                        Administration     Appropriation       Savings and      Appropriation to   To (-) From (+)     Available for          Since
                                                              Budget  Request       (Nominal)          Slippages           Corps of        Other Projects    Work on Project    Authorization in
                                                                                                                          Engineers                          (Work Allowance)         1986
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
1986.......................................................           $445,000           $445,000           -$19,000           $426,000  .................           $426,000           $426,000
1987.......................................................          1,370,000          1,370,000  .................          1,370,000  .................          1,370,000          1,796,000
1988.......................................................          1,400,000          1,400,000  .................          1,400,000  .................          1,400,000          3,196,000
1989.......................................................          1,500,000          1,500,000            -68,000          1,432,000  .................          1,432,000          4,628,000
1990.......................................................          1,200,000          1,200,000           -116,000          1,084,000           +$23,000          1,107,000          5,735,000
1991.......................................................          2,000,000          2,000,000           -496,000          1,504,000            -98,000          1,406,000          7,141,000
1992.......................................................          2,600,000          3,169,000           -364,000          2,805,000  .................          2,805,000          9,946,000
1993.......................................................  .................          3,500,000  .................          3,500,000  .................          3,500,000         13,446,000
1994.......................................................  .................          2,800,000           -594,000          2,206,000           +571,000          2,777,000         16,223,000
1995.......................................................          2,000,000          2,000,000  .................          2,000,000           +135,000          2,135,000         18,358,000
1996.......................................................          3,600,000          3,600,000           -932,000          2,668,000           +193,000          2,861,000         21,219,000
1997.......................................................          2,781,000          2,781,000           -300,000          2,481,000  .................          2,781,000         24,000,000
1998.......................................................  .................          3,100,000           -189,000          2,911,000  .................          2,911,000         26,911,000
1999.......................................................  .................          9,900,000           -694,000          9,206,000         -6,500,000          2,706,000         29,617,000
2000.......................................................          1,000,000          1,000,000           -142,000            858,000  .................            858,000         30,475,000
2001.......................................................          4,000,000          4,000,000           -640,000          3,360,000            +89,000          3,449,000         33,924,000
2002.......................................................         10,000,000         10,000,000         -1,598,000          8,402,000         -1,000,000          7,402,000         41,326,000
2003.......................................................          5,000,000          7,000,000  .................  .................  .................  .................  .................
2004.......................................................          6,500,000     \1\ 10,000,000  .................  .................  .................  .................  .................
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Recommendation of the Green Brook Flood Control Commission for Fiscal Year 2004 to Continue Construction
 Reference: This summary of funding for the Green Brook Flood Control Project has been assembled based upon publicly available information.

                       DEPARTMENT OF THE INTERIOR

                         Bureau of Reclamation

   Prepared Statement of the Garrison Diversion Conservancy District
    Mr. Chairman, Members of the Committee, my name is Dave Koland; I 
serve as the manager of the Garrison Diversion Conservancy District. 
The mission of the Garrison Diversion is to provide a reliable, high 
quality and affordable water supply to the areas of need in North 
Dakota. Over 77 percent of our State residents live within the 
boundaries of Garrison Diversion. I would like to comment on the impact 
that the President's fiscal year 2004 budget request has on the effort 
to provide reliable, high quality and affordable water supplies to the 
citizens of North Dakota through the Garrison Diversion Unit.
    The President's fiscal year 2004 budget request removed, from the 
Garrison Diversion Unit budget, funding for one of the most successful 
government programs in North Dakota. As I read the OMB Program 
Assessment Rating Tool (PART), dealing with Rural Water Supply 
Projects, I can only conclude that they had no knowledge of the North 
Dakota Municipal, Rural and Industrial (MR&I) program.
    The MR&I program was started in 1986 after the Garrison Diversion 
Unit was reformulated from a million-acre irrigation project into a 
multipurpose project with emphasis on the development and delivery of 
municipal and rural water supplies. The statewide MR&I program has 
focused on providing grant funds for water systems that provide water 
service to unserved areas of the State. The State has followed a policy 
of developing a network of regional water systems throughout the State. 
Every rural water system built in North Dakota is still operating. They 
are providing safe, clean water to their members, reducing their debt, 
putting money in reserve, complying with every State and Federal 
regulation, and doing so with a stable, prudent rate structure.
                      north dakota's success story
    Rural communities offer the experience and lifestyle many people 
seek in which to raise their family. People live on farmsteads with a 
rural water connection, while farmsteads without decent water stand 
empty. For instance, Sheridan County lost 20.4 percent of its 
population between 1990 and 2000, yet the rural water system serving 
that county hardly lost a connection. Good water does make a difference 
as to where people choose to live.
    The key to providing water to small communities and rural areas has 
been the Grant and Loan program of Rural Development and the MR&I 
program jointly operated by the Garrison Diversion Conservancy District 
and the State Water Commission. Without the assistance of these two 
grant programs, the exodus from the rural areas would have been a 
stampede.
    Rural water systems are being constructed using a unique blend of 
local expertise, State financing, rural development loans, MR&I grant 
funds to provide an affordable rate structure, and the expertise of the 
Bureau of Reclamation to deal with environmental issues. The projects 
are successful because they are driven by a local need to solve a water 
quantity or quality problem. The solution to the local problem is 
devised by the community affected by the problem. Early, local buy-in 
helps propel the project through the tortuous pre-construction stages.
    The MR&I program has been so successful and so important to North 
Dakota that the North Dakota Legislature loaned the program $15 million 
to help deal with the severe lag time that developed in the Federal 
appropriations process.
    The desperate need for clean, safe water is evidenced by the 
willingness of North Dakota's rural residents to pay water rates well 
above the rates EPA considers affordable. The EPA Economic Guidance 
Workbook states that rates greater than 1.5 percent of the median 
household income (MHI) are not only unaffordable, but also ``may be 
unreasonable''.
    The average monthly cost on a rural water system for 6,000 gallons 
of water is currently $48.97. The water rates in rural North Dakota 
would soar to astronomical levels without the 75 percent grant dollars 
in the MR&I program. For instance, current rates would have to average 
a truly unaffordable $134.19/month or a whopping 3.8 percent of the 
MHI. Rates would have ranged as high as $190.80/month or a prohibitive 
5.3 percent of MHI without the assistance of the MR&I program.
    The people waiting for water in our rural communities are willing 
to pay far more than what many consider an affordable, or even 
reasonable, price for clean, safe water.
                           environmental laws
    The Bureau of Reclamation plays a vital role by ensuring compliance 
with the National Environmental Policy Act of 1969 (NEPA) and dealing 
with international issues. Such is the case with the Northwest Area 
Water Supply Project (NAWS). Canada and the province of Manitoba have 
filed a lawsuit protesting the thorough Final Environmental Assessment 
and the subsequent Finding of No Significant Impact on the NAWS 
project.
    One reason for the success of the North Dakota program is the 
reliance on local control. Decision-making is accomplished at the 
lowest level possible. The decision on who the system can afford to 
provide service to and the rate structure is made by a local board of 
directors composed of members who will be served by the water system. 
Volunteer involvement and low administrative costs are hallmarks of the 
program. Local firms that have experience in designing and constructing 
systems in North Dakota typically provide engineering services.
    Across North Dakota, we have seen the impact of providing good 
water to rural areas and witnessed the dramatic change in small 
communities. Homes once occupied by aging widows are soon rented or 
sold to young adults, while houses and farmsteads without rural water 
stand empty.
    Good drinking water is still a dream in many rural North Dakota 
communities. Turning on the tap each morning brings brown, putrid 
smelling water instead of clear, fresh water a majority of people 
enjoy.
    The opportunity to impact rural North Dakota is now. If we do 
nothing, it is easy to predict what will occur in rural North Dakota. 
We only need to look at counties without good water.
    It is in the best interest of North Dakota and the 150+ local 
communities not yet served by a regional system that we build every 
piece of rural infrastructure feasible. We must continue to build on 
what has proven so successful in the past.
    Providing a reliable source of good, clean water in rural areas has 
worked to stabilize the rural economy in North Dakota. The combination 
of leveraging Rural Development loan funds with MR&I grant dollars has 
provided a cost efficient, long-term solution to the rural communities 
in North Dakota.
    If we act now, we can make a difference in rural North Dakota. 
Providing for healthy, vibrant rural communities is good for North 
Dakota and good for our Nation. We know from past experience that 
providing good water for rural communities is one sure way of helping 
people change the future.
    The MR&I program in North Dakota should serve as an outstanding 
example of a successful program that could be implemented in other 
States.
           discussion of overall bureau of reclamation budget
    It is important to recognize that the fiscal year 2004 budget 
submission of $771 million for the Bureau of Reclamation's Water and 
Related Resources program is $45 million more than their request for 
fiscal year 2003. It is $150 million less than has been called for by 
the ``Invest in the West'' Coalition, a coalition of nine western water 
organizations that are involved in the full array of western water 
issues.
    The ``Invest in the West'' goal, one with which I agree, is to 
raise the Bureau's Water and Related Resources Budget to $1 billion by 
the end of fiscal year 2005. This is simply a goal to restore the 
budget to previous levels. The erosion of the Bureau's budget during 
the 1990s has created problems across the west for virtually all of its 
constituents.
               budget impacts on garrison diversion unit
    At this point, I would like to shift to the particulars of the 
budget as it impacts the Garrison Diversion program and some specific 
projects within the State of North Dakota. Let me begin by reviewing 
the various elements within the current budget request and then discuss 
the impacts the current level of funding will have on the program.
    Attachment 1 shows the funding history over the last 7 years for 
the Garrison Diversion Unit. The average is approximately $27 million. 
The President's budget request for fiscal year 2004 is $17.314 million. 
A continuation of this trend is a formula for disaster. The President's 
budget request does not even maintain the historic funding level and 
ignores the needs of the current programs and does not keep up with 
price increases expected in major programs as delays occur. 
Fortunately, Congress saw fit to provide that the unexpended 
authorization ceilings would be indexed annually to adjust for 
inflation in the construction industry. The proposed allocation to the 
indexed programs in the President's budget is zero. If a modest 2 
percent inflation factor is assumed, the increase will be $8 million 
for MR&I and $2 million for the Red River Valley phase. Simply put, 
with the current request, we will lose ground on the completion of 
these projects.
    This year, the District is asking the Congress to appropriate a 
total of $61.3 million for the Project. Attachment 2 is a breakdown of 
the elements in the District's request. To discuss this in more detail, 
I must first explain that the Garrison Diversion budget consists of 
several different program items. For ease of discussion, I would like 
to simplify the breakdown into three major categories. The first I 
would call the base operations portion of the budget request. 
Attachment 3 contains a breakdown of the elements in that portion of 
the budget. This amount is nominally $20 million annually. However, as 
more Indian MR&I projects are completed, the operation and maintenance 
costs for these projects will increase and create a need that will need 
to be addressed.
    The second element of the budget is the MR&I portion. This consists 
of both Indian and non-Indian funding. The Dakota Water Resources Act 
contains an additional $200 million authorization for each of these 
programs. For discussion purposes, I have lumped them together and 
acknowledged that, however each program proceeds, it is our intent that 
each reaches the conclusion of the funding authorization at 
approximately the same time. We believe this is only fair.
    The MR&I program consists of a number of medium-sized projects that 
are independent of one another. Project costs generally run around $20 
million. Some are, of course, smaller and others somewhat larger. One 
that is considerably larger is the NAWS Project. The first phase of 
this project is under construction. The optimum construction schedule 
for completion of the first phase has been determined to be 5 years. 
The total cost of the first phase is $66 million. At a 65 percent cost 
share, the Federal funding needed to support NAWS is $43 million. On 
the average, the annual funding for the NAWS Project alone is over $8 
million. Four other projects have been approved for future funding, and 
numerous projects on the reservations are ready to begin construction. 
These requests will all compete with one another. It will be a delicate 
challenge to balance these projects. Nevertheless, we believe that once 
a project is started, it needs to be pursued vigorously to completion. 
If not, we simply run up the cost and increase the risk of 
incompatibility among the working parts.
    An example of the former would be the certain impact of the 
increased cost of construction over time through inflation, as well as 
increased engineering and administration costs.
    The third element of the budget is the Red River Valley Water 
Supply Project (RRV) construction phase. The Dakota Water Resources Act 
authorized $200 million for the construction of facilities to meet the 
water quality and quantity needs of the Red River Valley communities. 
It is my belief that the final plans and authorizations, if necessary, 
should be expected in approximately 5 years. This will create an 
immediate need for increased construction funding.
    This major project, once started, should be pursued vigorously to 
completion. The reasons are the same as for the NAWS project and relate 
to good engineering construction management. Although difficult to 
predict at this time, it is reasonable to plan that the RRV project 
features, once started, should be completed in approximately 7 years. 
This creates a need for an additional $25 million. Fortunately, it 
appears the RRV project start will probably follow the completion of 
the NAWS first phase.
    Using these two projects as examples sets up the argument for a 
steadily increasing budget. First, to accelerate the MR&I program in 
early years to assure the timely completion of the NAWS project and 
then to ready the budget for a smaller MR&I allocation when the RRV 
project construction begins.
    Attachment 4 illustrates the level of funding for the two major 
items, MR&I and RRV. It is quickly apparent that if a straight-line 
appropriation is used for each, a funding spike will occur in the sixth 
year. This is when an additional $25 million will suddenly be needed 
for the RRV program. It is simply good management to blend these needs 
to avoid drastic hills and valleys in budget requests. By accelerating 
the construction of NAWS and other projects, which are ready for 
construction during the early years, some of the pressure will be off 
when the RRV project construction funding is needed. Over time, a 
smoother, more efficient construction program will result.
    Attachment 5 shows such a program. It begins with a $61.3 million 
budget this year and gradually builds to over $90 million when the RRV 
construction could be in full swing (fiscal year 2008). Mr. Chairman, 
this is why we believe it is important that the budget resolution 
recognize that a robust increase in the budget allocation is needed for 
the Bureau of Reclamation. We hope this testimony will serve as, at 
least, one example of why we fully support the efforts of the ``Invest 
in the West'' campaign to increase the overall allocation by $150 
million in fiscal year 2004 and, over time, an increase totaling $1 
billion.
    The Bureau of Reclamation, Rural Development, Garrison Diversion 
Conservancy District, State Water Commission and local rural water 
districts have formed a formidable alliance to deal with the lack of a 
high quality, reliable water source throughout much of North Dakota. 
These cost-effective partnerships of local control, statewide guidance 
and Federal support have combined to provide safe, clean, potable water 
to hundreds of communities and thousands of homes across North Dakota.



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    attachment 2.--justification for $61.3 million gdu appropriation
                            fiscal year 2004
    Northwest Area Water Supply is under construction after 15 years of 
study and diplomatic delay. Construction of first phase is estimated to 
be $66 million.
    Designs are based on a 5-year construction period; thus, $12 
million is needed for NAWS alone. Indian MR&I programs should be 
approximately the same.
    Ramsey County expansion, Southwest Pipeline, and Williston Water 
Treatment Plant are under construction.
    Red River Valley special studies are underway and need to be 
accelerated.

                              [In millions]
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
OPERATION AND MAINTENANCE OF INDIAN MR&I SYSTEMS PLUS               $3.4
 JAMESTOWN DAM..........................................
BREAKDOWN OF $57.9 MILLION CONSTRUCTION REQUEST:
    Operation and Maintenance of Existing Supply System.             4.8
    Wildlife Mitigation & Natural Resources Trust.......             4.4
    Red River Valley Special Studies and EIS............             1.0
    Indian and non-Indian MR&I..........................            39.0
    Indian Irrigation...................................             3.2
    Recreation..........................................             0.5
    Under financing 9.5 percent.........................             5.0
                                                         ---------------
      Total for Construction............................            57.9
                                                         ---------------
      Grand Total.......................................            61.3
------------------------------------------------------------------------

attachment 3.--elements of the base operations portion of the garrison 
                 diversion unit budget fiscal year 2004

                              [In millions]
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Operation and Maintenance of Indian MR&I Systems and                $3.4
 Jamestown Dam..........................................
Operation and Maintenance of Existing GDU Facilities....             4.8
Funding of Natural Resources Trust and Remaining                     4.4
 Wildlife Mitigation Programs...........................
Indian Irrigation.......................................             3.2
Recreation..............................................             0.5
Under financing at 9.5 percent..........................             5.0
                                                         ---------------
      Total.............................................            21.3
------------------------------------------------------------------------

                                                          <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                                          
                                                          <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                                          
                                 ______
                                 
      Letter From the North Dakota Rural Water Systems Association
                            Bismarck, North Dakota, March 26, 2003.
Gale Norton,
U.S. Dept. of Interior, Washington, DC 20240.
    Dear Ms. Norton: The North Dakota rural water community would 
appreciate your assistance and support to restore rural water funding 
for the fiscal year 2004 and re-establish a firm rural water supply 
function of the Bureau of Reclamation (BOR) for 2005 and beyond.
    North Dakota has a healthy relationship with the BOR and has worked 
side-by-side in the development and building of rural water systems. 
The North Dakota State Water Commission, Garrison Diversion Conservancy 
District, BOR, and project sponsors have successfully built rural water 
systems in a team effort throughout North Dakota.
    This unique team concept has delivered water through pipeline 
projects to small communities as well as to rural residents at 
responsible costs. North Dakota rural residents are willing to pay a 
reasonable cost-share to complete current projects and begin future 
projects. The EPA's household affordability ratio states water rates 
should be 1.5 percent to 2.5 percent of a household's median income to 
be considered affordable. The attached document provides information 
documenting household water rate affordability ratios that range from 
2.07 percent to 2.31 percent. These percentiles weigh on the high side 
of what the EPA suggests is affordable.
    The Southwest Pipeline Project provides treated drinking water via 
2,600 miles of pipeline and serves 23 communities and more than 2,300 
rural residents. The Federal cost-share of this project is $7,200 per 
connection. The life of a water system is estimated at 40 years. $7,200 
per connection divided by 40 years equals an investment by the Federal 
Government of $180 per year per connection. North Dakota has a long 
list of additional rural water projects that reflect similar economics. 
Is $180 per year per connection too much for the Federal Government to 
invest to sustain residents in rural North Dakota, which ranks 4th in 
the harvesting of our Nation's principal crops?
    New Federal drinking water regulations have increased the cost and 
complexity of the water treatment and distribution process. 
Increasingly, small communities find that their best and most efficient 
solution for safe drinking water is to obtain their water supply from a 
rural water system. Small communities simply cannot afford to comply 
with the Federal mandates in many situations. In an effort to comply 
with the Safe Drinking Water Act, communities with populations of less 
than 500 will have to invest more than $1 million in treatment 
facilities. Rural water systems provide a dependable supply of treated 
drinking water to communities and rural residents from centralized 
treatment facilities resulting in a very cost effective way to treat 
water.
    Drought conditions have plagued the west, southwest, and central 
areas of North Dakota. Indications are that this drought pattern will 
continue and is moving east as well. The need for an abundant supply of 
quality water is serious.
    The Dakota Water Resources Act authorized an additional $200 
million for state MR&I and $200 million for tribal MR&I projects. North 
Dakota has started a process of long-range water development planning 
with many rural water systems in the construction phase. The Dakota 
Water Resources Act is the basis of our planning. North Dakota has had 
a healthy relationship with the BOR and is willing to share in the cost 
of developing and building water systems to sustain our North Dakota 
heritage.
            Respectfully submitted,
                                            Stuart Carlson,
                                                Executive Director.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
       Prepared Statement of the Oregon Water Resources Congress
    The Oregon Water Resources Congress (OWRC) was established in 1912 
as a trade association to support member needs, to protect water rights 
and encourage conservation and water management statewide. OWRC 
represents non-potable agriculture water suppliers in Oregon, primarily 
irrigation districts, as well as member ports, other special districts 
and local governments. The association represents the entities that 
operate water management systems, including water supply reservoirs, 
canals, pipeline and hydropower production.
                         bureau of reclamation
    For this reason we support an increase of $150 million above the 
administration's proposed budget request for the Bureau of 
Reclamation's programs westwide. The administration's current budget 
proposal is $45 million less than Congress provided in the 2003 omnibus 
appropriations for Reclamation.
    With many western States confronting significant budget deficits, 
increased emphasis is being placed on targeted Federal aid. Oregon is 
facing a $2 billion deficit, or about 16 percent of the State's general 
fund budget. We also support the Western Water Initiative of the Bureau 
of Reclamation.
                              oregon needs
Conservation Implementation
    The largest need for funding for OWRC's members is to implement 
water conservation projects. Irrigation districts in Oregon continue to 
line and pipe open waterways to enhance both water supply and water 
quality. But the ability to continue this work depends on some public 
investment in return for the public benefits. Districts have conserved 
water and provided some of the saved or conserved water to benefit the 
fishery instream while also building reservoir supplies. Oregon 
districts hope to continue this work through enhanced conservation, but 
to do that the districts need support to implement effective 
alternative programs such as pilot water banking projects (Klamath 
Basin and the Deschutes Basin), energy reduction programs, additional 
measurement and telemetry monitoring, etc.
Rogue River Basin
            Medford Irrigation District
            Rogue River Valley Irrigation District
            Talent Irrigation District
            Grants Pass Irrigation District
    Three contiguous districts in the Rogue Project (Medford, Rogue 
River and Talent irrigation districts) are requesting $1 million to 
fund the Bear Creek and Little Butte Optimization Study by the Bureau 
of Reclamation. That study will propose a plan to conserve water 
throughout the basin by lining and piping canals within the districts, 
considering the potential for raising Howard Prairie Dam and the 
feasibility of other conservation options.
    The Grants Pass Irrigation District (GPID) continues to address 
conservation and the eventual outcome of the Savage Rapids Dam. In the 
2004 budget, $3,700,000 is requested for the Rogue River Water 
Conservation Project of the Grants Pass Irrigation District as part of 
the Department of Agriculture budget for the Natural Resources 
Conservation Service, or the Western Water Initiative or other 
applicable programs. If that amount is not fully funded, any unfounded 
amount would be requested as part of an ongoing multiyear request. This 
amount is not included in the administration's requested budget. The 
request is supported by the Governor's office, as well as conservation 
and recreation interests. The district will provide matching funds.
    The GPID funding will be used to install piping or lining in 68.4 
miles of existing open ditches and canals to reduce water seepage 
losses. These actions will eliminate 53 percent of seepage and reduce 
the District's diversion from the Rogue River by approximately 8,300 
acre feet of water annually.
Deschutes Basin
            Tumalo Irrigation District
            Deschutes Resource Conservancy
            Ochoco Irrigation District
    The Tumalo Irrigation District has been piping canals and replacing 
other water management structures to achieve conservation measures 
districtwide. Public Law 106-496 authorized $2.5 million for the 
current portion of the work to be accomplished. The district requests 
$882,500 as the final portion of the authorized funds.
    In the 2002 budget Congress appropriated $300,000 but the Bureau of 
Reclamation reduced the amount to $275,000. In the 2003 budget Congress 
appropriated $1,300,000 but Reclamation reduced that amount to 
$750,000. As this work is already in the engineering and construction 
process, the shortfall is delaying the project and the $882,500 is 
needed to complete the conservation package.
    The Ochoco Irrigation District (Prineville, Oregon) has worked with 
the Bureau of Reclamation, along with the North Unit Irrigation 
District (Madras, Oregon) for the better part of a decade to determine 
the use of unallocated water in the district's reservoir. Approximately 
$200,000 in additional dollars is required to finish the project. 
Reclamation earlier invested $500,000 in the process, which has not 
been completed.
    The Deschutes Resource Conservancy has requested $2 million for 
fiscal year 2004. The DRC is a non-profit corporation authorized by 
Congress to receive technical assistance and financial support from 
Federal agencies to support conservation and restoration in the 
Deschutes Basin of Central Oregon, founded by 7 irrigation districts, 
the Warm Springs Confederated Tribe, and others to maximize 
collaborative efforts in the basin. Since 1998, the DRC has granted 
irrigation districts and their water users almost $1 million in funding 
for piping and water conservation work. The current request includes 
partial funding of a pilot water banking project to enhance the 8,000 
acre feet of leased water developed in 2001 and 2002. Expectations for 
storage enhancement in 2003 exceed earlier program results.
    From the funding request, in addition to the water bank, the DRC 
hopes to fund pilot water management projects within the districts for 
$550,000, providing telemetry and monitoring devices, restoring private 
lands on tributaries in the Ochoco district, providing tailwater 
management to enhance water quality in other districts, and evaluating 
the feasibility of generating hydropower within irrigation pipelines.
Umatilla/Columbia Basins
            Stanfield Irrigation District
            Westland Irrigation District
            Hermiston Irrigation District
            West Extension Irrigation District
    The Umatilla districts draw their water supply from the Umatilla 
and Columbia Rivers. The districts are in the process of completing 
boundary changes and seeking supplemental contracts as part of the 
conclusion of the boundary process. This process has been on going for 
a decade. The districts are not proposing new legislation or funding 
but appreciate legislative oversight to get this project completed. If 
the Bureau of Reclamation cannot accommodate these needs within its 
existing budget, then additional funding should be provided to expedite 
the conclusion of this long on-going need.
Eastern Basins
            Burnt, Malheur, Owyhee and Powder River Basins Water 
                    Optimization Study
    The irrigation districts in these basins continue to seek support 
for this optimization study to seek alternatives for more effective 
water management through conservation projects and enhancement of water 
supply. This project has been identified by the Bureau of Reclamation 
as a regional need.
Klamath Basin
    The Klamath Project districts continue to require support of their 
Water Bank proposal, fishscreen funding and other projects within 
Reclamation's budget for the Mid-Pacific Division.
    In addition to those needs, the Enterprise Irrigation District in 
the Klamath Basin has specific needs for funding two small projects 
totaling a Federal request of $98,179. To eliminate water losses and 
improve water management and control, the district requires $64,916 for 
a repair and enhancement of a particular lateral in its system. The 
district will be providing its portion of the cost share in addition to 
that amount. Another portion of the system can be repaired and upgraded 
by provision of $33,263. The district will provide additional cost 
share funds.
    Thank you for the opportunity to provide testimony regarding the 
2004 Federal budget. While we support existing proposals, we feel that 
given the record-setting droughts we have suffered in the past few 
years and in anticipation of another drought this year, we need to 
support an increased budget to stabilize the Nation's water supply for 
the many needs it must meet. Providing a stable water supply feeds the 
economy locally and at the national level.
                                 ______
                                 
      Prepared Statement of the National Urban Agriculture Council
    Mr. Chairman, Members of the subcommittee, I am Roger Waters, 
President of the National Urban Agriculture Council (NUAC). NUAC is a 
national nonprofit organization established as a center for the 
promotion and implementation of effective water management in the urban 
landscape.
    NUAC's objective is to enhance the environment by increasing 
education, training, and research on the use of recycled water and 
water conservation techniques that produce healthier and more vigorous 
landscapes while conserving potable water supplies. NUAC is 
headquartered in Washington, DC. NUAC is a service and product oriented 
council that is involved with quality research, technology development, 
training, community outreach, and program and policy development. 
Additionally, NUAC partners with our members and State and Federal 
agencies to address the related issues of water availability, drought 
preparedness and water management policy.
    I would like to offer testimony on six Bureau of Reclamation 
programs: Drought Emergency Assistance; Efficiency Incentives, Water 
Management and Conservation, Technical Assistance to States, Soil and 
Moisture Conservation, and the Title XVI--Water Reclamation and Reuse.
    I would like to request that the subcommittee support efforts to 
increase the overall Water and Related Resources budget of the Bureau 
of Reclamation by $150 million above the administration's request in 
fiscal year 2004. NUAC is part of the Western Water Industry's ``Invest 
In the West'' campaign that aims to substantially increase the Bureau's 
Water and Related Resources Budget to $1 billion by fiscal year 2005 to 
meet critical water supply improvements throughout the western United 
States. NUAC is proud to be a part of the important campaign on this 
issue that includes the Western Coalition of Arid States, the WateReuse 
Association, the Family Farm Alliance, the National Water Resources 
Association, the Association of California Water Agencies, the Oregon 
Water Resources Congress, the Upper Missouri Water Association and the 
Idaho Water Users Association.
                      drought emergency assistance
    NUAC was an active participant in the Interim National Drought 
Policy Commission's efforts that produced a report and plan for moving 
forward on recommendations for a national drought policy for our 
country. Part of NUAC's core mission is to serve as a center for the 
acceptance, promotion, and implementation of practical, science-based 
water resource management and conservation measures. An important 
element of our mission is making sure water users are prepared for the 
eventuality of drought. We have been supportive of the efforts of the 
Commission to produce such a vision as part of their recommendations in 
the final report.
    Federal response to drought planning has great impact on the 
economic strength of our Nation. The USDA in the Global Climate Change 
Prevention Act of 1990 underscored the need to address drought related 
information and to ``coordinate research and share expertise with other 
Federal agencies working on issues related to global change''. NUAC 
believes that other Federal agencies require similar funding to meet 
research objectives and prepare for the challenges of drought planning. 
Droughts drastically impact the availability of water resources for all 
purposes. The Agricultural Research Service has identified the drought 
of 1988 as the most costly natural disaster in U.S. history with 
economic losses estimated at more than $39 billion.
    The Bureau of Reclamation requested $1,120,000 for fiscal year 
2004. NUAC believes and would ask that Congress consider, that given 
the ongoing and likely future potential for droughts throughout our 
country, a budget of $10 million be included in this program for fiscal 
year 2004. The Bureau of Reclamation and the Department of Agriculture 
appear to be the agencies best suited to working with State and local 
governments, tribes and local water users on the issue of drought. 
Through active planning these agencies future will save the Federal 
Government from the more costly future expense of emergency bailouts to 
recuperate from the devastation of drought. Funding commensurate with 
the responsibilities of drought planning needs to be provided to the 
Bureau in order for the agency to meet its objectives.
                     efficiency incentives program
    NUAC is supportive of this program that provides a partnership 
among the Bureau of Reclamation, water users and States to implement 
water use efficiency and conservation solutions that are tailored to 
local conditions. The Bureau of Reclamation requested only $3,265,000 
for the program for fiscal year 2004. We would like to see the program 
increased up to $5,000,000 so that a greater amount of work can take 
place among water districts throughout the west for the necessary 
planning, assistance, training and development of water conservation 
plans and water efficient landscapes. The need for this training was a 
key impetus upon which NUAC was founded. Water resource managers and 
policy makers are increasingly challenged by management issues. 
Paramount to making good management decisions is the availability of 
sound scientifically based information. This information is the 
keystone to the development of practical and environmentally sound 
programs that are cost effective and socially responsible.
               water management and conservation program
    On the surface this program appears to be a duplication of other 
Bureau of Reclamation assistance programs. The Bureau of Reclamation 
requested $6,639,000 for this program for fiscal year 2004. A question 
that has arisen is whether the Bureau of Reclamation has construction 
authority for funds provided to districts under the program. This is an 
issue we would like the Committee to clear up so projects could go 
forward. We believe the funding requested is less than adequate and 
would suggest it be increased to $10 million. However, if construction 
is going to occur under this program, we would suggest a cap on the 
size of the project receiving such funding, so it does not become a 
program for the few and not the many.
                   technical assistance to the states
    NUAC is concerned with how this program has been cut by Congress 
over the past several years. We believe the data collection and 
analyses for management of water and related land resources that occurs 
with this funding is extremely important in the absence of a national 
water policy. We would ask that the request of $1,908,000 not be cut. 
We would further request that funding be increased to $3 million to 
help make up the shortfall that has occurred from previous cuts.
                     soil moisture and conservation
    The modest amount of the Bureau of Reclamation's request, $267,000 
makes this program appear unimportant. NUAC would like to see this 
increased by a modest amount to $500,000 with the caveat that this 
increase be tied to assisting in implementing the recommendations of 
the final National Drought Policy Commission Report. We believe this 
program should be examined to see if it can assist in the proper site 
management of Federally funded structures that require water for urban 
landscapes and horticultural purposes.
                 title xvi--water reclamation and reuse
    NUAC is supportive of the funding that has been provided for the 
ongoing projects authorized by the Title XVI Program. The $12,680,000 
budget request is substantially below the $36 million provided by 
Congress for fiscal year 2002 and we would request that you consider 
increasing the funding at least up to that level this year. The funding 
provided for research, new starts, and feasibility studies needs to be 
examined from the standpoint of how long it is going to take to fund 
the existing projects, instead of looking to increase the number of 
projects. We believe there is a need for a serious discussion among 
water policy leaders on the methods to fund the future of this program 
in a timely manner. With regard to research, we see this as an area for 
the private and public sector to move forward on their own. It is 
important that discussions continue on how and for what type of 
research needs to take place and the role Reclamation should play in 
that agenda. We believe the results of those discussions would be 
beneficial in terms of laying the groundwork for any future legislative 
changes to the program and NUAC looks forward to continuing to be a 
part of that effort.
                        western water initiative
    We note with some interest the new Western Water Initiative that is 
proposed for fiscal year 2004 for $11 million. The Budget documents do 
not give a lot of detail in terms of how this initiative is going to 
actually work. We believe it is important for the Bureau to report on 
an annual basis what they have done with the money, who has received 
the funding and the expected results from the funding that is provided. 
We believe it is important to put additional funding into water 
management and conservation, as well as the science and technology 
program.
    An issue that we have with the Initiative is that it was developed 
without any input from the stakeholders in the Reclamation program. We 
spent considerable time and resources being involved in the Strategic 
Plan development of the Bureau and the Department of the Interior. This 
Initiative is being proposed and a direction being set that could have 
been more fully developed and targeted if an opportunity had been 
provided for such involvement. It raises the question of why this 
funding was not directly incorporated into the existing program and how 
it will be integrated into those programs' missions.
    Thank you for the opportunity to provide testimony for the record 
on these programs.
                                 ______
                                 
 Prepared Statement of the Central Arizona Water Conservation District 
                                (CAWCD)
    Mr. Chairman, the Central Arizona Water Conservation District 
(CAWCD) is pleased to offer the following testimony regarding the 
fiscal year 2004 Energy and Water Development Appropriations Bill.
    The Central Arizona Project or ``CAP'' was authorized by the 90th 
Congress of the United States under the Colorado River Basin Project 
Act of 1968. The CAP is a multi-purpose water resource development 
project designed to deliver the remainder of Arizona's entitlement of 
Colorado River water into the central and southern portions of the 
State for municipal and industrial, agricultural, and Indian uses. The 
Bureau of Reclamation (Reclamation) initiated project construction in 
1973, and the first water was delivered in 1985. The CAP is now 
delivering its full normal year entitlement of 1.5 million acre-feet 
and Arizona is utilizing its full Colorado River apportionment of 2.8 
million acre-feet.
    CAWCD was created in 1971 to contract with the United States to 
repay the reimbursable construction costs of the CAP that are properly 
allocable to CAWCD, primarily non-Indian water supply and commercial 
power costs. CAWCD also operates and maintains the project. Its service 
area is comprised of Maricopa, Pima, and Pinal counties. CAWCD is a 
tax-levying public improvement district, a political subdivision, and a 
municipal corporation governed by a 15-member Board of Directors 
elected from the three counties it serves. CAWCD's Board members are 
public officers who serve without pay and represent roughly 80 percent 
of the water users and taxpayers of the State of Arizona.
    Project repayment is provided for through a 1988 Master Repayment 
Contract between CAWCD and the United States. Project repayment began 
in 1994 for Stage 1 and in 1997 for Stage 2. To date, CAWCD has repaid 
$685 million of CAP construction costs to the United States.
    In 2000, CAWCD and Reclamation successfully negotiated a settlement 
of the dispute regarding the amount of CAWCD's repayment obligation for 
CAP construction costs. This dispute has been the subject of ongoing 
litigation in United States District Court in Arizona since 1995. The 
settlement provides a 3-year timeframe, ending in May 2003, in which to 
complete several other activities that are necessary for the settlement 
to become final, including a final Indian water rights settlement for 
the Gila River Indian Community. In 2002, when it became apparent that 
these activities would not be completed by the May 2003 deadline, CAWCD 
initiated discussions with representatives of the Department of the 
Interior to extend the terms of the repayment stipulation. The 
Department of the Interior has now agreed to extend the terms of the 
repayment stipulation to May 2012 which should allow the United States 
sufficient time to complete the necessary activities.
                        central arizona project
    CAP construction activities are not yet complete. In its fiscal 
year 2004 budget request, Reclamation seeks $34,087,000 for the CAP.
    CAP Indian Distribution Systems.--$23,048,000 is requested for the 
construction of Indian distribution systems. CAWCD continues to support 
appropriations necessary to ensure timely completion of all CAP Indian 
distribution systems. Most of the CAP non-Indian distribution systems 
were completed over 10 years ago; however, many of the Indian systems 
remain incomplete. CAWCD supports full funding for this important 
program.
    CAP Biological Opinion Costs.--$6,787,000 is earmarked to fund 
activities associated with implementation of a 1994 biological opinion 
of the U.S. Fish and Wildlife Service (FWS) pertaining to delivery of 
CAP water to the Gila River Basin and for native fish activities on the 
Santa Cruz River. Historically, CAWCD has objected to Reclamation's 
continued spending in these areas. Both environmental groups and CAWCD 
challenged the 1994 biological opinion in court. However, given its 
settlement with the United States over CAP costs, and a final judgment 
in the litigation concerning the 1994 biological opinion, CAWCD 
supports Reclamation's budget request to allow it to complete 
Endangered Species Act compliance for CAP deliveries in the Gila River 
basin.
    Environmental Activities at New Waddell Dam.--Reclamation is again 
requesting funds ($115,000) to complete a reservoir limnology follow-up 
study at Lake Pleasant, continue Fish and Wildlife Coordination Act 
activities, and support non-contract costs (Reclamation staff costs). 
According to Reclamation, this is the last environmental impact 
statement commitment for New Waddell Dam. Reclamation has carried this 
funding request in its budget justification documents for the past 5 
years with no apparent progress toward its completion. CAWCD would urge 
Reclamation to expedite the completion of this study and close out its 
environmental program at New Waddell Dam.
    Environmental Activities at Modified Roosevelt Dam.--Reclamation is 
again requesting funds ($2,027,000) to complete environmental 
activities at Modified Roosevelt Dam. This includes Endangered Species 
Act compliance for the southwestern willow flycatcher and support for 
Reclamation's non-contract costs. As is the case with New Waddell Dam, 
these activities have been ongoing for at least 5 years with no 
apparent end in sight. While CAWCD supports Reclamation's activities to 
comply with the Endangered Species Act at Modified Roosevelt Dam, CAWCD 
would also urge Reclamation to expedite the completion of these 
activities and close out its environmental program at Modified 
Roosevelt Dam.
    Tucson Reliability Division.--Reclamation is requesting $390,000 to 
continue coordination and design elements for the water supply 
reliability features of the Tucson Reliability Division, also known as 
Tucson Terminal Storage. The budget justification documents indicate 
that these funds will be used to complete the planning report, 
environmental impact statement, and designs for the reservoir. CAWCD is 
not aware of any Reclamation decisions to actually construct 
reliability features in the Tucson area. The repayment stipulation 
requires that, prior to construction of any such feature, CAWCD must be 
consulted regarding the development of these features and the 
associated repayment obligation. While CAWCD supports the continuation 
of planning efforts to identify acceptable reliability features for the 
Tucson area, we expect to be consulted as planning activities proceed.
    Recreational Trails.--CAWCD notes that Reclamation is requesting 
$702,000 for the development of recreational trails along portions of 
the Hayden Rhodes Aqueduct in Phoenix and Scottsdale. An additional 
$600,000 is requested for the development of recreational trails along 
portions of the Tucson Aqueduct in Pima County. $439,000 is identified 
to support Reclamation's non-contract costs associated with various 
land management activities throughout the CAP service area. CAWCD 
continues to experience significant land management conflicts at the 
CAP interface with private property owners. These conflicts might be 
remedied through the development of an appropriate trails system. CAWCD 
strongly supports Reclamation's activities in this area.
                 lower colorado river operations--mscp
    In its fiscal year 2004 budget request, Reclamation also seeks 
$13,822,000 for its Lower Colorado River Operations Program. This 
program is necessary for Reclamation to continue its activities as the 
``water master'' on the lower Colorado River. In addition, this program 
provides Reclamation's share of funding to complete the Lower Colorado 
River Multi-Species Conservation Program (MSCP). Of the $13,822,000 
sought, $2,769,000 is for administration of the Colorado River, 
$1,821,000 is for water contract administration and decree accounting, 
and $7,748,000 is for fish and wildlife management and development. The 
fish and wildlife management and development program includes 
$5,094,000 for the MSCP; an additional $4,000,000 will be contributed 
by non-Federal entities.
    CAWCD supports Reclamation's budget request for the Lower Colorado 
River Operations Program. The increased funding level is necessary to 
support the MSCP effort as well as environmental measures necessary to 
fully implement the interim surplus criteria for the lower Colorado 
River. Once reinstated, the interim surplus guidelines would allow the 
Secretary of the Interior to declare limited Colorado River surpluses 
through 2016 to assist California in gradually reducing its use of 
Colorado River to its annual apportionment of 4.4 million acre-feet. 
These are both critical programs upon which Lower Colorado River water 
and power users depend.
    The MSCP is a cost-shared program among Federal and non-Federal 
interests to develop a long-term plan to conserve endangered species 
and their habitat along the Lower Colorado River from Lake Mead to 
Mexico. CAWCD is one of the cost-sharing partners. Development of this 
program will conserve hundreds of threatened and endangered species 
and, at the same time, allow current water and power operation to 
continue. CAWCD strongly supports Reclamation's budget request for 
development and implementation of the MSCP.
         colorado river basin salinity control project--title i
    In its fiscal year 2004 budget request, Reclamation is requesting 
$11,250,000 under the Colorado River Basin Salinity Control Project--
Title I. This program supports the operation of the Yuma Desalting 
Plant (YDP), maintaining the U.S. Bypass Drain and the Mexico Bypass 
Drain, and ensuring that Mexican Treaty salinity requirements are met. 
Currently, Reclamation is not operating the YDP. Instead, Reclamation 
is allowing all Wellton-Mohawk drainage water (over 100,000 acre-feet 
per year) to bypass the YDP and flow to the Santa Clara Slough in 
Mexico. These flows are in excess of Mexican Treaty requirements and 
represent a significant depletion of the Colorado River water currently 
in storage. Continuing this practice will eventually reduce the amount 
of water available to the Central Arizona Project, the lowest priority 
water user in the Colorado River basin, and increase the risk of future 
shortages for CAP water users. The Colorado River system is now in its 
fourth consecutive year of below normal runoff, and water levels in 
Lake Powell and Lake Mead are at their lowest levels in 30 years. In 
fact, water year 2002 was the lowest runoff year in recorded history on 
the Colorado River. Reclamation's operation of the YDP would conserve 
an additional 100,000 to 120,000 acre feet per year of Colorado River 
water for use by the lower basin States. This amount is roughly equal 
to the City of Phoenix's full annual entitlement to CAP water.
    Reclamation acknowledges that the House of Representatives Report 
accompanying the fiscal year 1995 Energy and Water Development 
Appropriations bill directed Reclamation to maintain the YDP in such a 
manner as to be capable of operating at one-third capacity with a 1-
year notice of funding. While the Plant was operated at one-third 
capacity for a few months in 1992, it has not been operational at any 
time since that test operation. Even though Congress has annually 
appropriated several million dollars for Reclamation to maintain and 
rehabilitate the YDP, Reclamation now states in a draft report recently 
provided to CAWCD and other interested parties that it would require 
$11 million for specific rehabilitation and modernization costs and 24 
to 30 months to bring the YDP to operational readiness at one-third 
capacity. An additional $15 million and an additional 12 to 24 months 
would be needed to make the Plant fully operational. We request that 
Reclamation be directed to bring the Plant to a state of readiness as 
soon as possible. We believe that Reclamation can achieve one-third 
operational capacity in 24 months within the funding limits currently 
requested if it directs those monies toward that goal.
    The $11,225,000 fiscal year 2004 budget request contains several 
activities that could and should be stopped and those expenditures 
directed toward making the plant operational using up-to-date 
technology that will enhance both plant capacity and efficiency as well 
as reduce operating cost:
  --$751,000 of the request is listed as Water and Energy Management 
        and Development. It is further described as technology research 
        for lower cost operation of the YDP. All of this amount could 
        be dedicated to making the plant operational.
  --$1,773,000 is listed as Facility Operations. While much of these 
        activities are directed toward Title I features other than the 
        YDP, part of the expenditures are for Pilot system operation 
        and research and testing of the Water Quality Improvement 
        Center. Some of these expenditures could be redirected to 
        making the plant operations.
  --$5,524,000 is listed as Facilities Maintenance and Rehabilitation 
        and is further described as ``continuous efforts to ensure the 
        YDP can operate for treaty and other Federal requirements.'' 
        Based on the activities described, essentially all of these 
        dollars could and should be directed to making the YDP 
        operational.
  --$3,242,000 is described as being needed to continue a long term 
        program to bank water, to continue design deficiency 
        corrections, and to continue the YDP permitting and 
        environmental compliance process. There is no ongoing program 
        to bank water. Any water banking program would involve the 
        Interstate Water Banking program in Arizona. No such program is 
        planned in Arizona for YDP purposes. The other two activities 
        in this category already contribute to making the YDP 
        operational; therefore, all of these funds could and should be 
        directed toward making the plant operational.
    A Reclamation analysis of Title I expenditure in 2001 indicates 
less than $2,500,000 was spent for maintenance of facilities or 
activities other than the YDP. That information and the analysis of the 
$11,250,000 fiscal year 2004 funding requests demonstrates that 
Reclamation could direct at least $8,000,000 of its fiscal year 2004 
funding request toward making the YDP operational.
    CAWCD welcomes this opportunity to share its views with the 
Committee, and would be pleased to respond to any questions or 
observations occasioned by this written testimony.
                                 ______
                                 
               Letter From the Tumalo Irrigation District
                                                    March 28, 2003.
Honorable Pete V. Domenici,
Chair, Committee on Appropriations, Subcommittee on Energy and Water, 
        SD-156 Dirksen Senate Office Building, Washington, DC 20510.
    Dear Chairman Domenici: The Tumalo Irrigation District (TID) in 
Bend, Oregon respectfully requests your support for inclusion of 
$882,000 in the fiscal year 2004 Energy and Water appropriations bill 
for the District's Bend Feed Canal Project. The 106th Congress 
authorized the U.S. Bureau of Reclamation to participate in the further 
construction associated with the project in the amount of $2.5 million. 
This amount would complete the Bureau's share of the project 
construction funding.
    The TID is proposing to continue and complete in this next fiscal 
year construction to pipe a critical portion of our open canals, 
essentially eliminating water loss and enhancing public safety along 
the project's approximate 14,500 foot length. The conserved water would 
be used to deliver enhanced water to the TID irrigators even in drought 
years, as they currently receive inadequate water in 8 of 10 years. It 
will also increase stream flows in Tumalo Creek and the Deschutes 
River.
    The TID Board of Directors has expressed its willingness to pay 
their share of the estimated $5 million project cost of this important 
project and have provided all of their share. We are concerned that no 
funding for the project was requested by the administration in their 
Fiscal Year 2004 Budget for the Bureau of Reclamation. Our request for 
$882,000 for fiscal year 2004 would allow us to complete the project in 
this next fiscal year which would benefit both the District and the 
general public. We appreciate the previous funding that we have 
received for work in this area and look forward to your favorable 
consideration of our request.
            Sincerely,
                                           Elmer McDaniels,
                                                           Manager.
                                 ______
                                 
 Prepared Statement of the Colorado River Basin Salinity Control Forum
         bureau of reclamation--fiscal year 2004 appropriation
    Colorado River Basin Salinity Control Forum's Recommendation:
  --Title II Program Authorized in 1995 (Public Law 104-20)--
        $17,500,000.
  --General Investigation Funds--Adequate Funding.
  --Operation and Maintenance--Adequate Funding.
    This testimony is in support of funding for the Title II Colorado 
River Basin salinity control program. Congress has designated the 
Department of the Interior, Bureau of Reclamation (Reclamation), to be 
the lead agency for salinity control in the Colorado River Basin. This 
role and the authorized program were refined and confirmed by the 
Congress when Public Law 104-20 was enacted. A total of $17,500,000 is 
requested for fiscal year 2004 to implement the needed and authorized 
program. Failure to appropriate these funds will result in significant 
economic damage in the United States and Mexico.
    The President's request for funding for fiscal year 2004 is 
$9,198,000 for this program. Studies have shown that implementation of 
the program has fallen behind the needed pace to control salinity 
concentrations. In previous years, the President has supported, and 
Congress has funded, a program at about $12 million. In recent years, 
the President's requests have dropped and this year's request, in the 
judgement of the Forum, is inappropriately low. Water quality 
commitments to downstream U.S. and Mexican water users must be honored 
while the Basin States continue to develop their Compact apportioned 
waters of the Colorado River. Concentrations of salts in the river 
cause hundreds of millions of dollars in damage in the United States 
and result in poorer quality water being delivered by the United States 
to Mexico. For every 30 mg/l increase in salinity concentrations, there 
is $75 million in additional damages in the United States. The Forum, 
therefore, believes implementation of the program needs to be 
accelerated to a level beyond that requested by the President.
    The program authorized by the Congress in 1995 has proven to be 
very successful and very cost effective. Proposals from the public and 
private sector to implement salinity control strategies have far 
exceeded the available funding and Reclamation has a backlog of 
proposals. Reclamation continues to select the best and most cost-
effective proposals. Funds are available for the Colorado River Basin 
States' cost sharing for the level of Federal funding requested by the 
Forum. Water quality improvements accomplished under Title II of the 
Colorado River Basin Salinity Control Act also benefit the quality of 
water delivered to Mexico. Although the United States has always met 
the commitments of the International Boundary & Water Commission's 
(Commission) Minute 242 to Mexico with respect to water quality, the 
United States Section of the Commission is currently addressing 
Mexico's request for better water quality at the International 
Boundary.
    Some of the most cost effective salinity control opportunities 
occur when the USBR can improve irrigation delivery systems at the same 
time that the USDA's program is working with landowners (irrigators) to 
improve the on-farm irrigation systems. Through the newly authorized 
USDA EQIP program, adequate on-farm funds appear to be available and 
adequate USBR funds are needed to maximize the effectiveness of the 
effort.
                                overview
    In 2000, Congress reviewed the program as authorized in 1995. 
Following hearings, and with administration support, the Congress 
passed legislation that increased the ceiling authorized by this 
program by $100 million. Reclamation has received cost-effective 
proposals to move the program ahead and the Basin States have funds 
available to cost-share up-front.
    The Colorado River Basin Salinity Control Program was authorized by 
Congress in 1974. The Title I portion of the Colorado River Basin 
Salinity Control Act responded to commitments that the United States 
made, through Minute 242, to Mexico concerning the quality of water 
being delivered to Mexico below Imperial Dam. Title II of the Act 
established a program to respond to salinity control needs of Colorado 
River water users in the United States and to comply with the mandates 
of the then newly legislated Clean Water Act. Initially, the Secretary 
of the Interior and Reclamation were given the lead Federal role by the 
Congress. This testimony is in support of adequate funding for the 
Title II program.
    After a decade of investigative and implementation efforts, the 
Basin States concluded that the Salinity Control Act needed to be 
amended. Congress revised the Act in 1984. That revision, while leaving 
implementation of the salinity control policy with the Secretary of the 
Interior, also gave new salinity control responsibilities to the 
Department of Agriculture, and to the Bureau of Land Management. 
Congress has charged the administration with implementing the most 
cost-effective program practicable (measured in dollars per ton of salt 
removed). The Basin States are strongly supportive of that concept as 
the Basin States cost share 30 percent of Federal expenditures up-front 
for the salinity control program, in addition to proceeding to 
implement their own salinity control efforts in the Colorado River 
Basin.
    The Colorado River Basin Salinity Control Forum (Forum) is composed 
of gubernatorial appointees from Arizona, California, Colorado, Nevada, 
New Mexico, Utah and Wyoming. The Forum has become the 7-State 
coordinating body for interfacing with Federal agencies and Congress to 
support the implementation of the program necessary to control the 
salinity of the river system. In close cooperation with the 
Environmental Protection Agency (EPA) and under requirements of the 
Clean Water Act, every 3 years the Forum prepares a formal report 
analyzing the salinity of the Colorado River, anticipated future 
salinity, and the program necessary to keep the salinities under 
control.
    In setting water quality standards for the Colorado River system, 
the salinity levels measured at Imperial, and below Parker, and Hoover 
Dams in 1972 have been identified as the numeric criteria. The plan 
necessary for controlling salinity and to reduce downstream damages has 
been captioned the ``plan of implementation.'' The 2002 Review of water 
quality standards includes an updated plan of implementation. The level 
of appropriation requested in this testimony is in keeping with the 
agreed upon plan. If adequate funds are not appropriated, State and 
Federal agencies involved are in agreement that damage from the higher 
salt levels in the water will be more widespread in the United States 
as well as Mexico and will be very significant.
                             justification
    The $17,500,000 requested by the Forum on behalf of the seven 
Colorado River Basin States is the level of funding necessary to 
proceed with Reclamation's portion of the plan of implementation. In 
July of 1995, Congress amended the Colorado River Basin Salinity 
Control Act. The amended Act gives Reclamation new latitude and 
flexibility in seeking the most cost-effective salinity control 
opportunities, and it provides for utilization of proposals from 
project proponents as well as more involvement from the private as well 
as the public sector. The result is that salt loading is being 
prevented at costs often less than half the cost under the previous 
program. Congress recommitted its support to the revised program when 
it enacted Public Law 106-459. The Basin States' cost sharing up-front 
adds 43 cents for every Federal dollar appropriated. The federally 
chartered Colorado River Basin Salinity Control Advisory Council, 
created by the Congress in the Salinity Control Act, has met and 
formally supports the requested level of funding. The Basin States urge 
the subcommittee to support the funding as set forth in this testimony.
                     additional support of funding
    In addition to the funding identified above for the implementation 
of the most recently authorized program, the Salinity Control Forum 
urges the Congress to appropriate necessary funds needed to continue to 
maintain and operate salinity control facilities as they are completed 
and placed into long-term operation. Reclamation has completed the 
Paradox Valley unit which involves the collection of brines in the 
Paradox Valley of Colorado and the injection of those brines into a 
deep aquifer through an injection well. The continued operation of this 
project and other completed projects will be funded through Operation 
and Maintenance funds.
    In addition, the Forum supports necessary funding to allow for 
continued general investigation of the salinity control program. It is 
important that Reclamation have planning staff in place, properly 
funded, so that the progress of the program can be analyzed, 
coordination between various Federal and State agencies can be 
accomplished, and future projects and opportunities to control salinity 
can be properly planned to maintain the water quality standards for 
salinity so that the Basin States can continue to develop their 
Compact-apportioned waters of the Colorado River.
                                 ______
                                 
 Prepared Statement of the Fort Peck Assiniboine and Sioux Tribes and 
                        Dry Prairie Rural Water
                    fiscal year 2004 budget request
    The Fort Peck Assiniboine and Sioux Tribes and Dry Prairie Rural 
Water respectfully request fiscal year 2004 appropriations for the 
Bureau of Reclamation from the Subcommittee on Energy and Water 
Development. Funds will be used to construct critical elements of the 
Fort Peck Reservation Rural Water System, Montana, (Public Law 106-382, 
October 27, 2000). The amount requested is $14,486,000 as set out 
below:

------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Missouri River Water Treatment Plant....................     $10,604,000
Fort Peck Electrical, Meters, Easements.................         650,000
Culbertson to Medicine Lake.............................       3,618,000
Dry Prairie P Electrical, Meters, Easements.............         635,000
                                                         ---------------
      Total.............................................      15,507,000
                                                         ---------------
Federal.................................................      14,486,000
Non-Federal.............................................       1,021,000
------------------------------------------------------------------------

    The sponsor Tribes and Dry Prairie greatly appreciate the 
appropriations from the subcommittee for fiscal year 2003 that have 
permitted significant progress on the Missouri River intake and the 
first phase of the Culbertson to Medicine Lake Project.
                          proposed activities
    This project, which includes all of the Fort Peck Indian 
Reservation in Montana and the Dry Prairie portion of the project 
outside the Reservation, was authorized by Public Law 106-382, October 
27, 2000. The request for fiscal year 2004 will begin the construction 
of the Missouri River water treatment plant, which will require fiscal 
year 2005 funds for completion. The request will also complete the 
Culbertson to Medicine Lake Project, which was initiated in fiscal year 
2003. The Master Plan on page 2 of the testimony shows the relationship 
of the fiscal year 2004 request to the funds requested in fiscal year 
2003 and the needs in fiscal year 2005.

                                                   MASTER PLAN--ASSINIBOINE SIOUX AND DRY PRAIRIE RWS
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                   Appropriated                            Funding Needs
                                           Project Cost  --------------------------------------------------------------------------------   Fiscal Year
                 Segment                    (Oct. 2002)     Fiscal Year     Fiscal Year                                                     2007-Fiscal
                                                            2002 Funds      2003 Funds         2004            2005            2006          Year 2012
--------------------------------------------------------------------------------------------------------------------------------------------------------
Assiniboine and Sioux RWS:
    Intake..............................      $3,418,000  ..............      $3,418,000  ..............  ..............  ..............              $0
    Missouri River Water Treatment Plant      19,861,000  ..............         464,000      $8,000,000     $11,397,000  ..............               0
    Poplar to Big Muddy.................      25,583,000  ..............               0  ..............  ..............     $12,792,000      12,791,000
    Highway 13 to FP Boundary...........      10,430,000  ..............               0  ..............  ..............  ..............      10,430,000
    Poplar to Wolf Point................      16,794,000  ..............               0  ..............  ..............  ..............      16,794,000
    Wolf Point to Porcupine Ck..........      28,539,000  ..............               0  ..............  ..............  ..............      28,539,000
    FP OM Buildings.....................       1,050,000  ..............               0  ..............  ..............  ..............       1,050,000
    Fort Peck Electrical, Meters,              4,414,000  ..............               0         490,000         490,000         490,000       2,944,000
     Easements..........................
                                         ---------------------------------------------------------------------------------------------------------------
      Subtotal..........................     110,089,000              $0       3,882,000       8,490,000      11,887,000      13,282,000      72,548,000
                                         ---------------------------------------------------------------------------------------------------------------
    Planning, Design, Admin:
        Reclamation Oversight...........       4,634,000         295,000         154,000         465,000         465,000         465,000       2,790,000
        Environmental Mitigation........         579,000               0               0          64,000          64,000          64,000         387,000
        Administration..................       7,987,000         503,000         322,000         796,000         796,000         796,000       4,774,000
        Easement Acquisition............       3,104,000               0               0         345,000         345,000         345,000       2,069,000
        Design..........................       8,980,000       2,237,000         500,000         500,000         829,000         911,000       4,003,000
        Inspection......................       8,109,000               0         272,000         594,000         832,000         930,000       5,481,000
                                         ---------------------------------------------------------------------------------------------------------------
          Subtotal......................      33,393,000       3,035,000       1,248,000       2,764,000       3,331,000       3,511,000      19,504,000
                                         ---------------------------------------------------------------------------------------------------------------
          Total.........................     143,482,000       3,035,000       5,130,000      11,254,000      15,218,000      16,793,000      92,052,000
                                         ===============================================================================================================
Dry Prairie RWS:
    Big Muddy to Plentywood:
        Culbertson to Medicine Lake.....       4,630,000  ..............       2,265,000       2,365,000  ..............  ..............               0
        Remaining.......................      17,289,000  ..............               0               0       2,000,000       5,096,000      10,193,000
    FP Boundary to Scobey...............       4,540,000  ..............               0               0  ..............  ..............       4,540,000
    Scobey to Plentywood................      11,097,000  ..............               0               0  ..............  ..............      11,097,000
    Scobey to Opheim....................       8,962,000  ..............               0               0  ..............  ..............       8,962,000
    Porcupine Creek to Glasgow..........       4,370,000  ..............               0               0  ..............  ..............       4,370,000
    Glasgow to Opheim...................       3,955,000  ..............               0               0  ..............  ..............       3,955,000
    DP OM Buildings.....................         525,000  ..............               0               0  ..............  ..............         525,000
    Dry Prairie P Electrical, Meters,          3,732,000  ..............               0         415,000         415,000         415,000       2,487,000
     Easements..........................
                                         ---------------------------------------------------------------------------------------------------------------
      Subtotal..........................      59,100,000               0       2,265,000       2,780,000       2,415,000       5,511,000      46,129,000
                                         ---------------------------------------------------------------------------------------------------------------
    Planning, Design, Admin:
        Reclamation Oversight...........       2,497,000          85,000          63,000         261,000         261,000         261,000       1,566,000
        Environmental Mitigation........         313,000           6,000          20,000          32,000          32,000          32,000         191,000
        Administration..................       4,675,000         121,000         132,000         491,000         491,000         491,000       2,949,000
        Easement Acquisition............         899,000          31,000          26,000          94,000          94,000          94,000         560,000
        Design..........................       4,838,000         342,000         100,000         350,000         427,000         427,000       3,192,000
        Inspection......................       4,369,000  ..............         170,000         245,000         219,000         386,000       3,349,000
                                         ---------------------------------------------------------------------------------------------------------------
          Subtotal......................      17,591,000         585,000         511,000       1,473,000       1,524,000       1,691,000      11,807,000
                                         ---------------------------------------------------------------------------------------------------------------
          Total.........................      76,691,000         585,000       2,776,000       4,253,000       3,939,000       7,202,000      57,936,000
                                         ===============================================================================================================
          Total.........................     220,173,000       3,620,000       7,906,000      15,507,000      19,157,000      23,995,000     149,988,000
                                         ===============================================================================================================
Federal.................................     201,767,000       3,480,000       7,240,000      14,486,000      18,212,000      22,267,000     136,083,000
Non-Federal.............................      18,406,000         140,000         666,000       1,021,000         945,000       1,728,000      13,905,000
                                         ---------------------------------------------------------------------------------------------------------------
      GRAND TOTAL.......................     220,173,000       3,620,000       7,906,000      15,507,000      19,157,000      23,995,000     149,988,000
--------------------------------------------------------------------------------------------------------------------------------------------------------

    The project also has the capability to build the first portion of 
the pipeline leaving the water treatment plant. The section will be 
east of the water treatment plant and will serve the community of 
Poplar, headquarters community for the Assiniboine and Sioux Tribes. 
Construction is scheduled to start in fiscal year 2006. This will also 
provide a source of water for a section of the Fort Peck Indian 
Reservation contaminated by oil drilling operations and the subject of 
EPA orders to the non-Tribal oil company responsible. The oil company 
will provide the distribution system necessary to mitigate the problems 
and the Assiniboine and Sioux Rural Water System will provide the 
interconnecting pipeline without duplicating any facilities identified 
in the Final Engineering Report. This is an exigent circumstance that 
will be corrected by the project in fiscal year 2006. No funds are 
requested for fiscal year 2004 for this project even though design will 
be complete.
    The Dry Prairie rural water system will finish the facilities 
necessary to bring water supplies from an existing treatment plant on 
the Missouri River at Culbertson to Medicine Lake where the existing 
water treatment is inoperable. The system to be completed in fiscal 
year 2004 will also provide the capability to connect to Dane Valley 
residents. The Dane Valley project will rely on fiscal year 2005 and 
fiscal year 2006 funds to mitigate costs of hauling water so prevalent 
there. The budget request is consistent with the Master Plan on the 
previous page as approved by the Bureau of Reclamation.
                        status of project design
    The Final Engineering Report (FER), water conservation plan and 
Finding of No Significant Impact were completed in fiscal year 2002. 
The FER was delivered to OMB in May 2002 and was released to the 
Department of Interior for review and delivery to Congress in March 
2003. The requirement to reside with Congress for 90 days will expire 
at the end of July 2003. Design is nearing completion or is completed 
for the Missouri River intake and the Culbertson to Medicine Lake 
Project. Those projects will commence construction in July/August 2003.
    Design of the water treatment plant will end in late fiscal year 
2003 or early fiscal year 2004. The design of the lagoons at the water 
treatment plant and the site landscaping will be completed in third-
quarter fiscal year 2003, and construction of these preliminary 
facilities will begin in late fiscal year 2003.
    Design of the Poplar to Big Muddy pipeline is well advanced and can 
be completed to utilize first quarter fiscal year 2004 funds, but the 
appropriation requirements to undertake this pipeline construction in 
combination with the water treatment plant were considered too great to 
include in the funding request. Therefore, construction of this 
pipeline will depend on the availability of funds not currently 
identified in fiscal year 2004 or fiscal year 2005 or as programmed in 
fiscal year 2006 in the master plan presented above. The discussion of 
this pipeline is intended to demonstrate the capability of the project 
to use funds prior to fiscal year 2006 if funding were available.
    Similarly, the design of the branches that will serve rural 
residents between Culbertson and Medicine Lake can be concluded in time 
to utilize fiscal year 2004 or fiscal year 2005 funds, and the 
discussion is intended to demonstrate capability to use funding if it 
were available.
                         local project support
    The Fort Peck Tribes have supported the project since 1992 when 
they conceived it and sought means of improving the quality of life in 
the region. The planning was a logical step after successful completion 
of an historic water rights compact with the State of Montana. This 
compact was the national ``ice breaker'' that increased the level of 
confidence by other Tribes in Indian water right settlement 
initiatives. The Tribes did not seek financial compensation for the 
settlement of their water rights but contemplated water development for 
meaningful projects as now authorized.
    The 1999 Montana Legislature approved a funding mechanism from its 
Treasure State Endowment Program to finance the non-Federal share of 
project planning and construction. Demonstrating support of Montana for 
the project, there were only three votes against the statutory funding 
mechanism in both the full House and Senate. The 2001 and 2003 Montana 
Legislatures have provided all requirements of the non-Federal cost 
share.
    Dry Prairie support is demonstrated by a financial commitment of 
all 14 communities within the service area to participate in the 
project. Rural support is strong, with about 70 percent of area farms 
and ranches intending to participate as evidenced by their intent fees 
of $100 per household.
                   need for water quality improvement
    The Fort Peck Indian Reservation was designated as an ``Enterprise 
Community'' during the previous administration, underscoring the level 
of poverty and need for economic development in the region. The success 
of the economic development within the Reservation will be 
significantly enhanced by the availability of higher quality, safe and 
more ample municipal, rural and industrial water supplies that this 
regional project will bring to the Reservation, made more necessary by 
an extended drought in the region. Outside the Fort Peck Indian 
Reservation, the Dry Prairie area has income levels that are higher 
than within the Reservation but lower than the State average.
    The feature of this project that makes it more cost effective than 
similar projects is its proximity to the Missouri River. The southern 
boundary of the Fort Peck Indian Reservation is formed by the Missouri 
River for a distance of more than 60 miles. Many of the towns in this 
regional project are located 2 to 3 miles from the river, including 
Nashua, Frazer, Oswego, Wolf Point, Poplar, Brockton, Culbertson, and 
Bainville. As shown on the enclosed project map, a looping transmission 
system outside the Fort Peck Indian Reservation will deliver water 30 
to 40 miles north of the Missouri River. Therefore, the distances from 
the Missouri River to all points in the main transmission system are 
shorter than in other projects of this nature in the Northern Great 
Plains.
              administration's budget for fiscal year 2004
    The administration's budget for fiscal year 2004 contained serious 
errors in analysis when it included the Fort Peck Reservation Rural 
Water System with other rural water projects that were characterized as 
follows:

    ``. . . many projects are currently developed by local sponsors 
without agency involvement and submitted to Congress for authorization. 
Agency involvement is necessary to ensure that all options to 
efficiently and effectively meet local needs are considered. The lack 
of agency involvement during project development may result in a 
project that is not in the local interest . . .''.

    The Tribes and Dry Prairie worked extremely well and closely with 
the Bureau of Reclamation prior to and following the authorization of 
this project in fiscal year 2000. The Bureau of Reclamation reviewed 
and commented on the Final Engineering Report for the project, and 
comments were either incorporated into the report or agreement was 
reached on final presentation. The Commissioner, Regional and Area 
Offices of the Bureau of Reclamation were consistently in full 
agreement with the need, scope, total costs, and the ability to pay 
analysis that supported the Federal and non-Federal cost shares. All of 
these items were thoroughly and formally reviewed in writing by the 
Bureau of Reclamation and there were no areas of disagreement or 
controversy in the final formulation of the project. Bureau of 
Reclamation testimony during the authorization phase fully supported 
the project within the Fort Peck Indian Reservation and opposed any 
Federal participation in the costs of the project outside the Fort Peck 
Indian Reservation, as a matter of policy, but Congress addressed that 
issue in Public Law 106-382.
    The Bureau of Reclamation collaborated with the Tribes and Dry 
Prairie to conduct and complete value engineering investigations of the 
Final Engineering Report (planning), the Culbertson to Medicine Lake 
pipeline (design), the Poplar to Big Muddy River pipeline (design), the 
Missouri River intake (design) and (during the week of March 31, 2003) 
on the regional water treatment plant (design). Each of these 
considerable efforts has been directed at ways to save construction and 
future operation, maintenance and replacement costs as planning and 
design have proceeded. Agreement with Reclamation has been reached in 
all value engineering sessions on steps to take to save Federal and 
non-Federal costs in the project.
    Cooperative agreements have been developed and executed from the 
beginning phases to date between the Bureau of Reclamation and the 
Tribes and between Bureau of Reclamation and Dry Prairie. Those 
cooperative agreements carefully set out goals, standards and 
responsibilities of the parties for planning, design and construction. 
All plans and specifications are subject to levels of review by the 
Bureau of Reclamation pursuant to the cooperative agreements. The 
sponsors do not have the power to undertake activities that are not 
subject to oversight and approval by the Bureau of Reclamation. Each 
year the Tribes and Dry Prairie are required by the cooperative 
agreements to develop a work plan setting out the planning, design and 
construction activities and the allocation of finding to be utilized on 
each project feature.
    Clearly, the Fort Peck Reservation Rural Water System does not fall 
into the category of concern expressed in the fiscal year 2004 budget 
by the Bureau of Reclamation. This project has been authorized by 
Congress with a plan formulated in full cooperation and collaboration 
with the Bureau of Reclamation, and major project features will be 
under construction in fiscal year 2003. The project sponsors are 
disappointed that the fiscal year 2004 budget did not include a 
significant level of funding for the Fort Peck Reservation Rural Water 
System in a year in which the overall budget for Reclamation increased 
by more than 6 percent. The sponsors are similarly disappointed that 
narrative in the report improperly characterized the planning, design 
and construction history of this project.
                                 ______
                                 
               Letter From the Wyoming Water Association
                                        Cheyenne, WY, June 2, 2003.
The Honorable Pete V. Domenici,
Chairman,
The Honorable Harry Reid,
Ranking Minority Member,
Energy and Water Development Subcommittee, Committee on Appropriations, 
        United States Senate, 129 Dirksen Senate Office Building, 
        Washington, DC 20510.
    Dear Chairman Domenici and Senator Reid: The Wyoming Water 
Association is writing to request your support for an appropriation in 
fiscal year 2004 of $6,915,000 to the Bureau of Reclamation within the 
budget line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado River Region. The President's 
recommended budget for fiscal year 2004 includes this line-item amount. 
The Association respectfully requests the designation of $5,479,000 for 
the Upper Colorado River Endangered Fish Recovery Program; $851,000 for 
the San Juan River Basin Recovery Implementation Program, $535,000 for 
Fish and Wildlife Management and Development and $50,000 for Water and 
Energy Management and Development.
    The objectives of the Wyoming Water Association are to promote the 
development, conservation, and utilization of the water resources of 
Wyoming for the benefit of Wyoming people. Since 1932, the Wyoming 
Water Association has served the interests of Wyoming's water users. 
With changing and growing demands on Wyoming's limited water resources, 
complicated by an increasingly complex overlay of Federal laws and 
regulations, management and development challenges and conflicts 
continue to become more numerous. The Association maintains an active 
role in supporting the State of Wyoming's efforts to put Wyoming water 
to use for Wyoming's citizens.
    These ongoing, highly successful, cooperative programs involving 
the States of Colorado, New Mexico, Utah and Wyoming, Indian tribes, 
Federal agencies and water, power and environmental interests have as 
their objective recovering endangered fish species while water 
development proceeds in compliance with the Endangered Species Act of 
1973. They reflect the proper approach to providing endangered species 
conservation and recovery within the framework of the existing Federal 
Endangered Species Act, while concurrently resolving critical conflicts 
between endangered species recovery and the development and use of 
Compact-apportioned water resources in the Upper Colorado River Basin 
region of the Intermountain West.
    The requested fiscal year 2004 appropriation will allow 
construction of fish passage at the Grand Valley Project and Price-
Stubb diversion dams on the Colorado River near Grand Junction, 
Colorado, providing access to an additional 50 miles of historic 
habitat upstream of these dams. Floodplain restoration activities, 
including levee removal and obtaining conservation easements will 
continue at high-priority sites and is especially important for the 
survival of the razorback sucker species. Screening of existing 
diversion canals, including those of the Redlands Water and Power 
Company and Grand Valley Project, will be accomplished with the 
requested funding. Screens are needed to prevent endangered fish from 
being drawn out of the river and into the canals and power plant 
intakes at these facilities. The requested funding for the San Juan 
River Recovery Program will be used to design a fish passage at the 
Arizona Public Service weir and initiate floodplain restoration for 
razorback sucker in that Basin.
    Substantial non-Federal cost sharing funds are provided by the four 
States, power users, and water users in support of these recovery 
programs. Public Law 106-392, as amended by Public Law 107-375, 
authorized the Federal Government to provide up to $46 million of cost 
sharing for these two ongoing recovery programs' remaining capital 
construction projects. The four participating States are contributing 
$17 million and $17 million is being contributed from revenues derived 
from the sale of Colorado River Storage Project (CRSP) hydroelectric 
power. Additional hatchery facilities to produce endangered fish for 
stocking, restoring floodplain habitat and fish passage, regulating and 
supplying instream habitat flows, installing diversion canal screens to 
prevent fish entrapment and controlling nonnative fish populations are 
key components of the capital construction efforts. These facts 
demonstrate the strong commitment and effective partnerships that are 
present in both of these successful programs.
    The past support and assistance of your subcommittee has greatly 
facilitated the success of these multi-State, multi-agency programs. 
The Wyoming Water Association gratefully thanks you for that support 
and request the subcommittee's assistance relative to fiscal year 2004 
funding to ensure the Bureau of Reclamation's continuing financial 
participation in these vitally important programs.
            Sincerely,
                                           John W. Shields,
                                               Executive Secretary.
                                 ______
                                 
            Prepared Statement of the Crow Creek Sioux Tribe
                    fiscal year 2004 budget request
    The Crow Creek Sioux Tribe respectfully requests fiscal year 2004 
appropriations for the Bureau of Reclamation from the subcommittee on 
Energy and Water Development. Funds will be used to construct the 
urgently needed pipeline from Fort Thompson to Stephan. Planning 
studies for the project (Special Study, environmental assessment, and 
water conservation plan) back up the request. The project has been 
supported by the subcommittee since fiscal year 1995.
    The amount requested for fiscal year 2004 is $6,824,000 as set out 
below:

------------------------------------------------------------------------
 ------------------------------------------------------------------------
Fort Thompson to Stephan Emergency Project..............      $5,536,000
Reclamation Oversight...................................         208,000
Environmental Mitigation................................          42,000
Administration..........................................         637,000
Design and Investigations...............................         401,000
Inspection..............................................         277,000
                                                         ---------------
      Total.............................................       6,824,000
------------------------------------------------------------------------

                          proposed activities
    The request for funds in fiscal year 2004 is for construction of 
the urgently needed pipeline system between Fort Thompson and Stephan 
on the Crow Creek Indian Reservation. Fort Thompson is on the Missouri 
River near Big Bend Dam and has an intake and water treatment plant 
capable of serving the entire Crow Creek Indian Reservation with high-
quality water. Stephan is a community 14 miles north of Fort Thompson 
and the home of a regional Indian high school within inadequate and 
extremely poor water quality. The pipeline system between Fort Thompson 
and Stephan will be constructed with sufficient capacity to serve rural 
households along the route and to extend the system in future years to 
the Big Bend community, all part of the implementation of a 
comprehensive system on the Reservation. This is not a new project but 
one that has been in development for more than 8 years with oversight 
by the Bureau of Reclamation and periodic line-item appropriations by 
Congress.
                           exigent conditions
    There is a need to construct facilities to distribute Missouri 
River water and improve water quality throughout the Crow Creek Indian 
Reservation. This action will reduce health risks to the membership of 
the Crow Creek Sioux Tribe and other residents of the Reservation. With 
the exception of the community of Fort Thompson, water supplies and 
water quality are deplorable throughout the Reservation.
    There is an immediate need to extend pipelines from Fort Thompson 
to the community and day school at Stephan where water quality is 
extremely poor, and existing wells are limited in capacity. Efforts 
last year to drill new wells to replace failing wells of very poor 
quality were not successful. The new wells also fail to produce an 
adequate water supply, and there was no improvement of the exceedingly 
for water quality. The school at Stephan provides for over 200 
students. Staff and teachers reside at the school. Reliance for 
drinking water has been placed on bottled water, and fire protection is 
inadequate given the current lack of supply.
    Inspired by efforts of the Crow Creek Sioux Tribe, including the 
planning for the Reservation municipal, rural and industrial water 
system, the water treatment facilities at Fort Thompson have been 
improved with microfilters that produce high quality water for 
residents of the community. The new water treatment facilities are 
incorporated as a part of the Reservation-wide project and, with 
construction of necessary pipelines, will permit delivery of high-
quality water north to Stephan.
    The need for the Reservation-wide project is underscored by the 
population increases documented by the 2000 census. Our planning had 
projected population increases on the Reservation from 1990 to 2000 at 
a rate of 14.3 percent. The actual rate of growth experienced in the 
last decade was 26.7 percent, significantly greater than what was 
believed to be a liberal projection made from the 1990 census.
    The subcommittee is respectfully requested to carefully consider 
the Tribe's needs and provide the necessary funding to complete this 
emergency project.
     project construction costs and recommended project alternative
    Costs of reservation-wide alternatives, including construction 
contracts and non-contract costs, range from $15,403,000 (Alternatives 
b, d and e) to $17,853,000 (Alternative a) in October 1998 dollars.
    Based on the least cost scenario considering all life-cycle costs 
and the Tribe's desire for self-determination, the Tribe's preferred 
project alternative is Alternative a ($17,853,000): source of water on 
Lake Sharpe near Fort Thompson, constructed, operated, maintained and 
replaced by the Crow Creek Sioux Tribe. Environmental factors, such as 
cultural and historic resources, and identifiable impacts on physical 
and biological resources are not significantly different between 
alternatives.
    Five alternatives for developing the project were:
  --A project constructed, operated, maintained and replaced by the 
        Crow Creek Sioux Tribe and meeting all needs through year 2030 
        within the Crow Creek Indian Reservation. Source of water would 
        be the Missouri River with modifications to the existing intake 
        and water treatment plant at Fort Thompson.
  --A project constructed, operated, maintained and replaced by the 
        Crow Creek Sioux Tribe and meeting all needs through year 2030 
        within the Crow Creek Indian Reservation. Source water would be 
        the Missouri River from the intake and water treatment plant 
        constructed by Mid-Dakota on Lake Oahe. The reservation system 
        would be connected to the Mid-Dakota system along the northern 
        and eastern borders of the reservation. Mid-Dakota would sell 
        water to the Tribe as a bulk user.
  --A project constructed, operated, maintained and replaced by the 
        Crow Creek Sioux Tribe to service the Fort Thompson and Crow 
        Creek community areas, and rural areas in between, from intake 
        and water treatment plant at Fort Thompson. The balance of the 
        project would be constructed, operated and maintained by Mid-
        Dakota with water supply from the Mid-Dakota intake and water 
        treatment plant.
  --A project constructed, operated, maintained and replaced 
        exclusively by Mid-Dakota to service the entire reservation 
        with water supply from the Mid-Dakota intake and water 
        treatment plant.
  --A project constructed by Mid-Dakota throughout the reservation and 
        operated, maintained and replaced by the Crow Creek Sioux Tribe 
        with water supply from the Mid-Dakota intake and water 
        treatment plant.
       future operation, maintenance and replacement (omr) costs
    Future operation, maintenance and replacement costs, including 
staff, equipment, electricity, chemicals and all other materials 
necessary for repair and replacement, have an estimated range in cost 
from $597,195 (Alternative a) to $826,185 (Alternatives b, d and e).
                       present value of net costs
    Net costs were estimated as the present value of the costs of 
construction and OMR less the off-setting value of construction and OMR 
earnings by members of the Crow Creek Sioux Tribe, an under-employed 
labor force. Present value of net costs ranges from $15,348,180 
(Alternative a) to $22,673,000 (Alternatives d and e).
                         construction schedule
    A construction schedule beginning in fiscal year 2003 and ending in 
fiscal year 2006 is proposed. Construction and non-contract employment 
would provide 131 full-time equivalent man years of employment. Annual 
levels of funding needs would range from $2,135,000 in fiscal year 2003 
to $6,736,000 in fiscal year 2005.
                         environmental factors
    Pipelines proposed for the project range from 1.5 to 12 inches in 
diameter and have lengths ranging from 269.8 miles (Alternative c) to 
276.4 miles (Alternative a). From five to seven pump stations with 
horsepower ranging from 103.0 to 164.5 are representative of the 
alternatives. From six to eight reservoirs with up to 495,000 gallons 
of capacity are proposed. Future population growth will require 
approximately 5 acres of new wastewater lagoons by year 2030.
    Approximately 70 wetlands will be crossed by the project on the 
basis of the current layout, which will be modified in later designs to 
avoid wetlands. As many as 31 perennial stream crossings will be made. 
Nearly 43 miles of prime farmlands will be crossed by pipelines where 
most of the farmlands are defined as ``prime'' if irrigated in the 
future. Approximately 23 miles of unstable soils will be crossed. Up to 
134 miles of trust lands (slightly less than 50 percent of the total) 
will be crossed by pipelines.
    An Environmental Assessment and a class I cultural resource 
inventory and descriptive report have been prepared.
                               population
    The population of the Crow Creek Indian Reservation in the 2000 
census was 2,225 persons: 2,074 Indian persons and 251 non-Indian 
persons. Based on the rate of growth in the Indian and non-Indian 
population over the past several decades, year 2030 population 
estimates were made resulting in a future population of 3,417. These 
estimates recognize a relatively high growth rate within the Indian 
population and out-migration by non-Indians.
                         income and employment
    Median household income in 2000 on the Crow Creek Indian 
Reservation averaged $12,070 (down from $12,763 in 1990) as contrasted 
with an average for the State of South Dakota of $35,282 (up from 
$22,503 in 1990). The Indian labor force on the reservation represented 
55.7 percent of the population over 16 years of age, and 21.6 percent 
were unemployed. Across the State of South Dakota, 68.4 percent of the 
population was in the labor force, and 3.0 percent were unemployed. 
Income levels on the reservation are extremely low, and unemployment is 
extremely high. The percentage of families below poverty level in the 
2000 census was 56.5 percent on the Reservation and 9.3 percent in 
South Dakota. (Note: the reporting is from the Special Study, which is 
being modified in detail, but not substance.)
                                 ______
                                 
           Prepared Statement of the Jicarilla Apache Nation
    The Jicarilla Apache Nation respectfully requests $5 to $8 million 
in the fiscal year 2004 appropriations cycle to begin construction on 
the water delivery and wastewater infrastructure improvement project 
authorized by Title VIII of Public Law 107-331, December 13, 2002 (The 
Jicarilla Apache Reservation Rural Water System Act). This law 
authorized a $45 million project to repair and replace the dilapidated 
federally owned water delivery and waste water system that serves the 
Jicarilla Apache Reservation in north-central New Mexico.
                        authorizing legislation
    The Jicarilla Apache Reservation Rural Water System Act was 
introduced by Representative Tom Udall (D-NM) along with the other New 
Mexico Congressional Representatives Joe Skeen and Heather Wilson, as 
original co-sponsors, and including 12 additional co-sponsors. Senators 
Pete Domenici (R-NM) and Jeff Bingaman (D-NM) supported and guided the 
legislation through the Senate. The purpose of the Act is to ensure a 
safe and adequate water supply for the citizens of the Jicarilla Apache 
Reservation, and authorizes the Department of the Interior, through the 
Bureau of Reclamation (BoR), and the Nation to plan, design and 
construct a safe and adequate water system utilizing Public Law 93-638 
contracting authority. The Act requires the Secretary of the Department 
of the Interior to enter a Public Law 93-628 contract with the Nation 
with the ultimate goal of the Nation assuming title and responsibility 
of operating and maintaining the system. The Act authorizes 
appropriations in the amount of $45,000,000 for the construction of the 
water system.
                               background
    The existing water and wastewater facilities on the Jicarilla 
Apache Reservation are held in trust by the United States Department of 
the Interior and operated by the Bureau of Indian Affairs (BIA) 
Jicarilla Agency staff. The initial water supply system was erected in 
the early 1900's in the community of Dulce primarily to serve the BIA 
operations and facilities. The source of the community's water supply 
is the Navajo River located about a mile from Dulce.
    Over the years, random and ad hoc connections and expansions have 
been made to the system, and without adequate upkeep and substantial 
improvements, it has deteriorated and become over utilized. The public 
water system does not adequately and safely serve the existing and 
future growth needs of the Nation. Moreover, the system's deteriorated 
state created serious public health problems. Jicarilla members are 
experiencing high incidences of internal organ diseases affecting the 
liver, kidneys and stomach. The diseases are suspected to be related to 
the poor condition of the drinking water distribution system and 
inadequate treatment of wastewater. The resulting pollution released 
from non-compliant sewage ponds has creating public health hazards for 
families and communities within and well beyond the Nation's borders.
    The Nation has delayed important community improvement efforts, 
including the construction of much needed housing and the replacement 
of deteriorating public healthcare facilities and tribal administrative 
offices due to the lack of a modern waste water treatment facility.
    In the 1990's, the Nation began assessing the feasibility of 
assuming ownership and operation of the systems and commissioned 
studies to assess their condition. The findings indicated it would cost 
$25 million to bring the systems into compliance with Federal water 
quality standards. This investment did not, however, include community 
expansion needs.
    These dire conditions escalated in October of 1998, when the 
drinking water diversion system on the Navajo River failed leaving the 
community without water for 6 days. With no funding from BIA or other 
Federal programs, the Nation was compelled to expend $5 million on an 
emergency basis to replace the water treatment plant and associated 
facilities in 1999.
                          legislative approach
    The magnitude of the infrastructure issues couple with the BIA's 
inability to comprehensively address the scope of the problems 
associated with their systems left the Tribal leadership with no 
alternative but to take the lead to resolve these issues. The Nation 
approached the BoR and learned that legislation would be needed to 
authorize BoR to conduct a Feasibility Study to determine the most 
feasible method of developing a safe and adequate municipal, rural, and 
industrial water supply for the Jicarilla Apache Reservation. The 
Nation working with the New Mexico Congressional Delegation pursued 
such legislation, and on July 10, 2000, the President signed into law 
Public Law 106-243 which directed the Secretary of the Interior to work 
in cooperation with the Jicarilla Apache Nation in conducting the 
Feasibility Study. The statute also authorized $200,000 for the 
completion of the study.
    In September 2001, BoR, in cooperation with the Nation completed 
the feasibility study and report, entitled ``Municipal Water and 
Wastewater Systems Improvement, Jicarilla Apache Nation, Dulce, New 
Mexico, Planning Report/Environmental Assessment.'' The report 
recommended that none of the older existing pipelines be salvaged due 
to age and size and that an estimated $35 million was needed to 
adequately replace existing deteriorated facilities and to build a new 
conventional wastewater treatment plant to treat water to Federal 
discharge standards, eliminate the serious odor problem permeating the 
community, and enhance the community's water supply. The report 
recommended an additional $10 million to address environmental and 
public health needs and to meet long-term growth and economic 
development needs of the Jicarilla Apache Nation, for a total project 
cost of $45 million.
                  tribal contributions to the project
    After discovering the Federal programs and funding sources were 
limited to solve even the immediate capacity problems and public health 
concerns, the Nation was compelled to fund several projects beginning 
in 1998.

------------------------------------------------------------------------
                        Projects                          Tribal Funding
------------------------------------------------------------------------
Studies and Engineering.................................        $450,000
Water Treatment Plant...................................       2,730,000
Water Storage and Distribution..........................       2,240,000
Mundo Development Infrastructure (completed by 2003)....       2,250,000
Wastewater Design and Initial Construction..............       6,000,000
                                                         ---------------
      Total Tribal Investment...........................      14,670,000
------------------------------------------------------------------------

    On a percentage basis, this investment would amount to nearly 25 
percent of total project costs, if what the Nation has already funded 
($14.6 million) is added to the Federal portion being requested ($45 
million). The Nation recently committed an additional $6 million to 
begin construction on the new wastewater treatment plant because the 
current situation is so extreme and requires immediate action. The 
total project cost is broken listed below:

------------------------------------------------------------------------
 ------------------------------------------------------------------------
Replace existing water system facilities................     $18,500,000
Replace existing waste water system facilities..........      18,640,000
Total to replace existing water/wastewater systems......      35,140,000
Provide wastewater facilities to areas not served.......       2,800,000
Total to replace existing water/wastewater facilities         35,140,000
 for all existing development...........................
Water system facilities to the expansion area (known as        3,550,000
 ``Mundo Ranch'').......................................
Wastewater system facilities to the Mundo ranch.........       3,550,000
Total for water/wastewater facilities for Mundo ranch...       7,100,000
                                                         ---------------
      TOTAL PROJECT COST................................      45,040,000
------------------------------------------------------------------------

    Moreover, the Nation is making the commitment to assume title to 
the facilities and to operate these facilities in perpetuity once 
constructed to Federal standards. This is a significant Federal benefit 
as it alleviates the Federal liability in the operation of a 
substandard system and shifts the costs of operations, maintenance and 
replacement of these facilities to the Nation. It is estimated by the 
O,M&R portion of the report, that it will cost approximately $750,000 
per year to adequately operate and maintain these facilities. The 
Federal investment would be protected under tribal management as BIA 
funding for this purpose has been significantly cut over the years 
resulting in the current conditions that exist today. The present value 
of this cost over a 50-year project life at a 6 percent financing rate 
is $12 million.
                             current status
    In addition to the funding for the Feasibility Report, Senator 
Domenici was instrumental in securing $2.5 million for final design 
work and to prepare for the initiation of construction. Accordingly, 
the Nation has entered into a Self-Determination Act (Public Law 93-
638) Construction Assistance Agreement on September 2002 with the 
Bureau of Reclamation. As of April 15, 2003, the Nation has met all 
conditions and requirements of this Agreement and has prepared final 
plans and specifications to construct approximately $2.3 million in 
water and wastewater infrastructure critical to its needs. 
Advertisement for bids is scheduled for April 30th and construction is 
scheduled to begin June 15. Completion of this phase will coincide with 
completion of a wastewater treatment facility currently under 
construction with tribal funds scheduled for operations in January 
2004.
               use of appropriations in fiscal year 2004
    The Nation is prepared to begin final design work for the next 
phase of construction upon notification of funding availability. A 
design-build approach will be utilized to expedite construction and the 
Nation has management capacity for up to $10 million for fiscal year 
2004. Features that would be constructed are the raw water pumping 
station and related pipeline, water distribution and wastewater 
collection facilities in the southwest portion of the community and 
similar features at the Mundo Ranch development. These components were 
thoroughly studied and assessed in the Feasibility Report and would be 
constructed accordingly.
                               conclusion
    By authorizing this project, Congress provided a mechanism for the 
United States to meet its trust responsibility to the Nation by 
providing adequate water and wastewater infrastructure to protect and 
advance the health, safety and welfare of the Jicarilla people. The 
Nation, in cooperation with Reclamation and with the assistance of 
Congress, has demonstrated the poor condition that these facilities are 
in and have exposed the risk facing the Bureau of Indian Affairs as it 
continues to operate these facilities in their current condition. The 
Nation has demonstrated our resolve in improving conditions for our 
people by investing nearly $15 million in infrastructure of our own 
financial resources even though we believe strongly that the United 
States has failed in providing these services as part of its trust 
responsibility to the Nation.
    In sum, the Jicarilla Apache Nation is suffering premature deaths, 
community members are subject to continuing health hazards, and 
community development is blocked by the Department of the Interior's 
failure to maintain and modernize the public water system that it 
established and undertook to operate on the Reservation. Interior has 
asked the Jicarilla Apache Nation to take over the operation of the 
public water system, and as a Tribal Government we are willing to take 
over the operation of a safe and sound public water system. But before 
we will take over the operation, Interior must fix the health hazard 
that it has created. Therefore, we respectfully request the Committee 
to appropriate $5 to $8 million in fiscal year 2004 to begin 
construction of this project.
                                 ______
                                 
              Prepared Statement of the Mid-Dakota Project
    First let me thank the Subcommittee for the opportunity to testify 
in support of the fiscal year 2004 appropriations for the Mid-Dakota 
Rural Water Project and for the Subcommittee's support both past and 
present.
    The Mid-Dakota Project is requesting $23.869 million in Federal 
appropriations for fiscal year 2004. As with our past submissions to 
this subcommittee, Mid-Dakota's fiscal year 2004 request is based on a 
detailed analysis of our ability to proceed with construction during 
the fiscal year. In all previous years, Mid-Dakota has fully obligated 
its appropriated funds, including Federal, State, and local, and could 
have obligated significantly more were they available.
          tentative fiscal year 2004 construction schedule \1\
---------------------------------------------------------------------------
    \1\ Project features listed in table are subject to rescheduling 
based upon funding provided and readiness to proceed and other factors. 
Actual construction activities, therefore, may not coincide exactly 
with schedule presented here.
---------------------------------------------------------------------------
    The proposed construction would provide service to an estimated 
14,000 more people than are currently receiving or scheduled to receive 
Project drinking water (estimate includes the City of Huron, SD). Our 
construction schedule will also provide the necessary pipeline 
infrastructure to move forward with many more rural and community 
connections in the future.

 MID-DAKOTA RURAL WATER SYSTEM STATEMENT OF CAPABILITIES--FISCAL YEAR 2004 (OCTOBER 2003 THROUGH SEPTEMBER 2004)
----------------------------------------------------------------------------------------------------------------
                                                                    Inspection
                                                   Construction     Percent of      Engineering      Subtotals
                                                                   Construction      and Legal
----------------------------------------------------------------------------------------------------------------
100--Source and Intake (percent)................  ..............              12              10  ..............
200--Water Treatment (percent)..................  ..............               0               0  ..............
    Huron--Constructed MD Facilities............        $150,000  ..............  ..............        $150,000
    Huron--Improvements & Assistance............        $100,000  ..............  ..............        $100,000
                                                 ---------------------------------------------------------------
      Subtotals.................................  ..............  ..............  ..............        $250,000
                                                 ===============================================================
300--Main Transmission Pipeline (percent).......  ..............               8               8  ..............
    Pumping Stations............................      $1,384,547        $110,764        $110,764      $1,606,075
    3-3D Cathodic Protection System.............        $142,800         $11,424         $11,424        $165,648
    Increase Collins Slough BPS.................        $884,660          $6,773          $6,773         $98,206
                                                 ---------------------------------------------------------------
      Subtotals.................................      $1,612,007        $128,961        $128,961      $1,869,928
                                                 ===============================================================
400--Distribution Pipeline (percent)............  ..............               6               6  ..............
    Highmore East...............................      $1,232,480         $73,949         $73,949      $1,380,378
    Wolsey......................................      $7,737,224        $464,233        $464,233      $8,665,691
    Staum Dam...................................      $1,833,409        $110,005        $110,005      $2,053,418
    Redfield East...............................        $376,839         $22,610         $22,610        $422,060
    Improve West Canning Service Area...........        $207,050         $12,423         $12,423        $231,896
                                                 ---------------------------------------------------------------
      Subtotals.................................     $11,387,002        $683,220        $683,220     $12,753,442
                                                 ===============================================================
500--Water Storage (percent)....................  ..............              12               6  ..............
    Wolsey......................................      $2,050,000        $246,000        $123,000      $2,419,000
    Staum Dam...................................        $510,000         $61,200         $30,600        $601,800
    Pearl Creek.................................        $510,000         $61,200         $30,600        $601,800
    Redfield....................................        $430,000         $51,600         $25,800        $507,400
    Huron-Water Storage Tank Cost Share.........        $600,000  ..............  ..............        $600,000
                                                 ---------------------------------------------------------------
      Subtotals.................................      $4,100,000        $420,000        $210,000      $4,730,000
                                                 ===============================================================
SCADA and Controls (percent)....................  ..............              12  ..............  ..............
    Controls and SCADA System...................        $509,925         $40,794         $40,794        $591,513
                                                 ---------------------------------------------------------------
      Subtotals.................................        $509,925         $40,794         $40,794        $591,513
                                                 ===============================================================
                                                     $17,858,934      $1,272,975      $1,062,975     $20,194,883
                                                 ===============================================================
Administration and General as a percent of        ..............  ..............  ..............        $535,768
 Construction--3.0 percent......................
Bur. of Rec. oversight as a percent of            ..............  ..............  ..............        $535,768
 Construction--3.0 percent......................
Contingencies as a Percent of Construction......  ..............  ..............  ..............      $1,785,893
                                                                                                 ---------------
      TOTAL RURAL WATER SYSTEM CAPABILITIES--     ..............  ..............  ..............     $23,052,313
       FISCAL YEAR 2004.........................
WETLAND ENHANCEMENT COMPONENT REQUEST--FISCAL     ..............  ..............  ..............        $817,117
 YEAR 2004......................................
                                                                                                 ---------------
      TOTAL RURAL WATER AND WETLAND CAPABILITY--  ..............  ..............  ..............     $23,869,430
       FISCAL YEAR 2004.........................
----------------------------------------------------------------------------------------------------------------

                   impacts of fiscal year 2004 award
    The most obvious impact of any significant reduction from Mid-
Dakota's request will be the delay of construction of one or more 
Project components. The $23.869 million request will allow the Project 
to proceed with construction of multiple contracts summarized later in 
this testimony. An award of less than our request will result in the 
deletion or reconfiguration of one or more of these contracts from the 
fiscal year 2004 construction schedule. Further, reduced appropriations 
have the effect of adding more cost to the amount needed for completion 
of the Project.
                       history of project funding
    The Project was authorized by Congress and signed into law by 
President George H.W. Bush in October 1992. The Federal authorization 
for the project totaled $100 million (1989 dollars) in a combination of 
Federal grant and loan funds (grant funds may not exceed 85 percent of 
Federal contribution). The State authorization was for $8.4 million 
(1989 dollars). A breakdown of Project cost ceilings are as follows:

                PROJECT COST CEILINGS (FISCAL YEAR 2004)
------------------------------------------------------------------------
 ------------------------------------------------------------------------
Federal Ceiling.........................................    $140,279,000
State Ceiling...........................................       9,670,000
                                                         ---------------
      Subtotal Rural Water System.......................     149,949,000
Wetland Enhancement Component...........................       2,756,000
                                                         ---------------
      Total Project Cost Ceiling........................     152,705,000
------------------------------------------------------------------------

    The total authorized indexed cost of the project is approximately 
$152.705 million (fiscal year 2004). All Federal funding considered, 
the Government has provided 80 percent of its commitment ($114.135 \2\ 
million of $143.035 million) to provide construction funding for the 
Project. When considering the Federal and State combined awards, the 
project is approximately 81 percent complete, in terms of financial 
commitments.
---------------------------------------------------------------------------
    \2\ Includes $17.860 million appropriated in fiscal year 2003, but 
does not include Agency ``underfinancing''.

                                                            SUMMARIZATION OF FEDERAL FUNDING
                                                                [In Millions of Dollars]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                                 Total
                                                                    Mid-      Pres.                            Conf.      Bureau   Additional     Fed.
                        Fed. Fiscal Year                           Dakota     Budget     House      Senate    Enacted     Award       Funds      Funds
                                                                  Request                                      Levels     Levels                Provided
--------------------------------------------------------------------------------------------------------------------------------------------------------
1994...........................................................      7.991  .........  .........      2.000      2.000      1.500  ..........      1.500
1995...........................................................     22.367  .........  .........      8.000      4.000      3.600  ..........      3.600
1996...........................................................     23.394      2.500     12.500     10.500     11.500     10.902       2.323     13.225
1997...........................................................     29.686      2.500     11.500     12.500     10.000      9.400       1.500     10.900
1998...........................................................     29.836     10.000     12.000     13.000     13.000     12.221       1.000     13.221
1999...........................................................     32.150     10.000     10.000     20.000     15.000     14.100       2.000     16.100
2000...........................................................     28.800      5.000     15.000      7.000     14.000     12.859       1.000     13.859
2001...........................................................     24.000      6.040     11.040      6.040     10.040      9.398  ..........      9.398
2002...........................................................     30.684     10.040     15.040     15.540     15.040     13.611       0.861     14.472
2003...........................................................     29.360     10.040     17.040     17.900     17.900  .........  ..........  .........
2004...........................................................     23.869      2.040  .........  .........  .........  .........  ..........  .........
                                                                ----------------------------------------------------------------------------------------
      Totals \3\...............................................  .........     58.160    104.120    112.480    112.480     87.591       8.684     96.275
--------------------------------------------------------------------------------------------------------------------------------------------------------
\3\ Includes Congressional appropriations for the operation and maintenance of the ``Wetland Enhancement'' Component of the Project.

    Additionally, the State of South Dakota has contributed $9.67 
million in grants to the Mid-Dakota Project, in previous years. The 
State of South Dakota completed its initial authorized financial 
obligation to the Mid-Dakota Project in the 1998 Legislative Session.
                        construction in progress
    Mid-Dakota began construction in September of 1994, with the 
construction of its Water Intake and Pump Station. Since that eventful 
day of first construction start, we have bid, awarded, and completed 23 
project components and are into construction on eight other major 
Project components. The following table provides a synopsis of each 
major construction contract:

                                          SUMMARIZATION OF CONSTRUCTION
                                            [In Millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                                         Percent
                                                                Cont.      Cont.     Final      Over      Over
          Cont. No.                    Description           Budget \4\     Bid      Cont.    (Under)    (Under)
                                                                           Award     Price     Budget    Budget
----------------------------------------------------------------------------------------------------------------
1-1.........................  Oahe Water Intake and Pump         4.662      3.959     3.945    (0.717)      (15)
                               Station.
2-1.........................  Oahe Water Treatment Plant...     13.361      9.920    10.278    (3.083)      (23)
3-1A........................  Raw Water Pipeline...........      1.352      1.738     1.719     0.367        27
3-1B........................  Main Pipeline--Blunt.........      7.823      6.916     7.024    (0.799)      (10)
3-1C........................  Main Pipeline--Highmore......      5.439      4.791     4.798    (0.641)      (12)
3-1D........................  Main Pipeline--CP 1st Phase..      0.220      0.215     0.215     0.010      (0.5)
3-2A........................  Main Pipeline--Ree Hights....      3.261      3.155     3.149    (0.112)       (3)
3-2B........................  Main Pipeline--St. Lawrence,       3.691      3.349     3.352    (0.339)       (9)
                               SD.
3-3A........................  Main Pipeline--Wessington, SD      2.700      2.406     2.383    (0.317)      (12)
3-3B........................  Main Pipeline--Wolsey, SD....      4.291      3.928   ( \6\ )    ( \7\ )   ( \7\ )
3-3C........................  Main Pipeline--Huron, SD.....      2.938      2.629   ( \6\ )    ( \7\ )   ( \7\ )
4-1A/B (1-5)................  Distribution System--West....      9.345      9.983    10.731  \5\ 1.386       15
4-1A/B (6)..................  Distribution System--North         8.333      8.329     9.028  \5\ 0.695        8
                               West.
4-2 (1).....................  Distribution System--Central.      4.727      4.717     4.700    (0.027)     (0.5)
4-2 (2).....................  Distribution System--South         2.763      2.835     3.000  \5\ 0.237        9
                               Central.
4-2 (4-5)...................  Distribution System--Central.      5.753      4.952     5.135    (0.620)      (11)
4-2A (4)....................  Distribution System--Central.      1.042        991     1.186  \5\ 0.140       13
4-2AP (2-3).................  Distribution System--Central.     10.340      9.824   ( \6\ )    ( \7\ )   ( \7\ )
4-2 AV (2-3)................  Distribution System Vaults--         668        557   ( \6\ )    ( \7\ )   ( \7\ )
                               Central.
5-1.........................  Water Storage Tank--Highmore.      1.545      1.434     1.433    (0.108)       (7)
5-1A (1)....................  Water Storage Tank--Onida....      0.471      0.395     0.400    (0.075)      (16)
5-1A (2)....................  Water Storage Tank--Okobojo..      0.381      0.338     0.333    (0.048)      (13)
5-1A (3)....................  Water Storage Tank--Agar.....      0.422      0.391     0.385    (0.037)       (9)
5-1A (4)....................  Water Storage Tank--               0.952      0.814     0.808    (0.144)      (15)
                               Gettysburg.
5-2 (1).....................  Water Storage Tank--Mac's            460        573       561     0.101        22
                               Corner.
5-2 (2).....................  Water Storage Tank--Rezac            438        493       499     0.060        14
                               Lake.
5-2 (3).....................  Water Storage Tank--Collin's         254        393       410     0.160        63
                               Slough.
5-2A (1)....................  Water Storage Tank--Ames.....        300        378   ( \6\ )    ( \7\ )   ( \7\ )
5-2A (2)....................  Water Storage Tank--                 800        696   ( \6\ )    ( \7\ )   ( \7\ )
                               Cottonwood Lake.
5-2A (3)....................  Water Storage Tank--                 515        491   ( \6\ )    ( \7\ )   ( \7\ )
                               Wessington Springs.
6-1.........................  SCADA & Controls.............    ( \7\ )    ( \7\ )   ( \6\ )    ( \7\ )   ( \7\ )
                                                            ----------------------------------------------------
                                    Totals.................     99.247      91.59    75.472    (3.911)       (4)
----------------------------------------------------------------------------------------------------------------
\4\ Contract budget is determined by Mid-Dakota's estimate for the contract at the time of bidding.
\5\ A significant portion of cost increases are attributable to the placement of additional users as
  construction proceeds.
\6\ In progress.
\7\ Not applicable.

    As is evident by the foregoing table, Mid-Dakota has been very 
successful in containing Project costs. Currently the construction of 
major Project components are approximately 4 percent under budget, 
providing an estimated saving of over $3.91 million. The savings are an 
example of sound engineering, good management and advantageous bid 
lettings. While we can't guarantee future contract bid lettings will 
continue to provide the level of savings currently experienced, we do 
think it speaks well of the Mid-Dakota Project and how we've managed 
Project funding to date.
    Additionally, Mid-Dakota is keeping in close contact with the City 
of Huron, SD (population 11,893) regarding potentially serious EPA 
water quality violations anticipated with the implementation of the 
Safe Drinking Water Act (SDWA) enhanced surface water rules. Engineers 
who have analyzed the current drinking water source for Huron (James 
River) have concluded that the City will not be able to treat the 
current James River source without very significant and costly upgrades 
to their existing treatment facilities. Further the engineers have 
concluded that without these upgrades or switching to a new source 
i.e., Mid-Dakota, the City will be out of compliance with the 
Disinfection and Disinfection by-products rule D/DBP to be implemented 
in 2003. Huron is located at the East end of the Mid-Dakota Project 
(Mid-Dakota is being built in a general West to East manner) and is 
currently Mid-Dakota's largest contracted user. It is anticipated that 
Mid-Dakota will be in a position to connect to Huron in time to remedy 
the potential EPA non-compliance issue faced by Huron.
                                closing
    Mid-Dakota is very aware of the tough funding decisions that face 
the Energy and Water Appropriations Subcommittee and we do not envy the 
difficult job that lies ahead. We strongly urge, the Subcommittee to 
look closely at the Mid-Dakota Project and recognize the dire need that 
exists. Consider the exceptionally high level of local and State 
support. And lastly our readiness, our credibility and our ability, to 
proceed.
    Again, we thank the Subcommittee for its strong support, both past 
and present.
                                 ______
                                 
   Prepared Statement of the Perkins County Rural Water System, Inc.
                            project history
    History of this project goes back to 1977 when a group of farmers 
in Perkins County were contacted by Southwest Pipeline Project in North 
Dakota if they would be interested in obtaining water to serve Perkins 
County. At that time, approximately 100 farms and ranches and the Towns 
of Lemmon and Bison were interested, so Perkins County was included in 
their feasibility study.
    In November of 1992, Southwest Water Pipeline Project had grown to 
the point that Perkins County was contacted about receiving water from 
the project and to be included in the engineering design work. A 
committee of interested landowners and representatives from the two 
incorporated towns were organized through the Perkins County 
Conservation District. From this committee, nine directors volunteered 
to serve on a board to study the feasibility of rural water for the 
county. In March of 1993, Perkins County Rural Water System, Inc. was 
organized as a non-profit corporation. Two grants were obtained from 
the South Dakota Department of Environment and Natural Resources for 
$50,000 each to do a feasibility study. At the same time, the Directors 
were able to acquire good intention fees from rural landowners, State 
land, Federal land, and the two towns totaling $28,500 to cost share 
the State money on a 80-20 share basis.
    A feasibility study was conducted for Perkins County Rural Water by 
KBM, Inc. of Grand Forks, North Dakota and the Alliance of Rapid City, 
South Dakota in 1994. In the 1995-1996 South Dakota legislature, we 
obtained State authorization and appropriations of $1 million. This 
money was used to up-size the pipe in North Dakota for our capacity and 
for administration cost of Perkins County Rural Water. We have signed a 
contract with the North Dakota State Water Commission to deliver 400 
gpm to the border. We have signed contracts with both towns to be the 
sole supplier for their water systems. We have had a very good response 
from the rural farmers and ranchers in that 50 to 60 percent have 
signed and paid for water contracts delivered to their farmstead. We 
have also signed a contract with the Grand River Grazing Association 
that grazes cattle on U.S. Forest Service land.
    In the fall of 1999, we received Federal authorization with the 
106th Congress for a 75 percent grant of $20 million. Due to the fact 
it is indexed back to 1995, that amount has grown to $28 million. In 
2002, we received our first appropriation of $3.2 million. 
Appropriations for 2003 were passed out of committee in February in the 
amount of $4.3 million. With the appropriations for 2002 and 2003, we 
will be able to hookup approximately 45 rural users, install a seven 
pump station and hookup at the border to start delivering water to our 
customers. Our request for 2004 is $5.0 million. With this money, we 
will be able to deliver water to both towns and put them on line the 
fall of 2004. These hookups are very essential to our corporation since 
they will be our two largest customers and will provide quality water 
for the first time for either municipality.
                    project location and description
    Perkins County Rural Water System, Inc. (PCRWS) would provide 
potable water to approximately 300 farms and ranches and two towns, 
Lemmon and Bison, in Perkins County, South Dakota. The system will 
serve rural users and provide bulk water to Lemmon and Bison. Currently 
the only two existing water systems in the project area are the 
municipal supply systems for the towns of Lemmon and Bison.
    When constructed, PCRWS would be the first rural water system in 
Perkins County.
    The purpose of PCRWS is to create a water distribution network to 
deliver treated water to rural subscribers, who currently rely upon 
well water of variable quality and quantity. Both Bison's and Lemmon's 
water currently has high concentrations of sodium and sulfates of which 
recommended limits are consistently exceeded. The implementation of 
this project would ensure a reliable supply of water to rural residents 
that meet the water quality standards of the Safe Drinking Water Act.
    The proposed primary water source will be buying bulk water from 
Southwest Water Authority of southwestern North Dakota. They obtain 
their water from an intake on the Missouri River and move it to a 
treatment plant at Dickinson, North Dakota. It is then piped to the 
border for PCRWS. The proposed system will include approximately 550 
miles of distribution pipe, 4-5 booster pumps, and 2-4 supply tanks.
                                sponsors
    The Perkins County Rural Water System, Inc., a non-profit 
corporation consisting of nine directors from three districts, sponsors 
the project. The money for the project is available at a 75 percent 
Federal grant, 10 percent State grant, and 15 percent local match. The 
75 percent Federal grant will be from the Bureau of Reclamation, the 
lead Federal agency for the project. The State funds will be 
administrated through the South Dakota Department of Environment and 
Natural Resources. The consumers of PCRWS, plus a loan from the State 
of South Dakota or U.S. Department of Agriculture, Rural Development, 
will provide the 15 percent local money. KBM, Inc. of Grand Forks, 
North Dakota, and The Alliance of Rapid City, South Dakota is under 
contract to perform the engineering services for the project.
                       water source alternatives
    The proposed water source is a bulk supply of water treated and 
delivered by Southwest Water Authority. Line capacity for delivery has 
been or will be paid by PCRWS to deliver 400 gallons per minute to the 
border of South Dakota.
    Other alternatives that were considered are water from deep-water 
wells and water from Shadehill Reservoir, a Bureau of Reclamation 
project. Since both of these sources were very high in sodium and total 
dissolved solids (TDS), treatment would be accomplished by reverse 
osmosis. Raw water would have been blended with treated water to obtain 
the quantity needed. A third alternative would have been a combination 
of Southwest water and a treatment plant. All alternatives were 
rejected because of the added expense to operation and maintenance of 
the system.
                       water treatment facilities
    Water will be treated at the Dickinson water treatment plant in 
Dickinson, ND. The water treatment plant has expanded from 6 million 
gallons per day to 12 million gallons per day and has also turned 
management over to Southwest Water Authority within the last 2 years. 
The current plant uses a conventional lime softening process to treat 
the water. Chloramines are added at the Dodge pumping station and the 
rest of the treatment takes place in the Dickinson treatment plant.
                        benefits of the project
    PCRWS will provide a clean, safe domestic water supply to users in 
Perkins County. Currently, rural residents obtain water from shallow 
water wells whereas the towns obtain their water from deep-water wells 
in the Fox Hills aquifer. Water quality in the shallow wells is high in 
sodium and TDS. Water from the deep-water wells is high in sodium, 
fluoride, and sulfates. These chemicals are either at or above 
recommended levels set by the EPA. By buying treated water from an 
existing water system, the towns can save money and still comply with 
the rules and regulations set by the Safe Drinking Water Act and the 
State of South Dakota.
                 permits and environmental requirements
    Final report of Class I Cultural Resources Research and Survey 
Design Plan has been completed. Presently the draft of the 
Environmental Assessment has been completed and a Finding of No 
Significant Impact (FONSI) was issued and signed on February 3, 2003. 
The Final Engineering Report along with the Environmental Assessment 
are currently in Office of Management and Budget and will be 
distributed to Congress in a few weeks. Utility permits to occupy State 
and county rights of way have been acquired and right of entry from 
private landowners for the first two phases are also being obtained. 
Special use permits will be required for any part of the line that 
crosses U.S. Department of Agriculture, U.S. Forest Service land and 
will be issued shortly.
                     proposed construction schedule
    Construction of the PCRWS will be delayed till the summer of 2003 
after reports and assessments have been approved by the Bureau of 
Reclamation. Work on the Lodgepole project is on going and construction 
hopefully will be started and finished this year. Construction in the 
City of Lemmon and the Town of Bison is also planned for this summer. 
Construction of the entire project is dependent on federal funding 
levels per year, but the project could be completed in 5-6 years.
    Maps showing the construction phases and the total project plus 
project costs follow. Table 1 shows the total project construction 
costs, table 2 shows final O&M costs for the total system.
                     work plan for fiscal year 2004
    Perkins County Rural Water System, Inc. (PCRWS) budget is broke 
down into three parts which includes Administration, Construction, and 
Non-Project. Administration includes the day to day operation of the 
System, Construction is broke down into several items of construction 
for 2003, and Non-Project is the money spent on Federal lobbying.
    Administration budget includes:
  --Income including BOR grant funds, water sales, interest.
  --Expenses include: Office administration; Utilities for both office 
        and pumps (O&M budget will be drafted later); Payroll including 
        all of the Office Managers wages, and 48.5 percent of General 
        Managers wages; Water purchases for the last 3 months of 2003 
        for people hooked up by fall; Office equipment for office use.
    Construction budget includes:
  --Income totally from BOR (based on $1.9 million carryover and $4.3 
        million appropriations).
  --Expenses including: Advertising for bids, easements, construction 
        schedules; Legal fees for contracts, bid openings; Engineering 
        for plans and specs, bids, contracts, inspections; Construction 
        fees include:
    --a. Lemmon infrastructure @ $720,000.00,
    --b. Bison infrastructure @ $50,000.00,
    --c. Combination of Phase I and II includes (page 79 in the FER):
      --1. Rural pipeline (Lodgepole) consisting of all sizes, 
            approximately 70 miles;
      --2. Border vault;
      --3. Pumping Station #1;
      --4. Three phase transmission line;
      --5. Partial mainline to Bison;
    --d. North Dakota State Water Commission Payment.
  --Wages for construction will include all of O&M Manager's and 48.5 
        percent of General Manager's.
    Non-Project budget includes:
  --Income from hook-up fees and building rental fees.
  --Expenses include directors and managers costs for work and travel 
        to Washington, DC.
    Also included is a worksheet containing the breakdown of items 
included in the three budgets.
    The work plan for Perkins County Rural Water is as follows:
Administration
    Income will include water sales for the fourth quarter, October 
thru December ($16,600), interest income ($40,000), hookup fees 
($7,400) and $7,500 from Bureau of Reclamation. Advertising, Legal 
fees, Insurance, Accounting Fees, Mileage Reimbursement, Meals, Dues 
and Fees, Office supplies, Repairs, and Telephone is based on past 
budgets and will total to $25,250.00. Utilities, for the pumps, are 
based on electricity needed to pump water for 3 months for a price of 
$3,000.00. Depreciation is figured on equipment inventory, building, 
and vehicle for a total of $4,000.00 (not included is depreciation of 
pipeline, etc.). Payroll for this budget includes all of the Office 
Manager's wages and benefits ($22,712.82), and 48.5 percent of General 
Managers ($42,391.2048.5 percent = $20,559.73). Water purchases are 
based on water sold for last quarter of 2003 for rural hookups plus 
Bison. Office equipment consists of copier ($5,000.00), computer for 
telemetry and O&M management ($3,000.00), software including Arc View, 
Telemetry, misc. ($4,000.00) for a total of $12,000.00. Building 
includes heat, electric, taxes and insurance ($3,000.00, vehicle 
includes tax and license, maintenance ($2,750.00) and a contingency of 
($8,820.00).
Construction
    Construction income will come totally from the BOR at $5,732,500.
    All office items including advertising, legal fees, office 
supplies, and telephone is a percentage of the total that we believe 
will be used strictly for construction, amounts to $13,000. Engineering 
is based on an estimate from KBM, Inc of $180,000 for 2003. The use tax 
is the 4 percent State tax applied to the engineering fees and will be 
$7,200 based on $180,000. Wages are calculated using 100 percent of the 
O&M Manager and 48.5 percent of the General Manager's salary. 
Contingency is 4 percent of the total.
    Construction is broke down in the following table:

------------------------------------------------------------------------
 ------------------------------------------------------------------------
Payment to NDSWC........................................        $946,000
Lemmon Infrastructure...................................         720,000
Bison Infrastructure....................................          50,000
Border Vault............................................         100,000
Three Phase Transmission Line...........................         225,000
Pumping Station #1......................................         500,000
Lodgepole Distribution..................................       1,800,000
Partial Main Transmission Line to Bison.................         907,700
                                                         ---------------
      TOTAL.............................................       5,248,700
------------------------------------------------------------------------

Non-Project
    Non-project is money that is used for lobbying for funds from the 
Federal Government. Income for this budget will not come from the BOR. 
Income will include $12,000 from hookup fees and $2,400 from rental 
fees in the System's building.
    Office budget will be mileage reimbursement ($500), office 
supplies, ($500), and telephone ($100). Meeting expenses for both the 
directors and manager is money spent on time in Washington, DC 
($11,000). This includes the possibility of three trips to Washington 
for up to three directors plus the manager. Three percent of the 
manager's wages have been allocated for this item equaling $1,300. 
Contingency is set at $1,100 (7 percent).
Conclusion
    It is anticipated that the work proposed in this document will 
require 12 months to complete. This time frame could lengthen 
considerably, dependent upon future appropriations from the U.S. 
Federal Government to the project.
    A full budget is included at the end of the report broke down in 
the three categories. Also included are the phase projections through 
2007.
                                 ______
                                 
   Letter From the Metropolitan Water District of Southern California
                           Los Angeles, California, March 27, 2003.
The Honorable Pete V. Domenici,
Chairman, Committee on Appropriations, Subcommittee on Energy and Water 
        Development, U.S. Senate, Washington, DC 20510.
    Dear Chairman Domenici: The Metropolitan Water District of Southern 
California (Metropolitan) is pleased to submit the following testimony 
for the record, regarding programs contained in the U.S. Bureau of 
Reclamation's, the Department of Energy's and the Army Corps of 
Engineers' fiscal year 2004 budgets for your Subcommittee's hearing 
record.
    Metropolitan strongly recommends your approval of a Reclamation 
fiscal year 2004 budget that includes $30 million in funding for the 
CALFED Bay-Delta Program. In addition, Metropolitan urges your support 
for the San Joaquin Water Supply and Exchange Program, as part of the 
reauthorization of the California Bay-Delta Act.
    We ask for your support for additional Federal funding for 
Reclamation's Colorado River Basin Salinity Control Program (Salinity 
Control Program). We request that Congress appropriate $17.5 million 
for implementation of the Title II--Basinwide Program, an increase of 
$8.302 million from the President's request to ensure water quality 
protection for this important source of water supply to Arizona, 
California, and Nevada. We support funding of the Grand Valley and the 
Paradox Valley Units of the Title II, Salinity Control Program at the 
President's requests of $752,000 and $2.102 million, respectively. In 
addition, we support funding of the Colorado River Water Quality 
Improvement Program at the President's request of $450,000. High 
salinity from the Colorado River continues to cause significant impacts 
to residential, industrial and agricultural water users. Furthermore, 
high salinity adversely affects the region's progressive water 
recycling programs, and is contributing to an adverse salt buildup 
through infiltration into Southern California's irreplaceable 
groundwater basins. The Salinity Control Program has proven to be a 
very cost-effective approach to help mitigate the impacts of higher 
salinity.
    In addition, we support funding of the Title I, Salinity Control 
Program at the President's request of $11.25 million to maintain the 
Yuma Desalting Plant (Plant) and the saline water Bypass Drain, and 
ensure that Mexican Treaty salinity requirements are maintained. 
Although the Colorado and Gila Rivers experienced above-normal runoff 
during the 1980's and 1990's, storage in the Colorado River system 
reservoirs has now dropped to a 30-year low. With declining reservoir 
levels, operation of the Plant is needed to reduce the amount of 
drainage water that is bypassed and not credited toward Mexico's Treaty 
entitlement delivery. As such, it is essential that Plant design 
deficiencies be corrected promptly as a step toward its efficient 
operation.
    Further, we also ask that you support the reauthorization of the 
Water Desalination Act of 1996 [Public Law 104-298, Section 8], which 
Metropolitan supported in the fiscal year 2003 budget process, as well 
as increasing the President's fiscal year 2004 budget request from 
$775,000 to $4 million. Federal support of desalination is vital to 
realizing technological advances leading to reduced costs, improved 
efficiency and cost-effectiveness in order for this resource to become 
an important water supply program for many regions of the United 
States.
    Metropolitan also requests your support for Reclamation's 
Endangered Species Recovery Implementation program at the President's 
request of $13.371 million. This activity develops and implements 
projects for the stewardship of endangered, threatened, proposed, and 
candidate species that are resident or migratory to habitats within the 
Colorado River Basin as well as other regions of the western United 
States. In addition, Metropolitan urges your support for the Lower 
Colorado River Operations Program at the President's request of $13.822 
million. This program includes:
  --Protection of endangered species, ecological restoration, and 
        riparian restoration research along the lower Colorado River,
  --Development of the cost-shared Arizona-California-Nevada/federal 
        Lower Colorado River Multi-Species Conservation Program to 
        provide future Endangered Species Act compliance, and
  --Implementation of the Secretary of the Interior's responsibilities 
        for administering federal laws and court decrees related to 
        operation of Reclamation's reservoirs.
    California has developed a Colorado River Water Use Plan 
(California Plan) to provide a framework for the agencies that rely on 
river water to reduce diversions to within California's 4.4 million 
acre-foot per year normal apportionment. Successful implementation of 
the California Plan is vital to the water supply reliability of the 
State of California, and is critical to the Colorado River interests of 
the six other Colorado River Basin States and Mexico. Two water 
management reservoirs near the All-American Canal, an 8,000 acre-foot 
reservoir to the east of the Imperial Valley and a 3,000 acre-foot 
reservoir on the western side of the Valley, would help facilitate the 
implementation of the California Plan and could be of significant 
benefit to the other Colorado River Basin states and Mexico for 
improved river operations and water deliveries. Reclamation funding of 
$6.9 million is needed in fiscal year 2004 in order to complete the 
environmental impact analysis and, if a decision is made to move 
forward, the initial stage of project design. Reclamation has been 
funding this work under the Colorado River Front Work and Levee System. 
As such, Metropolitan requests that the Subcommittee augment 
Reclamation's funding for this activity.
    Projects funded under Title XVI of the Reclamation Projects 
Authorization and Adjustment Act of 1992 (Public Law 102-575) and the 
Reclamation Recycling and Water Conservation Act of 1996 (Public Law 
104-266) will greatly enhance Southern California's water supply 
reliability and the environment through effective water recycling and 
recovery of contaminated groundwater. Additionally, Title XVI allows 
Reclamation to conduct much needed water recycling and desalination 
research programs, as well as, studies of potential water recycling 
projects. Funding in the fiscal year 2004 budget for previously 
unfunded projects, as well as the continued support for previously 
funded projects, is a positive step toward realizing regional water 
supply reliability. The Bureau of Reclamation's budget request for 
research into the technologies and science of water recycling is 
another vital step toward making water reuse a viable alternative for 
communities faced with limited water supplies. Metropolitan urges your 
full support for the $12.7 million for Title XVI.
    Metropolitan desires your support for the funding level of $6 
million, necessary for the Soil and Water Remediation-Moab Project 
associated with radioactive uranium mill tailings in Moab, Utah. The 
President's Fiscal Year 2004 Budget includes $2 million for maintenance 
of the Moab Tailings Project which would be used for site maintenance 
and completion of the Environmental Impact Statement (EIS) process. 
These funds would maintain the status quo, but they are not sufficient 
for continued work to remove surface and groundwater contamination and 
implement a reclamation plan. The President's Fiscal Year 2004 Budget 
proposal is not designed to conduct the necessary remediation work. The 
Colorado River adjacent to the site has been negatively affected from 
site-related contamination, mostly due to ground water discharge. This 
Project is essential for protecting the quality of Colorado River 
water. In addition to the $2 million in the President's Budget, 
Metropolitan supports an additional $4 million, as requested by 
Governor Leavitt of Utah, to accomplish the following: operation and 
maintenance of the interim groundwater pump and treat system; 
completion of groundwater studies; completion of site stabilization 
projects; and initiating design and onsite work for remediation.
    The Army Corps of Engineers' (Corps) comprehensive civil works 
program has the capability to contribute to the social, economic, and 
environmental well being of California. Metropolitan is primarily 
interested in the Corps' environmental restoration studies and projects 
that address the needs of the Bay-Delta Estuary. The President's 
proposed fiscal year 2004 budget includes numerous programs in the 
Corps' South Pacific Division, which includes California. Several 
ecosystem restoration studies and projects specifically address 
significant habitat issues at various locations in the Bay-Delta 
watershed. Corps programs that will contribute to the long-term Bay-
Delta solution include environmental restoration studies in the 
Sacramento and San Joaquin River watersheds, habitat conservation and 
mitigation elements of flood damage prevention projects, and ecosystem 
restoration programs. Metropolitan urges Congress to fully support 
these Corps programs as the fiscal year 2004 Federal appropriations 
process moves forward.
    We look forward to working with you and your Subcommittee. Please 
contact Metropolitan's Legislative Representative in Washington, DC, if 
we can answer any questions or provide additional information.
            Very truly yours,
                                        Ronald R. Gastelum,
                                           Chief Executive Officer.

 METROPOLITAN WATER DISTRICT OF SOUTHERN CALIFORNIA RECOMMENDATIONS FOR
                     FISCAL YEAR 2004 APPROPRIATIONS
------------------------------------------------------------------------
                                            President's         MWD
           Appropriations Bill                Budget      Recommendation
------------------------------------------------------------------------
U.S. Bureau of Reclamation:
    California Bay-Delta Ecosystem           $15,000,000     $30,000,000
     Restoration........................
    Colorado River Front Work and Levee          155,000       6,900,000
     System, Water Management Reservoirs
     near the All-American Canal........
    Colorado River Basin Salinity
     Control Program--Title II:
        Basinwide Program...............       9,198,000      17,500,000
        Grand Valley Unit...............         752,000         752,000
        Paradox Valley Unit.............       2,102,000       2,102,000
    Colorado River Basin Salinity             11,250,000      11,250,000
     Control Program--Title I...........
    Colorado River Water Quality                 450,000         450,000
     Improvement Program................
    Desalination Research and                    775,000       4,000,000
     Development Program................
    Endangered Species Recovery               13,371,000      13,371,000
     Implementation.....................
    Lower Colorado River Operations           13,822,000      13,822,000
     Program............................
    Title XVI Water Reclamation and           12,700,000      12,700,000
     Reuse Program......................
    Water Conservation Field Services        \1\ 500,000     \1\ 500,000
     Program............................
Department of Energy: Removal of               2,000,000       6,000,000
 Radioactive Tailings in Moab, Utah.....
U.S. Army Corps of Engineers: South       ..............         ( \2\ )
 Pacific Division.......................
------------------------------------------------------------------------
\1\ For Metropolitan Water District.
\2\ Support Corps programs.

                                 ______
                                 

                          DEPARTMENT OF ENERGY

         Prepared Statement of Bob Lawrence & Associates, Inc.
                 high temperature superconductivity r&d
    Mr. Chairman and Members of the subcommittee. My name is Bob 
Lawrence, I am President of Bob Lawrence and Associates, Inc., of 
Alexandria, Virginia. I appreciate the opportunity to present this 
testimony, today, on the important subject of Superconductivity. I am 
here to request an appropriation of $49 million for the Department of 
Energy program for fiscal year 2004.
Background
    Of all the technologies which are emerging today, Superconductivity 
is arguably one of the most promising in terms of dramatic, potential 
enhancements to American infrastructure and national benefits. 
Laboratory results are now moving into government-industry partnerships 
aimed at accelerating superconducting products into the electrical 
marketplace with concurrent, dramatic, energy efficiency and 
environmental improvements.
    Superconductivity is the property of a material to conduct 
unusually large quantities of electrical current with virtually no 
resistance. Since the middle of the century, researchers have known 
that certain ceramic materials show superconductive properties when 
they approach a temperature near absolute zero, or the temperature of 
liquid hydrogen and liquid helium. Practical applications of these 
materials are difficult, however, since they are characteristically 
very costly to make, very brittle in nature, and prohibitively 
expensive to cool to the required, very low temperature.
    In 1986, a new class of ceramic materials was discovered which 
showed superconductive properties at temperatures up to 34K. Since that 
time, improvements have produced superconducting materials at the 
temperature of liquid nitrogen, or 72K. These ``high temperature'' 
superconductive (HTS) materials have generated great excitement since 
the projected costs of applications have dropped by orders of 
magnitude, and first viable products appear to be within reach.
                              the program
    Today, a number of HTS-based pieces of electrical equipment are at 
the prototype stage with capable manufacturing entities intimately 
involved. Early candidates for commercial products include 
Transformers, Electric Motors, Generators, Fault Current Limiters, and 
underground Power Cables. Later in the commercialization process, 
replacements for overhead transmission lines are also foreseen; 
however, this will not be an early application. To enhance and 
accelerate the prospects for early commercialization of HTS products, 
the Department of Energy has developed a vertically integrated program 
in which product oriented teams are focused on the development and 
implementation of HTS equipment. Under the title of the 
Superconductivity Partnership Initiative (SPI), these vertically 
integrated teams typically each consist of an electric utility, a 
system manufacturer, an HTS wire supplier, and one or more national 
laboratories. Supporting these vertical teams is a Second Generation 
Wire Initiative, in which development teams are exploiting research 
breakthroughs at Los Alamos, Argonne, and Oak Ridge National labs that 
promise unprecedented current-carrying capabilities in high-temperature 
superconducting wires. Since superconducting wire is the main component 
of all superconducting cables, products and systems, the price drop 
projected by the Second Generation technology is highly significant and 
important to successful commercialization.
    Transformer development is being carried out by the team of 
Waukesha Electric Systems, Intermagnetics General Corporation, 
Rochester Gas and Electric, Rensselaer Polytechnic Institute, and the 
Oak Ridge National Laboratory. This team has conducted a series of 
reference designs concentrating mostly on a 30-MVA, 138-kV/13.8kV 
transformer which is representative of a class expected to capture 
about half of all U.S. power transformer sales in the next two decades. 
According to industry experts, Japan and Europe are somewhat ahead of 
the United States in transformer development.
    The United States HTS electric motor team is headed by Reliance 
Electric with American Superconductor Corp as the HTS coil supplier and 
manufacturer. Also on this team are Centerior Energy (a utility 
company) and Sandia National Laboratory. ``In February 1996, Reliance 
Electric successfully tested a four-pole, 1,800 rpm synchronous motor 
using HTS windings operating at 27-K at a continuous 150kW output. The 
coils . . . achieved currents of 100A . . . , 25 percent over the 
initial goal of 80 A.'' This program has now been extended to ``develop 
a pre-commercial prototype of a 3.7MW HTS motor''. The demonstration of 
this motor will be an important milestone in the commercialization 
process, since it will provide a measure of efficiency, reliability, 
and projected costs and benefits.
    Generator efforts in the United States have recently begun with a 
team headed by General Electric. The efforts here, again, appear to be 
behind those in Japan. In Japan, funds expended on HTS design, 
development, and demonstration exceed those in the United States. This 
Japanese, heavily funded effort involves 16 member organizations with 
representation from the electric utilities, manufacturers of electric 
power equipment, research organizations, manufacturers of HTS wire and 
tape, refrigeration and cryogenic suppliers, and independent research 
institutes.
    Fault Current Limiters represent a new class of electric utility 
equipment with many attractive properties. This type of equipment may, 
in fact, be a market leader, since its properties appear to provide 
substantial potential cost savings to electric utilities as well as 
containing power outages. This type of equipment is only possible using 
superconducting technology.
    Exciting developments have taken place in the field of underground 
HTS cables for transmission and distribution. In the United States, two 
teams are pursuing two different technical concepts, but each team is 
led by a powerhouse electrical cable manufacturer; Pirelli North 
America, and Southwire Co. First design cables are now under test in 
practical applications. Worldwide, about 10 superconducting electric 
power cable demonstrations are now underway, in various stages of 
completion.
The Benefits
    Dramatic cost and energy savings are projected when the candidate 
systems and products from superconducting technology are fully 
implemented, with incremental benefits accruing from the time of 
technology readiness and commercial introduction to the time of full 
market penetration. When fully implemented into the electric generation 
and utilization sectors of our economy, superconducting technology is 
expected to save $8 billion per year in retail value of presently lost 
electricity, lost due to transmission and distribution. An additional 
$8 billion per year can be saved with the installation of 
superconductive transformers and electric motors. Yet another $1 
billion or so can be saved by full implementation of HTS generators. 
This totals fully implemented benefits of $17 billion per year from 
full implementation of HTS technology in presently envisioned 
equipment. Oak Ridge National Laboratory (ORNL) experts and studies 
carried out by Energetics, Inc. indicate that HTS underground cable 
savings would be in the range of 125,000 kWhr per mile, per year. At 
the present average rate of 6.89 cents per kWhr, this corresponds to 
retail level monetary savings of $8,612.50 per mile per year. These 
savings will flow directly into reductions in taxpayer electric bills, 
under a competitive electricity delivery environment.
National Security
    Above ground transmission lines are vulnerable to terrorist attack, 
as well as severe weather. High Temperature Superconductivity would 
allow transmission lines to be placed underground with very large 
capacity increases per cross section. This also allows for a more 
environmentally effective use of the surface land. Higher national 
security and better environmental posture: a good combination.
    There are Defense applications of this technology, enabling in 
nature, applying to directed energy weapons. Exact applications are 
sensitive in nature, but it is important to note that the benefits from 
success in this technology will apply to many cross sections of the 
American economy and infrastructure.
    In conclusion, Mr. Chairman, I thank you for the opportunity to 
present this testimony. Major efforts in this technology are now 
underway in China, South Korea, Japan, and a number of European 
countries, as well as the United States. It is very important that we 
make every effort to be ahead of the rest of the world in this 
technology, and for that reason, I ask that the Committee provide an 
appropriation of $49 million for the Superconductivity R&D program for 
fiscal year 2004.
         electric transmission reliability and technology needs
    I am here, today, to request an appropriation of $18 million for 
fiscal year 2003 for Transmission Reliability, a subject area found 
within the Electric Energy Systems program of the Department of Energy. 
Within that amount, I request that you designate $4 million to continue 
the Aluminum Matrix Composite Conductor program which was started in 
fiscal year 2002. This program has the promise of evolving a new family 
of transmission line conductors which will carry twice the capacity of 
today's conductors, greatly reducing the need for new transmission 
rights-of-way. This will be, clearly, of tremendous benefit to our 
Nation.
    Since 1974, our country has confronted a series of alerts and 
crises involving energy. In the early pursuit of alleviating these 
crises, natural gas, coal, and electricity were examined as possible 
alternatives to oil. However, in the ensuing years, there has been a 
natural gas crisis, a natural gas bubble, another tightening of natural 
gas supply, wide swings in the prices of oil-based products, and now, a 
strong reminder in the electrical sector that our Nation's electricity 
generation and delivery system is in desperate need of upgrading and 
repair. Moreover, a new approach to planning for future electric 
generation and, most importantly, the delivery system, is critical.
    Numerous recent articles and reports describe the situation from a 
variety of perspectives. Clearly, there is no ``National Grid'' to 
accept and deliver electricity. Rather, our present system evolved from 
a patchwork of local systems designed to accept local generation and 
provide it to local customers from a regulated, wholly owned, 
vertically integrated structure. Today, the national thrust is to move 
this system into a configuration wherein merchant power generators sell 
to a variety of widely situated customers on a competitive basis, and 
the power is delivered through a reliable and affordable transmission/
distribution network. How this situation will ultimately evolve remains 
conjecture; however, it is certain to involve a confluence of 
legislation, regulations, technology advances, and societal changes 
before it is all over.
    The Nation's present patchwork system clearly requires upgrading 
with a more global design based on a new system of planning and 
financing. The U.S. electricity industry is in the midst of a 
transition from a structure dominated by vertically integrated 
utilities regulated primarily at the State level to one dominated by 
competitive markets. In part because of the complexities of this 
transition, planning and construction of new transmission facilities 
are lagging behind the need for such grid expansion.
    Electricity, when transmitted, flows over all available paths to 
reach the customer and it cannot be easily directed in one particular 
way. Major problems are occurring as new merchant power plants are 
being built, but increased transmission capacity is not being 
installed. In 2000, normalized capacity was 17 percent lower relative 
to demand than it had been a decade earlier, and the projection for 
2009 shows a further decline of another 12 percent.
Upgrades: Replacements, Additions, and Siting
    Transmission rights-of-way are rarely abandoned. Rather, existing 
conductors are replaced, often with wires capable of handling larger 
power flows, or towers and conductors are replaced. Due to the problems 
associated with constructing new transmission lines, it is important to 
examine the possible options for increasing the transmission capability 
on present sites and making maximum use of existing transmission 
systems through upgrades. When feasible, upgrades are an attractive 
alternative, because the costs and lead times are less than those for 
constructing new transmission lines.
    The most obvious but most expensive method for alleviating the 
thermal constraints on a line is to replace the lines with larger ones 
(conductors) through ``restringing'' or to add one or more lines, 
forming ``bundled'' lines. This approach requires consideration of the 
tower structures that support power lines.
    Other typical cost estimates for restringing transmission lines 
with larger conductors are:
  --60 kV line, to 397.5 kcmil: $40,000 per mile,
  --115 kV line, to 715.5 kcmil: $80,000 per mile,
  --230 kV line, to 1,113 kcmil: $120,000 per mile.
    ``Long-distance power transmission can be essential in a 
deregulated system, by increasing competitive offers for customers,'' 
said Ken Rose, senior economist with the National Regulatory Research 
Institute in Columbus, Ohio. From suburbs to farms, the giant towers 
and the drooping lines they support are loathed and opposed. ``It's 
easier to site a generation plant than to build a 20-mile transmission 
line through people's backyards,'' said Mike Calimano, vice president 
for operations of the New York Independent System Operator, the State's 
power grid manager. ``We haven't built any [transmission lines] from 
Canada or the West since 1978, and that was a war,'' said Minnesota 
State Attorney General Mike Hatch. ``We had highway patrols trying to 
keep the peace. It was awful then,'' and will be again as new power-
line projects go forward, he warned.
    The long-distance transmission lines, strung on 150-foot-tall steel 
towers spaced at quarter-mile intervals, face particularly strong local 
opposition. Citizen protests have also stalled plans to build power 
plants, but outrage soars when it comes to the high-voltage wires.
Aluminum Matrix Composite Conductor Technology
    This advanced transmission line conductor is expected to carry 
twice as much electricity, per line, as present conductors, allowing 
for transmission upgrades without needing additional land rights-of-
way. The program was begun in fiscal year 2002 with $4 million, and is 
structured to be a 3-year effort at $4 million per year. Substantial 
cost sharing from both industry and utilities is occurring. Continued 
funding would allow industry, Oak Ridge National Laboratory, and the 
Department of Energy to develop and demonstrate a new class of overhead 
conductors through laboratory tests and field trials. Under the 
proposed program, medium and large size constructions of composite 
conductors will be developed and tested in preparation for the field 
trials. Accessories tailored for each conductor construction will also 
be developed and tested. The testing will include a low-voltage outdoor 
test span operated by ORNL that can continuously cycle a 1,200-foot 
multispan line to high-temperature operation.
    Multi-year field trials will demonstrate medium and large size 
conductor performance under different conditions, such as various 
voltages, mechanical loading conditions, and operating conditions. WAPA 
will host the first field trial in fiscal year 2002 under this program. 
Field trials require performance monitoring, which spans more than 1 
year. A number of the proposed laboratory tests require months to carry 
out. Thus it is important that the proposed program be viewed with 
respect to the overall multi-year plan.
Objectives of the Program in 2003 and 2004
    The level of effort in fiscal year 2003 will be of slightly less 
magnitude than the effort that was executed in fiscal year 2002 due to 
a funding level of $3 million in fiscal year 2003 as opposed to the $4 
million in fiscal year 2002.
    The technical objectives in fiscal year 2003 and fiscal year 2004 
are a continuation of 2002 activities as follows:
  --Monitor the WAPA field trial with the 795 kcmil ACCR over a minimum 
        of 1 year, and preferably 2 years.
  --Complete the laboratory testing of the 1272 kcmil and 598 kcmil/TW 
        ACCR. The testing is aimed at understanding and modeling the 
        conductor mechanical and electrical performance.
  --Complete the thermal cycling of 795 kcmil ACCR at ORNL. Install and 
        test the 1272 kcmil and 598/TW conductors on the ORNL test 
        line. The objective of this task is to evaluate the performance 
        of 795, 1272 and 598/TW and accessories in operation at 
        elevated temperature. The test can simulate in 3 months the 
        emergency current conditions that would be expected over 40 
        years of operation.
  --Install and monitor the 1272 kcmil in a new field trial with a 
        utility to be determined. The objective of this field test is 
        to demonstrate the installation, operation, and reliability of 
        1272 family of conductors for use on 230kV-500kV applications.
  --Install and monitor the 598 kcmil/TW with in a field trial with a 
        utility to be determined. The objective of this field test is 
        to demonstrate the installation, operation, and reliability of 
        high efficiency composite conductors.
  --Evaluate system network impacts of conductor upgrades.
  --Establish national perspective regarding potential of new 
        conductors.
  --Draft industry standards necessary for commercial introduction.
    At this point in time, a comprehensive study has been completed by 
the Department of Energy on the National Transmission Grid System. The 
Study was completed in December 2001. Since that time, the Office of 
Management and Budget has refused to fund the results and objectives of 
the study, even though it is comprehensive in nature and could form the 
basis for Congress to appropriate needed funds to fix our Nation's 
critical grid problems. This action is unfortunate, and clearly not in 
the Nation's best interest.
    We ask the subcommittee to restore Transmission Reliability program 
to the funding level that it had in fiscal year 2002--$18 million.
                 cost/benefits of geothermal energy r&d
    I and my firm, have been working with the Department of Energy's 
Geothermal program since 1990, and during the past 13 years, we have 
seen many positive changes in the program which are helpful to the 
industry and to our country as a whole. I come before you, today, to 
request $37 million for the program for fiscal year 2004, of which, $4 
million would be applied to the GeoPowering the West portion of the 
Program.
    Geothermal electric generation, at 16 billion Kw/hrs per year, is 
the largest contributor to delivered electricity from Renewables except 
for Hydro generation. For the past several years, the Geothermal 
Technology program has been held back at budget levels below $30 
million. This has been harmful to the industry which is dependent upon 
the technology evolving from the DOE programs to develop new and ever 
more difficult resources. During the fiscal year 2003 appropriations 
process, the Senate funded the Geothermal program at $37 million. 
Although the Conference only funded the program at $30 million, it was 
certainly a step in the right direction. It is consummately in the 
national interest to increase the funding level of this program to $37 
million annually to accelerate increased geothermal use for energy 
purposes.
    At $37 million, last year's Senate level, it gives the Geothermal 
program the chance to move forward with industry on several fronts. The 
$7 million additional will actually be closer to $14 million 
additional, since it is expected to draw an equal amount of industry 
cost sharing. At the $37 million level, strong programs can move ahead 
addressing Enhanced Geothermal Systems, where tertiary treated waste 
water is injected deep into the earth to provide additional needed 
water to under-saturated geothermal resources. The GeoPowering the West 
program, addressing 19 Western States, can be strengthened. And most 
importantly, Cost-Shared Exploratory Drilling, Reservoir Definition, 
and New Resource Exploration can move forward in areas where it has 
slowed to nearly a stop. Even at $37 million, the Geothermal program 
will be the lowest funded of all Renewables, even though the program 
has been the most successful based on present generation annual levels.
Overview
    Cost-shared Department of Energy investments in geothermal energy 
R&D, starting in the 1970's, have made possible the establishment of 
the geothermal industry in the United States. Today that industry 
generates over 16 billion kilowatt-hours per year in the United States, 
alone. The total, retail value of this electricity exceeds $1 billion 
per year. The Industry:
  --returns over $41 million annually to the Treasury in royalty and 
        production payments for geothermal development on Federal 
        lands;
  --supplies the total electric-power needs of about 4 million people 
        in the United States, including over 7 percent of the 
        electricity in California, about 10 percent of the power in 
        Northern Nevada, and about 25 percent of the electricity for 
        the Island of Hawaii (the Big Island);
  --employs some 30,000 U.S. workers;
  --displaces emissions of at least 16 million tons of carbon dioxide, 
        20,000 tons of sulfur dioxide, 41,000 tons of nitrogen oxides, 
        and 1,300 tons of particulate matter every year, compared with 
        production of the same amount of electricity from a State-of-
        the-Art coal-fired plant;
  --has installed geothermal projects worth $3.0 billion overseas, 
        mostly in the Philippines and Indonesia.
Near Term Potential
    The geothermal industry, with appropriate government R&D support, 
can provide an additional 600 Megawatts of power in about 18 months. 
This power will come from:
  --Use of tertiary treated wastewater injection (Enhanced Geothermal 
        Systems): 200 MW.
  --Implementation of new technologies into old plants, well field 
        upgrades, and turbine replacements: 400 MW.
    In addition, direct use increases, through the GeoPowering the West 
initiative, will provide an additional, near term, 100MW of use for 
heating, cooling, industrial drying, agricultural applications, and 
recreational purposes.
    This is an additional 700MW of clean, renewable, geothermal energy 
available within 2 years with appropriate government funding and 
support, right in the heart of the Western States that presently have 
the most critical power problems.
Longer Term Potential
    The long term potential of Geothermal energy in the United States 
is estimated to be 25,000 MW of electrical generation and an additional 
25,000 MW of direct use. To date, the geothermal industry has made use 
of only the highest grade geothermal resources in the United States. 
The keys to realizing the enormous potential of geothermal energy are 
improved technology to tap resources that can not, at present, be 
economically developed, and cost shared programs with industry for 
accelerated implementation of the technology. Substantial investments 
in R&D by the geothermal industry, acting alone, have not happened and 
are unlikely, because the developers are uniformly financial entities, 
with small engineering components, which rely on the technology 
centered at national laboratories and university institutes for project 
development and engineering.
Technology Needs
    Applied R&D is essential to reduce the technical and financial 
risks of new technology to a level that is acceptable to the private 
sector and its financial backers. The U.S. geothermal industry has 
conducted a series of workshops to determine the industry's needs for 
new technology and has recommended cost-shared R&D programs to DOE 
based on the highest-priority needs.
    The Geothermal Industry supports the Strategic Plan of the DOE 
Office of Geothermal Technology. The plan calls for increased spending, 
quickly reaching $50-60 million per year, a geothermal budget level 
consistent with that recommended by the President's Committee of 
Advisors on Science and Technology (PCAST) in their 1997 report. 
Technical needs include:
    Drilling.--Geothermal drilling differs dramatically from oil and 
gas drilling since the necessary production holes are three times as 
wide as oil and gas production holes, and they must be drilled through 
hard, volcanic rock rather than sedimentary soils. Also, because of the 
high temperatures and corrosive nature of geothermal fluids, geothermal 
drilling is much more difficult and expensive than conventional oil and 
gas drilling. Each well costs $1 million to $3 million, and an average 
geothermal field consists of 10 to 100 or more wells. The drilling 
technology program continues to show cost-saving advancements.
    Exploration and Reservoir Technology.--The major challenge facing 
the industry in exploration and development of geothermal resources is 
how to remotely detect producing zones deep in the subsurface so that 
drill holes can be sited and steered to intersect them. No two 
geothermal reservoirs are alike. Present exploration techniques are not 
specific enough, and result in too many dry wells, driving up 
development costs. The industry needs better geological, geochemical, 
and geophysical techniques, as well as improved computer methods for 
modeling heat-extraction strategies from geothermal reservoirs.
    Energy Conversion.--The efficiency in converting geothermal steam 
into electricity in the power plant directly affects the cost of power 
generation. During the past decade, the efficiency of dry- and flash-
steam geothermal power plants was improved by 25 percent. It is 
believed that geothermal power-plant efficiency can be improved by an 
additional 10-20 percent over the next decade with a modest investment 
in R&D.
    Reclaimed Water Use for Geothermal Enhancement.--Many potential 
geothermal resources are not utilized due to insufficient water in the 
hot zones. Reclaimed water, the disposal of which is an expensive 
problem for many communities, could be used productively, in many 
cases, to enhance the geothermal resources, making them more 
economically viable for local use. In the United States, over 300 
western communities each have a potentially useable geothermal resource 
co-located within 5 miles. The technology which will evolve from this 
effort could be broadly applicable to these communities and their 
combined energy and wastewater problems.
    GeoPowering the West.--This initiative, now in its third year, 
seeks to develop, as well as provide information and implement those 
technologies needed to utilize geothermal resources in the over 300 
presently identified ``co-located'' communities in 19 Western States. 
Studies now underway may increase the number of communities to over 
350. The program is creating partnerships with the subject communities 
to utilize hot geothermal waters for direct use applications such as 
space conditioning, industrial drying, agricultural applications, and 
recreational purposes. Additionally, the program will provide 
technology needed to explore these resources for generation potential. 
In the short time that this program has been ongoing, it has played a 
major role in expanding the number of States with geothermal electric 
generation potential from four to eight, or a doubling of candidate 
States. This program is singularly important to the expanded geothermal 
future of our country.
    GeoSciences.--Basic research in the GeoSciences needs to continue 
at national laboratories, universities, and research institutes to 
expand and advance the knowledge base in this technology area. Funding 
the GeoSciences ensures a flow of new, capable, engineers and 
scientists into this important field as well as expanding the basic 
knowledge base surrounding geothermal resources and geothermal energy. 
It is important for this program to continue.
Conclusion
    The cost shared, cooperative, research, development, and 
implementation programs of the Department of Energy's Geothermal 
program should serve as a model for programs whose purpose is to 
provide and enhance national benefits, while reaping a return on 
investment for the taxpayer. The $41 million that the industry returns 
to various governmental entities in royalties and leases exceeds, 
annually, the amount that the government invests in the future of the 
technology. Yet, the future of the technology and the expanded industry 
is closely tied to these programs. Clearly, the Geothermal research and 
technology development is an outstanding example of a proper, taxpayer 
investment. $37 million is required for fiscal year 2004.
                                 ______
                                 
     Prepared Statement of the Solar Energy Industries Association
    Mr. Chairman, members of the committee, I would first like to thank 
you for the opportunity to address the committee regarding the state of 
the solar energy research programs sponsored by the Federal Government. 
Our organization, the Solar Energy Industries Association, represents 
photovoltaic, concentrating solar power, and solar thermal 
manufacturers, distributors, contractors installers and component 
suppliers throughout the United States.
    These businesses have experienced a recent growth rate that can 
only be described as blistering. Our most recent production survey data 
shows that the world photovoltaics market last year increased by 
approximately 40 percent above 2001 levels. These growth rates are why 
U.S. photovoltaic production has doubled since 1996, and quadrupled 
since 1994. Meanwhile, a project is underway to bring an additional 50 
MW clean, reliable Concentrating Solar Power online by 2004. This 
technology alone will be providing more than 400 MW of power in the 
United States--enough to power more than 100,000 U.S. homes.
    Market success is being further recognized at the polls. A USA 
Today/CNN/Gallup poll released in May 2001 found that 91 percent of 
Americans support ``investments in new sources of energy such as solar, 
wind and fuel cells,'' with only 6 percent opposed. Meanwhile, in a 
Washington Post/ABC News poll from June 2001 on American's desired 
solutions to our energy problems, the No. 1 choice across America was 
``develop more solar and wind power.'' A 2001 Newsweek poll similarly 
found 84 percent of Americans favor increased funding for the 
development of solar and wind power.
    This demand is further spurred by increased performance and 
decreased costs. DOE research continues to bring the cost of solar 
systems down markedly even as performance improves, fostering the 
strong growth of a domestic high-tech manufacturing base. However, 
we're starting to see a very disturbing trend in photovoltaics. The 
U.S. photovoltaics market reportedly increased 60 percent last year. 
Total world manufacturing increased nearly 40 percent. However, U.S. 
manufacturing barely held steady, losing a great deal of market share, 
to Japan and the European Union, as can be seen below.
    Distressingly similar trends can be seen in the concentrating solar 
power market, where the ``power tower'' technology originally developed 
in collaboration with the Department of Energy is now seeing its 
commercial debut in Spain's ``Solar Tres'' project, and in the solar 
hot water market, where Israel and other countries have seized a 
commanding lead.
    In all of these countries, the potential market is no stronger than 
that in the United States. Government support, however, is much more 
robust. In the coming years, we fully expect that increasingly 
relevant, inexpensive, and high-performance solar technologies will 
continue their exponential rate of sales growth. The only question is 
whether the United States will fully harness this engine of 
environmental benefit, energy security, and high-tech jobs growth, or 
if we will simply yield to the competition of other countries, losing 
what was once unassailable market dominance to our competitors. This 
would be a sad echo of what has already happened with the wind turbine 
market.
    Solar energy's benefits to the Nation are far too numerous to list 
here comprehensively. However, we cannot mention enough that as a long-
lived source of perpetually renewable energy, solar enables us to make 
more of our energy at home, rather than being forced to acquire it 
overseas or from volatile fuel markets. By its modularity and 
simplicity, it can provide quick answers to grid congestion or supply 
inadequacy problems, while sidestepping environmental and NIMBY issues. 
The high coincidence of solar panels' peak output and daily peak demand 
cycles makes them a particularly attractive solution for areas that 
experience load pockets or seasonal demand spikes, avoiding the use of 
the dirtiest and least efficient conventional generators. Finally, 
solar will undoubtedly be one of the critical cornerstone technologies 
of the hydrogen economy, giving us the ability to produce motor fuels 
when and where we want them, with no emissions of any kind.
    The most well known programs within DOE, and those that have 
received the most consistent support are the photovoltaics research 
initiatives. However, even these are likely still not realizing their 
full potential. This is ``gold standard'' research--a 2001 Peer Review 
of the DOE Photovoltaic Program concluded that:

    ``In terms of the programs' relevance to national needs, the 
panelists found that the PV program's work was outstanding across all 
activities . . . In summary, it is the panel's considered opinion that 
the PV program is doing an extremely effective job of setting 
priorities, balancing allocation of available resources, recognizing 
and addressing critical problems and barriers to progress and 
commercialization, and supporting the quality of work required to 
achieve its goals . . . The panel notes that the consistently high 
rankings assigned in this evaluation are very unusual, and they are 
also very deliberate . . . The panel believes this to be a truly 
outstanding element of the Department of Energy's programs.''

                                                                                SOLAR CELL PRODUCTION, 1988-2002
                                                                                            [MW/year]
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                      1988     1989     1990     1991     1992     1993      1994      1995      1996      1997     1998     1999     2000      2001      2002
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Rest of World.....................................      3        4        4.7      5        4.6      4.4       5.6       6.35      9.75      9.4     18.7     20.5     23.42     32.62     47.8
Europe............................................      6.7      7.9     10.2     13.4     16.4     16.55     21.7      20.1      18.8      30.4     33.5     40       60.66     86.38    112.75
Japan.............................................     12.8     14.2     16.8     19.9     18.8     16.7      16.5      16.4      21.2      35       49       80      128.6     171.22    251.07
United States.....................................     11.1     14.1     14.8     17.1     18.1     22.44     25.64     34.75     38.85     51       53.7     60.8     74.97    100.32    100.6
                                                   ---------------------------------------------------------------------------------------------------------------------------------------------
      Total.......................................     33.6     40.2     46.5     55.4     57.9     60.09     69.44     77.6      88.6     125.8    154.9    201.3    287.65    390.54    512.22
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

    Within these programs, the cost-shared components have been 
experiencing particular success. The advanced photovoltaics 
manufacturing, (formerly PVMaT,) Thin Films Partnership, and Building-
Integrated PV (BiPV) programs obtain cost-competitive research in 
coordination with industry, while keeping solar manufacturing in the 
United States. Manufacturers of solar and related equipment are located 
in States including California, Maryland, Delaware, Florida, Arizona, 
New Jersey, Ohio, Michigan, Tennessee, and Massachusetts, employing 
thousands of workers, all of whom benefit from the increased 
performance realized from DOE programs.
    The advanced photovoltaics manufacturing programs have focused on 
helping to bringing efficiency and technology to bear on the complex 
process of manufacturing solar cells, having now brought module-
manufacturing costs down by more than 50 percent. These innovations 
occur in a competitive cost-sharing environment that ensures rapid and 
cost-effective development and adoption of technologies that would not 
likely emerge otherwise. It is a critical component to maintaining U.S. 
technological viability in the face of particularly aggressive and 
growing German and Japanese research efforts.
    The BiPV program has attracted Administration notice, with the 
Fiscal Year 2003 Congressional Budget Document trumpeting ``an exciting 
and rapidly growing solar application which . . . will help cross the 
profit threshold that holds the key to significant growth in 
distributed, grid-connected electricity markets.'' Meanwhile, the Thin 
Films Partnership continues to make important discoveries, routinely 
knocking down their own efficiency records while investigating 
materials that show the real, near-term potential of cutting module 
prices by half or more. To support the research needs of the evolving 
technology and growing industry behind these programs, SEIA requests at 
least $100 million for the photovoltaics program in total.
    Photovoltaics, of course, do not form a functioning system on their 
own, and we therefore request that the systems and reliability account 
receive robust funding so that all necessary inverter and balance-of-
systems work can be carried out.
    A worrisome budget note is the effective closeout of the 
Concentrating Solar Power (CSP) program. CSP systems currently produce 
354 MW of clean, reliable, and relatively inexpensive power in the 
California desert. Reentering the market with newer, more refined, and 
more sophisticated technologies, early construction has begun for 
another 50 MW plant in Nevada, and a 1 MW plant in Arizona. Other 
project sites are being sought out or are in early negotiations now, 
and the Western Governor's Association has stated that they support 
further developing this resource.
    A recent ``due diligence'' review of the CSP program, conducted by 
third party consultants Sargent and Lundy under the auspices of the 
National Research Council, found that ``CSP technology is a proven 
technology for energy production, there is a potential market for CSP 
technology and that significant cost reductions are achievable assuming 
reasonable deployment of CSP technologies occurs.'' The 
Administration's own budget document for 2003 states that:

    ``Large-scale CSP technologies have been operating successfully in 
the California desert for 15 years. Over this time the cost of these 
systems has decreased by a factor of 3, and . . . they are currently 
the least expensive source of solar electricity. Recent technology 
advancements . . . (have) revitalized the CSP industry and placed them 
in a position to play a major role in near-term green power 
opportunities, both domestically and overseas, as costs are projected 
to drop into the 6-8 cents/kWh range.''

    Given this degree of support, promise, and sheer technological 
achievement, a closeout budget is simply unjustifiable.
    In the recently released fiscal year 2003 omnibus appropriations, 
Congress instructed the Department to ``spend not less than $5,500,000 
for the continuation of work on concentrating solar power''. This 
minimum level is wholly inadequate to operate an effective program. The 
funding roller coaster for these programs has damaged their ability to 
make long-term investments and to retain top-quality staff. Funding in 
the range of $25 million would allow the Department of Energy, through 
the national laboratories at Sandia and NREL, to validate technology 
and components with industry as well as lowering operations and 
maintenance costs in a stable environment. Given the growth potential 
of this industry, and the very strong international interest in these 
technologies, it seems a small price to pay.
    We also note with interest the provision of the current Senate 
Republican staff draft of the energy bill that provides substantial 
research support for using Concentrating Solar Power as a source of new 
hydrogen fuel. The simplest means of funding this account may well be 
the hydrogen portion of the budget, which should address hydrogen 
production from renewable resources.
    SEIA also strongly supports the Administration's support for Solar 
Buildings products and projects, including the visionary Zero Energy 
Buildings Program. The multi-year goal of Zero Energy Buildings (ZEB) 
is to achieve the requisite technology advances to spur widespread 
adoption of zero energy residences by 2010 and zero energy commercial 
buildings by 2015. This would slow and eventually eliminate new 
buildings' consumption of our finite energy sources. Builders around 
the country are increasingly developing new construction techniques, 
utilizing new building materials, and including solar technologies 
which will achieve zero finite fuel source energy consumption. For 
these programs we request $8 million in funding.
    A different program, formerly filed under the ``solar buildings'' 
heading, is Solar Heating and Lighting. Solar water heating 
technologies are utilized around the world in quantities far exceeding 
those in the United States. Such systems can significantly reduce the 
consumption of electricity, and of natural gas, which is increasingly 
being used to generate electricity, exposing the country both to 
increasing energy dependence on foreign nations and to the inherent 
risks of transporting these fuels. Solar water heating technologies are 
already ubiquitous in many other countries, thereby saving other energy 
sources for higher value purposes.
    Within this program, emphasis will be placed on reducing the cost 
of solar water heating by using light-weight polymer materials that can 
replace the heavy copper and glass materials used in today's solar 
thermal collectors. The goal is to complete R&D on new polymers and 
manufacturing processes to reduce the cost of solar water heating to 
4 cents/kWh in 2004. We recommend that this program be funded 
explicitly at the $5 million level.
    We are further concerned that in many cases, the budget for ``solar 
buildings'' is frequently confused by the inclusion of non-solar 
technologies and research programs. These earmarks tend to distract 
resources and attention from important core research, and we urge that 
they be reexamined and strictly limited.
    With these minor changes to the existing budget, we are confident 
that the committee can lay the foundations for a solar future where the 
United States can regain its lead and reap the many benefits of this, 
the cleanest of all energy sources.
                                 ______
                                 
     Prepared Statement of the Biomass Energy Research Association
    This testimony pertains to the fiscal year 2004 appropriation for 
biomass research, development, and deployment (RD&D) conducted by the 
Department of Energy's (DOE's) Office of Energy Efficiency and 
Renewable Energy (EERE). Separate statements will be submitted in 
support of biomass RD&D performed under the Interior and Related 
Agencies Bill by EERE's Office of Industrial Technologies, and on 
forest biomass production research by the U.S. Department of 
Agriculture Forest Service (USDAFS).
    BERA recommends that for fiscal year 2004, $114,500,000 be 
appropriated for RD&D under EERE's Biomass and Biorefinery Systems 
Program, and biomass-related Hydrogen Technology Program.
  --$24,000,000 to continue the Bioenergy and Bioproducts Initiative 
        (BBI, Crosscutting RD&D) and $5,000,000 to continue the 
        Regional Biomass Energy Program (RBEP).
  --$21,000,000 for R&D under the core programs: Advanced Biomass 
        Technology--Thermochemical Conversion and Bioconversion.
  --$26,000,000 for R&D and $32,000,000 for the industry cost-shared 
        scale-up projects under the core programs: Systems Integration 
        and Production (Exclusive of the BBI).
  --$6,500,000 for the biomass-related core programs under Hydrogen 
        Technology.
    On behalf of BERA's members, I would like to thank you, Mr. 
Chairman, for the opportunity to present the recommendations of BERA's 
Board of Directors for the high-priority projects and programs that we 
strongly urge be continued or started. BERA is a non-profit association 
based in Washington, DC. It was founded in 1982 by researchers and 
private organizations that are conducting biomass research. Our 
objectives are to promote education and research on the production of 
energy and fuels from virgin and waste biomass that can be economically 
utilized by the public, and to serve as a source of information on 
biomass RD&D policies and programs. BERA does not solicit or accept 
Federal funding for its efforts.
    In fiscal year 2003, about 30 percent of the appropriation for 
EERE's RD&D was provided as earmarked funds. This is less than the 43 
percent figure for fiscal year 2002, but EERE's planned objectives for 
their core programs will be extremely difficult or impossible to 
achieve because the baseline funding requested and the appropriation 
were almost the same in fiscal year 2003. The excessive earmarks do not 
allow for sufficient funding of the core programs, and several cut-
backs have been necessary. BERA respectfully asks the Subcommittee to 
carefully consider the impacts of earmarks on EERE's RD&D. If they are 
for projects that are not in DOE's formal request, BERA urges that they 
be add-ons to the baseline funds rather than deductions.
    The original goal of the BBI created as a result of ``The Biomass 
Research and Development Act of 2000,'' and Title IX of the Farm Bill, 
was to triple the usage of bioenergy and biobased products. Congress 
has provided annual funding for the BBI since fiscal year 2000. A 
strategic plan has been developed by the multi-agency Biomass Research 
and Development Board (BRDB), co-chaired by the Secretaries of Energy 
and Agriculture, to achieve this goal. Its achievement is necessary 
because of environmental, energy security, and projected fuel supply 
issues, and our increasing dependence on imported oil. We must 
determine whether practical biomass systems capable of displacing much 
larger amounts of fossil fuels can be developed. The fossil fuel 
displaced by waste and virgin biomass in 2000 was 1.55 million BOE per 
day, approximately 79 percent of which was wood-based. In DOE's funding 
request, the BBI is included under ``Crosscutting Biomass R&D.'' BERA 
strongly urges that the BBI be continued in fiscal year 2004 at the 
funding level recommended by BERA, and that the highest priority be 
given to development of this program component.
           program integration, coordination, and management
    For several years, BERA has urged that all biomass-related research 
funded by DOE should be coordinated and managed at DOE Headquarters so 
that the program managers are heavily involved in this activity. We are 
pleased to note that this process, which began in fiscal year 2002, has 
continued in fiscal year 2003. BERA congratulates DOE on the progress 
made in restructuring the program and its management. BERA also 
congratulates DOE and USDA for the new spirit of working together and 
coordinating the programs of each department to increase the usage of 
agricultural and forestry biomass for the production of much larger 
amounts of affordable fuels, electricity, and biomass-derived products 
than have been realized in the past. These efforts are expected to help 
facilitate the transition of waste and virgin biomass in the USA into 
major sources of renewable energy, fuels, and chemicals.
    BERA urges that the BBI be incorporated into the overall Federal 
biomass research program. Without it, the time table for this 
transition will be stretched out for several decades and possibly never 
happen except to a very limited extent for niche markets. Large, 
strategically located, energy plantations are ultimately envisaged in 
which waste biomass acquisition and virgin biomass production systems 
are integrated with conversion systems and operated as analogs of 
petroleum refineries to afford flexible slates of multiple products 
from multiple feedstocks. Unfortunately, relatively large amounts of 
capital and inducements are required to get the private sector involved 
in developing even modest size projects in the field. So to help 
implement this program, BERA includes the BBI as a line-item in its 
annual testimony.
    BERA also continues to recommend that implementation of the BBI 
should include identification of each Federal agency that provides 
funding related to biomass energy development, each agency's programs, 
and the expenditures by each agency. DOE and the USDA have initiated 
this process. This is an on-going activity that should be expanded to 
include other agencies and departments and help fine-tune the critical 
pathways to program goals. Continual analysis of the information 
compiled should enable the coordination of all Federally funded biomass 
energy programs through the BRDB to facilitate new starts focused on 
high priority targets, and help to avoid duplication of efforts, 
unnecessary expenditures, and continuation of projects that have been 
completed or that do not target program goals. Full implementation of 
the BBI will enhance the value of the Federal expenditures on biomass 
research to the country in many different ways.
                          bera recommendations
    BERA's project recommendations consist of a balanced program of 
mission-oriented RD&D on conversion research and technology transfer to 
the private sector. Advanced conversion processes and power generation 
technologies, alternative liquid transportation fuels, and hydrogen-
from-biomass processes are emphasized. Biomass production RD&D for 
energy uses is ultimately expected to be done by the USDA.
    BERA continues to recommend that at least 50 percent of the Federal 
funds appropriated for biomass research, excluding the funds for scale-
up projects, are used to sustain a national biomass science and 
technology base via sub-contracts for industry and universities. While 
it is desirable for the national laboratories to coordinate this 
research, increased support for U.S. scientists and engineers in 
industry, academe, and research institutes that are unable to fund 
biomass research will encourage commercialization of emerging 
technologies and serious consideration of new ideas. It will also help 
to expand the professional development and expertise of researchers 
committed to the advancement of biomass technologies.
    In its core RD&D, EERE has terminated research in several microbial 
and thermochemical conversion areas. BERA believes that a balanced 
program of high-priority research should be sustained and protected, so 
we continue to recommend both a diversified portfolio of research and 
an appropriate amount of funding for scale-up without diminishing 
either EERE's R&D or scale-up programs. BERA's specific dollar 
allocations are listed in the table on page 3. Additional commentary on 
each program area is presented on pages 4 and 5. Other mission-oriented 
biomass RD&D programs are funded through EERE's Office of Industrial 
Technologies (OIT) under the Interior and Related Agencies Bill. DOE's 
basic research on biomass energy outside of EERE by the Office of 
Science, which supports academic research, should be designed to 
complement EERE's mission-oriented biomass RD&D and the BBI.
            allocation of appropriations recommended by bera
    BERA recommends that the appropriations for biomass RD&D in fiscal 
year 2004 be allocated as shown in the accompanying table. BERA's 
recommendations are generally listed in the same order as DOE's 
requests for funding under the headings Energy Supply, Biomass Program, 
Biomass/Biorefinery Systems R&D; and Energy Supply, Hydrogen 
Technology, Hydrogen/Fuel Cells/Infrastructure Technologies Program. 
However, several research areas are included that are either new or 
that BERA recommends be restored to sustain a balanced program. Note 
that in fiscal year 2004, EERE incorporated several new changes in 
program names and nomenclature in addition to those made in fiscal year 
2003, and zeroed-out or moved some programs between EERE's Offices. 
Note also that the recommended budget for each scale-up category does 
not include industry cost-sharing, which is required to be a minimum of 
50 percent of each project cost. BERA recommends that funds for the BBI 
be used mainly for scale-up projects after evaluating the projected 
contribution of each project to the BBI's goals. New projects should 
not be started until this is done.

----------------------------------------------------------------------------------------------------------------
                                                                                        Recommended Budget
   Office of Energy Efficiency and Renewable              Program Area           -------------------------------
                    Energy                                                         For Research    For Scale-Up
----------------------------------------------------------------------------------------------------------------
Biomass/Biorefinery Systems:
    Advanced Biomass Technology...............  Thermochemical Conversion:
                                                    Combustion..................      $2,000,000
                                                    Gasification................       2,000,000
                                                    Pyrolysis...................       2,000,000
                                                    Liquefaction................       2,000,000
                                                Bioconversion:
                                                    Fermentation (Ethanol)......       4,000,000
                                                    Organisms and Enzymes.......       6,000,000
                                                    Fermentation (Methane)......       1,000,000
                                                    Chemicals...................       2,000,000
    Systems Integration/Production............  BBI (Crosscutting RD&D)\2\......       2,000,000     $22,000,000
                                                Thermochemical Conversion:
                                                    Ethanol.....................       3,000,000       4,000,000
                                                    Other Oxygenates/Mixed             4,000,000       4,000,000
                                                 Alcohols.
                                                    Syngas-Based Chemicals,            2,000,000       4,000,000
                                                 Fuels\3\.
                                                    Ash Deposition, Uses,              1,000,000
                                                 Disposal.
                                                    By-Products, Recovery, Uses.       1,000,000
                                                    Improved Emissions, Controls       2,000,000
                                                    Wastewater Treatment........       2,000,000
                                                    Hot Gas Clean-Up............       1,000,000
                                                Small Modular Biopower..........               0       2,000,000
                                                Feedstock Infrastructure........       2,000,000
                                                Bioconversion:
                                                    Ethanol Scale-Up with                      0       8,000,000
                                                 Cellulosics.
                                                    By-Products, Recovery, Uses.       1,000,000
                                                    Improved Emissions, Controls       1,000,000
                                                    Wastewater Treatment........       2,000,000
                                                Integrated Biorefinery
                                                 Development:
                                                    Designs, Economics, Markets.       1,000,000
                                                    Product Slates, Flexibility,       1,000,000
                                                 Costs.
                                                    Siting, Acquisition,               2,000,000      10,000,000
                                                 Construction.
                                                Regional Biomass Energy                        0       5,000,000
                                                 Program\3\.
                                               -----------------------------------------------------------------
      Subtotal................................  ................................      49,000,000      59,000,000
                                               -----------------------------------------------------------------
Hydrogen Technology\1\........................  Thermal Processes (Reforming)...         500,000       1,000,000
                                                Photolytic Processes (Algae)....       1,000,000               0
                                                Innovative Conversion Processes.       4,000,000               0
                                               -----------------------------------------------------------------
      Subtotal................................  ................................       5,500,000       1,000,000
                                               -----------------------------------------------------------------
      Totals..................................  ................................      54,500,000      60,000,000
                                               =================================================================
      Grand Total.............................                                             $114,500,000
----------------------------------------------------------------------------------------------------------------
\1\ BERA's recommendations pertain only to the biomass-based portion of Hydrogen Technology.
\2\ BERA's recommendations for the Biomass and Bioproducts Initiative are expected to be used for research and
  scale-up as indicated, but are not allocated by program area in this table.
\3\ The McNeil Gasification Project in Burlington, VT and the Regional Biomass Energy Program have been zeroed-
  out of EERE's fiscal year 2004 budget. BERA strongly urges that they be restored and continued (see Systems
  Integration/Production, Thermochemical Conversion, and Regional Biomass Energy Program sections in text).

Advanced Biomass Technology
    Thermochemical Conversion.--Continued R&D to develop advanced 
biomass combustion and gasification methods could have environmental 
and economic benefits that can lead to significant growth in low-cost 
power generation from waste biomass and the disposal of certain kinds 
of high-moisture waste biomass such as biosolids (municipal sewage), 
which are very costly to treat and dispose of. Most of this research 
has been phased out by DOE. Research (not scale-up) should be initiated 
or restored with the goal of developing the next generation of 
thermochemical biomass conversion processes for power generation and 
the utilization of high-moisture biomass for combined disposal-power 
generation applications.
    The pyrolysis of biomass, or its thermal decomposition in the 
absence of oxygen, yields a large number of gaseous, liquid, and solid 
products. Hardwood feedstocks were used commercially until the 1930's 
to manufacture fuel gases, solvents, chemicals, fuel oils, and 
charcoal. Because of the steadily increasing prices of natural gas and 
petroleum crude oils, a few small-scale commercial biomass pyrolysis 
systems have recently been installed and operated under conditions that 
increase product flexibility and selectivity to yield cost-competitive 
products. BERA recommends that exploratory research on biomass 
pyrolysis be added to EERE's program to help design advanced processes. 
All of the basic data compiled during DOE-funded research on biomass 
pyrolysis in the 1970's and 1980's should be reexamined in this work.
    Several thermochemical technologies are available for the 
liquefaction of biomass feedstocks to afford storable liquid fuels and 
chemicals. Included among these conversion methods is pyrolysis under 
certain conditions that maximize the yields of liquid products, the 
catalytic conversion of syngases from biomass to liquid chemicals such 
as ethanol and other oxygenates, catalytic hydrogenation of biomass and 
biomass derivatives such as natural oils for the direct production of 
liquid fuels, and biomass liquefaction under supercritical conditions 
of pressure and/or temperature. BERA recommends that thermochemical 
liquefaction of biomass be added to EERE's program to find and improve 
innovative conversion methods that have a high probability of leading 
to cost-effective, storable liquid fuels from biomass.
    Bioconversion.--The goal of simultaneous conversion of pentoses and 
hexoses from low-cost cellulosics to fermentation ethanol at high 
efficiencies on a commercial scale requires the use of special 
processes for producing genetically engineered organisms and cellulase 
systems at acceptable costs and performance. Research should continue 
to perfect these technologies for incorporation into the overall 
fermentation process designs to be used in the scale-up program for 
fermenting cellulosic feedstocks.
    Methane fermentation (anaerobic digestion) is unique in that it 
produces methane, the major component in natural gas, at high 
concentrations (medium-Btu gas) from a full range of virgin and waste 
biomass. DOE has terminated most of this research. Research can lead to 
advanced processes as well as the alleviation of numerous environmental 
problems encountered during waste treatment and disposal. This research 
should be restored.
    Bioconversion is useful for converting a variety of biomass and 
derivatives to a wide range of commodity and specialty organic 
chemicals and polymers. The use of selected microbial populations is in 
fact the only practical route to certain types of chemicals and 
polymers. An exploratory program to advance this technology is a 
natural adjunct to DOE's on-going biomass fermentation program. BERA 
recommends that part of the research effort under Advanced Biomass 
Technology focus on this field.
Systems Integration and Production
    Biomass and Bioproducts Initiative (Crosscutting RD&D).--See pages 
1 and 2 of testimony.
    Thermochemical Conversion.--The availability of thermochemical 
biomass conversion processes for producing ethanol, mixed alcohols, and 
other oxygenates offers a range of non-microbial options for 
commercializing biomass liquefaction technologies. This should be one 
of the key components of EERE's program, but is minimal when compared 
with the efforts expended on fermentation ethanol over many years. The 
development of medium-Btu biomass gasification is also a key component 
for the production of fuels, power, and chemicals. However, funding for 
the commercial scale demonstration plant in Burlington, VT by DOE was 
ended in fiscal year 2003. This plant is capable of use as a multi-
purpose development site for biomass gasification and related 
technologies. BERA recommends that both thermochemical liquefaction and 
gasification RD&D be expanded and continued by EERE. The existing plant 
in Vermont should be utilized to test advanced gas clean-up methods and 
advanced power generation systems.
    Small Modular Biopower.--Research on the development of small, 
biomass combustion turbines should be continued to develop advanced 
designs for small modular systems, and for cogeneration and distributed 
generation.
    Feedstock Infrastructure.--BERA recommends that DOE develop the 
infrastructure, while the Forest Service of the USDA initiates and 
continues RD&D on biomass production, particularly woody biomass.
    Bioconversion.--As reported last year, DOE's contributions to the 
costs of several fermentation ethanol plants have either been completed 
or are winding down. The processes used are conventional and advanced 
technologies, and a plant using corn stalk feedstocks was planned for 
the Midwest. BERA recommends that the existing scale-up projects should 
be completed, the results analyzed, and the technologies confirmed 
before other scale-up projects are started. Since corn continues to be 
the main feedstock for U.S. plants, it is vital to commercialize the 
use of low-cost cellulosic feedstocks to reduce the cost of 
fermentation ethanol. RD&D should focus on the information needed to 
facilitate scale-up and make this happen. Although much of it is in-
hand now, critical information related to biomass transport, storage, 
and handling; feedstock characterization, pretreatment and hydrolysis; 
storage, maintenance, and use of genetically modified organisms and of 
active cellulase systems for pentose and hexose conversion; nutrient 
cost reductions, by-product recovery and utilization; and improved 
emissions, controls, and wastewater treatment, is still needed to 
design optimum low-cost processes that afford fermentation ethanol at 
competitive motor fuel prices. NREL's fermentation pilot plant and 
counter-current pretreatment pilot plant reactor installed in fiscal 
year 2000 should be fully utilized on a cost-shared basis with DOE's 
industrial partners to support the scale-up of processes operated with 
cellulosic feedstocks.
    Integrated Biorefinery Development.--This program component is 
expected to include the activities necessary to select and integrate 
all unit operations employed in the biorefinery and the biomass 
acquisition systems. This effort should address plant design, siting, 
financing, permitting, construction, environmental controls, waste 
processing and disposal, and sustained plant operations; feedstock 
selection, transport, storage, and delivery; all waste and emissions 
issues; and storage and delivery of all salable products. BERA 
recommends that industrial partners be carefully selected for 
participation in this cost-shared program at the beginning of each 
project. This work should be given the highest priority. Most of the 
funds for the BBI provided by Congress should be used for this effort. 
Long-range planning is essential to ensure that each project has a high 
probability of success and lays the groundwork for continued 
installation of similar systems by the private sector.
    Regional Biomass Energy Program.--The RBEP has been a 
legislatively-mandated model information and outreach program for 
almost 20 years. There is no other Federal program with the information 
transfer role, capabilities, leverage, experience, local-level 
presence, and widespread networks of the RBEP; nor is there a DOE 
program so closely affiliated with State and regional government 
organizations. Historically, RBEP's partners have provided between $2 
to $4 for every $1 of RBEP funds, making it one of the most cost-
effective Federal programs. If DOE terminates this program, BERA 
recommends that it be transferred to and operated by the USDA, and that 
it continue to be managed by the government host organizations: 
Coalition of Northeast Governors, Southern States Energy Board, Council 
of Great Lakes Governors, and Western Governors Association, which 
provide direct links to the governors and legislators of each State.
Hydrogen Technology
    Research on the thermal reforming of biomass and on splitting water 
with algae, which is the equivalent of photolysis, should be continued. 
In addition, innovative conversion methods such as the use of anaerobic 
digestion under ambient conditions and catalytic and non-catalytic 
thermochemical gasification under certain operating conditions that 
minimize methane formation while maximizing hydrogen formation should 
be studied. These technologies may lead to low-cost hydrogen production 
methods.
                                 ______
                                 
   Prepared Statement of the University Corporation for Atmospheric 
                                Research
    On behalf of the University Corporation for Atmospheric Research 
(UCAR) and the university community involved in weather and climate 
research and related education, training and support activities, I 
submit this written testimony for the record of the Senate Committee on 
Appropriations, Subcommittee on Energy and Water Development.
    UCAR is a consortium of 66 universities that manage and operate the 
National Center for Atmospheric Research (NCAR) and additional programs 
that support and extend the country's scientific research and education 
capabilities. The UCAR mission is to support, enhance, and extend the 
capabilities of the university community, nationally and 
internationally; to understand the behavior of the atmosphere and 
related systems and the global environment; and to foster the transfer 
of knowledge and technology for the betterment of life on earth. In 
addition to its member universities, UCAR has formal relationships with 
approximately 100 additional undergraduate and graduate schools 
including several historically black and minority-serving institutions, 
and 40 international universities and laboratories. UCAR is supported 
by the National Science Foundation (NSF) and other Federal agencies 
including the Department of Energy (DOE).
                         doe office of science
    The DOE is the third largest Federal sponsor of basic research and 
the largest supporter of research in the physical sciences. It supports 
more than 15,000 Ph.D. scientists, graduate students and post-doctoral 
researchers in universities and national laboratories. The programs and 
national user facilities of the agency's Office of Science are vital to 
the Nation's basic research investment across all disciplines in the 
natural and physical sciences. These yield both short-term benefits and 
future advances in environmental research, basic computing and physics 
research, energy supply, homeland security, and educational growth.
    Last month the Senate Committee on Energy and Natural Resources 
responded to the President's fiscal year 2004 request, and expressed 
its concern for DOE's Office of Science budget, and the trend of level 
or flat funding for programs within it. UCAR endorses the views of the 
Committee. The President's request for DOE's Office of Science is flat, 
and has remained level funded for a decade. Funding it at the request 
of $3.3 billion would be significantly less than the $3.6 billion 
recommended in H.R. 34, the Energy and Science Research Investment Act 
of 2003, a bipartisan bill supported by almost 40 House members.
    This request also falls short of the goal of the President's 
Council of Advisors on Science and Technology (PCAST), which 
recommended in its October 2002 report that the budget request begins 
bringing funding for the physical sciences into parity with that of the 
life sciences.
    In order to achieve parity, DOE's Office of Science should be 
funded at $3.6 billion, a level that will critically augment and 
reinvigorate the work of researchers throughout the Nation.
    Within the Office of Science, the Biological and Environmental 
Research (BER) program develops the knowledge necessary to identify, 
understand, and anticipate the potential health and environmental 
consequences of energy production and use. These are issues that are 
absolutely critical to our country's well-being and security. The BER 
program is of particular importance to the work of the atmospheric 
sciences community. Specifically, the Climate Change Research Program 
is dedicated to advancing very important climate work, including 
climate modeling, the atmospheric radiation measurement program, global 
change research, meteorological research. It also supports a mentoring 
program for a 4-year graduate and undergraduate program for minority 
students pursuing careers in the atmospheric and related sciences. The 
request for this program is decreased almost 6 percent from the fiscal 
year 2003 enacted level of $530 million. In following the 
recommendation made above for the Office of Science, it is critical 
BER's allocation be increased by 9 percent, for a total of $577.7 
million.
               climate change research initiative (ccri)
    In fiscal year 2004, BER will continue to contribute to the 
Administration's Climate Change Research Initiative (CCRI) to deliver 
information useful to policy makers. The BER contribution to the CCRI 
will primarily be through focused research on the carbon cycle to 
further understand carbon dioxide emissions in relation to the North 
American carbon sink. BER will also contribute to the CCRI in other 
areas, including climate change modeling, atmospheric composition, and 
regional impacts of climate change. To make significant headway in 
these areas, it is very important the Committee support the fiscal year 
2004 request for CCRI, of $25.3 million.
             advanced scientific computing research (ascr)
    DOE's ASCR provides advances in computer science and the 
development of specialized software tools that are necessary to 
research the major scientific question being addressed by the Office of 
Science. ASCR's continued progress is of particular importance to 
atmospheric scientists involved with complex climate model development, 
research that takes enormous amounts of computing power. By their very 
nature, problems dealing with the interaction of the earth's systems 
and global climate change cannot be solved by traditional laboratory 
approaches. Of particular importance to the U.S. National Assessment 
effort in global change is ASCR's critical contribution to the 
multiagency effort to develop the Coupled Parallel Climate Model (PCM) 
and its successor, the Community Climate System Model (version 2.0). 
The fiscal year 2004 request for ASCR is disappointing to the 
community, providing it with a 0.5 percent increase. In order to regain 
our international leadership in advanced computing, it is essential the 
Committee to provide a 9 percent increase for ASCR and fund it at $188 
million.
    On behalf of UCAR and the atmospheric sciences research community, 
I want to thank the Committee for the important work you do for U.S. 
scientific research. We appreciate your attention to the 
recommendations of our community concerning the fiscal year 2004 budget 
of the Department of Energy. We understand and appreciate that the 
Nation is undergoing significant budget pressures at this time, but a 
strong Nation in the future depends on the investments we make in 
science and technology today.
                                 ______
                                 
           Prepared Statement of the Nuclear Energy Institute
    On behalf of the nuclear energy industry, thank you for your 
support of nuclear technology-related programs in the Energy Department 
and your oversight of the Nuclear Regulatory Commission (NRC) for 
fiscal year 2003.
    The Nuclear Energy Institute is responsible for developing policy 
for the U.S. nuclear industry. NEI's 270 corporate and other members 
represent a broad spectrum of interests, including every U.S. energy 
company that operates a nuclear power plant. NEI's membership also 
includes nuclear fuel cycle companies, suppliers, engineering and 
consulting firms, national research laboratories, manufacturers of 
radiopharmaceuticals, universities, labor unions and law firms.
    America's 103 nuclear power plants are the safest, most efficient 
and reliable in the world. Nuclear energy is the largest source of 
emission-free electricity generation in the United States. Nuclear 
power plants in 31 States provide electricity for one of every five 
homes and businesses in the Nation, and the industry again last year 
reached record levels for efficiency and electricity production. It is 
essential that Congress adopt policies that foster the further 
development of this vital part of our Nation's energy mix--and fulfill 
existing Federal obligations, such as the commitment to manage used 
nuclear fuel.
    My statement for the record addresses three key points: (1) 
Congress should reclassify the Nuclear Waste Fund, reorienting it to 
its original purpose and ensuring adequate funding for the Yucca 
Mountain repository project; (2) research and development (R&D) on 
advanced nuclear technology should continue to maintain America's 
leadership role in commercial nuclear technologies; and (3) the Nuclear 
Regulatory Commission's (NRC) budget and staffing should be reassessed 
in light of current trends.
    I also will discuss briefly several important programs supported by 
the nuclear energy industry, including research into the health effects 
of low-level radiation.
           congress should reclassify the nuclear waste fund
    National policy clearly establishes the Federal Government's 
responsibility for deep geologic disposal of used nuclear fuel and the 
by-products of defense-related activities. In 1982, the Nuclear Waste 
Policy Act codified Federal policy for developing a repository for 
long-term stewardship of used nuclear fuel.
    President Bush last year approved Yucca Mountain as the site to 
develop a Federal repository and the decision was overwhelmingly upheld 
by the 107th Congress. I commend this committee for its leadership in 
supporting the Yucca Mountain resolution and the President's request 
for funding the program. The next step is for the Department of Energy 
(DOE) to submit an application to the Nuclear Regulatory Commission by 
December 2004 for a license to construct the repository.
    It is imperative that DOE meet its milestones for licensing, so the 
repository can be built and operating by 2010. This is consistent with 
our Nation's longstanding policy for responsible management of used 
nuclear fuel. It also honors the Federal Government's commitment to 
consumers--who, since 1983, have committed more than $22 billion for 
used nuclear fuel disposal. The Nuclear Waste Fund has a balance of 
more than $13 billion and is growing at a rate of about $1 billion 
annually, including interest. The funds collected from consumers of 
electricity from nuclear power plants specifically for used fuel 
management must be available for repository construction and operation.
       fund treatment diverts consumer money from original intent
    The Nuclear Waste Fund was established in 1982 as a separate 
account in the Federal treasury. However, congressional efforts to 
control deficit spending in the 1980's and 1990's changed the status of 
the fund. Appropriations from the fund, but not the receipts, were 
placed under a discretionary spending cap. The result is that the 
Nuclear Waste Fund is subject to appropriations caps and ``pay-as-you-
go'' budget rules, even though the fund is self-financed. These rules 
expire on September 30, but the President's fiscal year 2004 budget 
proposed that they be continued for 2 more years.
    By the current approach, Congress must fund the used fuel programs 
within the confines of the discretionary spending allocation for the 
Energy and Waster Development Appropriations bill. As a result, Yucca 
Mountain funding consistently has been reduced below the level of 
receipts to provide increased funding in other, unrelated areas, 
despite the fact that receipts into the fund are specifically earmarked 
for the used nuclear fuel disposal program. In short, Congress's 
current budgetary process is taking consumer contributions to the 
Nuclear Waste Fund for use in funding unrelated programs.
    The industry urges Congress to reclassify the Nuclear Waste Fund 
this year to prevent future funding shortfalls for Yucca Mountain. This 
will help ensure that the government does not further delay meeting its 
legal obligation to remove used nuclear fuel from commercial nuclear 
plant sites. And it is the right thing to do with Americans' money.
           industry supports proposal to adjust spending cap
    The nuclear energy industry supports the administration's proposal 
to adjust the fund's discretionary spending cap. We have attached a 
policy brief that examines this issue. We encourage the committee to 
support the proposal. A more permanent solution is needed to ensure 
that funds collected for the waste program are allocated directly to 
the project based on annual project funding requirements and with 
continued congressional oversight.
    The industry strongly supports DOE's fiscal year 2004 funding 
request of $591 million for the Office of Civilian Radioactive Waste 
Management. We do not believe that the program will be able to meet the 
important milestone for submitting a license application to the NRC 
absent this level of funding for the program.
    We strongly urge restoration of funds not appropriated in fiscal 
year 2003 so that the program recovers from reductions in scientific 
study and licensing activities at the lower funding level of $460 
million. Increased funding is necessary for DOE to file a license 
application to the NRC in 2004. In additional, funding for other 
critical activities--such as transportation planning--is essential to 
DOE's ability to achieve the major milestones in the program.
    Although the repository program is the foundation of our national 
policy for managing used nuclear fuel, the nuclear industry also 
recognizes the value in researching emerging technology for used fuel 
treatment and management. Such farsighted R&D programs would allow our 
Nation to remain the world leader in nuclear technologies. However, 
technologies like transmutation--the conversion of used nuclear fuel 
into less toxic materials--still require a Federal repository for 
disposal of the radioactive by-products generated from the process.
          research and development must foster nuclear energy
    Nuclear energy is a secure, domestic source of electricity and 
plays a vital role in meeting national Clean Air Act requirements and 
voluntary greenhouse gas reduction programs. Last year, the industry's 
average capacity factor--a measure of efficiency--was 91.5 percent, and 
103 reactors generated a record 778 billion kilowatt-hours of 
electricity. Production costs are low and stable over many years.
    Nuclear energy is important today, and it will be even more 
important in the future, given rising electricity demand and the nexus 
between energy and environmental policy. For its part, the nuclear 
industry will continue to increase the amount of electricity generated 
by nuclear power by relicensing reactors, continuing to improve 
efficiency and implementing new technology to uprate, or boost the 
output from, current reactors.
    But in the near future, new nuclear power plants will be needed.
    The Energy Information Administration projects that demand for 
electricity will increase about 1.9 percent annually over the next two 
decades. To meet this increased demand, and replace outmoded fossil 
fuel-fired power plants, the United States will need to add more than 
327,000 megawatts of capacity--the equivalent of 36 mid-size (500-
megawatt) power plants every year between now and 2020.\1\ Some of the 
new plants must be emission-free nuclear reactors.
---------------------------------------------------------------------------
    \1\ One-point-nine percent annual increase for 18 years (2003-2020) 
equals 327,300 megawatts increased demand equals about 18,000 megawatts 
per year equals 36 500-megawatt power plants per year.
---------------------------------------------------------------------------
    As other nations pursue new or expanded nuclear programs, continued 
R&D also is important for the United States to maintain energy 
diversity--one of the strengths of our electricity infrastructure--to 
expand nuclear energy's environmental benefits to our Nation, and to 
remain the world leader in applying this technology. U.S. leadership is 
necessary to ensure reliable operations and a significant export market 
for U.S. products. The industry supports increased fiscal year 2004 
funding for DOE nuclear energy R&D programs, especially the Nuclear 
Energy Technologies (NET) program, which promotes the development of 
new nuclear energy systems. Within this program, DOE includes Nuclear 
Power 2010, which will foster the construction and operation of new 
nuclear power plants by 2010 as one option to increase domestic 
electricity supply. Already, three companies have identified plant 
sites for potential new plants and are seeking to validate the NRC's 
early site permitting process.
    The nuclear energy industry urges the committee to approve at least 
$60 million for the NET program. Within the NET program, $35 million 
should be earmarked for the Nuclear Power 2010 effort and $20 million 
for R&D needed to bring innovative reactor concepts, known as 
Generation IV reactors, to the marketplace. NEI urges your support for 
a demonstration project for using new reactor designs at a national 
laboratory within the scope of the Generation IV reactor program. The 
industry also supports the National Climate Change Technology 
Initiative at $5 million.
    The Nuclear Energy Research Initiative (NERI)--which seeks to 
expand America's nuclear energy program for the 21st century--fills a 
vital need identified in a 1997 report by the President's Council of 
Advisors on Science and Technology (PCAST). PCAST recommended a 
competitive peer-reviewed R&D program to address potential barriers to 
increased nuclear energy use and to maintain America's nuclear science 
and technology leadership. PCAST also recommended an international 
cooperative program within NERI.
    The nuclear energy industry urges the committee to approve at least 
$32 million in fiscal year 2004 for the NERI program. Within that 
amount, NEI recommends $5 million for International NERI. Although 
current funding has been sufficient to continue projects initiated in 
previous fiscal years, DOE's fiscal year 2004 request reduces funding 
by half, thus restricting any new R&D projects.
    PCAST also recommended another R&D initiative--the Nuclear Energy 
Plant Optimization (NEPO) program--to generate more low-cost energy 
from America's existing nuclear power plants.
    The nuclear energy industry encourages the committee to allocate 
$10 million for the NEPO program, which seeks to improve already high 
efficiency and reliability at U.S. nuclear power plants. This public-
private partnership is helping to facilitate America's economic growth 
and improving our Nation's air quality. NEPO received $5 million in 
fiscal year 2003--$5 million less than the PCAST recommendation. DOE 
has proposed no funding for the program in fiscal year 2004.
    The industry also requests $26.5 million for DOE's University 
Support Program, which supports vital research and educational programs 
in nuclear science at the Nation's colleges and universities. With 
nuclear plant relicensing and plans for new plants, demand for highly 
educated and trained professionals will continue.
    NEI encourages the committee to consider a new $2 million program 
within the Office of Nuclear Energy to support universities that have 
undergraduate and graduate programs in health physics. The industry's 
most recent survey of human resources revealed that health physics 
professionals are declining in numbers and the need will become acute 
in the next few years when many will retire. This critical resource 
will be necessary to support the industry, government programs at DOE 
sites and national laboratories, NRC activities and homeland security 
programs to respond to potential dirty bomb threats.
    The administration has proposed including nuclear energy in the 
hydrogen fuel initiative. We believe hydrogen offers significant 
promise as a future energy technology. Nuclear energy is the best 
available technology for the large-scale production of hydrogen using 
electrolysis. A DOE program supporting both concepts should be 
supported in fiscal year 2004 at $12 million.
  nrc's budget and staffing should be reassessed in light of current 
                                 trends
    Our Nation's focus on security has led to significant security 
enhancements at nuclear power plants. It is appropriate at this time 
for the NRC to review its budget and resource allocations in light of 
current demands and other resources available. For example, the NRC 
currently is budgeted for about 200 staff in its Nuclear Security and 
Incident Response organization. A significant portion of their work 
overlaps with responsibilities of the new Department of Homeland 
Security (DHS)--particularly in the areas of threat and vulnerability 
assessment. The NRC should carefully review its organizational 
structure as the DHS assumes a greater role in securing the Nation's 
energy infrastructure. This review should be completed before 
additional funding is authorized for NRC security-related activities.
    Since September 11, 2001, the nuclear energy industry has remained 
at a heightened level of alert. The defense-in-depth inherent in the 
robust design of our plants has been reassessed and augmented. During 
the past 18 months, our industry has invested an additional $370 
million in security-related improvements, including fortified perimeter 
security; improved background checks; and tighter access control at our 
plants. As part of this effort, the nuclear energy industry has added 
about one-third more security officers, for a total of 7,000 well-
trained, armed security officers at our 67 nuclear power plant sites. 
The industry will continue to make these investments and improvements 
to enhance private industry's best security program.
    Our Nation's 103 nuclear power reactors are operating at very high 
levels of safety and reliability. In fact, nearly 75 percent of the 
reactors have the NRC's highest safety performance indicator in all 
categories, and most of the others have only a single indicator in the 
next lower level. The excellent safety record of U.S. nuclear power 
plants lays the groundwork for refining regulatory oversight based on 
performance and safety insights. Additionally, insights from the 
reactor oversight process indicate that several major regulations for 
power reactors are not providing a significant safety value. A 
disciplined review of the regulations should be undertaken to eliminate 
or modify outdated requirements.
    The industry commends the Appropriations Committee for reducing the 
nuclear industry user fee assessments for NRC activities that are 
unrelated to regulation of the industry. The proportion of the NRC's 
budget derived from user fees will continue to decrease by 2 percent 
each year through 2005. In that year, licensees will support 90 percent 
of the NRC's budget, which will not include activities that are not 
directly related to regulating the industry.
    In addition, the industry supports an evaluation reviewing the 
scope and content of inspection programs; eliminating research efforts 
of questionable value, such as studies of human performance and 
organizational effectiveness; and streamlining the differing 
professional opinion process to improve its effectiveness, while 
minimizing its impact on issue resolution and the use of management 
resources.
               industry support for additional activities
    Nuclear Nonproliferation.--The industry supports the disposal of 
excess weapons grade nuclear materials through the use of mixed-oxide 
fuel in reactors in the United States and Russia.
    Low-Dose Radiation Health Effects Research.--The industry strongly 
supports continued funding for the DOE's low-dose radiation research 
program. This program will provide a better understanding of low-dose 
radiation effects to ensure that public and private resources are 
applied in a manner that protects public health and safety without 
imposing unacceptable risks or unreasonable costs on society.
    Nuclear Research Facilities.--The industry is concerned with the 
declining number of nuclear research facilities. We urge the committee 
to request that DOE provide it with a long-term plan for using existing 
nuclear research facilities as well as for the development of new 
research facilities.
    Uranium Facility Decontamination and Decommissioning.--The industry 
fully supports cleanup of the gaseous diffusion plants at Paducah, KY; 
Portsmouth, OH; and Oak Ridge, TN. Each year, commercial nuclear power 
plants contribute more than $150 million to the government-managed 
uranium enrichment plant Decontamination and Decommissioning Fund. NEI 
urges the committee to ensure that these monies are spent on 
decontamination and decommissioning activities at these facilities. 
Other important environmental, safety and/or health activities at these 
facilities should be paid for out of general revenues.
    International Nuclear Safety Program and Nuclear Energy Agency.--
NEI supports the funding requested for the international nuclear safety 
programs of both the DOE and NRC. They are programs aimed at improving 
the safe commercial use of nuclear energy worldwide.
    Medical Isotopes Infrastructure.--The nuclear industry supports the 
administration's program for the production of medical and research 
isotopes.
                                 ______
                                 
          Prepared Statement of The American Chemical Society
    The American Chemical Society (ACS) would like to thank Chairman 
Pete Domenici and Ranking Member Harry Reid for the opportunity to 
submit testimony for the record on the Energy and Water Development 
Appropriations bill for fiscal year 2004.
    ACS is a non-profit scientific and educational organization, 
chartered by Congress, representing more than 160,000 individual 
chemical scientists and engineers. The world's largest scientific 
society, ACS advances the chemical enterprise, increases public 
understanding of chemistry, and brings its expertise to bear on State 
and national matters.
    As Congress and the administration seek to bolster the economy, 
economists agree that investments in basic research boost long-term 
economic growth more than other areas of Federal spending. These 
investments foster the new technologies and trained scientific 
workforce that drive the Nation's public health, defense, energy 
security, and environmental progress. Although industry funds the bulk 
of national R&D, the Federal Government provides 60 percent of basic 
research funding and, remarkably, 40 percent of patents cite Federal 
research as their source. Yet Federal research in the physical sciences 
and engineering has been cut in half since 1970 as a percentage of GDP. 
Fortunately, the President's top science and technology advisory 
council, the House and Senate Appropriations Committees, and the Hart-
Rudman Commission on National Security have all recognized the need to 
boost investment in physical sciences and engineering research. This 
investment has never been more important given its central role in 
advancing the Nation's economic, energy, and homeland security.
                       acs budget recommendations
    Current Federal efforts to advance energy efficiency, production, 
and new energy sources while reducing air pollution and other 
environmental impacts will demand increased investment in long-term 
energy research. By supporting people, research, and world-class 
science and engineering facilities, the Department of Energy's Office 
of Science expands the frontiers of science in areas critical to DOE's 
energy, environment, and national security missions. Unfortunately, the 
administration's budget request would continue the shrinking investment 
in basic energy research at DOE in recent years, which must be reversed 
to meet these national goals. ACS recommends a budget of $3.6 billion 
for DOE's Office of Science in fiscal year 2004, a 10 percent increase 
over fiscal year 2003.
    Increases will help reverse the declining Federal support for the 
physical sciences and to encourage more students to pursue degrees in 
these fields. The Office of Science is the largest Federal supporter of 
research in the physical sciences, funding almost 40 percent of 
research in these fields. In view of the emphasis placed on the 
physical sciences in the fiscal year 2004 budget, ACS is disappointed 
that this vital office did not receive adequate support.
    The Office of Science fosters the new discoveries and technical 
talent that will continue to be essential to advances in coal, 
hydrogen, biomass, genomics, and many other technology areas. 
Additional funds should be directed to increase the number of grants, 
especially in core energy programs, and to improve research facilities. 
The Office is the primary source of Federal support in many research 
areas essential to our energy security and economy, such as catalysis, 
carbon cycle research, photovoltaics, combustion, and advanced 
computing. Increased investment is also important given the declining 
private support for long-term energy research.
                    increase grants in core programs
    ACS recommends that increases for the Office of Science be directed 
to advancing core energy research across disciplines, which enables DOE 
to respond rapidly to new challenges. For example, DOE capitalized on 
long-term atmospheric chemistry research, particularly in aerosols, and 
quickly developed a single anthrax-bacterium detector. DOE must 
strengthen its ability to attract scientists and train the next 
generation of scientists and engineers by increasing the number of 
grants in its core programs without reducing their size and duration. 
Current appropriations allow the DOE Office of Science to fund only 10 
percent of the unsolicited, peer-reviewed proposals it receives 
annually. This rate is considerably lower than those of other agencies 
and amounts to lost opportunities for both significant discoveries and 
the education of the next generation of scientists and engineers.
    Within the Office of Science, ACS particularly supports the Basic 
Energy Sciences and Biological and Environmental Research programs. As 
the cornerstone of the Office, the Basic Energy Sciences (BES) program 
supports an array of long-term basic research to improve energy 
production and use and reduce the environmental impact of those 
activities. The BES program manages almost all of DOE's scientific 
user-facilities, and provides leading support for nanotechnology and 
advanced computing research--two priority research areas that will have 
important implications for energy efficiency and security. The 
Biological and Environmental Research (BER) program advances 
fundamental understanding in fields such as waste processing, 
bioremediation, and atmospheric chemistry to better understand 
potential long-term health and environmental effects of energy 
production and use and identify opportunities to prevent pollution. 
Progress in these fields is also needed to develop and advance new, 
effective, and efficient processes for the remediation and restoration 
of DOE weapons production sites. ACS supports a strong role for DOE in 
Federal efforts to advance pollution prevention and climate change 
research.
                    doe and the scientific workforce
    As the largest supporter of research in the physical sciences, DOE 
can greatly affect the training and number of scientists in industry, 
government and academia. Inadequate investment in any research field 
constricts the supply of trained scientists and engineers who apply 
research and develop new technology. For instance, declining support 
for nuclear science and engineering will greatly affect the nuclear 
sector as a majority of today's nuclear scientists and engineers near 
retirement. Another example is the synergistic relationship between the 
need for radiochemists and NIH's ability to conduct clinical trials. 
Advances in diagnosis and treatment in nuclear medicine are dependent 
on the synthesis of highly specific radiopharmaceuticals that target 
biological processes in normal and diseased tissues. The Office of 
Science, through BER supported research, occupies a critical place in 
the field of radiopharmaceutical research. The NIH relies on the Office 
of Science's basic research to enable clinical trials.
    Another way for DOE to help attract students and retain talented 
scientists and engineers is to renew its investment in scientific 
infrastructure. The Office of Science effectively operates one of the 
most extensive and remarkable collection of scientific user facilities 
in the world, which provide tools for the research of more than 15,000 
scientists funded by DOE, other Federal agencies, and industry. Many 
facilities are in poor condition or have outmoded instrumentation. 
Additional funding would allow for increased operating time, upgrades, 
instrumentation, and technical support. More complete utilization of 
DOE's facilities would increase the return on investment and maximize 
their scientific contributions and educational value.
    National laboratories also play an important role in providing 
research and training opportunities to enhance the university 
curriculum. ACS supports the initial plan by DOE to utilize its 
national laboratories to help mentor and train science teachers. 
Students at all levels clearly learn better when their teachers have a 
deep understanding of the subject, and the first-rate multidisciplinary 
research and scientific professionals at the national laboratories 
certainly could be a rich resource for science and math teachers. We 
are concerned, however, that increases for this new initiative will 
come at the expense of more fundamental programs and thus urge that new 
funding be provided. ACS also urges stronger coordination among 
agencies with significant K-12 math and science programs in order to 
maximize the Federal investment in this area.
                                 ______
                                 
    Prepared Statement of Southeastern Federal Power Customers, Inc.
    Mr. Chairman and Members of the subcommittee, on behalf of the 
Southeastern Federal Power Customers' (``SeFPC''), I am pleased to 
provide testimony in reference to the administration's fiscal year 2004 
budget request for the Department of Energy and related Federal Power 
Marketing Administrations (``PMAs''). My testimony will focus primarily 
on the budget request for the Southeastern Power Administration 
(``SEPA''). Among other issues, we wish to emphasize that the proposed 
changes in SEPA's Puchased Power and Wheeling (``PP&W'') budget would 
have a negative impact on Federal preference power customers throughout 
the Southeast.
    SEPA purchases, transmits, and markets the power generated at 
Federal reservoirs to municipal systems, rural electric cooperatives, 
and other wholesale customers throughout the Southeast. The SeFPC has 
enjoyed a long and successful relationship with SEPA that has greatly 
benefited the approximately 5.8 million customers that are SeFPC 
members. As the subcommittee is aware SEPA markets the energy and 
capacity that is generated from the Federal reservoir projects in the 
Southeast. The SeFPC represents some 238 rural cooperatives and 
municipally owned electric systems in the States of Alabama, Georgia, 
Mississippi, Kentucky, North Carolina, South Carolina, Florida, 
Virginia, and West Virginia, which purchase power from SEPA. In some 
cases, SEPA supplies as much as 25 percent of the power and 10 percent 
of the energy needs of SeFPC customers.
  administration's proposal to phase out purchased power and wheeling
    The administration has proposed significant reductions in PP&W 
funding for SEPA and the other PMAs in fiscal year 2004 and has 
recommended the elimination of all Federal funding for PP&W by the end 
of 2004. The President's proposal would reduce PP&W funding for SEPA by 
over 55 percent in the upcoming fiscal year, from the current level of 
$34.5 million to the proposed level of $15 million. This proposal is 
very troubling to the SeFPC. The failure to fund these important 
programs under SEPA's jurisdiction could have dire consequences for the 
Federal power program in the Southeast and Federal preference power 
generally.
    If the President's proposal becomes law, the power supply for the 
not-for-profit distributors and their customers throughout the 
Southeast will be severely disrupted. SEPA's customers also will likely 
lose the benefits of long-term contractual arrangements for 
transmission and purchased power. Because SEPA does not own its own 
transmission lines, the loss of PP&W appropriations will force us to 
arrange our own transmission services, including delivery services from 
SEPA projects. Also, elimination of SEPA's purchased power funds will 
force us to buy our power from sources other than SEPA at higher 
prices, which will be passed directly to our customers.
    It is important to note that the President's proposal would yield 
no cost savings for the Federal Government. The use of PP&W revenues is 
a discretionary function with no budgetary impact. PP&W funds are 
repaid annually by preference customers.
    Thank you in advance for considering our comments on the 
President's proposed fiscal year 2004 budget for SEPA.
                                 ______
                                 
      Prepared Statement of the American Museum of Natural History
              about the american museum of natural history
    The American Museum of Natural History (AMNH) is one of the 
Nation's preeminent institutions for scientific research and public 
education. Since its founding in 1869, the Museum has pursued its 
mission to ``discover, interpret, and disseminate--through scientific 
research and education--knowledge about human cultures, the natural 
world, and the universe.'' It is renowned for its exhibitions and 
collections of more than 32 million specimens and cultural artifacts. 
With nearly 4 million annual visitors--approximately half of them 
children--its audience is one of the largest and most diverse of any 
museum in the country. Museum scientists conduct groundbreaking 
research in fields ranging from all branches of zoology, comparative 
genomics, and bioinformatics to earth, space, and environmental 
sciences and biodiversity conservation. Their work forms the basis for 
all the Museum's activities that seek to explain complex issues and 
help people to understand the events and processes that created and 
continue to shape the Earth, life and civilization on this planet, and 
the universe beyond.
    Today more than 200 Museum scientists with internationally 
recognized expertise, led by 46 curators, conduct laboratory and 
collections-based research programs as well as fieldwork and training. 
Scientists in five divisions (Anthropology; Earth, Planetary, and Space 
Sciences; Invertebrate Zoology; Paleontology; and Vertebrate Zoology) 
are sequencing DNA and creating new computational tools to retrace the 
evolutionary tree, documenting changes in the environment, making new 
discoveries in the fossil record, and describing human culture in all 
its variety. The Museum also conducts graduate training programs in 
conjunction with a host of distinguished universities, supports 
doctoral and postdoctoral scientists with highly competitive research 
fellowships, and offers talented undergraduates an opportunity to work 
with Museum scientists.
    The AMNH collections of some 32 million natural specimens and 
cultural artifacts are a major scientific resource for Museum 
scientists as well as for more than 250 national and international 
visiting scientists each year. They often include endangered and 
extinct species as well as many of the only known ``type specimens,'' 
or examples of species by which all other finds are compared. Within 
the collections are many spectacular individual collections, including 
the world's most comprehensive collections of dinosaurs, fossil 
mammals, Northwest Coast and Siberian cultural artifacts, North 
American butterflies, spiders, Australian and Chinese amphibians, 
reptiles, fishes, and one of the world's most important bird 
collections. The Museum has also established a super-cold storage 
facility, described below, for collection of tissue samples with 
preserved DNA for genomics research. Collections such as these are 
historical libraries of expertly identified and documented examples of 
species and artifacts, providing an irreplaceable record of life on 
earth.
    Permanent and temporary exhibits--from the Rose Center for Earth 
and Space to The Genomic Revolution, discussed below--are among the 
Museum's most potent educational tools, interpreting the work of Museum 
scientists, highlighting its collections, addressing relevant 
scientific and cultural issues, and presenting cutting edge content in 
a way that is accessible to all ages, learning levels, and backgrounds. 
The Education Department builds these exhibitions, as well as the 
Museum's unique resources, to offer rich programming dedicated to 
increasing scientific literacy, to encouraging students to pursue 
science and museum careers, and to providing a forum for exploring the 
world's cultures. These programs attract more than 400,000 students and 
teachers on school visits and more than 5,000 teachers for special 
professional development opportunities. The Museum is also reaching 
beyond its walls: through its National Center for Science Literacy, 
Education, and Technology, launched in 1997 in partnership with NASA, 
it is exploiting new technologies to bring materials, and programs into 
homes, schools, museums, and community organizations around the Nation.
       support for department of energy science mission and goals
    As one of the world's preeminent science organizations, DOE's 
primary strategic goals include maintaining a world class scientific 
research capability and enhancing homeland defense. Its leading science 
program supports fundamental research in energy, matter, and the basic 
forces of nature and the advanced computational and networking tools 
critical to research. The American Museum shares DOE's fundamental 
commitments to cutting-edge research and technology in support of 
science and education, and it seeks, in concert with DOE, to leverage 
complementary resources and to advance our many shared science goals.
Genomic Science
    DOE is a leader in genomics research, advanced sequencing 
technologies, and instrumentation. With the historic completion of the 
first draft of the human genome, its work on the frontiers of genome 
science continues, including research in energy-related biology, 
comparative genomics, organisms' responses to biological and 
environmental cues, and experimental and computational approaches to 
predictive understanding of microbes and microbial communities. 
Genomics research remains critically important to the DOE mission, not 
only by helping to protect against bio-terrorism but also by 
contributing to the broad goal of developing ``a fundamental, 
comprehensive, and systematic understanding of life.''
    The American Museum is deeply engaged in genome research closely 
tied to DOE's mission areas and research priorities. It is home of one 
of the world's largest natural history collections, a preeminent 
molecular research program, and singular research resources in frozen 
tissue samples and cluster computing. In the era of genomics, museum 
collections have become critical baseline resources for the assessment 
of genetic diversity of natural populations; studying genomic data in a 
natural history context makes it possible to more fully understand the 
impacts of new discoveries in genomics and molecular biology. Genomes 
of the simplest organisms provide a window into the fundamental 
mechanics of life, and understanding their natural capabilities can 
help solve challenges in biodefense, medicine and health care, energy 
supply, and environmental cleanup.
Frozen Tissue Collection
    In support of its molecular program, the Museum has launched an 
expansion of its collections to include biological tissues and isolated 
DNA preserved in a super-cold storage facility. Because this collection 
preserves genetic material and gene products from rare and endangered 
organisms that may become extinct before science fully exploits their 
potential, it is an invaluable resource for research in many fields 
including genetics, comparative genomics, and biodefense. Capable of 
housing 1 million specimens, it will be the largest super-cold tissue 
collection of its kind. In the past 2 years, 15,000 specimens not 
available at any other institute or facility have already accessioned. 
At the same time, the Museum is pioneering the development of 
collection and storage protocols for such collections. To maximize use 
and utility of the facility for researchers worldwide, the Museum is 
also developing a sophisticated website and online database that 
includes collection information and digitized images.
Cluster Computing
    DOE science programs are committed to ``providing extraordinary 
tools for extraordinary science.'' The Museum, too, is a leader in 
developing computational tools, as parallel computing is an essential 
enabling technology for phylogenetic (evolutionary) analysis and 
intensive, efficient sampling of a wide array of study organisms. 
Museum scientists have constructed an in-house 560-processor computing 
cluster, and are in the process of upgrading it to 128 dual CPU nodes 
with 2 Gb/sec Myrinet interconnections. It is the fastest parallel 
computing cluster in an evolutionary biology laboratory and one of the 
fastest installed in a non-defense environment.
    Over the past 9 years, Museum scientists have taken a leadership 
role in developing and applying new computational approaches to 
deciphering evolutionary relationships through time and across species; 
their pioneering efforts in cluster computing, algorithm development, 
and evolutionary theory have been widely recognized and commended for 
their broad applicability for biology as a whole. The bioinformatics 
tools Museum scientists are creating will not only help to generate 
evolutionary scenarios, but also will inform and make more efficient 
large genome sequencing efforts. Many of the parallel algorithms and 
implementations (especially cluster-based) will be applicable in other 
informatics contexts such as annotation and assembly, breakpoint 
analysis, and non-genomic areas of evolutionary biology as well as in 
other disciplines.
Institute of Comparative Genomics
    Building on its strengths in comparative genomics, and in concert 
with the scientific goals of DOE, the Museum has established an 
Institute for Comparative Genomics so as to contribute its unique 
resources and expertise to the Nation's genomic research enterprise. 
Equipped with its molecular labs with DNA sequencers, vast biological 
collections, researchers with expertise in the methods of comparative 
biology, and the parallel computing facility and frozen tissue 
collection described above, the Institute is positioned to be one of 
the world's premier research facilities for mapping the genome across a 
comprehensive spectrum of life forms.
    The Institute has already established a record of significant 
research achievements, which include obtaining a patent for innovative 
approach to analyzing microarray data that will facilitate improved 
diagnoses of diseases such as cancer and development of drugs to treat 
such diseases, developing computational techniques to analyze 
chromosomal sequence data, and winning grants to lead international 
research teams in assembling the ``tree of life.'' In partnership with 
the Department of Energy, with the support of a fiscal year 2002 
appropriation, Dr. Rob DeSalle is conducting research that is making 
notable progress in advancing understanding of bacterial genomics and 
the evolution of pathogenicity.
    These accomplishments are complemented by the Museum's ambitious 
agenda of genomics-related exhibitions, conferences, and public 
education programming, including the landmark exhibition, The Genomic 
Revolution in 2001. The exhibition, attended by approximately 500,000 
visitors and now touring nationally, examines the revolution taking 
place in molecular biology and its impact on modern science and 
technology, natural history, biodiversity, and our everyday lives. We 
have also hosted several international conferences on important 
genomics topics: Sequencing the Human Genome: New Frontiers in Science 
and Technology, in Fall 2000; Conservation Genetics in the Age of 
Genomics in Spring 2001; New Directions in Cluster Computing in June 
2001; and in 2002, an international meeting to examine current 
knowledge of life's history, Assembling the Tree of Life: Science, 
Relevance, and Challenges.
    As it moves forward, the Institute, working in cooperation with New 
York's outstanding biomedical research and educational institutions, is 
focusing on molecular and microbial systematics, on expanding our 
understanding of the evolution of life on earth and the evolution of 
critical organismal form and function through analysis of the genomes 
of selected microbes and other non-human organisms, and on constructing 
large genomic databases. Development of Institute activities will 
entail expanding expertise in microbial systematics and the molecular 
laboratory program that now trains dozens of graduate students every 
year; utilizing the latest sequencing technologies; employing parallel 
computing applications that allow scientists to solve combinatorially 
complex problems involving large real world datasets; and developing of 
K-12 curriculum materials, scientific conferences, and public exhibits.
    The interests and expertise of DOE and the Museum intersect in 
particular in these areas of comparative and microbial genomics. One of 
the goals of DOE's Human Genome Project is to learn about the relevance 
to humans of nonhuman organisms' DNA sequences. DOE science also 
targets an area in which the Museum is expanding its expertise--
microbial genomics, the study of organisms that have survived and 
thrived in extreme and inhospitable environments. DOE's Genomes to Life 
and microbial genome programs are based on the understanding that 
genomes, especially those of the simplest organisms, provide a window 
into the fundamental mechanics of life. The Genomes to Life program is 
also committed to developing the computational tools to integrate data, 
to understand data, and to model complex biological systems. The 
Institute's programs in comparative and microbial genomics and 
computation could provide vital advances in these endeavors and support 
DOE's biological and environmental research function (the BER account).
    We seek $5 million for support of the Institute of Comparative 
Genomics to partner with DOE and to contribute its unique capacities to 
advancing shared priority areas of genomic science. The Institute 
supports DOE's biological and environmental research function (the BER 
account); and its diverse strengths and unique resources in comparative 
genomics will help to further DOE's goals for building a scientific 
research capacity to enable advances and discoveries in DOE science 
through world-class research. In addition, further development of the 
Museum's super-cold tissue collection will increase enormously the 
possibilities for DNA research and provide an invaluable international 
scientific resource. Our online collection database will ensure public 
access to genomics information, furthering DOE's own goals for 
fostering public understanding of human genomics and the fundamental 
building blocks of life. The Museum intends to support the Institute 
with funds from non-Federal as well as Federal sources and proposes to 
use the requested $5 million towards overall costs for the Institute's 
microbial genomics research program, including expansion and renovation 
of the molecular laboratories to accommodate additional investigators 
and students, research instrumentation, and scientific outreach and 
dissemination (website, online databases).
                                 ______
                                 
 Prepared Statement of the University of Medicine and Dentistry of New 
                                 Jersey
    The following is the testimony of the University of Medicine and 
Dentistry of New Jersey (UMDNJ), the largest freestanding public 
university of the health sciences in the Nation. The University is 
located on five statewide campuses and contains three medical schools, 
and schools of dentistry, nursing, health related professions, public 
health and graduate biomedical sciences. UMDNJ also comprises a 
University-owned acute care hospital, three core teaching hospitals, an 
integrated behavioral health care delivery system, a statewide system 
for managed care and affiliations with more than 200 health care and 
educational institutions statewide.
    We appreciate the opportunity to bring to your attention our 
priority projects that are consistent with the biomedical research 
mission of the Department of Energy. These projects are statewide in 
scope and include collaborations both within the University system and 
with our affiliates.
    Our first priority is the development of the Child Health Institute 
of New Jersey at the UMDNJ-Robert Wood Johnson Medical School (RWJMS) 
in New Brunswick. As part of the State's public higher education 
system, the medical school encompasses 21 basic science and clinical 
departments and integrates diverse clinical programs conducted at 34 
hospital affiliates and numerous ambulatory care sites in the region. 
RWJMS ranks among the top one-third of medical schools in the Nation in 
terms of grant support per faculty member. It is home to The Cancer 
Institute of New Jersey, the only NCI-designated comprehensive cancer 
center in New Jersey; The Center for Advanced Biotechnology and 
Medicine; the Environmental and Occupational Health Sciences Institute, 
one of the leading environmental health programs in the country; and 
the Child Health Institute of New Jersey.
    The mission of the Child Health Institute is to build a 
comprehensive biomedical research center focused on the health and 
wellness of children. In this program, medical researchers direct 
efforts towards the prevention and cure of environmental and genetic 
diseases of infants and children at molecular and cellular levels.
    The Child Health Institute is integral to the long-term plan for 
the enhancement of research at UMDNJ-RWJMS in developmental genetics, 
particularly as it relates to disorders that affect a child's 
development and growth, physically and cognitively. The program will 
enable the medical school to expand and strengthen basic research 
efforts with clinical departments at the Robert Wood Johnson University 
Hospital (RWJUH) and, in particular, those involved with the new 
Children's Hospital at RWJUH especially Obstetrics, Pediatrics, 
Neurology, Surgery and Psychiatry. The construction of the Child Health 
Institute at RWJMS will fill a critical gap through the expansion, by 
new recruitment, of a intellectual base upon which basic molecular 
programs in child development and health will build.
    At the Child Health Institute, research will serve as the basis for 
new treatments, therapies and cures for such devastating and 
debilitating childhood syndromes as asthma, autism, diabetes, muscular 
dystrophy, birth defects and neuro-developmental disorders. Research 
will focus on the molecular and genetic mechanisms which direct the 
development of human form, subsequent growth, and acquisition of 
function. Broadly, the faculty and students will investigate disorders 
that occur during the process of development to discover and study the 
genes contributing to developmental disabilities and childhood 
diseases; to determine how genes and the environment interact to cause 
childhood diseases; and to identify the causes and possible avenues of 
treatment of cognitive disorders broadly found among conditions such as 
mental retardation, autism and related neurological disorders.
    Normal child development is a water dependent process, reflecting 
water quality, quantity and its ``management'' by cells and tissues. 
Access to uncontaminated water is at the base of the tree of life. 
Pollution of aquatic ecosystems poses a serious threat to the entire 
ecosystem and studying how a toxin affects embryonic development is 
central to understanding the risks pollutants represent, whether 
derived from pesticides, industrial run-off, acid rain or landfills. In 
multiple ways, the embryo is a sentinel for environmental toxins. 
Research at the Child Health Institute will focus on molecular 
mechanisms of early embryonic development, a natural, but vulnerable 
water-based environment.
    The Child Health Institute of New Jersey builds on existing 
significant strengths in genetic, environmental, and neurosciences 
research within the UMDNJ-RWJMS and associated joint programs with 
Rutgers University and other research institutes. For example, the 
Environmental and Occupational Health Sciences Institute (EOHSI) is a 
National Institute of Environmental Health Sciences (NIEHS) recognized 
center of excellence which investigates environmental influences on 
normal and disordered functions; the Cancer Institute of New Jersey 
(CINJ), a National Cancer Institute-designated Comprehensive Cancer 
Center, studies disordered cell growth; and the Center for Advanced 
Biotechnology and Medicine (CABM) characterizes gene structure and 
function.
    The CHI will act as a magnet for additional growth in research and 
healthcare program development in New Jersey. The Institute will 
encompass 150,000 gross square feet and will house more than 40 
research laboratories and associated support facilities. Fourteen 
senior faculty will direct teams of M.D. and Ph.D. researchers, 
visiting scientists, postdoctoral fellows, graduate students and 
technicians for a full complement of some 130 employees.
    Construction costs for the Institute are estimated to be 
approximately $72 million; approximately half of this figure is 
generally associated with local employment. At maturity, the Institute 
is expected to attract $7 to $9 million dollars of new research funding 
annually. The Institute's total annual operating budget is projected to 
be $10 to $12 million, with total economic impact on the New Brunswick 
area projected to be many times this amount.
    The Child Health Institute has assembled over $40 million to fund 
its building and programs through a strong partnership among private, 
corporate and government entitities. The support of the Congress has 
resulted in more than $6 million in directed appropriations for the CHI 
over the past 4 years, including appropriations from this committee in 
fiscal years 2001 and 2002. We respectfully seek $2 million to 
complement support already received in Federal participation to further 
advance the development of the Child Health Institute of New Jersey. 
Requested funding will be utilized for the purchase of analytical 
equipment, including laser scanning and photon microscopes, mass 
spectometer, and ventilated rack systems.
    Our second priority is the Dean and Betty Gallo Prostate Cancer 
Center (GPCC), established at the Cancer Institute of New Jersey (CINJ) 
with the goal of eradicating prostate cancer and improving the lives of 
men at risk for the disease through research, treatment, education and 
prevention. The Center was founded in memory of Rep. Dean Gallo, a New 
Jersey Congressman who died of prostate cancer diagnosed at an advanced 
stage.
    Prostate cancer is a devastating health problem in the Nation and 
in the State of New Jersey, which continues to experience one of the 
highest rate of cancer incidence and mortality. Prostate cancer is the 
most common form of cancer, other than skin cancer, among men in the 
United States and is second only to lung cancer as a cause of cancer-
related death among men. The American Cancer Society estimates that 
189,000 new cases of prostate cancer will be diagnosed and 
approximately 30,200 men will die of the disease in 2002. Statistics 
released by the Centers for Disease Control in 2002 placed New Jersey 
fourth in the Nation for the rate or prostate cancer incidence.
    The GPCC unites a team of outstanding researchers and clinicians 
who are committed to high quality basic research, translation of 
innovative research to the clinic, exceptional patient care, and 
improving public education and awareness of prostate cancer. GPCC is a 
center of excellence of the Cancer Institute of New Jersey, which is 
the only NCI-designated comprehensive cancer center in the State. GPCC 
efforts are focused in four major areas: (1) Basic, Clinical and 
Translational Research; (2) Epidemiology and Cancer Control; (3) 
Comprehensive Patient Care; and (4) Education and Outreach.
    Basic, Clinical and Translational Research.--GPCC scientists are 
investigating the molecular, genetic and environmental factors that are 
responsible for prostate cancer initiation and progression. Appropriate 
model systems developed by Dr. Abate-Shen at the GPCC are being 
utilized to facilitate the design and implementation of novel 
strategies for prevention and treatment. GPCC is fostering multi-
disciplinary efforts that will lead to the effective translation of 
basic research to improved patient care and novel clinical trials. The 
translational research program developed at the Gallo Prostate Cancer 
Center has been recognized at national scientific meetings such as 
those organized by the American Association for Clinical Research.
    Epidemiology and Cancer Control.--Additional research activities of 
the GPCC seek to understand the etiology of prostate cancer 
susceptibility and to find effective modalities for prevention of 
prostate cancer.
    Comprehensive Patient Care.--Exceptional patient care is provided 
through a multi-disciplinary patient care team in the areas of 
urological oncology, radiation oncology and medical oncology for each 
patient during all stages of the disease. Currently the Center has 
fourteen active clinical trials that provide our patients with novel 
clinical approaches for treating all stages of prostate cancer. Seventy 
patients were enrolled in clinical trials in 2002.
    Education and Outreach.--GPCC is continuing to educate the public 
throughout the State of New Jersey about the importance of early 
detection of prostate cancer, particularly in underserved communities 
where there is a population at high risk for the disease. The Gallo 
Center has developed an extensive network of partnerships with 
organizations such as the 100 Black Men of New Jersey, the Men's Health 
Network, the National Black Leadership Initiative on Cancer, and the 
Jewish Renaissance Foundation to offer prostate cancer screenings in 
minority and other underserved communities. The goal is to extend 
prostate cancer screening services to all 21 New Jersey counties by 
2004.
    To date, the Gallo Center has raised over $12.2 million in external 
public and private funding sources (including $3 million in support 
from this committee) to expand its research, cancer control and public 
outreach initiatives. The UMDNJ commitment to the overall development 
of The Cancer Institute of New Jersey and of the Gallo Center total 
over $83 million. This important funding has enabled us to establish a 
world-class program in prostate cancer research that includes 
publications in prestigious journals such as the New England Journal of 
Medicine, Genes and Development, Cancer, Cancer Research, and Clinical 
Cancer Research.
    Our fiscal year 2004 initiative is designed to support the further 
expansion of the Center's basic and clinical research initiatives, 
public outreach and cancer control efforts in both the Newark and north 
Jersey region, and the Camden/southern New Jersey region where we can 
increase the availability of cancer programs to the state's major 
population regions. Support of $3 million is sought to strengthen the 
Center's basic and clinical research programs. This additional funding 
will also allow us to enhance our treatment of patients with prostate 
cancer through several new clinical trials for patients at all stages 
of the disease. An additional level of funding support of $3 million is 
requested to expand the Center's public outreach and screening 
activities to reach vulnerable populations in the greater Newark and 
Camden communities and in other locations across the State.
    We thank this committee for its strong support of biomedical 
research and for the University's programs.
                                 ______
                                 
      Prepared Statement of the American Public Power Association
    The American Public Power Association (APPA) is the national 
service organization representing the interests of over 2,000 municipal 
and other State and locally owned utilities throughout the United 
States (all but Hawaii). Collectively, public power utilities deliver 
electricity to one of every seven electric consumers (about 40 million 
people), serving some of the Nation's largest cities. However, the vast 
majority of APPA's members serve communities with populations of 10,000 
people or less.
    We appreciate the opportunity to submit this statement outlining 
our fiscal year 2004 funding priorities within the Energy and Water 
Development Subcommittee's jurisdiction.
          renewable energy production incentive program (repi)
    The Department of Energy's REPI program was created in 1992's 
Energy Policy Act (EPAct) as a counterpart to the renewable energy 
production tax credits made available to for-profit utilities. EPAct 
authorizes the Department of Energy (DOE) to make direct payments to 
not-for-profit public power systems and rural electric cooperatives at 
the rate of 1.5 cents per kWh (now closer to 1.7 cents when adjusted 
for inflation) from electricity generated from solar, wind, geothermal 
and biomass projects. According to DOE sources, there is a backlog of 
close to $40 million in requests for REPI funding for 2003. Taking a 
step in the right direction, Congress appropriated $5 million for REPI 
for fiscal year 2003, a 25 percent increase over DOE's request of $4 
million for fiscal year 2003. Despite Congress' allocation and the 
demonstrated need, however, DOE has again asked for only $4 million for 
fiscal year 2004, citing budgetary constraints.
    Fully funding REPI is an issue of comparability for 25 percent of 
the utility sector and the communities these systems serve. For 
example, in 2000, for-profit utilities and private developers received 
about $58 million in renewable energy tax credits for wind power alone. 
The same year, REPI subscribers received only $3.99 million for 
renewable energy projects of all types. While APPA supports increasing 
renewable energy use throughout the utility sector, our member 
utilities simply must receive comparable federally sanctioned 
incentives to help in that effort.
    We believe Congress was committed 10 years ago to removing economic 
barriers to enable all communities to benefit from the production of 
more renewable and clean energy. We also believe that Congress is 
equally committed today--not only to producing more renewable energy, 
but also to diversifying America's portfolio of fuels, decreasing our 
reliance on foreign sources of energy, and reducing greenhouse gas 
emissions. In fact, under a fully funded REPI program, close to 60 
million metric tons of carbon equivalent could be reduced through the 
development existing landfills into landfill-gas-to-energy projects. In 
order to ensure that these efforts and other renewable energy goals are 
achievable throughout the electric utility industry, Congress must 
provide an increase for REPI.
                       renewable energy programs
    As is demonstrated by our strong support for REPI, APPA believes 
that investing in energy efficiency and renewable energy programs is 
critical. We urge the subcommittee to support adequate funding to 
ensure that renewable energy usage continues to increase as part of the 
portfolio of fuel options available to our Nation's electric utilities.
    We appreciate the subcommittee's recognition of the merits of these 
programs as demonstrated by its passage of a substantial increase over 
the President's fiscal year 2003 budget request. We encourage your 
continued support of these vital renewable energy programs.
             federal power marketing administrations (pmas)
    APPA urges the subcommittee to increase the use of receipts for the 
Purchase Power and Wheeling (PP&W) programs of the Western Area Power 
Administration (WAPA), the Southeastern Power Administration (SEPA) and 
the Southwestern Power Administration (SWPA) in fiscal year 2004.
    The fiscal year 2004 budget proposes to drastically curtail the 
abilities of WAPA, SEPA, and SWPA to use receipts--which do not score--
to provide these services to customers who cover these costs in their 
electric bills. Appropriations are no longer needed to initiate PP&W 
process, however, the subcommittee does establish ceilings on the use 
of receipts for this important function.
    The PP&W program is important because hydroelectric generation and 
customer use are rarely in exact balance--both vary from hour-to-hour 
and day-to-day. The PMAs often make purchases in the spot market to 
``firm'' the resource when generation is less than the amount 
contracted for delivery. And, in low-water years, which have been all 
too frequent recently, the PMAs often purchase additional power to 
fulfill their contracts with customers. Wheeling is the charge that the 
PMAs pay to move electricity over a non-Federal transmission line. It 
also reduces the need to build additional Federal transmission 
facilities.
    Therefore, we request that the subcommittee authorize the use of 
receipts in fiscal year 2004 as follows:
  --Western Area Power Administration (WAPA): $186.1 million needed--
        includes $20 million recommended by OMB in the budget plus a 
        $166.1 million authorization in the fiscal year 2004 bill.
  --Southeastern Power Administration (SEPA): $34.4 million needed--
        includes $15 million recommended by OMB plus $19.4 million 
        authorization in the fiscal year 2004 bill.
  --Southwestern Power Administration (SWPA): $2.8 million needed--
        includes $288,000 recommended by OMB plus $2.6 million 
        authorization in the fiscal year 2004 bill.
                  storage for high-level nuclear waste
    Since 1982, the Nation's electricity customers have committed $16.5 
billion to the Nuclear Waste Fund in order to finance centralized 
Federal management of spent nuclear fuel used for commercial purposes. 
We therefore support the administration's efforts to finalize the 
location of a permanent storage site at Yucca Mountain, Nevada, and we 
support its request of $591 million for Civilian Radioactive Waste 
Management in fiscal year 2004 to further this undertaking.
                  advanced hydropower turbine program
    APPA supports the administration's budget request of $7.5 million 
for the Advanced Hydropower Turbine Program for fiscal year 2004. This 
program is a joint industry-government cost-share effort to develop a 
hydroelectric turbine that will protect fish and other aquatic habitats 
while continuing to allow for the production of emissions free 
hydroelectric power.
    During the next 15 years, 220 hydroelectric projects will seek new 
licenses from the Federal Energy Regulatory Commission (FERC). Publicly 
owned projects constitute 50 percent of the total capacity that will be 
up for renewal. Many of these projects were originally licensed over 50 
years ago. Newly imposed licensing conditions can cost hydro project 
owners 10 to 15 percent of power generation. A new, improved turbine 
could help assure that any environmental conditions imposed at 
relicensing in the form of new conditioning, fish passages or reduced 
flows are not accomplished at the expense of emissions-free, renewable 
energy production. This is particularly important given the 
increasingly competitive market in which electric utilities operate 
today. Flow levels will affect the economics of each of these projects 
and many will be unable to compete if the current trend toward flow 
reduction continues.
              federal energy regulatory commission (ferc)
    The Federal Energy Regulatory Commission (FERC) has requested 
$199.4 million for fiscal year 2004 for its overall operations. APPA 
supports this request. The FERC is charged with regulating certain 
interstate aspects of the natural gas, oil pipeline, hydropower, and 
electric utility industries. Such regulation includes issuing licenses 
and certificates for construction of facilities, approving rates, 
inspecting dams, implementing compliance and enforcement activities, 
and providing other services to regulated businesses. These businesses 
pay fees and charges that cover most of the cost of the government's 
operations.
              navajo electrification demonstration program
    APPA supports full funding for the Navajo Electrification 
Demonstration Program at its $15 million authorized funding level for 
fiscal year 2004 and for each succeeding year of its authorization 
(through 2006). The purpose of the program is to provide electric power 
to the estimated 18,000 occupied structures in the Navajo Nation that 
lack electric power.
    The Navajo Nation is served by the Navajo Tribal Utility Authority 
(NTUA), an APPA member. NTUA provides electric, natural gas, water, 
wastewater treatment, and photovoltaic services throughout the Navajo 
Indian Reservations in the States of Arizona, New Mexico and Utah. 
Fully funding the Navajo Electrification Demonstration Program will 
significantly improve the quality of life for the people of the Navajo 
Nation.
             national climate change technology initiative
    APPA supports the administration's efforts to promote greenhouse 
gas reductions through voluntary programs and investments in new 
technologies. We therefore support DOE's request of $15 million for 
fiscal year 2004 to spur innovation of technologies that will reduce, 
avoid, or capture greenhouse gas emissions.
                                 ______
                                 
    Prepared Statement of the University of Michigan, University of 
 Tennessee, University of Texas, University of Florida, and University 
                             of New Mexico
              research, education, and doe mission support
    The U.S. Department of Energy (DOE) has provided support to the DOE 
University Research Program in Robotics to pursue long range research 
leading to the ``development and deployment of advanced robotic systems 
capable of reducing human exposure to hazardous environments, and of 
performing a broad spectrum of tasks more safely and effectively than 
utilizing humans.''
    The DOE University Research Program in Robotics (URPR) has proven 
highly effective in technology innovation, education, and DOE mission 
support. The URPR has incorporated mission-oriented university research 
into DOE, and, through close collaboration with the DOE sites, provides 
an avenue for developing creative solutions to problems of vital 
importance to DOE.
    The URPR would like to thank the Committee members for their 
historically strong support of this successful program. Recognizing the 
shift in national priorities post-9/11/01, the URPR has begun to 
include new applications as the target for its technology development. 
Funding was equally split between EM and NNSA during fiscal year 2003. 
This enabled the completion of dedicated research for specific EM 
projects while integrating into the NNSA organization.
                       request for the committee
    We request that the Committee include language for the University 
Research Program in Robotics (URPR) research funds at its historic 
level of $4.35 million to continue developing safer, less expensive, 
and more capable robotic technology for NNSA applications.
          developing advanced robotics for doe and the nation
Develop Robotic Solutions for Work in Potentially Hazardous 
        Environments
    The goal of this program is to invent and utilize state-of-the-art 
robotic technology in order to remove humans from potentially hazardous 
environments and expedite remediation efforts considered essential. 
Established by DOE in fiscal year 1987 to support advanced nuclear 
reactor concepts, the project was moved to EM to support the higher 
priority needs in environmental restoration. Reflecting the change in 
national priorities post-9/11, the URPR began supporting NNSA 
applications during fiscal year 2003. The project has produced an 
impressive array of technological innovations, which have been 
incorporated into robotic solutions being employed across Federal and 
commercial sectors. This successful program demonstrates efficient 
technology innovation while educating tomorrow's technologists, 
inventing our country's intelligent machine systems technology of the 
next century, and meeting today's applied research needs for DOE.
    The URPR represents a DOE-sponsored consortium of five research 
universities (Florida, Michigan, New Mexico, Tennessee, and Texas) of 
long standing, working on the science of remote systems technologies to 
advance their effectiveness in performing physical tasks in hazardous 
environments associated with the DOE nuclear sites. The work of these 
universities is now widely recognized as some of the best in the field 
(the creation of spin-off companies, deployment requests from FEMA at 
Ground Zero, wins in national technology competitions, archival journal 
articles, etc.). Some of the focus technologies include innovative 
mobile platforms and their semi-autonomous navigation, kinesthetic 
input to teleoperation systems, simulation-based design and control, 
manipulation of unwieldy objects, machine vision and scene assessment 
for world modeling, improved radiation hardening of electronic 
components, and integration technology to assist in the assessment and 
deployment of complete solutions in the field. In addition to DOE 
specific applications, the team is increasingly able to deploy their 
technology for DOD applications (aircraft carrier weapon's elevator, 
anti-terrorism systems, submarine operations, etc.), for Homeland 
Security applications (surveillance and monitoring), for commercial 
applications (manufacturing, building construction, space) and for 
human augmentation and training (micro-surgery, rehabilitation of 
humans, reduction of drudgery). We constantly seek to explore strategic 
partnerships and utilize existing deployment resources to more rapidly 
export this technology to the DOE sites that could most benefit from 
this new technology.
Making the Nation Safer
    In the aftermath of the 9/11 tragedy, our Nation has engaged in a 
long-term war to counter terrorism. The National Research Council 
recently [2002] published a thorough study of the role of science and 
technology in countering terrorism entitled Making the Nation Safer. 
This book represents the collective thoughts of 164 top scientists and 
engineers focusing on homeland security of the United States. It 
represents the combined output of the National Academy of Sciences, the 
National Academy of Engineering, the Institute of Medicine, and the 
National Research Council. It identifies urgent research opportunities. 
Of the seven cross-cutting technology challenges identified by the 
committee, autonomous mobile robotic technologies were highlighted. 
``Continued development and use of robotic platforms will enable the 
deployment of mobile sensor networks for threat detection and 
intelligence collection. Robotic technologies can also assist humans 
and such activities as ordnance disposal, decontamination, debris 
removal, and firefighting.'' Robotic technologies, cited as a 
``critical long-term research need,'' are featured throughout the 
individual chapters that address ways for mitigating our society's 
vulnerabilities to terrorism and responding to an attack.
    Our Nation's technology experts recommend: ``Agencies with 
experience in robotics, such as DARPA, should support research on all 
elements of robotic systems--including sensors, networks, and data 
communication and analysis. The aim would be to develop robots to 
assist in chemical (and biological or radiological) defense, thereby 
reducing hazards to humans and increasing the capabilities of defensive 
systems.'' [Rec. 4.8]
    In addition, the report identifies the need to sustain the Nation's 
scientific and engineering talent base and recommends [Rec. 13.4] a 
human resource development program to increase training in those fields 
consistent with the government's long-term priorities for homeland 
security research. The report exhorts that ``expanding the number of 
American scientists and engineers is particularly important.''
    And directly related to our work in radiation sensing and imaging 
is the recommendation [Rec. 2.6] ``A focused and coordinated near-term 
effort should be made by the Department of Energy, through its National 
Nuclear Security Administration, and by the Department of Defense, 
through its Defense Threat Reduction Agency, to evaluate and improve 
the efficacy of special nuclear material detection systems that could 
be deployed at strategic choke points for homeland defense.'' And [Rec 
2.7] ``Research and development support should be provided by the 
Department of Energy and Department of Defense for improving the 
technological capabilities of special nuclear material detection 
systems, especially for detecting highly enriched uranium.'' Our 
ongoing URPR research supports these tasks.
    In summary, the University Research Program in Robotics is a key 
player in executing the recommendations for making the Nation safer. We 
commend the enlightened vision of those who have historically 
recognized the importance of the URPR and supported this project.
             innovation, education, and doe mission support
    The URPR's strategic mission is to make significant advances in our 
Nation's robotic and manufacturing technology base while emphasizing: 
education, technology innovation through basic R&D, and DOE mission 
support. The URPR has demonstrated that the advantages of operating as 
a consortium are significant. The institutions of the URPR partition 
the technical development into manageable sections which allow each 
university to concentrate within their area of expertise (efficiently 
maintaining world-class levels of excellence) while relying on their 
partners to supply supporting concentrations. With full support of the 
host universities, this effort naturally generated the in-depth human 
and equipment capital required by the DOE community. Practically, the 
long-term distributed interaction and planning among these universities 
in concert with the DOE labs and associated industry allows for 
effective technology development (with software and equipment 
compatibility and portability), for a vigorous and full response to 
application requirements (component technologies, system technologies, 
deployment issues, etc.), and for the supported application of the 
technology. Considering the remarkable achievements of URPR over its 
history, the URPR is in the ideal position to execute its prominent 
role in education, technology innovation, and DOE mission support.
DOE Mission Contribution--Robotic Technologies
    Since its inception, DOE has promoted robotics as a necessary 
enabling technology to accomplish its mission. The motives for 
undertaking a comprehensive R&D effort in the application of advanced 
robotics to tasks in hazardous environments reflect economic 
considerations, efficiency, and health and safety concerns. The URPR is 
DOE's only needs-driven research program to develop new remote systems 
technologies to support the DOE thrust areas. In contrast, DOD, NIH, 
and NASA continue to prove the benefits of much larger mission-oriented 
robotics programs. During this difficult time of uncertainty, we need 
Congressional support to continue this very successful national program 
in technology innovation for advanced robotic systems.
Program Request for the Committee
    During fiscal year 2003, the URPR provided vital contributions to 
education and research while addressing DOE technology needs. The 
motivation for this project remains steadfast--removing humans from 
hazardous environments while enhancing safety, reducing costs, and 
increasing response effectiveness. The URPR will begin supporting NNSA 
missions during fiscal year 2004. Thus, the DOE fiscal year 2004 budget 
submission could not include the URPR and Committee language is needed 
to continue the technology missions of the URPR at the fiscal year 2002 
and fiscal year 2003 level of $4.35 million.
                                 ______
                                 
  Prepared Statement of the California Government and Private Sector 
Coalition for Operation Clean Air's (OCA) Sustainable Incentive Program
    Mr. Chairman and Members of the Subcommittee, on behalf of the 
California Government and Private Sector Coalition for Operation Clean 
Air's (OCA) Sustainable Incentive Program, we are pleased to submit 
this statement for the record in support of our fiscal year 2004 
funding request of $7,000,000 for OCA as part of a Federal match for 
the $180 million already contributed by California State and local 
agencies and the private sector for incentive programs. This request 
consists of $5,000,000 from the Department of Energy (DOE) for biomass 
incentives, and $2,000,000 from DOE for alternative fuels 
infrastructure funding.
    California's great San Joaquin Valley is in crisis. Home to 3.3 
million people, its 25,000 square miles may have the most unhealthy air 
in the country. Even Los Angeles, long known as the smog capital of the 
Nation, can boast better air quality by certain standards. While peak 
concentrations of air pollutants are still greater in Los Angeles, for 
the past 4 years, the San Joaquin Valley has exceeded Los Angeles in 
violations of the 8-hour Federal health standard.
    A combination of geography, topography, meteorology, extreme 
population growth, urban sprawl and a NAFTA corridor with two major 
highways that produce 5 million big-rig miles per day driven by diesel 
powered trucks, have collided to produce an air basin which over 
300,000 people, nearly 10 percent of the population, suffers from 
chronic breathing disorders. In Fresno County, at the heart of the San 
Joaquin Valley, more than 16 percent of all children suffer from 
asthma, a rate substantially higher than any other place in California. 
The extreme summertime heat works to create smog even though smog-
forming gases are less than half the amount in the Los Angeles basin. 
There is no prevailing wind to flush the natural geologic bathtub and, 
as a result, pollutants and particulates stagnate, accumulate and 
create unhealthy air.
    Degradation of human health is not the only consequence of poor 
quality air. Because the 8-county air pollution control district is 
designated as a ``severe'' non-attainment area, a significant number of 
the Valley's businesses are required to obtain permits and comply with 
increasingly burdensome regulations imposed by Federal and State law 
and the Air Pollution Control District, resulting in added cost in 
compliance, reporting and record keeping. At the same time, the area is 
burdened by unemployment rates of nearly 20 percent. Encouraging 
business expansion in or relocation to the San Joaquin Valley to combat 
unemployment is extremely difficult in the face of such regulatory 
burdens.
    In the fall of 2003 the San Joaquin Valley Air Pollution Control 
District Board will decide whether to become the first District in the 
Nation voluntarily to declare itself an ``extreme'' non-attainment 
area. That designation, if made, will defer until 2010 the date for 
attainment of Federal standards of air quality, but will come at a cost 
of imposing permitting on thousands of more businesses and even further 
discouraging business expansion or relocation. Unemployment will 
certainly not be improved.
    The San Joaquin Valley is home to the most productive agricultural 
land in the world. Over 350 crops are produced commercially on 27,000 
farms that encompass more than 5 million irrigated acres. While the 
agricultural industry has made great strides at considerable expense to 
replace old diesel engines and manage fugitive dust and other 
emissions, farming cannot help but contribute to the problem. However, 
it is a $14 billion industry that forms the backbone of the Valley's 
economy.
    Industry alone is not the source of the Valley's poor air. 
Population growth faster than the rest of the State and nearly the rest 
of the Nation, in an area without effective mass transit, where cheap 
land has led to a landscape of suburbia and sprawl, results in 
excessive over-reliance on the automobile. Trucking has increased 
dramatically with the increase in population. Other factors such as 
fireplace burning in the winter, open field agricultural burning 
because of lack of adequate alternatives, and wild fires resulting from 
lack of controlled burning in the nearby foothills and mountains all 
contribute to the problem.
    Despite the challenges listed above, much progress has been made. 
The State has spent nearly $80 million on improvement and compliance 
programs. Local government and private industry have spent over $100 
million on technology and compliance. As specific examples, over one 
half of the diesel operated irrigation pumps used by agriculture have 
been replaced with cleaner engines. The City of Tulare has converted 
its entire fleet of vehicles to natural gas as have several other 
private fleet operators. A $45 million federally financed comprehensive 
study of ozone and particulate matter is nearing completion. As a 
result, the number of 1-hour EPA health standard exceedences has been 
reduced by 40 percent since 1989.
    But much more needs to be done. The District estimates that daily 
emissions must be reduced by 300 tons to achieve attainment. There is 
no single or short-term quick fix. The entire Valley is part of the 
problem and the entire Valley will need to be part of the solution.
    Operation Clean Air is a coalition of business, government, health 
care and environmental groups throughout the 8-county San Joaquin 
Valley Air Pollution Control District and Mariposa County. Its goal is 
to clean the Valley's air and increase its economic prosperity. The 
coalition seeks to catalogue efforts that have produced positive 
effects and identify those strategies that could produce even greater 
effects if supported by sufficient resources. At the heart of its 
efforts will be an array of sustainable, voluntary practices and 
activities that can and will be undertaken by all of the residents of 
the San Joaquin Valley, both public and private, to improve air 
quality.
    This unique public-private partnership has invested considerable 
resources in this project to date, and will continue to do so, but 
Federal funding is both imperative and justified to help address what 
is essentially an unfunded Federal mandate.
    For fiscal year 2004, our Coalition is seeking funding of 
$2,000,000 from the Department of Energy (DOE) for the installation and 
operation of alternative fuels infrastructure throughout the San 
Joaquin Valley Air Basin. The alternative fuels infrastructure will 
allow for the accelerated introduction of alternatively fueled vehicles 
in municipal fleets, public school fleets, and private fleets. The 
widespread use of lower-emitting motor vehicles will provide 
significant improvement to air quality in the San Joaquin Valley while 
furthering the goals of the Department of Energy and the National 
Energy Policy Act. Development of alternative fuel infrastructure will 
augment the low-emission vehicle program by providing much needed 
compressed natural gas (CNG) and liquefied natural gas (CNG) fueling 
facilities.
    For fiscal year 2004, our Coalition is also seeking funding of 
$5,000,000 to provide financial incentives to reduce open field burning 
of residual agricultural materials by utilizing biomass-energy power 
plants to burn this material in a controlled environment. This process 
will result in multiple benefits to the San Joaquin Valley by reducing 
air pollution and producing electrical power from a renewable source.
    Thank you very much your consideration of our requests.
                                 ______
                                 
 Letter From the Colorado River Energy Distributors Association (CREDA)
                                    Tempe, Arizona, April 10, 2003.
The Honorable Pete Domenici,
Chairman, Appropriations Subcommittee on Energy & Water Development, 
        127 Dirksen Senate Office Building, Washington, DC 20510.
    RE: Site Security/Anti-Terrorism Costs
    Dear Chairman Domenici: Please include this letter in the hearing 
record for the fiscal year 2004 Energy and Water Development 
Appropriations bill.
    As you are aware, following the events of September 11, 2001, the 
Federal agencies responsible for providing site security and anti-
terrorism measures have taken additional steps to ensure the security 
of Federal hydropower and transmission facilities and the security of 
the general public. The facilities comprising the Colorado River 
Storage Project provide a multitude of benefits to millions of 
residents in the western United States. The security of these Federal 
generation and delivery facilities is of national concern.
    In the fiscal year 2003 Energy and Water Development Appropriations 
bill, the House and Senate concurred in report language which says that 
increased security costs in the aftermath of the events of September 
11, 2001 are non-reimbursable expenses and should be funded through 
appropriations. This recognition is consistent with the historic 
treatment of such costs in crises such as Pearl Harbor.
    We understand the President's fiscal year 2004 budget for the U.S. 
Bureau of Reclamation and the Western Area Power Administration 
includes additional funding for such anti-terrorism/site security 
activities. In light of this, the Colorado River Energy Distributors 
Association (CREDA) requests that the Energy and Water Development 
Subcommittee including the following in its fiscal year 2004 
appropriations bill:
    For fiscal year 2004 and each fiscal year thereafter, the increased 
costs of ensuring security of Reclamation generation and Western Area 
Power Administration delivery system facilities in the aftermath of the 
events of September 11, 2001 shall be appropriated, non-reimbursable 
and nonreturnable.
    CREDA is a purchaser of Federal hydropower and transmission 
services produced and transmitted by the facilities of the Colorado 
River Storage Project. Our members serve nearly 3 million consumers in 
six western States. CREDA has passed a resolution advocating that the 
costs of increased security of these facilities should be non-
reimbursable and provided by appropriated funds. In addition, the 
American Public Power Association (APPA), the National Rural Electric 
Cooperative Association (NRECA) and National Water Resources 
Association (NWRA) also have approved or have pending concurring 
resolutions.
    We appreciate your support of statutory language supporting this 
position.
            Sincerely,
                                              Leslie James,
                                                Executive Director.
                                 ______
                                 
         Prepared Statement of the Southern States Energy Board
    The Southern States Energy Board (SSEB) is pleased to provide this 
statement for the record to the House of Representatives Appropriations 
Subcommittee on Energy and Water Development as it considers fiscal 
year 2004 funding for the U.S. Department of Energy (DOE), Office of 
Energy Efficiency and Renewable Energy (EERE), and specifically related 
to the biomass/biofuels fiscal year 2004 budget request.
    The Board commends Congress for restoring $3,000,000 to the U.S. 
DOE Regional Biomass Energy Program (RBEP) in the fiscal year 2003 
Omnibus Bill. However, SSEB and other regional governors' organizations 
with existing cooperative agreements to administer RBEP have yet to 
receive this appropriated funding. SSEB urges the Congress to restore 
funding for the U.S. DOE Regional Biomass Energy Program and its 
valuable State-based regional network at $5,000,000 in fiscal year 
2004.
    This line item, which would continue an appropriation that has 
appeared in every Federal budget since fiscal year 1983, is for the 
purpose of promoting economic development by fostering the use of 
biobased products and bioenergy, and takes advantage of and sustains 
existing networks and infrastructure developed throughout the Nation by 
the regional governors' organizations.
    Energy independence is a critical element in the President's Energy 
Policy and can be significantly enhanced by developing viable domestic 
alternative energy sources. Just as the Federal energy policy seeks to 
encourage diverse energy sources, eliminating funding for the RBEP 
greatly diminishes the States' ability to participate in the 
development of biomass energy markets.
    The Regional Biomass Energy Program was created by Congress in 1983 
under the Energy and Water Development Appropriations bills Public Law 
97-88 and Public Law 98-50. The enabling legislation instructed DOE to 
design its national program to work with States on a regional basis, 
taking into account regional biomass resources and energy needs. The 
five regional programs, working with representatives in all 50 States, 
Puerto Rico and the Virgin Islands, and hosted primarily by regional 
governors' organizations (Southern States Energy Board, Coalition of 
Northeastern Governors and the Council of Great Lakes Governors) are 
recognized nationally for their combined experience related to biomass 
technologies and policies.
    SSEB and other regional governors' organizations hosting regional 
biomass energy programs are critical partners of DOE for formulating 
policies and facilitating private sector deployment of advanced energy 
technologies and practices into target markets.
    Beyond the potential economic development benefits, participating 
States gain the opportunity to strengthen and integrate the work of 
energy, agriculture, forestry, environmental and other State agencies. 
Where issues are the same among several States, strategies can be 
developed to address these issues across State borders. Examples 
include the development of similar State legislative actions, working 
with the private sector with multi-State locations, and multi-State 
training and outreach to economize resources.
    The southern States have participated in this strategy through the 
Southeastern Regional Biomass Energy Program (SERBEP) which has 
provided over $5.8 million in project funds since 1992 with a cost-
share of over $21 million by leveraging State and private funding for 
technology development and deployment. In 1999, SSEB was selected as 
the ``host organization'' for the SERBEP and received funding through a 
5-year cooperative agreement.
    SSEB is an interstate compact organization with enabling 
legislation in each member State, covering the 16 States plus Puerto 
Rico and the U.S. Virgin Islands, all members of the Southern Governors 
Association. To assure broad based representation, SSEB is governed by 
a board composed of the governor and a member of the House and Senate 
from each member State. Over the years of administering the SERBEP, 
SSEB has created awareness and support for bioenergy/biobased products 
in the executive and legislative branches of State government, improved 
the effectiveness of SERBEP activities, provided more formal 
interaction between the States and improved policy development and 
coordination in particular.
    We urge Congress to restore this modest but vital appropriation to 
protect the Federal Government's 20-year investment in RBEP, and to 
continue the promotion of the strong Federal interest in viable and 
growing biobased products and bioenergy. Restoration of the 
appropriation for RBEP places the Federal focus where it belongs, with 
the States.
                                 ______
                                 
       Prepared Statement of the American Wind Energy Association
  commitment to r&d a crucial factor in achieving wind energy market 
                               potential
U.S. Wind Energy Industry Has Shown Significant Growth Over the Last 5 
        Years
Continued Emphasis Needed on Small Wind Systems Used to Power Homes, 
        Farms and Small Businesses
    The American Wind Energy Association \1\ (AWEA) appreciates this 
opportunity to provide testimony for the record on the Department of 
Energy's Fiscal 2004 wind energy program budget before the Senate 
Appropriations Subcommittee on Energy and Water Development. AWEA's 
testimony addresses the following:
---------------------------------------------------------------------------
    \1\ The American Wind Energy Association, or AWEA, was formed in 
1974. The organization represents virtually every facet of the wind 
industry, including turbine and component manufacturers, project 
developers, utilities, academicians, and interested individuals.
---------------------------------------------------------------------------
     request for the department of energy wind program--$55 million
    AWEA requests a funding level of $55 million for the wind energy 
program at the Department of Energy (DOE) to support wind energy 
development at the national, State, and local levels. Working in 
conjunction with the U.S. wind industry, power producers, suppliers, 
industrial consumers and residential users, DOE provides important 
technical support, guidance, information, and limited cost-shared 
funding for efforts to explore and develop wind energy resources. 
Moreover, the research and development (R&D) program at DOE is helping 
to support advanced wind energy research that is attracting support 
from major industrial companies. AWEA would like to commend the DOE 
wind program for its efforts over the past year to involve the industry 
in its program planning process. The department has solicited input 
from AWEA on the direction of its program and been responsive to 
comments received from the industry. AWEA's fiscal year 2004 budget 
testimony is focused on two areas within the wind program:
Utility-Scale Wind Development
    This cost-shared DOE/industry partnership program has proven to be 
successful and with modest annual appropriations has been helpful in 
significantly lowering the cost of wind power. In fact, over the past 
20 years, the cost has been reduced by over 80 percent. The program is 
aimed at further driving down the cost of wind power to a level fully 
competitive with traditional electric power technologies. An important 
emphasis is on developing wind turbines capable of operating in areas 
with lower wind speeds. This would expand wind development potential by 
20 times as well as allow the placement of turbines closer to existing 
transmission lines.
    An additional important element of R&D is applied research in the 
areas of atmospheric physics and aerodynamics. This research can 
provide knowledge that is essential to achieve the industry's 
objectives of reducing the cost of wind energy. In addition to help 
lower the cost of wind power, R&D support is necessary for 
understanding the integration of wind energy into the Nation's power 
systems and better understanding the long-term wind resource and costs 
of operating and maintaining wind power stations. These activities will 
reduce the perceived risks associated with wind energy developments and 
thus reduce the cost of capital for project development.
    Another activity required to reduce risk is an enhancement of the 
blade and gearbox testing capabilities at the National Wind Technology 
Center. The capabilities of the current facilitates are no longer 
sufficient to test the next generation of wind turbines currently being 
developed and deployed. The existing facilities have been instrumental 
in increasing the reliability of wind turbine blades and gearboxes, and 
thus contributing to the reductions in the cost of energy.
Small Wind Systems
    More emphasis on DOE's small wind turbine program (machines rated 
at 100 kilowatts or below) will help achieve greater cost reductions 
and increase the availability of this energy option for homes, farms, 
schools, and businesses.
                                overview
    The U.S. wind industry is poised for significant growth. However, 
important challenges lay ahead. For its part, the wind industry 
continues to work to drive down the cost of wind-generated electricity, 
thereby enhancing the competitiveness of the product to electricity 
providers.
    AWEA appreciates the support the subcommittee has provided to the 
DOE wind program. In fiscal year 2003, the wind program was funded at 
the same level requested by the Administration, $44 million. The fiscal 
year 2004 request by the Administration represents a slight drop from 
the current year budget. We believe that the funding provided by the 
committee should reflect the important work conducted by the wind 
program and respectfully request the funding be increased above the 
request level.
    The wind energy program at the Department of Energy has a strong 
history of success. Over the last 20 years, the cost of wind energy has 
dropped by more than 80 percent, to a level that is close to 
competitive with traditional energy technologies. Cost shared industry/
government research and development activities at DOE and the National 
Renewable Energy Laboratory (NREL) have played an important role in 
this achievement. Programs such as Wind Powering America have been 
educating interested parties across the country on the benefits of wind 
power.
    Continued investment at DOE in domestic energy alternatives like 
wind power will allow the industry to keep driving down costs and 
improving the efficiency of new wind turbines. Wind energy holds the 
greatest potential of all non-hydro renewables to contribute to our 
energy needs over the next decade.
    Wind energy is positioned to be an important part of the Nation's 
energy mix. Wind can be an important component in protecting against 
volatile electricity rates. The costs of a wind plant are primarily up-
front capital costs, thus the price for electricity is stable over the 
life of the plant because the fuel, the wind, is free.
    Investing in domestic, inexhaustible renewable energy technologies 
strengthens our national security, provides rural economic development, 
spurs new high-tech jobs, and helps protect the environment. There are 
no downsides to investing in wind and other renewables.
    Finally, we want to stress the importance of the wind energy 
Production Tax Credit (PTC), which provides a 1.5-cent per kilowatt-
hour credit for electricity produced (the credit is currently 1.8 cents 
adjusted for inflation). A 2-year extension of this tax credit was 
approved with bipartisan support in March 2002 and signed into law by 
the President. The credit is set to expire again on December 31, 2003. 
The wind industry is seeking a full long-term extension of the credit, 
in order to provide for more certainty and stability for the industry. 
Bipartisan legislation to extend the credit has been introduced in both 
the House and Senate.
                     utility-scale wind development
    In 2002, the generating capacity from wind power grew by 10 
percent, with 410 megawatts (MW) of new equipment going into service. 
At year's end, the installed capacity nationwide totaled 4,685 MW 
across 27 States, or enough power to serve about 1.3 million average 
U.S. households.
    By mid-2003, installed wind energy capacity in the U.S. is expected 
to be over of 5,000 MW. Development is planned in a number of States, 
including New Mexico, California, Iowa and Minnesota. This new 
development will help spur rural economic development through new 
construction and manufacturing jobs, lease income for landowners, and 
local and county tax payments.
    Cost shared research and development programs at DOE have played a 
key role in the development of wind energy. There is important work to 
be done, however, to continue the momentum the industry has built. For 
instance, the current generation of wind turbines have successfully 
lowered the cost at the best wind sites (Class 5 & 6). However, in 
order for wind to reach its full potential, the industry must penetrate 
areas with moderate wind speeds (Class 3 & 4). Tapping such areas, 
which are often closer to necessary transmission lines, could increase 
the amount of wind development by a factor of 20.
                 small wind systems (100 kw and below)
    AWEA believes a greater emphasis on small wind turbine research and 
development is needed as the demand for these turbines continues to 
grow. Distributed generation with small customer sited power plants has 
great potential for reducing energy costs, promoting competition in the 
marketplace, and strengthening the Nation's electrical supply network.
    AWEA recognizes that some progress has been made at DOE in the 
small wind turbine program. However, it is vital that additional 
resources be dedicated to programs that will help make small wind 
turbines cost-competitive for homeowners. DOE has significant programs 
for technology development and deployment of other distributed energy 
technologies, but programs for small wind have received little 
attention despite the fact that small wind systems arguably have a 
greater market potential.
    The high up-front costs of small wind systems make it very 
difficult for this technology to gain wide acceptance in the domestic 
market. This would change if DOE had the resources to work with 
America's small wind manufacturers to achieve cost reductions similar 
to those achieved by the large, utility-scale wind industry. In some 
States like California, that provide a State rebate for purchasers, 
small wind turbine manufacturers have experienced a surge in sales, 
demonstrating the public support for cost-effective small wind 
turbines.
Additional Funding Request: Renewable Energy Production Incentive 
        (REPI)--$8 million
    AWEA also advocates for additional funding for the Renewable Energy 
Production Incentive (REPI) program as a separate item within the 
Renewable energy budget. Year-to-year uncertainty regarding funding 
levels for the Renewable Energy Production Incentive (REPI) plays havoc 
with the long-term planning needs of running a municipally owned 
utility. Due to insufficient funds for the program, full payments for 
eligible projects have not been made for a number of years. For this 
reason, AWEA suggests the Congress work with the Department of Energy 
to develop long-range alternatives to annual funding of this program.
    The REPI program, authorized by the Energy Policy Act of 1992, 
encourages municipally owned utilities to invest in renewable energy 
technologies including wind energy systems. REPI permits Department of 
Energy to make direct payments to publicly and cooperatively owned 
utilities at the rate of 1.5 cents per kilowatt-hour for electricity 
generated from wind, solar, geothermal, and biomass projects. Because 
wind energy projects require a 2- to 3-year lead-time for permitting 
and construction, it is very important that stable and predictable 
funding be provided.
                               conclusion
    Continued investments in wind energy R&D are delivering value for 
taxpayers by developing another domestic energy source that strengthens 
our national security, provides rural economic development, spurs new 
high-tech jobs, and helps protect the environment.
    While the wind industry continues to grow in terms of new 
generation capacity installed, continued Department of Energy wind 
energy R&D is vital to growing this domestic power source. The current 
debates in Congress regarding energy policy have brought to light the 
important role wind and other renewable energy technologies, both 
utility-scale and small-scale, can play in our Nation's energy 
strategy.
    AWEA appreciates the opportunity to provide this testimony to the 
Subcommittee. We would be pleased to answer any questions that may 
arise. Thank you.
                                 ______
                                 
      Prepared Statement of the American Society for Microbiology
    The American Society for Microbiology (ASM), the largest single 
life science organization in the world, with more than 42,000 members, 
appreciates the opportunity to provide written testimony on the fiscal 
year 2004 budget for the Department of Energy (DOE) science programs.
    The ASM represents scientists working in academic, medical, 
governmental and industrial institutions worldwide. Microbiological 
research is focused on human health and the environment and is directly 
related to DOE programs involving microbial genomics, climate change, 
bioremediation and basic biological processes important to energy 
sciences.
    The Office of Science supports unique and critical pieces of U.S. 
research in scientific computation, climate change, geophysics, 
genomics, and the life sciences. This research is conducted at both the 
DOE national laboratories and at approximately 250 universities 
nationwide through peer-reviewed, competitive research. The Office of 
Science is also an invaluable contributor to the scientific programs of 
the National Institutes of Health (NIH) and the National Science 
Foundation (NSF). These partnerships bridge the gap between the 
physical sciences, the life sciences and computational sciences, 
allowing science to refine and advance our efforts in deciphering 
genomes and their critical functions. The Office of Science is a leader 
in these efforts and promoting multidisciplinary research that seeks to 
harness the capabilities of microbes and microbial communities to help 
us to produce energy, clean up waste, and sequester carbon from the 
atmosphere. Furthermore, these cross-disciplinary programs contribute 
enormously to the knowledge base and training of the next generation of 
scientists while providing worldwide scientific cooperation in physics, 
chemistry, biology, environmental science, mathematics, and advanced 
computational sciences.
    The Office of Science will play an increasingly important role in 
the Administration's goal of U.S. energy independence in this decade. 
Many DOE scientific research programs share the common goal of 
producing and conserving energy in environmentally responsible ways. 
Programs include basic research projects in microbiology, as well as, 
extensive development of biotechnological systems to produce 
alternative fuels and chemicals, to remediate environmental problems, 
and to reduce wastes and pollution.
    The Administration's proposed budget for fiscal year 2004 requests 
$3.3 billion for the Office of Science, an increase of $5 million over 
fiscal year 2003. The ASM would like to submit the following comments 
and recommendations for funding levels for research in the Biological 
and Environmental Research (BER) and Basic Energy Sciences (BES) 
programs for fiscal year 2004. Federal investment in these programs 
today, will help to ensure fundamental research to find solutions to 
future environmental and energy problems while maintaining U.S. 
scientific leadership worldwide.
                           microbial genomics
    The Administration has requested $10 million for fiscal year 2004, 
which is the same level as in fiscal year 2003. In view of the 
tremendous potential from microbial genomic sequencing, the ASM 
recommends that Congress provide $15 million for fiscal year 2004. In 
1994, the Office of Biological and Environmental Research developed the 
Microbial Genomics Program as a compliment to the Human Genome Program. 
This early leadership in microbial genomics has allowed the program to 
decipher the genomic sequences of many of the non-pathogenic 
microorganisms available today. This information provides clues into 
how we can design biotechnological processes that advance research in a 
number of disciplines and national priorities, such as biogeochemical 
cycles, global warming, and alternative energy research. Fundamental 
microbial research will continue to underpin DOE's research 
capabilities in other BER and BES programs, including: Genomes to Life; 
bioremediation research; and carbon sequestration. DOE has also 
developed, at the Joint Genome Institute (JGI), a highly efficient, 
centralized sequencing facility that is a unique and valuable resource 
for serving the Nation's non-medical microbiological researchers.
    Knowing the complete DNA sequence of a microbe provides important 
keys to the biological capabilities of the organism and is the first 
step in developing strategies to more efficiently detect, counteract, 
use, or reengineer that microbe to address an assortment of national 
issues. The DOE has completed the DNA sequencing of more than 50 
microbes with potential uses in energy, waste cleanup, and carbon 
sequestration. For instance, the JGI has completed the genomic DNA of 
several algae important in the ocean's photosynthesis process and in 
soil bacteria that assimilate carbon dioxide, both important biological 
processes for carbon dioxide capture from the atmosphere.
    The ASM applauds DOE's leadership in recognizing this important 
need in science and endorses expansion of its microbial genome 
sequencing efforts, particularly in using DNA sequencing to learn more 
about the functions and roles of the 99 percent of the microbial world 
that cannot yet be grown in culture.
                        genomes to life program
    The ASM strongly supports the Administration's funding of the 
Genomes to Life (GTL) program at $59 million for fiscal year 2004. The 
GTL program is ushering in a new biological era--the era of systems 
biology, which will allow us to understand entire living organisms and 
their interactions with the environment. This new level of exploration 
(i.e., systems biology) will empower scientists to pursue completely 
new approaches to discovery and spur the development of new products or 
services from microbes and other organisms. With a deeper, genetically 
based understanding of living organisms, the potential to utilize and 
refine their functions will allow us to address many of today's 
challenges in carbon sequestration, energy transformation, and 
environmental clean up. The Genomes to Life program has just begun to 
demonstrate the potential application of microorganisms for energy, 
medicine, agriculture, environment, and national security needs. This 
research will potentially offer new biotechnology solutions to these 
challenges and those of tomorrow. Underlying the potential applications 
of biotechnology for clean energy, mitigating climate change, and 
environmental cleanup is the need for a solid understanding of the 
functions, behaviors and interactions of every biological part (the 
genes and proteins) of a microorganism. If we are to improve the 
productivity of forests, bioremediation agents, biomass crops and 
agricultural systems, it is imperative to understand how these 
biological machines work. This will require a staggering amount of 
expertise across the sciences (e.g., physical and computational), new 
computational capabilities, new tools, and new interdisciplinary 
approaches to genomics research.
    In fiscal year 2004, the GTL program will increase its emphasis on 
DNA sequencing of microbes and microbial communities. This sequencing 
will serve as the core biological data needed to further understand the 
control and function of molecular machines and microbial communities. 
The ASM applauds the programs continued focus on microbial communities 
and notes that this represents the kind of interdisciplinary science 
that DOE has done successfully in the past, making use of advanced 
technologies, specialized facilities, teams of scientists, and 
computational power. The ASM also sees this program as the basis for an 
expanded effort to understand more broadly how genomic information can 
be used to understand life at the cellular level and urges Congress to 
fully support this exciting program.
                        climate change research
    The ASM is pleased to see the Administration's support of Climate 
Change Research continue in its fiscal year 2004 budget. The ASM 
endorses the President's proposed $143 million budget, an increase of 
$6 million over fiscal year 2003. The Society is also supportive of the 
proposed $19 million budget for the Ecological Processes section for 
fiscal year 2004, a $5 million increase over fiscal year 2003.
    In fiscal year 2003, the Administration launched the Climate Change 
Research Initiative (CCRI), to study the potential effects of 
greenhouse gases and aerosol emissions on the climate and the 
environment. The Climate Change Research Subprogram is DOE's 
contribution to the cross-agency CCRI and applies DOE's expertise in 
genomics and computational climate modeling to determine the effects of 
greenhouse emissions on the global climate. The Climate Change Research 
subprogram supports four areas of research: Climate and Hydrology, 
Atmospheric Chemistry and Carbon Cycle, Ecological Processes, and Human 
Interactions. This research is focused on understanding the physical, 
chemical, and biological processes affecting the Earth's atmosphere, 
land, and oceans and how these processes may be changing because of 
greenhouse emissions.
    The Ecological Processes portion of the subprogram is focused on 
understanding and simulating the effects of climate and atmospheric 
changes on the biological structure and functioning of planetary 
ecosystems. Research in 2004, will focus on understanding the responses 
of a simplified terrestrial ecosystem (e.g., higher plants, consumers 
of plant production, and soil microorganisms) to changes in a key 
environmental factor, such as, temperature. This research is critical 
if we are to better understand the changes occurring in our ecosystems 
from increasing levels of atmospheric radiation absorptive gases.
    The ASM urges Congress to support this important research within 
the Office of Science budget. The Climate Change Research subprogram is 
a key component in developing more accurate climate modeling and 
ecosystem data, and promises to yield new technologies to address 
future climate changes.
                          basic energy science
    The Administration's requested funding for the Office of Basic 
Energy Sciences (BES) is $1 billion for fiscal year 2004. This program 
is a principal sponsor of fundamental research for the nation in the 
areas of materials sciences, chemistry, geosciences, and biosciences as 
it relates to energy. Biosciences funds an array of microbiological and 
plant research focused on harvesting and converting energy from 
cellulose and other products of photosynthesis into renewable 
resources.
    The ASM is supportive of DOE's continued emphasis upon biobased 
energy research as a key component of the Nation's energy portfolio. In 
2004, biosciences will continue to focus on recent successes in its 
cellulose biosynthesis program, which is funding research into the 
synthesis of cellulose, the most abundant biomolecule, as a potential 
biofuel. Other microbiological research (e.g., Molecular Mechanisms of 
Natural Solar Energy Conversion, $12 million in fiscal year 2004) 
supported by the program includes fundamental research into the 
characterization of molecular mechanisms involved in the conversion of 
solar energy into biomass, biofuels, bioproducts, and other renewable 
energy resources. Furthermore, the ASM believes continued research into 
energy-rich plants and microbes be a DOE priority as genomic 
technologies have given this research area a tremendous new resource 
for advancing the Agency's bioenergy goals.
    The ASM is also supportive of new activities, such as, the 
Metabolic Regulation of Energy Production program ($19 million for 
fiscal year 2004), which supports the biological advances needed to 
complement the chemical nanoscale program within the Office of Science.
                             bioremediation
    DOE's bioremediation research is contained in the Natural and 
Accelerated Bioremediation Program (NABIR). The Administration's 
proposed budget for the NABIR program is $24.1 million. The ASM 
supports the Administration's request for bioremediation research. 
However, the ASM believes that greater benefits will be achieved if the 
NABIR program is increased to $30 million.
    In fiscal year 2004, the NABIR program will focus on a number of 
efforts: Biotransformation (microbiology to elucidate the mechanisms of 
biotransformation of metals and radionuclides), Community Dynamics and 
Microbial Ecology (structure and activity of subsurface microbial 
communities), and Biogeochemical Dynamics (the dynamic relationships 
among geochemical, geological, hydrological, and microbial processes). 
Bioremediation scientists are searching for cost-effective technologies 
to improve current remediation methods to clean up DOE's contaminated 
sites. This research has the potential to lead to new discoveries into 
reliable methods of bioremediation of metals and radionuclides in soils 
and groundwater. The NABIR program supports the basic research that is 
needed to understand this technology to more reliably develop the 
practical applications for cost-effective cleanup of pollutants at DOE 
sites. The ASM strongly recommends that additional funding be allocated 
to balance the program elements and pollutants studied as originally 
envisioned when the NABIR Program was designed.
                 new technologies and unique facilities
    New technologies and advanced instrumentation derived from DOE's 
expertise in the physical sciences and engineering have become 
increasingly valuable to biologists. The beam lines and other advanced 
technologies for determining molecular structures of cell components 
are at the heart of current advances to understand cell function and 
have practical applications for new drug design. DOE's advances in high 
throughput, low cost DNA sequencing; protein mass spectrometry, cell 
imaging and computational analyses of biological molecules and 
processes are other unique contributions of DOE to the nation's 
biological research enterprise. Furthermore, DOE has unique field 
research facilities for environmental research important to 
understanding biogeochemical cycles, global change and cost-effective 
environmental restoration. In short, DOE's ability to conduct large-
scale science projects and draw on its unique capabilities in physics, 
computation and engineering is critical for future biological research.
    The ASM strongly supports the basic science agenda across the 
scientific disciplines and encourages Congress to maintain its 
commitment to the Department of Energy research programs to maintain 
U.S. leadership in science and technology.
                                 ______
                                 
             Prepared Statement of the Sun Grant Initiative
            the national need for bioenergy and bioproducts
    Energy Security.--As readily accessible domestic sources of 
petroleum have waned, the United States has steadily increased its 
reliance on imported oil from other nations. The proportion of imported 
oil increased from about 30 percent of domestic consumption in 1970 to 
about 56 percent in 2000. Evidence that world oil supplies will become 
even more limited in the coming decades suggests that alternative 
sources of energy and industrial chemicals must be developed as soon as 
possible. Bioenergy resources can be further developed in ways that 
complement and augment petroleum energy resources, helping to reduce 
our dependence on imported oils while helping constrain the costs of 
energy for American industries and consumers.
    Farm Security.--Farmers have been experiencing economic hardships 
throughout the 1990's and continue today, primarily because of 
excessive production of core commodity crops. The hardships have flowed 
throughout rural America and a devastating exodus to urban centers has 
resulted. Viable alternatives and diversity are needed in agriculture 
to bolster the Nation's independent farm families. Bioenergy and 
bioproducts produced on American farms represent an opportunity to both 
reduce dependence on imported oil while providing a significant source 
of income to American farmers.
    New Industries.--Imported oil is an important feedstock for 
numerous uses other than energy and transportation fuels. Contemporary 
plastics, synthetic fibers, lubricants, solvents, paints and numerous 
other common products depend on petroleum as a feedstock. In the 
future, agriculture will produce biobased feedstocks for production of 
these products as well as many other non-food uses. Agriculture will 
also be integral to manufacturing pharmaceuticals, cosmetics, building 
materials, biocatalysts, and numerous other biobased products. The 
development of biobased products will complement, augment, and be 
integrated with the petroleum industry.
    Rural Economic Development.--New biobased industries will benefit 
not only agricultural producers but will also stimulate economic 
development in the surrounding rural communities. In many cases, 
transportation logistics and infrastructure requirements will require 
that new biobased industries be physically located in rural 
communities--new capital investments and economic stimulation will stay 
in the rural community! A biobased economy will revitalize rural 
America.
    Environmental Protection.--The use of renewable bioenergy and the 
production of many biobased products will have numerous benefits for 
the environment. The increased use of renewable bioenergy will help 
reduce greenhouse gases and will help U.S. communities and industries 
improve air quality while remaining economically viable and 
competitive. Products that were once ``wastes'' can now become 
resources and ingredients in the development of new bioproducts. In 
turn, bioproducts can be designed to be biodegradable, further reducing 
the ``waste stream'' and reducing the demand for trash disposal land 
fills.
    New Science and Engineering Technologies.--The latest scientific 
and engineering breakthroughs will be brought to bear on the challenge 
of moving to a bio-based economy. For example, genomics, 
nanobiotechology, and new computer modeling technologies will be 
utilized to improve our technical understanding of plant biochemistry, 
to develop new enzymatic processes and new materials for bioenergy 
production and the development of new bioproducts.
                        the sun grant initiative
    Land Grant Universities.--Today, land grant universities serve 
agriculture by implementing research, extension, and educational 
programs to benefit agricultural producers and consumers, to assist 
rural families and communities, and to conserve the world's natural 
resources. Clearly, agriculture will play an important role in 
providing power, fuels, and biobased products for America. Because of 
the unique position land grant universities have in science, service 
and education, it is critical that they are proactively involved in 
creating the biobased economy. Over the past several years, land grant 
universities have been working to develop a new model for harnessing 
the capacities of the distributed agricultural research and education 
system into a national network that can work in ready partnership with 
the Federal agencies to help reach national bioenergy goals, which has 
led to the development of the Sun Grant Initiative.
    The Sun Grant Mission.--The mission of the Sun Grant Initiative is 
to (1) enhance national energy security through development, 
distribution and implementation of biobased energy technologies, (2) 
promote diversification and the economic viability of America's 
agriculture through land grant based research, extension, and education 
programs in renewable energy and biobased products, and (3) promote 
opportunities for biobased economic diversification and the development 
of new biobased industries in rural communities.
    Centers of Excellence and a National Network.--A network of five 
land grant universities are serving as regional Sun Grant Centers of 
Excellence (Figure 1). The universities include South Dakota State 
University, Oklahoma State University, the University of Tennessee-
Knoxville, Cornell University, and Oregon State University. Federal 
funds will be shared equally among each of the regions. As Federal 
funds become available, up to 25 percent of the funds will be utilized 
at each center to enhance their abilities to develop model research, 
extension, and educational programs on agriculture-based renewable 
energy technologies and biobased industries located in rural 
communities. The balance of the funds in each region will be awarded 
competitively among all land grant universities in the region, drawing 
on the expertise of all land grant universities to address national 
priorities at the regional level.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    These regional programs will embrace the multi-state, multi-
function, multi-disciplinary integrated approach that is at the heart 
of the land grant method of addressing problems. The centers will 
interface their activities with DOE research laboratories at Oak Ridge, 
TN (ORNL, Oak Ridge National Laboratory) and Golden, CO (NREL, National 
Renewable Energy Laboratory).
National Priorities
    The Sun Grant Initiative programs will revitalize rural 
communities, enhance the Nation's energy security and improve our soil, 
water, and air. The primary challenges that must be faced include:
  --The emergence of agriculturally based bio-industries that can 
        coexist with and complement petroleum based industries.
  --Developing biobased industries that improve the environment and 
        protect air, water, soil, and other natural resources.
  --Developing biobased industries that diversify American agriculture 
        and complement food production.
  --Developing industries that provide opportunities for the growth and 
        prosperity of rural America.
    The transition to agriculturally-based bio-industries will create 
economic opportunities for other sectors of the U.S. economy through 
creation of high-tech companies and jobs. Through the Sun Grant 
Initiative, the United States will continue to be a world leader in 
technology and innovation for future high-tech commerce and trade. We 
will not only produce biomass feedstocks, we will also lead the world 
in the technologies and the intellectual property that makes this 
transition to a biobased economy possible.
Regional Priorities
    During the development of the Sun Grant Initiative a series of 
regional workshops were held with agricultural, industry and community 
leaders. Priority needs were identified for bioenergy and bioproducts 
projects within each region. The unique structure of the Sun Grant 
Initiative will enable the land grant universities to address national 
issues of concern to the Federal agencies in the context of regional 
and local needs and circumstances.
relation to the sun grant initiative to federal agency biomass programs
    The Biomass Research and Development Act of 2000 established an 
Interagency Board to coordinate the biomass-related programs within and 
among Federal departments and agencies. It is co-chaired by the 
Departments of Energy and Agriculture. Other member agencies include: 
the Department of Interior, Environmental Protection Agency, National 
Science Foundation, Office of Science and Technology Policy and the 
Office of the Federal Environmental Executive. The Act also established 
an Advisory Committee to advise the Secretaries of Energy and 
Agriculture and the Interagency Board on the future direction of 
biomass research and development investments. The Advisory Committee, 
now in its third year of activity, consists of 31 members from 
industry, academia, non-profit organizations, and the agricultural and 
forestry sectors, who are experts in their respective fields. In 
December of 2002, the Biomass Research and Development Technical 
Advisory Committee released a science ``roadmap'' outlining recommended 
priorities for the development of biomass technologies in the United 
States. In addition, Section 9008 of the Farm Security and Rural 
Development Act of 2002 provided for a reauthorization of the funding 
for the Biomass Research and Development Act of 2000 and provided 
funding to support biomass production. Building on these several 
legislative authorities, the Department of Energy and the Natural 
Resources Conservation Service of the Department of Agriculture are 
collaborating in the development and implementation of a Biomass 
Research and Development Initiative to address the priorities 
identified in the roadmap.
    One of the remaining challenges in developing bioenergy and 
bioproducts technologies is that they have to be developed as a 
complete system to be cost effective and economically viable. Many new 
biobased businesses have failed because they only addressed one part of 
a new biobased economy. In order for farmers to increase production of 
a needed biofuels feedstock materials they need to be assured of a 
steady demand. In order for bio-industries to develop a new product, 
they have to be assured of a steady supply of biobased feedstock 
materials. The rate limiting cost in developing biobased feedstock is 
often the cost of shipment; it may be most cost effective to process 
feedstock within a 50-mile radius of the site where it was grown, which 
in turn requires a distributed network of bioprocesses or generators. 
The generators may not break even unless they are also used to co-
generate heat or unless they feed energy back into local energy grids. 
The Sun Grant Initiative provides a means for the Department of Energy 
and the Department of Agriculture to access the research and education 
expertise of the land grant university system across the country to 
develop new technologies and education programs. The structure of the 
Sun Grant Initiative will enable the Departments to ``put all the 
pieces'' together to create comprehensive regional scale projects that 
can address multiple real world production needs simultaneously. The 
Sun Grant Initiative complements and completes the mix of legislative 
and funding tools that support biomass research and development.
                        legislative developments
    Legislation to authorize the Sun Grant Initiative was developed in 
2002. The proposed legislative language defines the regional Centers of 
Excellence and the network of collaborating universities, as well as 
the mechanism for apportioning and distributing funds described in this 
testimony. The proposed legislative language will authorize funding for 
the Sun Grant Initiative at the level of $100 million. There is bi-
partisan support for introducing and passing this language in 2003. It 
is our understanding that there will be communications from leading 
Senate offices to the Committee indicating support for moving this 
initiative forward and initiating start-up funding in fiscal year 2004.
                            funding request
    We request initial start-up funding of $20 million for the Sun 
Grant Initiative in fiscal year 2004. We suggest that funding be 
provided through the Energy Efficiency and Renewable Energy programs of 
the Department of Energy, in order to augment and expand the 
Department's biomass and bioenergy research and development programs. 
In order to facilitate coordination and collaboration with the 
Department of Agriculture, we are also recommending funding of $1 
million be provided in fiscal year 2004 through the USDA's Cooperative 
State Research, Extension and Education Service.
                                 ______
                                 
   Prepared Statement of the Health Physics Society (HPS) and Health 
             Physics Program Directors Organization (HPPDO)
    This written testimony for the record for fiscal year 2004 requests 
add-on appropriations to the Department of Energy's Office of Nuclear 
Engineering, Science and Technology (DOE-NE) to address an issue of 
extreme importance to the safety of our Nation's workers, members of 
the public, and our environment.
    The safety of our Nation's workers, members of the public, and our 
environment is in jeopardy because of the projected near-term and long-
term shortage of sufficient educated radiation safety professionals to 
protect them. Protection of workers, the public, and the environment is 
necessary as we use radiation and nuclear technologies to support our 
Nation's energy, health, and security needs. The national shortage of 
radiation safety professionals is primarily due to the fact that the 
Nation's academic research and education programs responsible for 
radiation safety and health are being terminated. Resolving this 
shortage in national educational infrastructure has become one of the 
highest priorities of the professional organizations responsible for 
the performance and education of radiation safety professionals, i.e., 
the Health Physics Society (HPS) and the Health Physics Program 
Directors Organization (HPPDO).
    The Committee has expressed strong support for the University 
Reactor Fuel Assistance and Support program's efforts to provide 
fellowships, scholarships, and grants to students enrolled in science 
and engineering programs at U.S. universities, and has expressed 
concern about the ability of the Nation to respond to the growing 
demand for trained experts in nuclear science and technology. 
Accordingly, the Committee has appropriated funds in fiscal year 2002 
(Senate Report 107-039) and fiscal year 2003 (Senate Report 107-220) to 
the DOE-NE for addressing this problem through the University Reactor 
Fuel Assistance and Support line item. Senate authorization committees 
have also recognized the seriousness of this problem and introduced 
provisions to address it through authorization of funds to university 
programs in bills in the 107th Congress such as S.242, S.472 and H.R.4.
    Health Physics is the profession that specializes in radiation 
safety, an integral and necessary distinct discipline within the 
nuclear sciences. A recent workforce study by the Nuclear Energy 
Institute (NEI) has shown that the projected demand for health 
physicists for both the Government and Industry far surpasses the 
current ability of the academic programs to meet these employment 
demands. The fact that this serious problem can potentially impact our 
national cleanup program, our defense needs, and our nuclear power 
industry is documented in the NEI study. The NEI study does not address 
the impact the lack of sufficient qualified radiation safety 
professionals will have on our Nation's health and homeland security 
programs.
    In a recent letter to the HPS, the DOE stated, ``We share your view 
that an anticipated shortfall in the Nation's supply of radiation 
safety professionals could have a deleterious effect on the safety of 
our Nations' workers, the public and the quality of health care.'' This 
view has been reinforced in a recent meeting with DOE-NE Director 
William D. Magwood, IV, in which Director Magwood expressed support for 
our organizations' submittal of testimony to this Committee to 
appropriate a $2 million add-on in fiscal year 2004 (fiscal year 2004) 
to the DOE University Reactor Fuel Assistance and Support line item.
    Following is the testimony prepared by the HPPDO and HPS providing 
details of how an appropriation of approximately $2 million in fiscal 
year 2004 would be used to start to stem the decline of health physics 
university academic programs, and to assist in the public's 
understanding of radiation safety as it is applied to the Nation's 
energy, health, and security policies.
Requested Funding Levels--$2,067,000 Fiscal Year 2004
    Distribution Categories.--Academic Program Support: HP Graduate 
Fellowship Program, HP Undergraduate Scholarship Program, Health 
Physics Education & Research (HPER) Grants, HP Minority-Majority 
Partnerships. Health Physics Society Programs: HPS Grant to support 
ABET-ASAC Accreditation, HPS Grant to support Science Teacher 
Workshops.
    HP Graduate Fellowships ($780,000 in Fiscal Year 2004).--This 
program will greatly expand the existing NE/HP fellowship program in 
DOE-NE and will replace programs lost from DOE-ES&H in 1999. The 
program will specifically target and recruit students into MS and Ph.D. 
programs at DOE-approved health physics academic programs. A total of 
20 fellows will be targeted for initial 2004-2005 support. In addition 
to tuition and fees, students will receive a stipend set at $20,000 per 
year making the program competitive with the NSF Graduate Fellowship 
Program. All students appointed to the program will be required to 
participate in a practicum at a DOE site at least once during their 
fellowship tenure. Applicants must be either U.S. citizens or permanent 
resident aliens. A proposed DOE-approval list of graduate programs in 
health physics is given in Appendix A.
    HP Undergraduate Scholarships ($64,000 in Fiscal Year 2004).--This 
program will target the recruitment of 20 undergraduate students into 
academic programs offering B.S. degrees in health physics or 
radiological engineering. The award will consist of an annual stipend 
of $3,000. The program is open to students who will become Sophomores, 
Juniors, or Seniors by September 2005. The award is limited for the 
duration of the undergraduate program, typically 36 months for 
Sophomores, 24 months for Juniors and 12 months for Seniors. A 
Scholarship appointment will not exceed 36 months. Applicants must be 
either U.S. citizens or permanent resident aliens. A proposed DOE-
approved list of undergraduate programs is given in Appendix A.
    Health Physics Education & Research (HPER) Grants ($895,000 in 
Fiscal Year 2004).--These competitive awards will be provided to 
universities to (1) support basic and applied research in health 
physics and radiation protection, (2) assist in the recruitment and 
retention of junior faculty at academic programs in health physics, and 
(3) contribute to the strengthening of the academic community's health 
physics infrastructure. A total of 7 research grants will be initially 
funded in 2004-2005 at $120,000 per award. Applications must be from 
DOE-approved graduate programs in health physics (see Appendix A).
    Health Physics Minority-Majority University Partnerships ($213,000 
in Fiscal Year 2004).--As an extension of the existing MMUP in Nuclear 
Engineering, DOE-NE would sponsor a program that encourages existing 
health physics academic programs to establish partnerships with 
Historically Black Colleges and Universities and other Minority 
Educational Institutions. These partnerships will include new 
articulation agreements between these universities, new agreements with 
DOE facilities for internships and research participation programs, and 
specialized instruction courses designed to introduce the non-
traditional student to the principles of health physics. This program 
will encourage students from minority institutions to seek advanced 
degrees in health physics through the offering of undergraduate 
scholarships and graduate fellowships. At the proposed funding level it 
is expected that as many as four partnerships would be established. 
Each partnership would be funded at approximately $100,000 a year and 
would be renewable up to 3 years.
    HPS Grant to Support ABET-ASAC Accreditation ($65,000 in Fiscal 
Year 2004)--In 2001, the Health Physics Society was granted status as 
the Cognizant Technical Society for the Health Physics and Radiological 
Sciences within the Accreditation Board for Engineering and Technology 
(ABET). Accreditation criteria are thus in place for health physics 
academic programs to be accredited through ABET's Applied Science 
Accreditation Commission (ASAC). A DOE-NE grant to the Health Physics 
Society is proposed which would support this accreditation effort in 
two areas:
  --ABET-ASAC Matching Grant Program ($50,000 in Fiscal Year 2004).--
        This program would permit academic programs in health physics 
        to apply for $5,000 matching grants from the Health Physics 
        Society to support their costs for preparation of an 
        accreditation self-study packet and for fees associated with 
        ABET-ASAC accreditation site visits. It is anticipated that 
        this matching grant program will be particularly important for 
        smaller programs that seek to be accredited, but have limited 
        resources for this effort. A total of 10 awards would be 
        available in the 2004-2005 academic year.
  --ABET-ASAC Evaluator Training Program ($15,000 in fiscal year 
        2004).--This program would fund the HPS Academic Education 
        Committee's Subcommittee on Program Accreditation. A total of 
        ten $1,000 travel awards would be available for ABET Evaluators 
        to serve as observers during ABET-ASAC accreditation visits to 
        HP and other programs as part of their evaluator training. An 
        additional $5,000 would be made available to the Subcommittee 
        to sponsor workshops on Self-Study preparation and ABET-ASAC 
        Evaluator training at annual meetings of the Health Physics 
        Society.
    HPS Grant to Support the Science-Teacher Workshop Committee 
($50,000 in Fiscal Year 2004).--This program would provide a DOE-NE 
grant to the Health Physics Society to support its efforts in material 
development, instructor training, advertisement, and execution of 
Science-Teacher Workshops across the country as organized by regional 
chapters of the Health Physics Society. The HPS Science-Teacher 
Workshop Committee would administer the grant through formal proposals 
from individual HPS Chapters.
 appendix a.--graduate and undergraduate programs in health physics \1\
---------------------------------------------------------------------------
    \1\ These programs are currently considered by HPPDO to be 
``strong'' programs as they are supported by more than a single faculty 
member, have active research programs in radiation protection, have a 
long history of producing graduates, and have been active in Health 
Physics Society committees and academic program and accreditation 
planning.
---------------------------------------------------------------------------
Proposed DOE Approval List for HP Fellowships, HPER Grant Award, and HP 
        Scholarships--To Be Replaced with ABET-ASAC List of Programs by 
        2006
    Clemson University.--Dept. of Environmental Eng. and Science, 
Clemson, South Carolina. Director: Robert Fjeld, Ph.D.
    Colorado State University.--Dept. of Environmental and Radiological 
Health Sciences, Ft. Collins, Colorado. Director: Thomas Borak, Ph.D.
    Georgia Institute of Technology.--School of Mechanical Engineering, 
Atlanta, Georgia. Director: Nolan Hertel, Ph.D.
    Idaho State University.--Department of Physics, Pocatello, Idaho. 
Director: Richard Brey, Ph.D.
    Oregon State University.--Department of Nuclear Engineering & 
Radiation Health Physics, Corvallis, Oregon. Director: David Hamby, 
Ph.D.
    Texas A&M University.--Department of Nuclear Engineering, College 
Station, Texas. Director: Ian Hamilton, Ph.D.
    University of Florida.--Dept. of Nuclear & Radiological 
Engineering, Gainesville, Florida. Director: Wesley Bolch, Ph.D.
    University of Massachusetts at Lowell.--Department of Physics, 
Lowell, Massachusetts. Director: Clayton French, Ph.D.
    University of Michigan.--Department of Nuclear Engineering & 
Radiological Sciences, Ann Arbor, Michigan. Director: Kim Kearfott, 
Ph.D.
    University of Nevada Las Vegas.--Department of Health Physics, Las 
Vegas, Nevada. Director: Mark Rudin, Ph.D.
    University of Tennessee--Knoxville.--Department of Nuclear 
Engineering, Knoxville, Tennessee. Director: Larry Miller, Ph.D.
             undergraduate only programs in health physics
(Proposed DOE Approval List for HP Scholarships--To Be Replaced With 
        ABET-ASAC List of Programs by 2006)
    Bloomsburg University.--Department of Physics, Bloomsburg, 
Pennsylvania. Director: Jack Couch, Ph.D.
    Francis Marion University.--Dept. of Physics and Astronomy, 
Florence, South Carolina. Director: Derek Jokisch, Ph.D.
                                 ______
                                 
       Prepared Statement of the Navajo Tribal Utility Authority
    In December 2000, Congress enacted Public Law 106-511, 602, the 
``Navajo Nation Electrification Demonstration Program'' (NNEDP). The 
legislation was modeled on the historic Tennessee Valley Authority 
legislation of the 1930's. Likewise, the goal of the NNEDP is to extend 
electrical power to households on the Navajo Nation which currently 
lack it. In fiscal year 2002 and fiscal year 2003, Congress 
appropriated $3 million and $2.8 million, respectively. For fiscal year 
2004, we are requesting the full $15 million per year authorized in the 
public law. On behalf of the Navajo Tribal Utility Authority (NTUA) and 
the Navajo Nation, our Congressman Tom Udall (D-NM) and Congressman 
Rick Renzi (R-AZ) have submitted the request.
    Created in 1959, NTUA provides the vast Navajo Nation with the 
modern conveniences of electricity, natural gas, water, wastewater 
treatment services, and, recently, photovoltaic services. Currently, 
NTUA serves approximately 31,314 electric customers, about 7,017 
natural gas customers, 26,580 water customers, and 11,760 wastewater 
customers throughout the 25,000-square-mile Navajo Nation. The Navajo 
Nation spreads across northwestern New Mexico, northeastern Arizona, 
and southeastern Utah. It is roughly the size of West Virginia.
    Historically, the Navajo Nation suffers from the lack of access to 
electricity and other basic infrastructure needs. On March 19, 2003, 
during a hearing, the Department of Interior noted to the Senate 
Committee on Indian Affairs that a ``huge portion of the Navajo people 
lack access to any electricity at all.'' We conservatively estimate 
that 18,000 homes throughout the Navajo Nation are still without modern 
utility services.
    To successfully implement the NNEDP, we have developed a 5-year 
strategic plan. In the Construction Phase (Phase One), we focused on 
Navajo households located near existing power lines so that the 
greatest number of new customers possible could be connected to 
electricity with the amount of funding available. In completing Phase 
One, NTUA has connected 505 Navajo Nation households. NTUA did this by 
targeting groups of homes and homes near existing power lines. This 
moved us toward the ultimate goal of NNEDP to ensure that every 
household on the vast Navajo Nation has access to a reliable and 
affordable source of electricity by the year 2006. In completing Phase 
Two (fiscal year 2003), we will spend approximately $2 million for 
electrical line extensions and $1 million for photovoltaic services.
    The impact that NNEDP has had on Navajo families who until now were 
living without electrical power is tremendous. On June 13, 2002, the 
home of Lee and Genevieve Horseson of Tonalea, Arizona--located in the 
rugged, remote country of northeastern Arizona--was the first NNEDP 
home to receive electricity. The moment was unforgettable for the 
Horseson family, NTUA, and the Navajo Nation when the lights lit up. 
What seemed like a distant dream had become an immediate reality for 
the Horseson family. Since then, many families like the Horsesons, 
living in different locations across the Navajo Nation, have celebrated 
being connected with electrical service for the first time.
    In another instance, Mrytle Curley, a single mother of six living 
in Arizona, wrote a letter to NTUA thanking us for choosing her as one 
of the first beneficiaries of the NNEDP. Navajo citizens like Ms. 
Curley once thought that electrical service was an impossible dream 
because they were unable to pay for member extension construction 
costs. Today, each evening, Ms. Curley and her children sit down to eat 
dinner and complete school homework together--in adequate light! Each 
week, as the project unfolds, more and more Navajo families are 
enjoying the quality of life that other Americans take for granted.
    NTUA and the Navajo Nation are committed to successfully 
implementing and completing the NNDEP. We envision that we will connect 
a significant number of Navajo homes throughout New Mexico, Arizona, 
and Utah when we complete the project. Moreover, the electricity 
service will contribute to improving the economic and social well-being 
of Navajo people. Again, we respectfully request the House of 
Representatives Appropriations Subcommittee on Energy and Water fully 
fund the congressionally authorized appropriations of $15 million for 
the Navajo Nation Electrification Demonstration Project. With the 
funding, we will continue to build and upgrade power lines to provide 
electrical service to Navajo Nation households which currently lack 
basic electrical service. True to our motto of Building Together for 
Progress, we are demonstrating that Progress has indeed reached 
hundreds of homes throughout our beloved Navajo Nation.

     Proposed Budget Fiscal Year 2004 Navajo Nation Electrification
                          Demonstration Program
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Member Extensions: NTUA estimates that 950-1000 new          $10,155,202
 customers are candidates for power line extensions
 residing on the Navajo Nation and Eastern Navajo Agency
 for fiscal year 2004. These customers have yet to be
 serviced due to their inability to pay for member
 extension construction costs...........................
Photovoltaic: NTUA estimates that 152 new customers are        2,291,211
 candidates for PV systems for fiscal year 2004. These
 customers live in areas too remote to economically
 justify construction of an electrical distribution line
 extension. The average cost to for each hybrid PV unit
 and installation is $15,000............................
Distribution: To adequately meet current and new               1,624,587
 customer electrical load needs, NTUA estimates 34 miles
 of 1-phase to 3-phase line conversion will be needed
 for fiscal year 2004...................................
Training: NTUA will administer training to staff                  75,000
 involving installation and maintenance of hybrid PV
 units. NTUA will also educate new PV customers on
 proper usage and management of their PV units..........
Project Administration & Support: To undertake the               854,000
 NNEDP, NTUA needs additional staff: Project Manager,
 Project Coordinator, Inspectors, Office staff,
 Engineering technicians, Archeologist, and ROW agents.
 All will be needed to manage the increased workload
 impacting the organization.
    The scope of work for extending power distribution
 lines includes Project Management, Finance and
 Accounting, Engineering, Construction, Material
 Management, and Customer Service. Some of the specific
 items include site surveys, secondary service wiring
 including the pole, transformer, meters and meter
 loops, engineering documentation, right-of-way
 acquisition, archeologist, and procurement of material
 to build electric distribution lines...................
                                                         ---------------
      TOTAL.............................................      15,000,000
------------------------------------------------------------------------


</pre></body></html>
